<html>
<title> - SECURING THE MODERN ELECTRIC GRID FROM PHYSICAL AND CYBER ATTACKS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



   SECURING THE MODERN ELECTRIC GRID FROM PHYSICAL AND CYBER ATTACKS

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                        THREATS, CYBERSECURITY,
                       AND SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2009

                               __________

                           Serial No. 111-30

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
53-425 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

                 Yvette D. Clarke, New York, Chairwoman
Loretta Sanchez, California          Daniel E. Lungren, California
Laura Richardson, California         Paul C. Broun, Georgia
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                      Jacob Olcott, Staff Director
       Dr. Chris Beck, Senior Advisor for Science and Technology
                         Daniel Wilkins, Clerk
               Coley O'Brien, Minority Subcommittee Lead










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Emerging 
  Threats, Cybersecurity, and Science and Technology.............     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Ranking Member, Subcommittee 
  on Emerging Threats, Cybersecurity, and Science and Technology.     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     5

                               WITNESSES
                                Panel I

Dr. William R. Graham, Chairman, Commission to Assess the Threat 
  to the United States From Electromagnetic Pulse:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. Mark Fabro, President and Chief Security Scientist, Lofty 
  Perch:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Michael J. Assante, Chief Security Officer, North American 
  Electric Reliability Corporation:
  Oral Statement.................................................    20
  Prepared Statement.............................................    23
Mr. Steven T. Naumann, Vice President, Wholesale Markets, Exelon 
  Corporation; Representing Edison Electric Institute and 
  Electric Power Supply Association:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28

                                Panel II

Mr. Joseph H. McClelland, Director of Reliability, Federal Energy 
  Regulatory Commission:
  Oral Statement.................................................    47
  Prepared Statement.............................................    48
Ms. Patricia A. Hoffman, Acting Assistant Secretary, Office of 
  Electricity Delivery and Energy Reliability, Department of 
  Energy:
  Oral Statement.................................................    54
  Prepared Statement.............................................    56
Mr. Sean P. McGurk, Director, Control Systems Security Program, 
  National Cybersecurity Division, Office of Cybersecurity and 
  Communications, National Protection and Programs Directorate, 
  Department of Homeland Security:
  Oral Statement.................................................    61
  Prepared Statement.............................................    63
Ms. Cita M. Furlani, Director, Information Technology Laboratory, 
  National Institute of Standards and Technology:
  Oral Statement.................................................    66
  Prepared Statement.............................................    68

                               Appendix I

Submitted for the Record by Chairwoman Yvette D. Clarke:
  Letter From Michael J. Assante, Chief Security Officer, North 
    American Electric Reliability Corporation....................    85
  Statement of the National Association of Regulatory Utility 
    Commissioners................................................    86
  Statement of William Radasky and John Kappenman................    88
  Statement of Emprimus LLC......................................    95
  Statement of the EMP Commission................................    99
  Statement of Applied Control Solutions, LLC....................   101
  Statement of Advanced Fusion Systems, LLC......................   106
  Statement of the Canadian Electricity Association..............   108
  Statement of Industrial Defender, Inc..........................   114
  Statement of Southern California Edison........................   120

                              Appendix II

Questions Submitted by Chairwoman Yvette D. Clarke...............   127

 
   SECURING THE MODERN ELECTRIC GRID FROM PHYSICAL AND CYBER ATTACKS

                              ----------                              


                         Tuesday, July 21, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
      Subcommittee on Emerging Threats, Cybersecurity, and 
                                    Science and Technology,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:13 p.m., in Room 
311, Cannon House Office Building, Hon. Yvette D. Clarke 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Clarke, Thompson, Richardson, 
Lujan, Lungren, and Austria.
    Also present: Representatives Harman, Lofgren, Langevin, 
Jackson Lee, Pascrell, and Bartlett.
    Ms. Clarke [presiding]. The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
securing the modern electric grid from physical and cyber 
attacks. We have been joined here today by many of my 
distinguished colleagues, who don't sit on this subcommittee, 
but who are an integral part of the deliberations that we do, 
and I would like to acknowledge them and ask that they be given 
unanimous consent to sit and participate in our hearing today.
    Hearing no objection, so ordered.
    I want to recognize some of our colleagues from other 
committees who are participating in today's hearing, including 
Mr. Bartlett. We would not have a robust road map for 
addressing the EMP threat if it were not for his vision and 
leadership and I thank him for that.
    I also have my colleagues who serve on the full committee, 
Zoe Lofgren, of California, Congresswoman Jackson Lee of Texas, 
and Mr. Bill Pascrell of New Jersey. I thank you for attending 
this very important hearing.
    We expect to be joined by many other Members, and I would 
like to just acknowledge them in absentia for right now; Mr. 
Langevin, who is my predecessor as Chair of this committee. I 
would like to congratulate him on his new Chairmanship and 
thank him for his leadership on the electric grid security 
issue.
    I would also be expecting a colleague on the Subcommittee 
for Intelligence to the Homeland Security Committee, Ms. 
Harman, and thank her for her attendance today.
    Unfortunately, a number of my colleagues and our friends 
from the Energy and Commerce Committee are unable to attend and 
participate in today's session due to their work on the health 
care legislation. We have reached out to Mr. Waxman, Mr. 
Markey, and Mr. Barrow to ask them to act with urgency on the 
subject matter we will discuss today.
    Our national health care delivery system, just like all of 
our critical infrastructure systems, requires secure and 
reliable electric system. That is what this committee has been 
investigating for years, and what we will discuss today.
    The electric grid is fundamental to our lives and our 
country's existence. Without electricity, medicines expire, 
banks shut down, food goes bad, sewage and water plants don't 
function. Chaos ensues and our security is compromised.
    We simply cannot afford to lose broad sections of our grid 
for days, weeks, or months.
    It is our very reliance on this infrastructure that makes 
it an obvious target for attack. We know that many of our 
adversaries, from terrorist groups to nation-states, have and 
continue to develop capabilities that would allow them to 
attack and destroy our grid, at a time of their choosing.
    There are two significant threats that will be discussed at 
today's hearing. One is the threat of a cyber attack.
    Many nation-states, like Russia, China, North Korea, and 
Iran, have offensive cyber attack capabilities, while terrorist 
groups like Hezbollah and al Qaeda continue to work to develop 
capabilities to attack and destroy critical infrastructure, 
like the electric grid, through cyber means.
    If you believe intelligence sources, our grid is already 
compromised. An April 2009 article in the Wall Street Journal 
cited intelligence forces who claim that ``the grid has already 
been penetrated by cyber intruders from Russia and China, who 
are positioned to activate malicious code that could destroy 
portions of the grid at their command.''
    The other significant threat to the grid is the threat of a 
physical event; that could come in the form of a natural or 
man-made electromagnetic pulse, known as EMP. The potentially 
devastating affects of an EMP to the grid are well documented.
    During the Cold War, the U.S. Government simulated the 
effects of EMP on our infrastructure because of the threat of 
nuclear weapons, which emit an EMP after detonation. Though we 
may no longer fear a nuclear attack from Soviet Russia, rogue 
adversaries including North Korea, and Iran, possess and test 
high-altitude missiles that could potentially cause a 
catastrophic pulse across the grid.
    These are but two of the significant emerging threats we 
face in the 21st Century. Our adversaries openly discuss using 
these capabilities against the United States.
    According to its cyber warfare doctrine, China's military 
strategy is designed to achieve global electronic dominance by 
2050, to include the capability to disrupt financial markets, 
military and civilian communications capabilities, and the 
electric grid prior to the initiation of a traditional military 
operation.
    Cyber and physical attacks against the grid could both be 
catastrophic and incredibly destructive events. They are not 
inevitable.
    Protections can, and must, be in place ahead of time to 
mitigate the impact of these attacks. My colleague on the 
Homeland Security Committee, and I, have spent nearly 3 years 
identifying and reviewing the security protections that are in 
place to mitigate the affects of any intentional or 
unintentional attack on the electric system.
    Our goal is to determine whether appropriate protections 
are in place that would mitigate catastrophic incidents on the 
grid. Our review has required extension discussions and 
assessment with the private sector, which owns, operates and 
secures the grid.
    The private sector develops its own security standards, the 
private sector also oversees compliance with these standards. 
In short, the private sector has the responsibility for 
securing the grid from electromagnetic events and cyber 
attacks.
    In the course of our review, we have questioned hundreds of 
experts, and reviewed thousands of pages of research and 
analysis. Many have submitted statements for the record today. 
They have all reached one conclusion. The electric industry has 
failed to appropriately protect against the threats we face, in 
the 21st century.
    In the past, this committee has been deeply critical of the 
standards that the industry has written. They are, in the words 
of GAO and NIST and other independent analysts, inadequate for 
protecting critical national infrastructure.
    The committee has suggested that the industry adopt missed 
standards for control systems, if it hopes to achieve greater 
security. My understanding is that the industry has not 
embraced this suggestion.
    The committee has also been critical of the industry's 
effort to timely mitigate the Aurora vulnerability. What should 
have been an urgent action issue has taken some utilities years 
to fix. Many have not even hardened their assets at all.
    This is especially troubling given the catastrophic damage 
that could be caused by an Aurora-style attack. Today, there is 
a new problem.
    Many in the industry are apparently trying to avoid 
compliance with their own inadequate standards. I am deeply 
concerned about this irresponsible behavior.
    A letter dated April 7, 2009, which is attached for the 
record, sent to the industry by the NERC chief security 
officer, Mike Assante, suggests that industry is choosing not 
to identify critical assets in order to avoid securing them.*
---------------------------------------------------------------------------
    * The information referred to is included in Appendix I.
---------------------------------------------------------------------------
    According to Mr. Assante, only 29 percent of generation 
owners and generation operators reported identifying at least 
one critical asset. Sixty-three percent of transmission owners 
identified at least one critical asset.
    This effort seems to epitomize the head-in-the-sand 
mentality that seems to permeate broad sections of the electric 
industry. The committee will be following up with NERC to learn 
which utilities have not appropriately identified assets, and 
seek to make this information public.
    It is amazing that many within the industry would rather 
gamble with our national and economic security, than implement 
precautionary security measures. What is even more amazing is 
that utilities have chosen to take this posture, even though 
they can be reimbursed for these security expenditures in their 
rate cases.
    I am at a loss as to why the industry isn't apparently 
securing its assets. But clearly, the time has come for change.
    I am pleased to join Chairman Thompson and Ranking Member 
King and my other colleagues in co-sponsoring H.R. 2195. Given 
the industry's lackluster approach toward securing its own 
assets, I believe this measure will provide the Federal Energy 
Regulatory Commission with the appropriate authorities to 
ensure that our grid is secure and resilient against the 
threats we face in the 21st Century.
    This subcommittee will continue to perform rigorous 
oversight until we are satisfied that progress is being made.
    I now recognize my colleague, the gentleman from 
California, Ranking Member, Mr. Lungren, for his opening 
statement.
    Mr. Lungren. Thank you very much, Madame Chairwoman, I 
commend you for holding this hearing on the security of our 
Nation's electric grid.
    As you know, I share your concern about the continuing 
vulnerability of our electric grid, which many consider the 
most critical piece of our Nation's infrastructure.
    As everyone knows, without electricity our banking, 
commerce, transportation, health and medical services would be 
unavailable or severely limited. Indeed, our economy and the 
public welfare have become severely dependent on electricity. 
Consequently, securing this grid is a critical national 
economic priority that Congress must, and I am sure we will, 
address with urgency.
    In recent decades, the push towards making our society more 
reliant on electric power has also made us more vulnerable. 
Because of expanding digital and computerized connections, our 
electric grid is now, more than ever, vulnerable to cyber and 
physical attacks. These attacks could disable wide segments of 
the grid for weeks, months, possibly years.
    The effective functioning of the electric grid is highly 
dependent on today's control systems, which are computer-based, 
and used to monitor and control sensitive processes and 
physical functions.
    You know, once largely proprietary, closed systems, control 
systems are now increasingly connected to open networks such as 
corporate intranets and the internet. The expansion of control 
systems, including supervisory control and data acquisition, 
SCADA systems, and the ability to monitor them via the 
internet, has increased the vulnerability of our Nation's 
critical infrastructure to cyber attack.
    As was mentioned, U.S. adversaries, whether they are 
nation-states or rogue nations, can strike crippling blows to 
our Nation's infrastructure from remote locations around the 
world.
    I think these nation-states that have the offensive cyber 
attack capabilities understand that it is far cheaper, and 
oftentimes unattributable, to attack and destroy U.S. critical 
infrastructure through cyberspace rather than risk any type of 
conventional warfare.
    The other significant threat to our grid, is as mentioned 
by the Chair, that of EMP. My colleague from Maryland, who has 
done as much work on this as anybody as I know in the House, 
and it is a concept that, unfortunately, I am afraid most 
Members are not fully aware of.
    It is because of rogue nations, and their ability now to 
command certain missile delivery systems, it seems to me that 
this is a far more urgent matter than it was just a number of 
years ago.
    While we understood the importance of this vulnerability 
during the Cold War, I am not sure we have visited this subject 
with the intensity and the urgency that is necessary. So I do 
appreciate what we are doing in this hearing.
    Because of these increased cyber and EMP threats to our 
electric grid and the Federal Energy Regulatory Commission's 
lack of authority to address them in an expeditious manner, I 
join Chairwoman Clarke and the Chair of the full committee and 
the Ranking Member of the full committee in co-sponsoring H.R. 
2195.
    I believe our legislation will provide FERC with emergency 
authority to create mandatory physical and cybersecurity 
standards to protect the electric power system.
    I would just like to say, we are all in this together, 
whether we are in the private sector or the public sector. We 
have got a lot of catching up to do.
    I would hope that we would try and strive for solutions. 
Not necessarily be overly critical of all the participants in 
this. It is just my reflection that we have, in some ways, come 
to this late, both as a Congress, as an Executive branch, as 
the private sector as well. We need to work together as quickly 
as we can to protect this system.
    It is a lifeline to so much of our economic life, and 
actually, life period, in this country. The vulnerabilities 
have to be recognized up front. We can't be embarrassed about 
them. We have to work with one another to try and solve this 
very urgent problem.
    That is why I am very pleased that we have this hearing 
today. I think we have a good line-up of witnesses that can 
give us various perspectives and help us move in the direction 
that I hope we can move in on a bipartisan basis with some 
urgency.
    So, I thank the Chairwoman.
    Ms. Clarke. I thank you.
    I now recognize prime sponsor of H.R. 2195, Chairman of the 
full committee, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Chairwoman Clarke. Thank 
you for holding this critical hearing today.
    Like you, I am determined to prevent any attack on the 
United States homeland. A multitude of failures contributed to 
our inability to prevent the attacks on New York City, and 
Washington, DC on September 11.
    Mindful of our previous mistakes, let's review the set of 
facts before us in today's testimony.
    We have significant vulnerabilities in the grids' 
electrical infrastructure. The infrastructure is only getting 
more vulnerable with Smart Grid technology. There is a massive 
computer espionage campaign being launched against the United 
States by our adversaries.
    Intelligence suggests that countries seek, or have 
developed, weapons capable of destroying our grid. A 
congressional commission says that our grid, and the critical 
infrastructure that relies on the grid, is not adequately 
protected.
    Our military installations are vulnerable because they rely 
on an insecure electric grid. The private sector is in charge 
of writing its own security standards, but experts have judged 
the standards to be ineffective in securing the infrastructure. 
Many utilities are avoiding compliance with these standards.
    I ask my colleagues here today, and those who could not 
join us, what more do we need to hear from, before we act? We 
are more motivated, than we need to. The warning signs are 
flashing red.
    Now is the time to act to secure the electric grid, not 
after a major incident has occurred. This committee has a 
bipartisan, bicameral legislative solution to secure the 
electric grid. Our bill is comprehensive in its scope, because 
the grid is only as strong as its weakest link.
    We believe that all elements of the grid, from generation 
to transmission, to distribution, to metering infrastructure, 
should be included. Our bill covers physical attacks like 
electromagnetic pulse, as well as cyber attacks. The Critical 
Electric Infrastructure Protection Act will do four things to 
improve our defensive posture.
    No. 1, it requires FERC to establish interim measures 
deemed necessary to protect against physical and cyber threats 
to critical electronic electric infrastructure. This will 
improve existing mandatory standards.
    No. 2, it provides FERC with the authorities necessary to 
issue emergency orders to owners and operators of electric grid 
after receiving a finding from DHD about a credible or imminent 
cyber attack.
    No. 3, it requires DHS to perform on-going cybersecurity, 
vulnerability and threat assessment, to critical electric 
infrastructure and provide mitigation recommendations to 
eliminate those vulnerabilities and threats.
    No. 4, it also requires DHS to conduct an investigation to 
determine if the security of Federally-owned, critical, 
electric infrastructure has been compromised by outsiders. I am 
proud of this bill. I know my colleagues are proud also. We 
have support of both Republican and Democratic co-sponsors.
    Madame Chairwoman, I look forward to the testimony of our 
two panel witnesses today, and I yield back.
    Ms. Clarke. Thank you. I now recognize Mr. Bartlett, who is 
widely acknowledged here on the Hill as one who has been a 
visionary and a leader in providing a robust roadmap for 
addressing the threat of EMP, and I would like to acknowledge 
him and have him make his comments at this time.
    Mr. Bartlett. Thank you very much for inviting me to sit 
with you today. I am very pleased that there is now increasing 
recognition of the vulnerability of our grid and our country, 
to EMP. I have been concerned about this a number of years. Dr. 
Graham is here, who has chaired the commission that my 
legislation set up in 2001, and this is probably one of the 
longest-serving commissions on the Hill. I hope that it will be 
serving for a while yet, because the job is not done.
    If an EMP attack were vigorous enough, and you know, this 
is kind of tough, because it is said that if it is too good to 
be true, it is probably not true, and in this case, if it is 
too bad to be true, it is probably not true. But in this case, 
I am sorry to say, it could be true.
    If the EMP lay down were vigorous enough, you could find 
yourself in a world that, essentially the only person you could 
talk to is the person next to you, unless you were a ham 
operator with a vacuum tube set, which is a million times less 
susceptible. The only way you could go anywhere, is to walk, 
unless you were the proud owner of a Edsel or similar vintage 
automobile with coil and distributor.
    Of course, if you do not have electricity, you do not have 
anything in our world. Our very vulnerability invites attack, 
and it doesn't have to be a nation-state. Anybody who can get a 
tramp steamer, buy a SCUD launcher for $100,000, with a crude 
nuclear weapon, could do an EMP lay down. Not country-wide, but 
certainly over New England. By the way, if you missed your 
target by 100 miles, it is as good as a bull's-eye.
    So this would obviously be the most asymmetric attack that 
could be launched against us. My wife says I shouldn't talk 
about this, because I am giving these people ideas, you know. 
But it is in all of their literature. It is in all of their war 
games. Not one out of 50 Americans may know about EMP, but I 
will assure you that 100 percent of our potential enemies know 
all about EMP.
    So thank you very much for your vision in holding this 
hearing, and thank you for inviting me to be with you.
    Ms. Clarke. Other Members of the subcommittee are reminded 
that under committee rules, opening statements may be submitted 
for the record.
    I welcome our first panel of witnesses today. We are joined 
by a distinguished panel of private sector witnesses. Dr. 
William Graham is the chairman of the Commission to Assess the 
Threat to the United States from Electromagnetic Pulse, also 
known as the EMP Commission.
    Mr. Fabro is the president and chief security scientist of 
Lofty Perch. Mr. Michael Assante, is the chief security officer 
of the North America Electric Reliability Corporation, also 
known as NERC, and Mr. Steve Naumann, is the vice president of 
wholesale markets at Exelon Corporation. Mr. Naumann is 
providing testimony on behalf of the Electric Industry 
Association, Edison Electric Institute, and the Electric Power 
Suppliers Association.
    Just to give you an idea of the importance of this topic, 
we received a number of statements for the record. I have made 
these statements available to the Members ahead of time, but 
ask unanimous consent that the following statements be included 
into the record. The National Association of Regulatory Utility 
Commissioners; Dr. Bill Rodasky, President of Metatech, and 
John Caperman, Metatech consultant. George Anderson and Gail 
Nordling of Emprimus. Mike Frankel, executive director of the 
EMP Commission, Joe Weiss, Applied Control Solutions, and 
Curtis Birnbach, president of Advanced Fusion Systems.
    Hearing no objections, it is so ordered.
    In the interest of time, I will ask that each of you 
provide a brief biography of your work without objection. The 
witnesses' full statement will be inserted in the record. I now 
ask you to introduce yourselves, and summarize your testimony 
for 5 minutes, beginning with Dr. Graham.

STATEMENT OF WILLIAM R. GRAHAM, CHAIRMAN, COMMISSION TO ASSESS 
   THE THREAT TO THE UNITED STATES FROM ELECTROMAGNETIC PULSE

    Mr. Graham. Thank you, Madame Chairwoman, distinguished 
Members of the committee, for the opportunity to testify today 
on the matter of the nuclear magnetic pulse threat to the 
United States, to our forces, our allies and our friends 
worldwide.
    By way of background, I am an electrical engineer and a 
physicist, who first served as a junior officer in the Air 
Force in 1962, and encountered the EMP problem as a great 
surprise to all of us, as a result of the high altitude test 
series that the United States conducted over the Pacific, 
primarily Johnston Island, at that time.
    I continued to work on the problem throughout my career, 
now some 45 years, including as, among other things, the 
director of the Office of Science and Technology Policy in the 
Executive Office of the President and the science advisor to 
President Reagan during his second term.
    Several potential adversaries have or can acquire the 
capability to attack the United States with high-altitude 
nuclear weapon-generated electromagnetic pulse. In fact, a 
determined adversary can achieve an EMP attack capability 
without having a high level of technical sophistication. EMP is 
one of a small number of threats that can hold our society at 
risk of catastrophic consequences.
    EMP will cover a wide geographic region within line-of-
sight of a nuclear weapon explosion. It has the capability to 
produce significant damage to critical infrastructures, and 
thus the very fabric of U.S. society, as well as the ability of 
the United States and western nations to project influence and 
military power. The common element that can produce such an 
impact from EMP is primarily electronics, so pervasive in all 
aspects of our society and military, coupled with critical 
infrastructures.
    An example of this, and the increase in potential 
vulnerability, can be seen in the Smart Grid, where 
considerable interest and effort is being made in adding 
electronics to our electric distribution grid for efficiency, 
effectiveness, and safety. But it can undermine that grid if it 
is not designed properly. This EMP impact is asymmetric in 
relation to our potential adversaries who are not so dependent 
on modern electronics.
    The current vulnerability of our critical infrastructure 
can both invite and reward attack, if not corrected. Correction 
is feasible and well within the Nation's means and resources to 
accomplish. In fact, with proper design of protection for both 
physical and cyber attacks, which should be integrated in our 
electrical distribution and other critical infrastructure 
systems, I believe we can actually work to a net economic 
benefit, because of the improved reliability and performance 
that we will achieve with these critical infrastructures.
    However, there is an implicit invitation in the fact that 
the United States is vulnerable in this area, to adversaries. 
We know that geomagnetic storms will occur and they will damage 
electric power distribution systems. The question is not if, 
but when?
    Concerning EMP, the logic of the position is upside-down, 
in often-made statements about it being improbable. By ignoring 
large-scale catastrophic EMP vulnerabilities, we invite such 
attacks on our infrastructure by adversaries who seek to attack 
us where we are weak, not where we are strong, and to take 
advantage of that vulnerability.
    We have prepared two unclassified reports, one on critical 
national infrastructures, and an executive oversight report by 
the commission, and I submit those to you as well, Madame 
Chairwoman.
    I would like to say then, while much of our discussion is 
contained in those, in conclusion I would say that I would like 
to go on the record as supporting H.R. 2195, the bill to amend 
the Federal Power Act, to provide additional authority to 
adequately protect the electrical infrastructure against cyber 
attack, and for other purposes.
    At the same time, I would like to strongly recommend that 
very large-scale electromagnetic threats to the critical 
infrastructure, both EMP and naturally occurring, be addressed 
explicitly in the bill, in a manner comparable to and parallel 
with the cyber threats now contained in the bill. Thank you 
very much.
    [The statement of Mr. Graham follows:]
                Prepared Statement of William R. Graham
                             July 21, 2009
    Mr. Chairman, Members of the committee, thank you for the 
opportunity to testify today on the matter of the Nuclear 
Electromagnetic Pulse (EMP) threat to the United States, its forces, 
its allies, and its friends worldwide.
                                abstract
    Several potential adversaries have or can acquire the capability to 
attack the United States with a high-altitude nuclear weapon-generated 
electromagnetic pulse (EMP). A determined adversary can achieve an EMP 
attack capability without having a high level of sophistication.
    EMP is one of a small number of threats that can hold our society 
at risk of catastrophic consequences. EMP will cover the wide 
geographic region within line of sight to the nuclear weapon. It has 
the capability to produce significant damage to critical 
infrastructures and thus to the very fabric of U.S. society, as well as 
to the ability of the United States and Western nations to project 
influence and military power.
    The common element that can produce such an impact from EMP is 
primarily electronics, so pervasive in all aspects of our society and 
military, coupled through critical infrastructures. Our vulnerability 
is increasing daily as our use of and dependence on electronics 
continues to grow. The impact of EMP is asymmetric in relation to 
potential protagonists who are not as dependent on modern electronics.
    The current vulnerability of our critical infrastructures can both 
invite and reward attack if not corrected. Correction is feasible and 
well within the Nation's means and resources to accomplish.
                               background
    I am an Electrical engineer and physicist who has served as a 
junior officer in the Air Force, as Director of the Office of Science 
and Technology Policy in the Executive Office of the President, and in 
the aerospace industry, together for over 45 years. I have also served 
on several Government advisory boards, including as Chairman of the 
President's General Advisory Committee, and a member of the Defense 
Science Board, the Department of State's International Security 
Advisory Board, The National Academies Board on Army Science and 
Technology, and from 2001 to 2009 as Chairman of the statutorily 
established Commission to Assess the Threat to the United States from 
Electromagnetic Pulse (EMP) Attack. While now retired, I have worked on 
problems related to EMP during much of my career, beginning with my 
service in the Air Force at the Air Force Weapons Laboratory in 1962.
    The commission requested and received information from a number of 
Federal agencies and National Laboratories. We received information 
from the North American Electric Reliability Corporation, the 
President's National Security Telecommunications Advisory Committee, 
the National Communications System (since absorbed by the Department of 
Homeland Security), the Federal Reserve Board, and the Department of 
Homeland Security.
                              introduction
    A high-altitude electromagnetic pulse results from the detonation 
of a nuclear warhead at altitudes of about 40 to 400 kilometers above 
the Earth's surface. The immediate effects of EMP are disruption of, 
and damage to, electronic systems and electrical infrastructure. EMP is 
not reported in the scientific literature to have direct effects on 
people.
    EMP and its effects were observed during the U.S. and Soviet 
atmospheric test programs in 1962. During the U.S. STARFISH nuclear 
test at an altitude of about 400 kilometers above Johnston Island,, 
some electrical systems in the Hawaiian Islands, 1,400 kilometers 
distant, were affected, causing the failure of street lighting systems, 
tripping of circuit breakers, triggering burglar alarms, and damage to 
a telecommunications relay facility.
    In their testing that year, the Soviets executed a series of 
nuclear detonations in which they exploded 300 kiloton weapons at 
approximately 300, 150, and 60 kilometers above their test site in 
South Central Asia. They report that on each shot they observed damage 
to overhead and underground buried cables at distances of 600 
kilometers. They also observed surge arrestor burnout, spark-gap 
breakdown, blown fuses, and power supply breakdowns.
    The physical and social fabric of the United States is sustained by 
a system of systems; a complex dynamic network of interlocking and 
interdependent infrastructures (``critical national infrastructures'') 
whose harmonious functioning enables the myriad services, transactions, 
and information flows that make possible the orderly conduct of civil 
society in this country while also supporting our economic strength and 
national security. The vulnerability of these infrastructures to 
threats--deliberate, accidental, and acts of nature--is the focus of 
significant concern in the current era, a concern heightened by the 
events of 9/11, major hurricanes, recent wide-area power grid failures, 
and large-scale cyber attacks to date directed at other countries.
    In November 2008, the commission released an unclassified 
assessment of the effects of a high altitude electromagnetic pulse 
(EMP) attack on our critical national infrastructures and provides 
recommendations for their mitigation. The assessment entitled Critical 
National Infrastructures was informed by analytic and test activities 
executed under commission sponsorship, as discussed in the report. An 
earlier executive report: Report of the Commission to Assess the Threat 
to the United States from Electromagnetic Pulse (EMP)--Volume 1: 
Executive Report (2004), provided an earlier unclassified overview of 
the subject. The commission also prepared and submitted to the Congress 
and the administration several classified reports addressing military, 
nuclear weapon, and intelligence aspects of the subject.
    The electromagnetic pulse generated by a high altitude nuclear 
explosion is one of a small number of threats that can hold our society 
at risk of catastrophic consequences. The increasingly pervasive use of 
electronics of all forms represents the greatest source of 
vulnerability to attack by EMP. Electronics are used to control, 
communicate, compute, store, manage, and implement nearly every aspect 
of United States (U.S.) civilian systems. When a nuclear explosion 
occurs at high altitude, the electromagnetic fields it produces will 
cover the geographic region within the line of sight of the 
detonation.\1\ This intense electromagnetic phenomena, when coupled 
into sensitive electronics through any connected wires or other 
electrical conductors, has the capability to produce widespread and 
long lasting disruption and damage to the critical infrastructures that 
underpin the fabric of U.S. society. Because of the ubiquitous 
dependence of U.S. society on the electrical power system, its 
vulnerability to an EMP attack, together with power grids increasing 
dependence on electronics for efficiency, control, and safety, as 
reflected for example in increasing national interest in ``Smart Grid'' 
design and implementation, creates the possibility of long-term, 
catastrophic consequences.
---------------------------------------------------------------------------
    \1\ For example, a nuclear explosion at an altitude of 100 
kilometers would expose 4 million square kilometers, about 1.5 million 
square miles, of Earth surface beneath the burst to a range of EMP 
field intensities.
---------------------------------------------------------------------------
                        the implicit invitation
    Some in Government have taken the position that EMP attack and 
geomagnetic storm disruption are low-probability events. Of course, we 
know that geomagnetic storms will occur, and large ones can seriously 
damage very long-lead components of the electrical system--it is only a 
question of when, not if. Concerning EMP, the logic of their position 
is upside-down. By ignoring large-scale, catastrophic EMP 
vulnerability, we invite such attack on our infrastructure by 
adversaries looking to attack us where we are weak, not where we are 
strong. Our adversaries know how to take advantage of this 
vulnerability, and when coupled with increasing nuclear weapon and 
ballistic missile proliferation, it is a serious concern. A single EMP 
attack may effectively instantaneously degrade or shut down a large 
part of the electric power grid in the geographic area of EMP exposure. 
There is also a possibility of functional collapse of grids beyond the 
exposed area, as electrical effects propagate from one region to 
another, as has happened in power grid failures over the last 40 years.
    The time required for full recovery of electrical power service 
would depend on both the disruption and damage to the electrical power 
infrastructure and to other national infrastructures. Larger affected 
areas and stronger EMP field strengths would prolong the time to 
recover. Adding to the recovery time, some critical electrical power 
infrastructure components, such as large high-voltage transformers, are 
no longer manufactured in the United States, and even in routine 
circumstances their acquisition requires up to a year of lead time.
    Damage to or loss of these components could leave significant parts 
of the electrical infrastructure out of service for periods measured in 
months to a year or more. There is a point in time at which the 
shortage or exhaustion of sustaining backup systems, including 
emergency power supplies, batteries, standby fuel supplies, 
communications, and manpower resources that can be mobilized, 
coordinated, and dispatched, together would lead to a continuing 
degradation of critical infrastructures for a prolonged period of time.
    Electrical power is necessary to support other critical 
infrastructures, including supply and distribution of fuel, 
communications, transport, financial transactions, water, food, 
emergency services, Government services, and all other infrastructures 
supporting the national welfare, economy, and security. Should 
significant parts of the electrical power infrastructure be lost for 
any substantial period of time, the commission believes that the 
consequences are likely to be catastrophic, and many people may 
ultimately die for lack of the basic elements necessary to sustain life 
in dense urban and suburban communities. In fact, the commission is 
deeply concerned that such impacts are likely in the event of an EMP 
attack unless practical steps are taken to provide protection for 
critical elements of the electric system and for rapid restoration of 
electric power, particularly to essential services.
                            a plan of action
    It is the consensus of the EMP Commission that the Nation need not 
be vulnerable to the catastrophic consequences of an EMP attack. As 
detailed in the commission reports provided to the Congress, the 
Nation's vulnerability to EMP that gives rise to potentially large-
scale, long-term consequences can be reasonably and readily reduced 
below the level of a potentially catastrophic national problem by 
coordinated and focused effort between the private and public sectors 
of our country. The cost for such improved security in the next 3 to 5 
years is modest by any standard--and extremely so in relation to both 
the war on terror and the value of the national infrastructures 
threatened. In fact, electromagnetic protection of the critical 
national infrastructures may over time provide a net saving of money 
through the more reliable and robust operation of the systems involved.
    The appropriate response to the EMP threat is a balance of 
prevention, protection, planning, and preparations for recovery. Such 
actions are both feasible and well within the Nation's means and 
resources to accomplish. A number of these actions also reduce 
vulnerabilities to other serious threats to our infrastructures, thus 
giving multiple benefits.
    It is not feasible to reduce the consequences of an EMP attack to 
an acceptable level of risk by any single measure. However, in the view 
of the EMP Commission, it is possible to achieve an acceptable level of 
risk and reduced invitation to an EMP attack with a strategy that 
integrates several significant measures:
  <bullet> Pursuing intelligence, interdiction, and deterrence to 
        discourage EMP attack against the United States and its 
        interests;
  <bullet> Protecting critical components of the infrastructure, with 
        particular emphasis on those that, if damaged, would require 
        long periods of time to repair or replace;
  <bullet> Maintaining the capability to monitor and evaluate the 
        condition of critical infrastructures;
  <bullet> Recognizing an EMP attack and understanding how its effects 
        differ from other forms of infrastructure disruption and 
        damage;
  <bullet> Planning to carry out a systematic recovery of critical 
        infrastructures;
  <bullet> Training, evaluating, ``Red Teaming,'' and periodically 
        reporting to the Congress;
  <bullet> Defining the Federal Government's responsibility and 
        authority to act;
  <bullet> Recognizing the opportunities for shared benefits;
  <bullet> Conducting research to better understand infrastructure 
        system effects and developing cost-effective solutions to 
        manage these effects.
    Finally, I would like to state for the record that I support H.R. 
2195, a bill to amend the Federal Power Act to provide additional 
authorities to adequately protect the critical electric infrastructure 
against cyber attack, and for other purposes. At the same time, I 
strongly recommend that electromagnetic threats to the critical 
electric infrastructure, both from nuclear EMP attack and from 
naturally occurring, large-scale geomagnetic storms, be addressed in 
the bill in a manner explicitly comparable to and in parallel with 
cyber threats as now contained in the bill. It is important to do this 
because an integrated approach to protecting critical electrical 
infrastructure will be much less expensive and more effective and 
expedient than any fragmented approach to the problem, and unlike the 
Department of Defense, the Department of Homeland Security, from its 
establishment forward, has shown neither an understanding nor a 
willingness to consider the problem of electromagnetic threats to our 
country.

    Mr. Thompson [presiding]. Thank you very much, Dr. Graham. 
Chairwoman Clarke had to go and cast votes in a mark-up. She 
will return shortly.
    Mr. Fabro, 5 minutes.

     STATEMENT OF MARK FABRO, PRESIDENT AND CHIEF SECURITY 
                     SCIENTIST, LOFTY PERCH

    Mr. Fabro. Thank you to the committee for the opportunity 
to testify today. My name is Mark Fabro and I am the president 
and chief security scientist of Lofty Perch, a company focused 
on providing control systems, cybersecurity services and 
research. I am a member of the UTC Smart Network Security 
Committee; the chairman of the Canadian Industrial Cyber 
Security Council; and co-chair of ISA-99, Working Group 10.
    I am here today to provide insight as to what measures can 
be taken to help protect the modern electric grid from cyber 
attack. There is no doubt as to whether or not our electric 
infrastructure will continue to converge with internet-based 
systems, and as it matures, it will inherit cyber 
vulnerabilities.
    We know there is a problem. We know the cause of the 
problem. We know what works to correct it. We just need a plan 
to implement. Our challenge is to ensure that, as we go 
forward, we have done our due diligence, improving solutions as 
secure and reliable, and that we protect what might be the most 
vital of all critical infrastructures.
    But it is important to note, the findings regarding 
cybersecurity risk are not ubiquitous across all the entities 
supporting the bulk power system. Moreover, they are not unique 
to single countries, entities or operators, and they most 
certainly are not indicative of an overall generally poor 
security posture.
    We continue to witness excellent examples of effective 
cybersecurity activities from many entities and observe 
progress that does not align with the popular opinion that the 
bulk power system is ripe for total cyber compromise.
    The complexity of the problem in trying to measure how 
secure or resilient the grid is from cyber attack, cannot be 
overstated. Often, and erroneously, the cybersecurity problem 
is framed under the assumption that there is simply a single, 
uniform grid, and that a mitigation strategy, be it technical 
or policy-based, should be applicable in all areas.
    Nothing could be further from the truth. Clearly, the 
strategy for securing the modern grid requires significant 
utilization of information security technology, security 
research, information-sharing capabilities, and the integration 
of these in a manner that meets the challenges associated with 
current and future power delivery requirements.
    To that end, it becomes important to understand that many 
of the cybersecurity vulnerabilities in the bulk power system 
that were once only theorized, have indeed been proven. 
Sometimes the risk is connected to the core technology, 
vulnerabilities in hardware, and software and various 
protocols, can manifest in a multitude of attack vectors, even 
ones that could involve the compromise of large aggregated 
systems that could impact millions of consumers simultaneously.
    But as researchers and subject matter experts, our ability 
to communicate findings in a broad and effective manner is 
often impeded by the absence of an effective information 
sharing system. Thankfully, there is good work being done today 
that can be leveraged for a secure grid tomorrow.
    We have seen the NERC standards in action, reducing some 
cybersecurity risk profiles by orders of magnitude.
    We have seen the creation of non-invasive security 
assessment tools that create usable guidance for securing 
energy management systems. We have seen extensive energy sector 
road maps that have provided for the creation of technologies 
that can be used for security of electricity domain.
    As proven time and time again, there are public-private 
partnerships already in place contributing to the mitigation of 
security threats to the bulk power system. Rather than develop 
new plans that are tied to more aggressive standards and 
enforcement, we need to ramp up the efforts in place now and 
support the continuation of what has been proven to work.
    I feel that there are three areas that should be focused on 
to meet the emerging security challenges; research, improved 
standards, and procurement language.
    First, research, the research effort regarding the 
cybersecurity of the bulk power system needs to be expanded and 
nurtured. A sanctioned activity that promotes the independent 
assessment of power system technologies without the risk of 
legal retaliation or negative attribution is necessary.
    In essence, cybersecurity's researchers must be protected. 
This research must also include information sharing and cyber 
incident response functions so that we can better prepare for, 
detect, and respond to incidents unique to bulk power system 
architectures.
    Second, refining standards, the continued development of 
cybersecurity standards for grid elements is required. This 
effort should leverage standards that are already in place and 
accepted by the national and international community of 
stakeholders.
    These standards should be updated to be more flexible so 
that they can accommodate shared threat and vulnerability 
information, but not so flexible to allow for erroneous 
reporting regarding critical assets and cyber assets. The 
standards should also incorporate instruction regarding how to 
implement emergency orders related to specific and imminent 
cyber attacks.
    Third, for procurement guidance, this public-private 
activity should leverage the existing body of work done for 
industrial control systems and enhance it with sections 
tailored to the electric sector. Simple refinement of existing 
procurement guidelines can have a tremendous influence in bulk 
power system cybersecurity and it can be done immediately.
    To the committee, Madame Chairwoman, Ranking Member, I 
thank you for this opportunity to testify here today and I 
commend you on your attention to this very important matter. I 
will be more than happy to answer any questions you may have at 
this time.
    [The statement of Mr. Fabro follows:]
                    Prepared Statement of Mark Fabro
                             July 21, 2009
    Madame Chairwoman and Ranking Member, thank you for the opportunity 
to testify today before the Homeland Security Subcommittee on 
``Securing the Modern Electric Grid from Physical and Cyber Attacks.''
    My name is Mark Fabro and I am the president and chief security 
scientist of Lofty Perch, a company focused on providing cybersecurity 
services to critical infrastructure organizations such as those in the 
energy, water, transportation, and oil and gas sectors. I am a member 
of the Utilities Telecom Council Smart Networks Security Committee, the 
chairman of the Canadian Industrial Cyber Security Council, and co-
chair of ISA SP99 Working Group 10: Governance and Metrics for 
Industrial Automation and Control Systems Security. For the last 
several years I've been a subject matter expert supporting the 
industrial control systems cybersecurity research effort at the 
Department of Energy's Idaho National Laboratory, as well as the 
efforts spearheaded by the Department of Homeland Security and the 
Control Systems Security Program. I have authored several key 
Recommended Practices for securing industrial control systems, and have 
participated in the development of specific guidance as it pertains to 
securing information technology in critical infrastructure systems. My 
professional experience has provided me the privilege of performing 
extensive cybersecurity research as it applies to the electric sector, 
and I have been involved in a multitude of assessments specifically 
performed to determine the cybersecurity of critical elements of the 
bulk power system.
    I want to be clear in stating that my testimony today is based on 
my opinions and mine alone. This testimony was generated using my 
experiences in working with sector-specific organizations as well as 
many utilities, researchers, and other international government 
entities facing the same challenges regarding cybersecurity and the 
electric utility industry. My comments are based on my experience in 
working with stakeholders, asset owners, vendors, and from detailed 
cybersecurity assessment work specific to the electricity sector. I 
also want to state that I have reviewed and assessed material from 
other industry and subject matter experts who specialize in the field 
of cybersecurity for electric grid systems, and have vetted my concerns 
with them to ensure the committee is empowered with actionable 
intelligence.
                    background and problem statement
    As we look inwards to the Nation's vital information systems, such 
as those responsible for maintaining our most essential 
infrastructures, we continue to see, as Madame Chairwoman said in her 
March 10, 2009 opening remarks, ``too many vulnerabilities existing on 
too many critical networks which are exposed to too many skilled 
attackers who can inflict too many damages to our systems.'' The 
statement is chillingly accurate and has specific applicability to the 
North American power grid. There is no doubt as to whether or not our 
electric infrastructure will continue to converge with internet-based 
systems, and as it matures it will inherit cybersecurity 
vulnerabilities. As an example we are well on our way to seeing Smart 
Grid happen; it has already been proven to be successful in many cities 
and funding has been allocated to make it a proven reality. Our 
challenge is to ensure that as we go forward we have done our due 
diligence in proving these solutions as secure and reliable, and that 
we protect what may be the most vital of all critical infrastructures.
    In the last several years the rate at which critical infrastructure 
entities have embraced modern information technology to enhance their 
business operations has been staggering. This activity is of course a 
natural progression, as a considerable portion of the Nation's critical 
infrastructure systems have been found to be significantly aged, have 
been built with a single purpose in mind, and deployed assuming 
isolation by both physical and technological means. In an ever-changing 
environment that demands businesses operate better, faster, and more 
efficiently these characteristics clearly showcase a need for 
modernization. With the President directing the National Security 
Council to undertake a 60-day review of the U.S. approach to 
cybersecurity it is important to recognize that the issues related to 
the national critical infrastructure are being investigated, and 
measures to protect vital systems are going to be done not unilaterally 
but with the cooperation of allies. Recently proposed bills have 
specific intent on augmenting current responsibilities as they pertain 
to protecting the bulk power system from cyber attack, as well as 
refine security and intelligence practices to specifically address 
cyber threats and vulnerabilities to the power grid. Congressional 
hearings have done an excellent job at highlighting the cybersecurity 
issues associated with the industrial control systems running our 
infrastructure, and the release of Smart Grid stimulus funds being 
conditional on cybersecurity plans showcases that the issues regarding 
cybersecurity are penetrating relevant communities of concern.
    But the findings and risks regarding cybersecurity are not 
ubiquitous across all entities supporting the bulk power system. 
Moreover, they are not unique to a single country, they are not unique 
to a single type of entity, and they most certainly are not indicative 
of an overall ``generally poor'' security posture. We continue to 
witness excellent examples of effective cybersecurity activities from 
many entities, both large and small, and continue to see progress that 
does not align with the popular opinion that the bulk power system is 
ripe for total cyber compromise.
    Unfortunately, regardless of how driven we are to address and 
mitigate the larger cybersecurity problem, there is almost an 
unavoidable introduction of cybersecurity vulnerabilities into grid-
related elements. This problem is of course exacerbated by the cultural 
impediments that often drive reticence and the uncooperativeness of 
infrastructure asset owners to address cybersecurity. Issues with 
interdependency and cross-sector reliance mean that a single weak link 
in the cybersecurity chain is a very influential one, and an attack on 
even the smallest participant can have national impact. As 
interoperability is the cornerstone of the bulk power system, we need 
to ensure our current solutions and path forward are paved with the 
useable safeguards we implement today. Indeed, robust situational 
awareness and a cohesive response plan are necessary components within 
any cyber risk reduction plan, but we must not forget that a majority 
of the North American critical infrastructure is not owned or operated 
by Government. As such, an understating of the real cybersecurity 
issues within the electric sector community, including those related to 
culture, multi-national interdependency and legacy operations is a 
fundamental requirement in protecting the power grid.
    Extensive research has been done regarding the risk associated with 
migrating critical infrastructure systems over to modern IT 
architectures, with some specific material focused on industrial 
control systems. Numerous organizations, within both the public and 
private sector, have for years recognized this problem and have 
established several watershed efforts to meet the ever-changing 
challenges associated with this very important issue. However, 
resulting efforts have been disparate in nature, and only manage to 
accommodate the needs of certain communities of interest and not the 
Nation as a whole. As the protection of the North American bulk power 
system is not only a national issue it is a multi-national issue, we 
need to ensure our efforts become unified and provide consideration for 
the diversified stakeholders dealing with this problem.
                            knowing the risk
    Of all the 18 critical sectors recognized by DHS, the security and 
reliability of the bulk power system could be considered the most 
critical. Studies have repeatedly shown that the ability for the other 
17 to function properly depend on its availability. The realization 
that the grid is vulnerable to cyber attack is not new, as more than 12 
years ago the National Security Telecommunications Advisory Committee's 
Information Assurance Task Force cited numerous electronic security 
incidents and threats to the grid. In their Electric Power Risk 
Assessment, the IATF referenced the possibility of electronic attack, 
cited technical hackers (including terrorists) as a threat, and 
cautioned on the pervasiveness of open source information that can 
facilitate the creation of target folders. At that time a majority of 
utility members agreed ``that an electronic attack capable of causing 
regional or widespread disruption lasting in excess of 24 hours is 
technically feasible.''\1\ Today, we appear to be in the same position, 
and most would agree with the findings as if the report came out last 
week.
---------------------------------------------------------------------------
    \1\ National Security Telecommunications Advisory Committee 
Information Assurance Task Force ``Electric Power Risk Assessment'', 
March 1997, www.solarstorms.org/ElectricAssessment.html.
---------------------------------------------------------------------------
    The complexity of the problem in trying to measure how ``secure'' 
or ``resilient'' the grid is from cyber attack cannot be overstated. 
Often, and erroneously, the cybersecurity problem is framed under the 
assumption that there is simply a single uniform ``grid'' and that a 
mitigation strategy, be it technical or policy-based, should be 
applicable to all areas. Nothing could be further from the truth. The 
processes and technology required to support the reliability and 
functionality of the bulk power system, across all entities and 
interconnects, is incredibly diverse. An immeasurable number of 
different vendor technologies, protocols, operating systems, 
communications media, and operating procedures simply cannot facilitate 
for a security ``silver bullet'' in either the policy or technology 
space. With the power infrastructure comprised of legacy systems that 
cannot provide for useable event data, and newer systems unable to be 
tuned to account for cybersecurity, it becomes very difficult to 
discern between inherent system irregularities and incidents generated 
by malicious cyber attack. Compounding the problem is the fact that 
modern cybersecurity technologies are not always adaptable to control 
system environments, as the need for perpetual system availability 
often precludes even the simplest countermeasure.
    Clearly, the strategy for securing the modern grid requires 
significant utilization of energy technology, information security 
technology, research, and the integration of these in a manner that 
meets the challenges associated with current and future power delivery 
requirements. As the bulk power system does and will continue to depend 
on diverse information technology solutions, many of which possess 
inherent cybersecurity vulnerabilities, we must be diligent in 
understanding the cyber risk associated with critical cyber assets. The 
past several years have brought about a significant increase in 
attention to the issue of cybersecurity and industrial control systems 
as well as the development of enforceable cybersecurity standards for 
the electric sector entities. Indeed, the work both nationally and 
internationally has been substantial. It is no question that we as a 
society are committed to protecting the power grid. But it has become 
very clear that the security safeguards we have created are often not 
commensurate with the levels of protection required for a system with 
such high value. The economics associated with the energy business has 
in many ways threatened the potential of well-intended cybersecurity 
guidance, and perhaps may have contributed towards many of the recent 
incidents that precipitated this hearing and affiliated bills. We now 
know that we have a situation that, if left unattended, could have 
catastrophic results.
                        specific security issues
    As a concerned community, we need to ensure that the issues 
regarding cybersecurity in the bulk power system are presented and 
studied in the appropriate light and not necessarily in the same 
context as cybersecurity for general IT systems. Accurately 
understanding the threats and vulnerabilities associated with the bulk 
power system will only serve to ensure that future State architectures 
will have the necessary countermeasures and mitigations properly 
embedded. To that end, it becomes important to understand that many of 
the cybersecurity issues in the bulk power system (including Smart 
Grid) that were once only theorized have indeed been proven. We have 
been able see the impact of hostile mobile code on nuclear facilities, 
witness hackers tunnel into distribution systems, create attacks that 
can take over a large metering infrastructure, and watch researchers 
create useable exploit code that is specific to a vendors industrial 
control system product. Although we see threats and malicious activity, 
we still lack reports of any cyber attacks that have directly impacted 
the bulk power system. Presenting these issues is not intended to 
instill fear or panic, nor is it intended to question the surety of our 
current and future grid plans as advantageous. Rather, they are 
presented to support the problem statement with facts that can be used 
to structure coordinated and effective mitigation activities. With 
proposals in place to possibly adjust the current landscape of 
authority as it pertains to the cyber protection of the bulk power 
system, familiarization with some of the more core problems is 
required. It is intended that such a discussion can facilitate for a 
better understanding of key issues, thus empowering the committee to 
make informed choices going forward.
    Many elements that make up the bulk power system are not secure 
from cyber events, whether they are of malicious intent or not. On a 
regular basis we see cyber incidents impact some aspect of our energy 
infrastructure, and as connectivity increases, along with hacker 
interest, we will continue to hear more. Sometimes the risk is 
connected to the core technology. The bulk power system can be 
disrupted by using attacks that neither NERC nor FERC can regulate, 
such as those that exploit vulnerabilities inherent in vendor 
technologies. Vendors that use a single security safeguard across their 
entire solution makes the attacker's work considerably easier, as the 
compromise of a single device can often mean a compromise of many 
devices in the command-and-control architecture. This is particularly 
applicable to Smart Metering, and to date various research teams have 
shown vulnerabilities that could be exploited across a metering 
infrastructure rendering the network inoperable (or under the control 
of an attacker). In some instances vulnerabilities exist within devices 
that have capability for remote disconnect, suggesting attacks could 
disable a metering infrastructure, impact utility load forecasting, and 
perhaps impact control. Remote disconnect capability can be deployed to 
the residential level as well, and compromised meters could lie dormant 
until a later date and be used to attack other devices or grid 
elements. One must consider what would happen in the event of an 
aggregated attack, where an attacker was able to compromise 5 million 
meters in a city-wide deployment, and suddenly render those 5 million 
end-points off-line--what is the impact to the bulk power system when 
the load from 5 million residences suddenly vanishes? I do not know 
what that would look like in terms of grid coordination efforts but I 
know it would definitely be non-trivial and require some expensive 
investigation. Consumer trust in Smart Grid would surely be impacted.
    New vulnerabilities in the embedded systems responsible for the 
availability and integrity of electricity operations continue to be 
discovered. An emerging security issues relates to how some critical 
field technology can be compromised by exploiting methods used for 
upgrading device firmware, such as those for substation and field 
operations. These attacks that can render the device inoperable, make 
the data collection/submission capabilities useless, or cause 
undesirable impact to control capabilities. Such an attack would 
significantly impact a utility's ability to provide market data, impact 
load forecasting, impact ability to accurately control load shedding 
operations, and possibly be used to force improper and unexpected load 
shedding.
    By creating and deploying control system solutions that utilize 
commercial radio technologies with tunable antennas, the compromise of 
networked grid equipment with embedded vulnerable radios could lead to 
the creation of an unauthorized broadcast network, causing interference 
on almost any radio frequency. This could impact radio communications 
used by transmission operations, as well as integrated water and gas 
systems, transportation functions, and municipal emergency services. In 
addition to impacting electric grid control, the result could be 
millions of rogue radio transmitters broadcasting multi-frequency noise 
across the radio spectrum of a major urban metropolis, with the 
potential to jam vital infrastructure communications. This issue is in 
the same category as those vulnerabilities recently discovered that, if 
exploited, can lead to a persistent denial of service in some utility 
operations.
    The suite of protocols that allow our bulk power system to work is 
an extensive one, but many of the more common ones have for many years 
been compromised and well understood by hackers and engineers alike. 
With common industrial control protocols now using modern IT protocols 
as the basis for communication, hacker tools and methods are easily 
used against critical infrastructure systems. Attacks that compromise 
availability, integrity, and confidentiality can easily be launched 
against infrastructure systems, and we cite examples such as the worm 
attack on the Davis-Besse nuclear plant and the hacker attack on the 
California ISO. Considering the fact that many major protocols were 
openly published (to meet interoperability needs), the practice of 
reverse engineering both proprietary and open protocols has also 
increased the overall risk to our grid operations. Many of the meshed 
networks designed to heal themselves and ensure system communications 
have been found to be vulnerable to attacks traditionally only known to 
the IT world. This vastly extends the scope of plausible attacks 
useable by adversaries, and could lead to the compromise of grid 
integrity, energy operations, load control, and critical energy 
infrastructure information.
    Finally, there is risk associated with the deployment of secure 
solutions in an insecure manner, a concern shared by many operators 
within the bulk power system. The problem is cultural, and is a 
residual effect from many decades of using control environments 
isolated from internet-based networks. Moving to new modern 
interconnectivity, supported by the economics associated with energy 
markets and customer satisfaction, assessments have shown that energy 
management and even maintenance networks can be quite insecure from a 
cyber perspective. Field engineers using unknowingly compromised 
service computers, wrought with insecure instant messaging and social 
networking applications have authoritative access to vital grid 
elements. These issues, along with requirements for corporate 
operations to have on-demand access to energy management systems, 
create new conduits for attackers. The weaknesses that exist in some 
power system deployments can also impact the entire information path 
from the SCADA systems to the consumer. In some cases, this has 
actually manifested in attackers compromising utility customer service 
web portals, and hacking back into the command function of the utility 
to cause loss-of-control situations in the energy management system.
    We have seen numerous vulnerabilities in our own research 
environment, in the assessment environment, and even in emerging Smart 
Grid elements such as Advanced Metering Infrastructure, or AMI. In some 
cases, the results and findings are discouraging. Assessments and 
incident response repeatedly provide alarming information, such as 
proof of qualified threats looking to use cyber means to impact 
electric grid operations. As a researcher and subject matter expert, my 
ability to communicate findings in a broad and effective manner is 
often impeded by the absence of an information sharing system.
                         positive perspectives
    There is very good work being done today that needs to be leveraged 
for a secure grid tomorrow. We have seen the NERC standards in action 
that, when implemented, have reduced an entities risk profile by orders 
of magnitude. We have seen the creation of non-invasive assessment 
tools and techniques that create useable guidance for securing energy 
systems. We have seen extensive sector-specific cybersecurity roadmaps 
that have provided forums for the creation of technologies that can be 
used in the energy domain. As an example, we have the knowledge and 
technological capability to shape an early detection and warning system 
that could be tuned for the bulk power system elements, as we have seen 
small-scale solutions deployed with great success. We have proven case 
studies that can be used to build effective ``deter'' and ``detect'' 
capabilities ones that can perhaps add completeness to a unified 
``respond'' function. And, as is proven time and time again, the 
public/private partnerships are in place to ensure cooperative 
capabilities in mitigating security threats to the bulk power system on 
North America.
    Even though we had warnings in the mid-1990's, in the last 12 
months we have gone from simply knowing about the security concerns of 
the bulk power system to a widespread understanding that 
vulnerabilities have and continue to be exploited by adversaries. The 
problem has manifested to the point that DHS, DOE, and members of the 
defense and intelligence community have taken an interest. We are 
trying to categorize the threat and use our traditional analysis 
methods to fit our data into the boxes we are comfortable with. 
However, we need to ensure the tactical strategy for defending our bulk 
power system does not require a development runway so long it precludes 
us from defending against the threat today. To ensure we are successful 
in creating security mandates and mobilizing any response capability we 
need to leverage what is working presently. We do not have the luxury 
of time; we need to leverage and support existing efforts and public/
private programs that are already established and move forward as 
opposed to sideways.
    Many experts suggest that the realization of a secure bulk power 
system is ``blue sky'' wishful thinking. But to say that ``Secure Power 
Grid'' is an oxymoron is a dangerous and erroneous statement. The 
electric power industry regularly protects the bulk power system using 
advanced coordination and seamless response activities. Present-day 
capabilities, research initiatives, and subject matter expertise 
continues to facilitate for effective and self-sustaining solutions to 
ensure security in electric sector deployments. With appropriate 
direction, support, and funding the community of interest is more than 
capable to address these issues and provide for secure solutions. Much 
work has been done across the stakeholder community, and we need not 
start from zero. The required direction to mitigate the security 
vulnerabilities that could have an adverse effect on the bulk power 
system is well within our reach. Rather than develop new plans that are 
tied to more aggressive standards and enforcement we need to ramp-up 
the efforts in place now, and support the continuation of what has been 
proven to work. New activities that will attempt to create a secure 
energy infrastructure through hyper-rigorous compliance mandates is not 
the right approach. In the past we have seen how the process for 
instantiating new mandates can bring progress to a grinding halt, and 
any new changes could actually reduce the security posture of the 
electric system while entities struggle to align with new directives. 
The stakeholder community may be very unreceptive to new instruction 
and mandates, especially if it could make their historical progress 
obsolete.
                     suggestions for a path forward
    While many programs exist that can support a better understanding 
of how to address these issues, certain activities must be undertaken 
to ensure success in protecting key assets. I feel that there are three 
primary areas that must be focused on to meet the current and emerging 
challenges associated with protecting the bulk power system from cyber 
attack.
First: SUPPPORTED RESEARCH
    The research function regarding the cybersecurity of the bulk power 
system needs to be expanded and nurtured. As in the traditional IT 
domain, having well-funded and approved research is vital in making 
sure the user community is safe from malicious cyber attack. A 
supported and sanctioned activity that promotes the assessment of 
vendor technology without the risk of legal retaliation or negative 
attribution is necessary. In essence, the cybersecurity researchers 
focusing on critical infrastructure must be protected and, whenever 
possible, empowered by having their efforts embraced by vendors and 
asset owners alike. This would of course contribute to the existing 
work being done through public sector initiatives. Working to remove 
the hurdles that prohibit cybersecurity testing for electric system 
solutions will dissolve a shroud of secrecy that provides for the ever-
failing ``security through obscurity''. Believing threat actors do not 
know how a system works is no grounds to assume it is secure. With a 
wide range of on-line auctions that can be used to purchase systems 
that are identical to what we would call critical assets, we need to 
enroll our best minds, including private researches, to stay ahead of 
the threat. This research will provide additional value to those 
vendors that have long understood the impact of cybersecurity on 
critical infrastructure, as well as assist those that are new to the 
domain and need support in understanding the impact insecure solutions 
can have. This would provide specific value to the Smart Meter arena. A 
coordinated research effort between vendors, researchers, and utility 
operators would help precipitate mitigations that would maximize our 
own security postures and allow for easy integration into electric 
system solutions. Failure to do so simply provides the adversary with 
an advantage, and hinders our ability to proactively protect our 
assets. This research must also include the updating of information 
sharing and cyber incident response functions so that we can prepare, 
detect, and respond to cyber incidents unique to our bulk power system 
architectures. This action can be put in place today by leveraging 
existing public/private programs, with assurances that the research 
activities to date can be used to help protect the solutions being 
manufactured for delivery in the very near term.
    The committee is encouraged to support the existing frameworks that 
can promote cybersecurity research for electric grid elements, and have 
it defined in such a way that both researchers and vendors are driven 
by appropriate incentives to promote the discovery and mitigation of 
cyber vulnerabilities. Specific technological security testing, perhaps 
under Cooperative Research and Development Agreement initiatives, could 
augment the analysis and processing of cybersecurity incidents that 
impact the bulk power system. When permitted, the inclusion of results 
from Federal research, such as that done by DOE, will provide 
significant value to the library of useful findings. As the issues of 
cybersecurity and the power grid are not unique to the United States, 
efforts to maximize the sharing of threat information among allies can 
only help to precipitate better understanding. The committee is also 
encouraged to facilitate these cooperative efforts by appointing a non-
regulatory lead organization within the Federal Government to 
coordinate current research efforts, manage relationships and, when 
feasible, ensure existing public/private efforts can implement actions 
defined by research findings.
Second: REFINED STANDARDS
    The continued development of cybersecurity standards is required to 
be the baseline for driving definitive specifications to protect grid 
elements, and to date we have working standards that are in effect 
across the sector. With such a broad scope of critical component 
functions, standards that define interoperability safeguards must also 
be provided. Standards must continue to be developed and improved with 
full support and contribution from the stakeholder community both 
nationally and internationally. Most importantly, these standards 
should be flexible to accommodate for refinement based on threat 
information, but not so flexible that it facilitates erroneous 
reporting regarding critical assets and cyber assets. The reliability 
and security of the bulk power system is the responsibility of the 
United States, Canada, and Mexico and as such these standards must be 
enforceable by an integrated an overarching entity that can support 
emergency orders swiftly and with authority. The standards should also 
have applicability to the vendor community, allowing vendors to be 
empowered with guidance as it relates to building secure energy 
management technology solutions from the start. This must be provided 
so that vendors can insert cybersecurity into their Systems Development 
Life Cycle, and ensure security is built in to the solutions 
proactively. As many experts agree that the fear of regulation or audit 
greatly exceeds the fear of security breach, we must be careful of 
creating standards that move organizations in a direction opposite to a 
secure path, as we have witnessed instances where adherence to strict 
regulations actually decreases the cybersecurity posture of an entity.
    These cybersecurity standards developed must take into 
consideration current and future states regarding threat intelligence, 
cyber incident reporting, control systems cybersecurity, and legal 
frameworks for information sharing. As such, an effective capability on 
sharing cybersecurity vulnerability and threat data as it relates to 
the critical electric infrastructure is required. This capability 
should support a Federal entity responsible for providing accurate and 
timely data on specific and imminent cyber threat. With that, sanitized 
information products can then be used to improve standards and 
proactive defensive activities. Of vital importance is that these 
improved standards must facilitate for better information sharing 
within the stakeholder community.
    These standards must support a divergence from a culture based 
simply on compliance and towards one founded on the measurement of 
adherence to research-based best practices. The improved standards, 
using the stakeholders as leadership and critics, would also help 
maintain the tremendous success seen in private sector voluntary 
actions.
Third: PROCUREMENT GUIDANCE
    To support utilities and asset owners acquiring and deploying 
secure electric system solutions, specific procurement guidance 
language should be developed. Such language will be a valuable 
facilitator that will drive vendors and asset owners to work together. 
This cooperative activity will help shape bulk power system technology 
cybersecurity requirements that can help make informed choices leading 
to better procurement. This public/private activity should leverage the 
existing body of work done for industrial control systems and enhance 
it with sections tailored to the electric sector.
    Leveraging the existing procurement language developed to assist in 
the evaluation, development, and purchase of secure industrial control 
systems, the guidance to assist in selecting secure gird architecture 
elements, such as AMI, substation, and transmission elements, can be 
created using efforts by vendors, security researchers, and results 
from Government-led initiatives. It has been verified that vendors find 
such a language very useful to ensure future business, as it will guide 
them to develop secure solutions consumers clearly want and need. As 
proven in the control systems domain, inherent security becomes a 
market differentiator for the community as a whole, and that can lead 
to a better and more secure infrastructure. In this case, moderate re-
engineering of existing procurement guidelines can have a tremendous 
downstream influence in bulk power system cybersecurity, and it can be 
done immediately. Recent advances in Smart Grid and Smart Metering 
cybersecurity, such as that done by AMI-SEC Task Force, UtiliSec, and 
NIST, could be easily incorporated.
    Madame Chairwoman, Ranking Member, and the entire committee I thank 
you for this opportunity to testify here today. I would be happy to 
answer any questions you may have at this time.

    Mr. Thompson. Thank you very much. The Chair now recognizes 
Mr. Assante for 5 minutes.

STATEMENT OF MICHAEL J. ASSANTE, CHIEF SECURITY OFFICER, NORTH 
           AMERICAN ELECTRIC RELIABILITY CORPORATION

    Mr. Assante. Thank you. Madame Chairwoman, Chairman of the 
full committee, Ranking Member, Mr. Lungren, Members of the 
subcommittee, my name is Michael Assante, I am the chief 
security officer of the North American Electric Reliability 
Corporation.
    As a designated electric reliability organization in the 
United States, and much of Canada, our responsibility and we 
are dedicated to doing so, is to ensure reliability of the bulk 
power system. This is a very sobering responsibility, 
especially in light of the comments today.
    The last time our organization testified before this 
subcommittee, we committed to improving our response to 
cybersecurity. I am here confidently to report that we have 
done so, but we realize there is much more work to be done.
    Cyberspace is proving paramount, both as a national and an 
economic security issue. The compromise of our national through 
this invisible battleground has cost billions of dollars from 
our economy in terms of theft of both intellectual property and 
the destruction of information systems.
    Even though NERC is not aware of any cyber attacks that 
have directly affected the reliability of power systems in 
North America, we have no illusions of immunity, as we are well 
aware of both Government systems and business systems that have 
been successfully attacked at home and power systems that have 
been disrupted abroad.
    The United States and Canada must be ready to act in the 
event of a specific and imminent cyber threat. We believe there 
is an important gap in authority when it comes to these 
emergency situations in the United States, and additionally, 
emergency authority should be put into place and put into place 
soon.
    NERC and the electric sector have been working to answer 
President Obama's broad call to action, stemming from a 60-day 
cyber study completed in May 2009 and we are preparing for 
Canada's forthcoming national strategy and action plan for 
critical infrastructure and a national cyber strategy.
    Some of these efforts include on-going revisions to NERC 
cybersecurity standards with the goal of building a stronger 
foundation. Phase 1 of these revisions was submitted to FERC 
for approval in May. Work on additional Phase 2 revisions 
continues and we are about to complete a thorough evaluation of 
how we can incorporate portions of this framework into the NERC 
standards.
    I personally believe another important element of the 
revisions will be to consider how best to construct broad 
requirements for training and awareness programs, in incident 
response and reporting, to apply to all entities of the bulk 
power system.
    We have also instituted and improved our voluntary alert 
mechanism, whereby NERC is able to reach nearly 5,000 
professionals in control rooms, power plants, and engineering 
centers across North America within hours of being informed of 
a vulnerability, or a threat. NERC has issued nine such alerts 
over 2009.
    Efforts also include expanded work on further assessments 
and deeper analysis of risk. NERC's cyber risk preparedness 
assessment, conducted in close coordination with the industry, 
is designed to evaluate the preparedness in dealing with 
challenging cyber threats.
    While the pilot group will be small, the goal of this 
assessment is to develop a toolkit for entities so that they 
may assess their ability across the industry.
    NERC is also partnering with the Department of Energy in a 
very important effort to breathe new life into the previous 
work to address high-impact, low-frequency risks, such as 
space, weather, electromagnetic pulse, and pandemics. Many of 
these are focused on cybersecurity risks, but physical risks in 
the security of the power system are a very real concern.
    Our understanding, system redundancies, coupled with 
existing authorities far exceed what is in place to address a 
very structured and well resourced cyber adversary.
    The threat is like no other, and to demonstrate my point, I 
will compare it to the rash of German U-boat attacks in the 
coastal waters surrounding the United States that begin in May 
1942 and lasted for almost a year.
    The submarine threat was a mysterious one, much like the 
ever-present but more deeply mass cyber attacks of today. The 
threat is playing out beneath the cyber seas, but unlike 
submarine warfare it has not stopped at our shoreline, 
attackers are able to strike without being in harm's way.
    Cyber weapons are often not flagged and their true origins 
are unknown and therefore unattributable, and most importantly, 
they have been largely successful in evading the instruments 
available to prevent and deter it.
    This is the risk to the power grid, that is the 
interconnective system of wires, power plants, and digital 
controls is still evolving, is still not yet fully understood. 
The potential for an intelligent attacker to exploit a common 
vulnerability across the system and impact many assets at once 
and from a distance is one of the most concerning aspects of 
this challenge.
    This is not unique to the electric sector, but addressing 
it will require better intelligence, and new thinking, on top 
of sound operating and planning analysis. Complicating this 
issue, much of the information about security-related threats 
remain classified in Government communities, with restricted 
opportunity to share information with affected asset owners.
    From a regulatory perspective, NERC believes the scope of 
Section 215 of the Federal Power Act, under which NERC both 
develops and enforces mandatory standards, appropriately places 
the focus on ensuring the security and reliability of the bulk 
power system.
    With that said, the increasing adoption of Smart Grid 
technology, such as advanced metering systems in the 
distribution grid, has come with the need to build in more 
security and flexibility to mitigate the emerging risk of 
exploring this new connectedness.
    While a single device in the distribution system will not 
be considered material to the bulk power system reliability 
aggregate, these assets may become material. There capricious 
magnitude of the priority of the issue at hand, and supports 
enacting legislation to address this. Moving forward, NERC is 
committed to complementing any Federal authority to address 
cybersecurity challenges, regardless of the form it takes. 
Thank you.
    [The statement of Mr. Assante follows:]
                Prepared Statement of Michael J. Assante
                             July 21, 2009
                              introduction
    My name is Michael Assante and I am the chief security officer for 
the North American Electric Reliability Corporation (``NERC''). As the 
designated Electric Reliability Organization (``ERO'') in the United 
States and much of Canada, NERC is dedicated to ensuring the 
reliability of the bulk power system in North America. As part of our 
mission, NERC evaluates, assesses, and works with industry to address 
risks to the bulk power system through study, information sharing, and, 
where appropriate, mandatory standards. Cyber- and physical security 
are two such risks.
    The last time our organization testified before the subcommittee, 
we committed to improving our response to cybersecurity. I am able to 
confidently report that we have done so. We certainly have more work to 
do, but NERC and the industry have made encouraging progress on this 
issue since May 2008. My testimony today will provide an update on our 
activities, and will also provide some important perspectives for your 
consideration as you continue your vital work on this subject.
    Notably, NERC firmly believes that additional, Federal authority is 
needed to address specific and imminent cybersecurity threats to the 
bulk power system.
                     risks to the bulk power system
    Cyber- and physical security are two of many reliability risks 
faced by bulk power system planners and operators.
    Unlike other concerns, such as extreme weather, security-related 
threats can be driven by malicious actors who intentionally manipulate 
or disrupt normal operations as part of a premeditated design to cause 
damage. Cyber-related threats pose a special set of concerns in that 
they can arise virtually anytime, anywhere and change and emerge 
without warning.
    While the industry deals with some physical security events, like 
copper theft, on a regular basis, other technical threats or hazards, 
such as electromagnetic pulse and space weather, are a concern and will 
require careful consideration to develop appropriate and effective 
mitigations. Cyber threats to control systems are still evolving and 
are not yet fully understood. The potential for an intelligent attacker 
to exploit a common vulnerability that impacts many assets at once, and 
from a distance, is one of the most concerning aspects of this 
challenge. This is not unique to the electric sector, but addressing it 
will require asset owners to apply additional, new thinking on top of 
sound operating and planning analysis when considering appropriate 
protections against these threats.
    Complicating this issue, much of the information about security-
related threats remains classified in the defense and intelligence 
communities, with restricted opportunity to share information with 
affected private-sector asset owners. The electric grid is placed at 
significant risk as a result of limited information-sharing. NERC is 
not aware, however, of any cyber attacks that have directly affected 
the reliability of the power system in North America to date.
    NERC is presently working to expand the body of analysis of 
physical and cybersecurity risks on an industry-wide basis. These 
efforts include analysis and consideration of specific risks and 
vulnerabilities as they are identified by a group of security experts 
from industry, security researchers, and technology vendors, dubbed 
``Network HYDRA''. This networked group of professionals provides 
important insight, feedback, and a communications vehicle to raise 
awareness of important security concerns.
    Non-traditional risks are also the subject of a working group NERC 
has recently established in partnership with the Department of Energy 
to analyze ``high-impact, low-probability'' risks--or, more accurately, 
those risks whose likelihood of occurrence is uncertain relative to 
other threats, but that could significantly impact the system were they 
to occur. Officially launched on July 2, this working group will 
examine the potential impacts of these events on the bulk power system, 
focusing on influenza pandemic, space weather, terrorist attacks, and 
electromagnetic pulse events. The group will host an invitation-only 
workshop in the coming months to discuss their assessment and develop 
conclusions and recommendations to industry based on their work. These 
recommendations will be used to drive needed technology research, 
development, and investment and also to evaluate NERC's current 
standards and initiatives, potentially driving the creation of new 
standards to address these issues.
    In addition to these on-going efforts, NERC is conducting a Cyber 
Risk Preparedness Assessment. This industry-led, voluntary assessment 
will focus on detection, response, and mitigation capabilities for 
cyber incidents. Coordinated by NERC, the assessment will look beyond 
NERC's current cybersecurity standards for practices, procedures, and 
technologies that contribute to cyber preparedness across the industry. 
Generalized, aggregated results from the assessment will be used to 
inform standards development activities, alert the industry to 
potential areas of concern, and identify areas where research and 
development investment is needed. For security reasons, specific 
results of the assessment will remain confidential, a key condition of 
participation in the program.
    Through these and other, more specific assessments, NERC seeks to 
broaden the understanding of cyber risk concerns facing the 
interconnected bulk power system and guide industry-wide efforts to 
develop prudent approaches to address the most material risks--in both 
the short-term, through appropriate alerts, and longer-term, through 
appropriate standards.
                        scope of nerc authority
    The scope of NERC's authority as the ERO is limited to the ``bulk 
power system,'' as defined below in Section 215(a)(1) of the Federal 
Power Act:

``(A) Facilities and control systems necessary for operating an 
interconnected electric energy transmission network (or any portion 
thereof); and
``(B) electric energy from generation facilities needed to maintain 
transmission system reliability.
``The term does not include facilities used in the local distribution 
of electric energy.''

    This authority places appropriate focus on the reliability of the 
bulk power system, as outages and disturbances on the bulk system have 
the potential for far greater impact than those on distribution 
systems. Elements of the power grid outside this authorization include 
telecommunications infrastructure and ``local distribution,'' which 
typically includes the infrastructure within urban areas and that 
serves many military installations.
    The increasing adoption of ``Smart Grid'' and advanced metering 
systems on distribution systems has brought renewed focus to the 
appropriate definition of a bulk power system component. As grid 
operators rely on demand-response, rooftop solar panels, and other 
distribution-level assets in capacity planning and operation, the 
reliability of the bulk power system may become increasingly dependent 
on the operation of assets connected at the distribution level. While a 
single device would not be considered material to bulk power system 
reliability, in aggregate, these assets may become critical to the bulk 
power system.
    As a result, NERC is working with the National Institute of 
Standards and Technology (``NIST''), the Department of Energy (``DOE'') 
and the Federal Energy Regulatory Commission (``FERC'') as security and 
interoperability standards are developed for ``Smart Grid'' 
technologies. Additional efforts at NERC include high-level assessment 
by several working groups. NERC's technical committees are presently 
considering the formation of a ``Smart Grid Task Force'' to further 
evaluate these issues.
           nerc mandatory reliability standards & compliance
    Developing mandatory standards that apply to the more than 1,800 
diverse entities that own and operate the North American bulk power 
system is a complex undertaking. Standards must apply equally to 
companies with thousands of employees and to those with only 20. 
Additionally, the standards must not do harm. They must take into 
account unique component configurations and operational procedures that 
differ widely across the grid. Given our extensive experience in 
standards development, NERC firmly believes the level of expertise 
needed to create standards that achieve security objectives and ensure 
reliability can best be found within the industry itself.
    NERC develops all its Reliability Standards through an ANSI-
accredited process, which we believe provides the appropriate framework 
for ensuring that subject matter expertise is used to create and vet 
the standards. Though use of an ANSI-accredited process is not 
specifically required, the Federal Power Act does specify that the 
standards development process must ``provide for reasonable notice and 
opportunity for public comment, due process, openness, and balance of 
interests in developing reliability standards . . . .'' (Sec. 
215(c)(2)(D)).
    In certifying NERC as the ERO, FERC found that NERC's ANSI-
accredited standards setting process meets these requirements. The 
standards development process is set forth in NERC's Rules of 
Procedure, which FERC has approved.
    The ANSI-accredited standards development process has yielded 
important results as NERC has revised its Critical Infrastructure 
Protection (``CIP'') Reliability Standards over the past year. NERC's 
Board of Trustees approved revisions to eight of the nine currently-
approved CIP Reliability Standards on May 6, 2009, after the standards 
passed industry balloting with an 88 percent approval rating. The high 
approval rating indicates the industry's strong support for these 
development efforts, which has been vital to their success.
    These revised standards were filed with FERC for regulatory 
approval in the United States on May 22 and are already mandatory and 
enforceable in parts of Canada.
    NERC's Critical Infrastructure Protection standards fill a specific 
role in the protection of the bulk power system. The standards are 
comprised of roughly 40 specific requirements designed to lay a solid 
foundation of sound security practices that, if properly implemented, 
will develop capabilities needed to defend critical infrastructure from 
cybersecurity threats. The standards are not, however, designed to 
address specific, imminent threats or vulnerabilities.
    Work on additional, phase-two CIP standards revisions continues, 
with initial industry validation on track for the fourth quarter of 
2009. Modifications underway as part of the phase-two revisions include 
considering the extent to which elements of the Recommended Security 
Controls for Federal Information Systems under development by NIST can 
be incorporated into the CIP Reliability Standards. Also under 
consideration are broader foundational requirements for training and 
preparedness, specifically with applicability to entities who do not 
own or operate Critical Assets.
    Additional modifications underway in this phase-two development 
work were the subject of a letter I sent to industry stakeholders on 
April 7, 2009. The letter addressed the identification of Critical 
Assets and associated Critical Cyber Assets that support the reliable 
operation of the bulk power system, as required by NERC Reliability 
Standard CIP-002-1. The letter was based on initial data collections 
NERC has used to evaluate the implementation of the standard across the 
industry prior to the start of formal audits, which began for some 
entities on July 1, 2009. The appropriate prioritization of assets for 
protection is a critical component of a successful security strategy, 
though its implementation poses a significant challenge to industry 
given the complex nature of the system and the changing nature of cyber 
threats.
    In my April 7 letter, I called on users, owners, and operators of 
the bulk power system to take a fresh look at current risk-based 
assessment models to ensure they appropriately account for new 
considerations specific to cybersecurity, such as the need to consider 
misuse of a cyber asset, not simply the loss of such an asset. The 
letter is part of the iterative process between NERC and industry 
stakeholders as we work together to improve reliability. In this case, 
NERC gathered information about the status of implementation of the 
critical infrastructure protection standards and fed that information 
and its own insights back to the industry as part of a cycle of 
continuous improvement.
    This effort demonstrates that NERC is working to address a critical 
element of the cybersecurity challenge: The educational learning curve 
and resulting compliance-related challenges that must be addressed to 
improve the cybersecurity of the bulk power system. Ensuring that each 
of the more than 1,800 entities that own and operate components of the 
bulk power system understands cybersecurity and the efforts needed to 
adequately protect the security of the bulk power system has been a 
priority for NERC.
    The standards development and improvement process is producing 
results; however, NERC recognizes this process is not well-suited to 
addressing more imminent threats. As a result, NERC has been working 
with its stakeholders over the past year to develop and vet an 
alternate process for standards development to address imminent needs. 
This process is nearing completion and is expected to be submitted to 
FERC for approval before the end of the year.
                      addressing imminent threats
    At NERC, we are working in a number of areas to help provide or 
assist in the provision of the kinds of information that will help the 
industry better secure critical assets from advanced, well-resourced 
threats and other known cyber activity on an on-going basis. Strong and 
proactive participation by industry volunteers thus far has been 
encouraging.
    In these efforts, NERC collaborates with DOE and the U.S. 
Department of Homeland Security (``DHS'') on critical infrastructure 
and security matters on an almost daily basis. Additionally, NERC 
serves as the Electricity Sector Information Sharing and Analysis 
Center (``ES-ISAC''), which is responsible for promptly analyzing and 
disseminating threat indications, analyses, and warnings to assist the 
electricity industry.
    NERC has in place a formal mechanism for issuing alerts to the 
industry about important matters that come either from NERC's own 
efforts, identified vulnerabilities or attacks, or from Government 
agencies with specific information about possible threats. Alerts 
issued through this mechanism are not mandatory and cannot require an 
entity to perform tasks recommended or advised in the alert. NERC has 
significantly improved this system over the past year and continues 
improvements through the development of a secure alerting portal, due 
to be complete this fall.
    NERC is now able to provide timely, critical reliability 
information to nearly 5,000 security and grid operations professionals 
within minutes, and has demonstrated success by conducting training and 
using the system to send alerts, record acknowledgements and receive 
responses within several days. NERC has issued nine such alerts in 
2009, with its most recent ``recommendation'' receiving a 94 percent 
response rate. The industry has been very supportive as we have worked 
to improve this process.
    NERC's recent work to alert the industry of the Conficker worm, 
including lessons learned on mitigation, involved the issuance of one 
recommendation, two advisories, and an awareness bulletin over the span 
of 6 months. These efforts significantly contributed to overall 
preparedness and awareness of the underlying vulnerability and cyber 
threat.
    We acknowledge and believe, however, that there are circumstances 
where NERC's efforts will not be adequate to identify or address 
specific imminent threats. Threats like those suggested by the April 8 
Wall Street Journal article discussing the existence of ``cyber spies'' 
in the electric grid, for example, have been challenging for the 
industry to fully evaluate and address. Without more specific 
information being appropriately made available to asset owners, they 
are unable to determine whether these concerns exist on their systems 
or develop appropriate mitigation strategies. A mechanism therefore is 
needed to validate the existence of such threats and ensure information 
is appropriately conveyed to and understood by asset owners and 
operators in order to mitigate or avert cyber vulnerabilities.
    NERC and the electric industry have been working closely in 
confidence to evaluate threats such as those described in the article. 
Specific information about these efforts is bound by confidentiality 
agreements.
                   emergency federal authority needed
    Preparedness and awareness efforts like the assessments, alerts, 
and standards discussed above are necessary, but not sufficient, to 
protect the system against specific and imminent threats. NERC firmly 
believes that additional emergency authority is needed at the Federal 
level to address these threats, and NERC supports legislation that 
would give an agency or department of the Federal Government necessary 
authority to take action in the face of specific and imminent cyber 
threats.
    For the reasons discussed above (that reliability standards must do 
no harm, take unique component configurations into account, and apply 
equally to all bulk power system entities--including those in Canada--
regardless of size or structure), NERC firmly believes the level of 
expertise needed to create standards that achieve security objectives 
and ensure reliability can best be found within the industry itself. 
NERC believes an industry-based standards development process utilizing 
cross-border subject matter expertise will yield the best results for 
long-term reliability standards.
                               conclusion
    NERC, the electric industry, and the governments of North America 
share a mutual goal of ensuring threats to the reliability of the bulk 
power system, especially cybersecurity threats, are clearly understood 
and effectively mitigated. NERC has taken a number of actions to 
protect the bulk power system against cybersecurity threats and NERC 
will continue its work with Governmental authorities and industry 
stakeholders to do so. We believe these efforts have improved and will 
continue to improve the reliability and security of the bulk power 
system. We maintain, however, that these efforts cannot be a substitute 
for additional emergency authority at the Federal level to address 
specific and imminent cybersecurity threats.
    NERC appreciates the magnitude and priority of this issue, and 
supports enactment of legislation to address this gap in authority as 
quickly as possible. Moving forward, NERC is committed to complementing 
Federal authority to address cybersecurity challenges, regardless of 
the form it may take. We commend this subcommittee for its action to 
date and look forward to supporting your efforts however possible.

    Mr. Thompson. Thank you very much. Mr. Naumann, for 5 
minutes.

   STATEMENT OF STEVEN T. NAUMANN, VICE PRESIDENT, WHOLESALE 
   MARKETS, EXELON CORPORATION; REPRESENTING EDISON ELECTRIC 
        INSTITUTE AND ELECTRIC POWER SUPPLY ASSOCIATION

    Mr. Naumann. Thank you. Chairwoman Clarke and Members of 
the subcommittee. My name is Steve Naumann, and I am vice 
president of wholesale market development for Exelon 
Corporation. Our utility companies serve 5.4 million customers 
in Chicago and Philadelphia.
    I also serve as Chairman of the NERC Member Representatives 
Committee. As was noted, I am appearing on behalf of the Edison 
Electric Institute and the Electric Power Supply Organization. 
We appreciate the opportunity to testify about cybersecurity in 
a critical infrastructure on behalf of these organizations.
    I would like to discuss three issues relating to securing 
critical electric infrastructure. First, the success of public-
private partnerships in recognizing and addressing cyber 
threats and vulnerabilities; second, the need to avoid 
unintended consequences when implementing cybersecurity 
remedies; and third, policy proposals being considered by 
Congress and the administration.
    The owners, operators, and users of the bulk power system 
take cybersecurity very seriously. To this end, as 
cybersecurity threats continue to evolve and our adversaries 
become more sophisticated, the public sector welcomes even more 
cooperation with, and information from, Government partners.
    Both the Federal Government and electric utilities have 
distinct realms of responsibility and expertise in protecting 
the bulk power system from cyber attack.
    Ideally, to ensure the cybersecurity of the Nation's 
electric grid and utilize the vast expertise of both public and 
private sectors, we need to, clearly, define these 
complementary roles and responsibilities while facilitating 
cooperation and information sharing between Government agencies 
and utilities.
    Giving you an example of how Exelon operates, we address 
risks through a defense-and-depth strategy while balancing the 
considerations for consequences. This includes preventive 
monitoring and detective measures to ensure the security of our 
systems.
    We regularly perform penetration tests to inform us of 
whether our preventative strategies are working so we can 
enhance our protection as technologies and capabilities evolve. 
These tests allow us to practice and enhance our monitoring 
capabilities while yielding lessons learned that are unique to 
our system.
    But as was mentioned before, no two utility systems have 
identical network, hardware, or logistical strengths. No, 
single entity, will know the systems strengths or weaknesses 
like we do.
    Going on to Smart Grid, one of the issues that was raised 
was the increased, possible, vulnerability of adding these 
devices to the distribution system. We believe it is very 
important to work with the manufacturers and the vendors to 
ensure that security is built into the devices and is 
upgradeable from the devices.
    We would encourage the development of the security 
certification program, a good housekeeping seal of approval if 
you will, through which Smart Grid components and systems could 
undergo independent testing and receive that certification that 
security tests have been passed.
    This would help the utilities differentiate among vendors 
to select those providing appropriate cybersecurity. The 
careful consultation with the electric utility industry helps 
ensure that Government intervention in protecting the grid from 
a cyber attack doesn't have unintended or harmful consequences.
    As mentioned, the electricity grid is a complex system, 
there are certain measures that might prevent a particular 
cyber attack, could themselves, have adverse impacts to safe 
and reliable utility operation and service to customers.
    For this reason, any new legislation that would give 
additional cybersecurity authority to a Federal agency should 
be limited to true national emergency situations where there is 
a significant national security or public welfare concern and 
should provide to the extent possible consultation with 
industry experts.
    Congress should focus then, on what additional authority is 
needed in order to promote clarity and focus in response to 
imminent cybersecurity threats.
    The Section 215, mandatory reliability framework, reflects 
years of work in broad consensus reached by industry and other 
stakeholders and is a good starting point to go by. EPSO and 
EEI and their member companies remain fully committed to work 
with the Government and the industry partners to increase 
security.
    I appreciate the opportunity to appear today and would be 
happy to answer any questions. Thank you very much.
    [The statement of Mr. Naumann follows:]
                Prepared Statement of Steven T. Naumann
                             July 21, 2009
    Mr. Chairman and Members of the subcommittee: My name is Steve 
Naumann, and I am vice president for Wholesale Market Development for 
Exelon Corporation. I also serve as chairman of the member 
representatives committee of the North American Electric Reliability 
Corporation (NERC). I appreciate your invitation to appear today and 
the opportunity to testify about protecting the electric grid from 
cybersecurity threats.
    Exelon is a holding company headquartered in Chicago. Our retail 
utilities, ComEd in Chicago and PECO in Philadelphia, serve 5.4 million 
customers, or about 12 million people--more than any other electric 
utility company. Our generation subsidiary, Exelon Generation, owns or 
controls approximately 30,000 MW of generating facilities, including 
fossil, hydro, nuclear, and renewable facilities. Our nuclear fleet 
consists of 17 reactors; it is the largest in the Nation and the third 
largest in the world.
    I am appearing today on behalf of the Edison Electric Institute 
(EEI) and the Electric Power Supply Association (EPSA). Exelon is a 
member of both. EEI is the trade association of U.S. shareholder-owned 
electric companies and has international affiliate and industry 
associate members world-wide. EEI's U.S. members serve 95% of the 
ultimate customers in the shareholder-owned segment of the industry and 
represent about 70% of the U.S. electric power industry. EPSA is the 
national trade association representing competitive power suppliers, 
including generators and marketers. EPSA members own 40 percent of the 
installed generating capacity in the United States, providing reliable 
and competitively priced electricity from environmentally responsible 
facilities.
    My testimony focuses on the nature of cybersecurity threats to the 
bulk power electric system and the efforts of electric utilities to 
respond to those threats. At the subcommittee's request, I also will 
share suggestions and observations regarding the relationship between 
Government and the private sector in our efforts to secure the electric 
grid from cyber attacks.
    I want to assure the subcommittee that as owners, operators, and 
users of the bulk power system, electric utilities take cybersecurity 
very seriously. We are actively engaged in addressing cybersecurity 
threats as they arise and in employing specific strategies that make 
every reasonable effort to protect our cyber infrastructure and 
mitigate the risks of cyber threats. As the industry relies 
increasingly on electronic and computerized devices and connections, 
and the nature of cyber threats continually evolves and becomes more 
complex, cybersecurity will remain a constant challenge for the 
industry. But we believe we are up to the task, building on our 
industry's historical and deep-rooted commitment to maintaining system 
reliability.
   industry standards, emergency authority, and legislative proposals
    The industry believes it is appropriate for Congress to consider 
legislation providing the Federal Energy Regulatory Commission (FERC) 
new emergency authority to address imminent cybersecurity threats. I 
want to emphasize, however, that current law already provides the means 
to address many cybersecurity issues in the electric industry. Section 
215 of the Federal Power Act (FPA), which was enacted by Congress as 
part of the Energy Policy Act of 2005, provides for mandatory and 
enforceable electric reliability rules, specifically including rules to 
address cybersecurity with FERC oversight.
    The basic construct of the relationship between FERC and NERC, 
which FERC certified as the Electric Reliability Organization (ERO) 
under FPA Section 215, in developing and enforcing reliability rules is 
sound. In summary, NERC, using a well-defined stakeholder process that 
leverages the vast technical expertise of the owners, users, and 
operators of the North American electric grid (including those in 
Canada with whom we are interconnected) develops reliability standards, 
which are then submitted to FERC for review and approval. Once approved 
by FERC, these standards are legally binding and enforceable in the 
United States. NERC also submits these standards to regulatory 
authorities in Canada.
    I suggest the question on which the subcommittee should focus is, 
``What additional authority should be provided to FERC in order to 
promote clarity and focus in response to imminent cybersecurity threat 
situations?'' Legislation in this area should complement, not supplant, 
the mandatory reliability regime already established under FPA Section 
215, and any new FERC authority should be appropriately narrow and 
focused only on unique problems that cannot be addressed under Section 
215. The FPA Section 215 mandatory reliability framework reflects years 
of work and broad consensus reached by industry and other stakeholders 
in order to ensure a robust, reliable grid. It should not be undermined 
so early in its implementation.
    Any cybersecurity legislation should promote consultation with 
industry stakeholders and owner-operators of the bulk power system on 
remediation measures. Consultation is critical to improving 
cybersecurity.
    Obviously, the scope of the damages that could result from a 
cybersecurity threat depends on the details of any particular incident. 
A carefully planned cyber attack could potentially have serious 
consequences. In considering the scope of damages that any particular 
cybersecurity threat might inflict, utilities must also consider the 
potential consequences caused by any measures taken to prevent against 
cyber attack. Certain measures that might prevent a particular type of 
cyber attack could themselves have adverse impacts to safe and reliable 
utility operations and service to electricity customers. Examples might 
include slower responses during emergency operations, longer times for 
restoration of outages and disruption of business operations dependent 
on internet access. That is why each situation requires careful 
consultation with utilities to ensure that a measure aimed at 
protecting the grid from a malicious cyber attack does not instead 
cause other unintended and harmful consequences.
    Furthermore, every utility operates different equipment in 
different environments, making it difficult to offer generalizations 
about the impacts to the bulk power system or costs and time required 
to mitigate any particular threat or vulnerability. This complexity 
underscores the importance of consultation with owners, users, and 
operators to ensure that any mitigation that may be required 
appropriately considers these factors to ensure an efficient and 
effective outcome.
    For the foregoing reasons, any new legislation giving FERC 
additional statutory authority should be limited to true emergency 
situations involving imminent cybersecurity threats where there is a 
significant declared national security or public welfare concern. In 
such an emergency, it is imperative that the Government provide 
appropriate entities clear direction about actions to be taken, and 
assurance that those actions will not have significant adverse 
consequences to utility operations or assets, while at the same time 
avoiding any possible confusion caused by potential conflicts or 
overlap with existing regulatory requirements.
    Because of its extraordinary nature and potentially broad impacts 
on the electric system, any additional Federal emergency authority in 
this area should be used judiciously. Legislation granting such 
authority should be narrowly crafted and limited to address 
circumstances where the President or his senior intelligence advisors 
determine there is an imminent threat to national security or public 
welfare.
      public-private partnerships: collaboration and communication
    The following comments address the specific issues raised by the 
subcommittee's invitation to testify regarding how Government and the 
private sector share information before, during, and after 
cybersecurity attacks.
    Both the Federal Government and electric utilities have distinct 
realms of responsibility and expertise in protecting the bulk power 
system from cyber attack. The optimal approach to utilizing the 
considerable knowledge of both Government intelligence specialists and 
electric utilities in ensuring the cybersecurity of the Nation's 
electric grid is to promote a regime that clearly defines these 
complementary roles and responsibilities and provides for on-going 
consultation and sharing of information between Government agencies and 
utilities.
    Information about cybersecurity vulnerabilities and attempts to 
exploit those vulnerabilities is shared with electric industry owners, 
users, and operators through a number of channels every day. Federal 
agencies that communicate this information to the private sector, such 
as the United States Computer Emergency Readiness Team (US-CERT), as 
well as cybersecurity hardware and software vendors, classify 
vulnerabilities in terms of the generalized risk to systems. Factors 
such as the seriousness of consequences of a successful attack, the 
sophistication required to conduct the attack, and how widely used the 
potentially affected assets are within an industry are used to rank 
vulnerabilities as ``high'', ``medium'', or ``low'' risk.
    Fundamentally, however, the private sector can sometimes be 
disadvantaged in assessing the degree and urgency of possible or 
perceived cyber threats because of inherent limitations on its access 
to intelligence information. The Government is entrusted with national 
security responsibilities and has access to volumes of intelligence to 
which electric utilities are not privy. On the other hand, electric 
utilities are experienced and knowledgeable about how to provide 
reliable electric service at a reasonable cost to their customers, and 
we understand how our complex systems are designed and operate. Owners, 
users, and operators of the bulk power system are in a unique position 
to understand the consequences of a potential malicious act as well as 
proposed actions to prevent such exploitation. Greater cooperation, 
coordination, and intelligence sharing between Government and the 
private sector should be encouraged, consistent with the public-private 
partnership model endorsed by the President's 60-day cybersecurity 
review.
    Exelon, for example, is addressing the risks we know about through 
a ``defense-in-depth'' strategy while appropriately balancing 
considerations of potential consequences. This defense-in-depth 
strategy includes preventive monitoring and detective measures to 
ensure the security of our systems. We perform penetration tests where 
a contractor attempts to find and exploit vulnerabilities. The results 
of these regular penetration tests inform us about whether our 
preventive strategies are working so that we can enhance our protection 
as technologies and capabilities evolve. These penetration tests, which 
allow us to practice and enhance our monitoring capabilities, also 
yield lessons learned that are unique to our system. Because no two 
utility companies have identical network, hardware or logistical 
configurations, no single entity will know our system's strengths or 
weaknesses quite like we do.
    NERC, which functions as the Electric Sector Information Sharing 
and Analysis Center (ISAC), disseminates alerts to provide information 
to the electric industry. With the input of its members, NERC has 
revised its procedures significantly over the past 2 years to improve 
the ability to quickly and securely provide this critical information 
to industry. This should ensure that when new vulnerabilities are 
uncovered, that users, owners, and operators will receive the needed 
information in a timely manner to take corrective action. Thus, we 
believe that the ISAC is providing timely and relevant analysis and 
alerts to the industry. Many of us have been frustrated with NERC's 
historically slow information-sharing process. I am pleased to note 
they have improved and we are getting information in a much more timely 
manner, though like anything else, there is always room for more 
improvement.
                               smart grid
    As grid technologies continue to evolve and become ``Smarter,'' 
they inevitably will include greater use of digital controls. Congress 
recognized the potential cybersecurity vulnerabilities, as well as 
benefits, that could result from greater digitization of the grid when 
it directed DOE to study these issues in Section 1309 of the Energy 
Independence and Security Act of 2007. Manufacturers of critical grid 
equipment and systems must fulfill their security responsibilities by 
adopting good security practices in their organizations, building 
security into their products, and establishing effective programs so 
that, as new vulnerabilities are discovered, they can inform customers 
and provide technical assistance with mitigation. As new Smart Grid 
technologies are developed, it is imperative for the industry to work 
closely with vendors and manufacturers to ensure they understand that 
cybersecurity is essential so that protections are incorporated into 
devices as much as possible.
    It is equally critical that cybersecurity solutions be incorporated 
into the architecture being developed for Smart Grid solutions, so that 
the great benefits new Smart Grid technologies will provide are 
implemented in a secure fashion. With Smart Grid solutions in the early 
stages of development, opportunities exist to ensure this vision is 
fulfilled. EEI supports the process currently underway at the National 
Institute of Standards and Technology (NIST) to develop a framework of 
standards that will become the foundation of a secure, interoperable 
Smart Grid. It is imperative that NIST proceed boldly and expeditiously 
to establish standards applicable to all.
    EEI is encouraging the development of a security certification 
program, through which Smart Grid components and systems could undergo 
independent testing and receive a certification that security tests had 
been passed. Such a program would help utilities differentiate among 
different vendor solutions to select those providing appropriate 
cybersecurity.
    Finally, I would like to provide the subcommittee information on 
advanced metering implementation by Exelon's operating utilities. ComEd 
will be installing Advanced Metering Infrastructure under an Illinois 
Commerce Commission approved pilot program. PECO is installing Smart 
Meters in accordance with Pennsylvania law that requires distribution 
companies to deploy Smart Meters for all customers over 15 years. 
Cybersecurity has been a cornerstone of Exelon's Smart Grid/Advanced 
Meter Strategy from its inception in early 2008. Exelon understands and 
recognizes the potential risks associated with the deployment of such 
technologies throughout its service territories and treats 
cybersecurity with the utmost importance. To ensure security of these 
installations, Exelon is following internally developed security 
requirements and documenting them in requests for proposals to vendors 
for the supply of Smart Grid/Advanced Meter solutions. This includes 
the requirement to enumerate vendor security capabilities that ensures 
confidentiality, integrity, and availability. Exelon maintains a 
vulnerability management program which requires a documented 
penetration test to demonstrate that controls are implemented as 
designed. Third-party vendor audits are also performed to ensure vendor 
design & manufacturing controls are adequate. From an industry 
community and vendor perspective, Exelon is an active participant in 
the NIST Smart Grid Roadmap and Security Strategy development 
initiative and actively participates in other industry groups. ComEd 
and PECO will seek recovery of 100% of their costs of metering 
infrastructure in rate cases--as they do for all other infrastructure--
except to the extent ComEd and PECO receive stimulus funding for 
advance meters. ComEd and PECO both plan to apply to DOE for Smart Grid 
Investment Grant (SGIG) funds to support their overall Smart Grid 
deployment efforts. Greater security is one of the benefits of the 
Smart Grid that DOE has articulated. Pursuant to this, SGIG 
applications are required to detail the cybersecurity implications of 
any project seeking funding. Cybersecurity has been a key consideration 
in the development of ComEd and PECO's Smart Grid plans and will be 
further detailed in their respective grant applications.
                               conclusion
    While many cybersecurity issues are already being addressed under 
current law, we believe it is appropriate to provide FERC with explicit 
statutory authority to address cybersecurity in a situation deemed 
sufficiently serious to require a Presidential declaration of 
emergency. In such a situation, the legislation should clarify the 
respective roles, responsibilities, and procedures of the Federal 
Government and the industry, including those for handling confidential 
information, to facilitate an expeditious response.
    Any new authority should be complementary to existing authorities 
under Section 215 of the Federal Power Act, which rely on industry 
expertise as the foundation for developing reliability standards. Any 
new authority should also be narrowly tailored to deal with real 
emergencies; overly broad authority would undermine the collaborative 
framework that is needed to further enhance security.
    Promoting clearly defined roles and responsibilities, as well as 
on-going consultation and sharing of information between Government and 
the private sector, is the best approach to improving cybersecurity. 
Each cybersecurity situation requires careful, collaborative assessment 
and consultation regarding the potential consequences of complex 
threats, as well as mitigation and preventive measures, with owners, 
users, and operators of the bulk power system.
    Exelon and other electric utilities remain fully committed to 
working with the Government and industry partners to increase 
cybersecurity.
    I appreciate the opportunity to appear today and would be happy to 
answer any questions.

    Mr. Thompson. Thank you very much, and I thank all the 
witnesses for their testimony. I will remind each Member that 
he or she will have 5 minutes to question the panel. I will now 
recognize myself for the first set of questions.
    Each of you have talked about this attack in one capacity 
or another. Starting with Dr. Graham and going to his left, can 
the panel tell this committee in their professional opinion if 
the electric industry has appropriate protections, today, to 
protect against a cyber or an EMP attack?
    Mr. Graham. Mr. Chairman, the electric industry today does 
not have adequate protection in place, or as far as I can tell, 
any protection in place for the power distribution and the 
power generation systems of this country.
    Given that the power grids are in a state of 
transformation, I believe this is a particularly appropriate 
time to build that protection in and it will help not only with 
EMP but with such problems as grid collapse, as we saw on 
August 13, 2003 and earlier times as well.
    So it could be very effective. It is very timely and I 
believe, very needed.
    Mr. Thompson. Mr. Fabro.
    I have to admit, also, I love the name of your company too.
    Mr. Fabro. Thank you, sir. Thank you, sir. The question 
that you are asking is one that is quite difficult, because you 
are trying to encapsulate a very, very large problem with one 
single question.
    Is the bulk power system of the electric grid completely 
immune and protected from cyber attack? No, but there are 
significant pockets, significant pockets, and significant 
pockets of progress that have shown that the overall 
cybersecurity risk profile of the bulk power system in North 
America, not just within the United States, within North 
America, because it is a multi-national issue, has improved 
substantially. Substantially. It is very easy to go and look at 
the things that are notably bad; reports from the press or 
other issues that we hear in various news outlets.
    But overall, from someone who experiences on a day-to-day 
basis, who lives and works in the trenches of this, I actually 
see standards and work and cooperative engagements and what is 
being done by public-private partnerships in action and they 
work.
    I cannot comment on EMP. I will just leave that, of course, 
to Dr. Graham.
    Mr. Thompson. Thank you. Mr. Assante.
    Mr. Assante. I have been very encouraged by the progress in 
industry to secure vital systems to protect the bulk power 
system. It is a very complex problem in order to wrestle. I 
will tell you this: I have been working for years and looking 
at the underlying technology, the vulnerabilities that exist in 
the unique operating environments in which the technology 
exists.
    We do believe that there are vulnerabilities in the system. 
We know that we are not immune from these attacks. We are 
committed to this call to action. My letter, made on April 7, 
was a, I think, very important in that it brought out the 
dialogue that was necessary to talk about how to prioritize 
assets for protection.
    There are some important issues to consider when you look 
at how one can manipulate technology in such a way to cause an 
impact. The misuse of technology is a very important thing to 
consider. The ability to exploit technology horizontally is 
important.
    Industry, I believe, is up for that challenge. I don't 
think there is an easy answer, and it won't happen very 
quickly, or enhancing the standards. We are putting in place 
all the mechanisms necessary to be able to communicate about 
threats and warnings, so that we can take quicker action. We 
are dedicated to public and private partnerships to learn more 
information.
    Very briefly on EMP, I again, believe that the 
electromagnetic pulse, is a high-impact concern is something 
that we are concerned in the electric power system. We are 
partnering with the Department of Energy. We have consumed the 
EMP Commissions report. We supported it, not only staff, but 
also industry experts, in the deliberation. We intend to look 
at these risks alongside of other risks to evaluate them and 
prioritize them and to take a look at what mechanisms we have 
to further mitigate the system for these types of threats.
    Mr. Thompson. Mr. Naumann.
    Mr. Naumann. Thank you.
    My belief is that in general, the North American grid is 
well-protected against cyber attacks; at least those threats 
that we know about.
    The biggest problem, we believe, we face is the lack of 
information because of the security nature of that information 
and it is hard to devise mitigation against something you don't 
know.
    That is something that is on-going. We are trying to work 
with the Federal agencies. But that, to us, is the No. 1 thing 
that we need to work on.
    As far as EMP attack, as Mr. Assante has said, and as Dr. 
Graham said, that this is a low-probability, high-impact event. 
It is something that the industry will pay attention to, wants 
to work with the Federal Government to devise mitigation and 
responses. But what we need to know is what is the design 
threat that needs to be dealt with? What are the mitigations 
from that that we need to work out? What are the consequences 
of that mitigation? What is the priority of this particular 
threat compared to the other low-probability, high-impact 
threats that have been mentioned?
    Thank you.
    Mr. Thompson. My time has expired. I recognize the 
gentleman from California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. Again, I 
would like to congratulate the panel, not only on their verbal 
testimony, but their written testimony. It is very helpful. We 
could spend hours here and we have got two really serious 
subjects. One, the EMP and one cybersecurity, and I think it is 
good that we have them here together, but also there is a 
problem because we can't go in depth as to where we want to go 
on this.
    First of all, Mr. Naumann, you talked about the problem 
with the industry not knowing the threat because of the 
security nature of the information from the Federal Government. 
Are we beginning to attack that problem? How would you suggest 
that we try and resolve that problem?
    Mr. Naumann. I believe we need to have a more formal 
collaborative, where a certain set of industry people are given 
sufficient clearance. This is something that NERC is working 
on, where the Federal Government can give us high-level 
security information. Those experts can then, working with the 
Federal Government, devise the mitigation and then essentially 
censor the information, but send out the mitigation to the 
industry, so that we could implement that.
    Mr. Lungren. Mr. Assante.
    Mr. Assante. We have been working hard, I think, and it is 
a critical impasse. I think it gets back to the Aurora 
vulnerability. What is needed to devise the best mitigation 
strategies is accurate information in order to support the 
development of those strategies. We have been working very hard 
with the Department of Energy, the Department of Homeland 
Security, and even through the intelligence community, to be 
able to share information.
    To be able to validate information as we see it in the 
printed and public press, of the Wall Street Journal, to be 
able to understand the success and tactics that adversaries 
have been able to use to compromise systems, whether they be 
Government or private sector and being able to appropriately 
adjust our defense postures. Importantly, going past 
information sharing, we are working on the elements to share 
the information.
    So within our industry, we can get that information to 
people who need to take action. We are also working on 
developing the ability to respond to and to contain and to 
minimize the consequences of a successful attack. We are not 
going to put all our effort into simply prevention. That has 
failed us as a Nation. Prevention is important, but it is not 
the only part of it and we are dedicated to working with 
entities to be able to put more focus on it.
    Mr. Lungren. Let me ask you this, when we usually do a risk 
analysis, we talk about threat vulnerability and consequence. 
You obviously know the consequence, your companies would know 
the consequence of a problem; a disastrous or consequential 
interruption.
    Are you saying what you need more from the Federal 
Government is information with respect to the threat only? Or 
also that the Federal Government has an ability to tell you 
what the vulnerabilities are above and beyond what you know 
your vulnerabilities to be?
    Mr. Assante. They are, actually, it is on both accounts. As 
far as it relates to threats, when the Federal Government can 
observe and analyze successful attacks. It is important for us 
to understand how those attacks looked and how we would respond 
to those attacks. But importantly, as you address 
vulnerabilities, control systems are very complex, the 
implementation of that technology is complex and the ability of 
any one asset owner utility to understand the inner workings of 
that technology to all the underlying weaknesses that might be 
there, it is very difficult for the asset owner to do that.
    Mr. Lungren. So who would you look to for that? The Federal 
Government? Both?
    Mr. Assante. It is the Government. The Department of Energy 
and the Department of Homeland Security have two very 
successful programs that have been testing control system 
technology. The discovery of vulnerability is very helpful for 
us to be able to enhance the security of those systems.
    Mr. Lungren. Does that need to be somewhat made more 
robust? Or is there a problem with getting security ratings for 
your people? I mean, where is the problem there?
    Mr. Assante. Well, some of the problem has to do with the 
partnership that is required in this global supply chain of 
working with these vendors that supply the technology. A lot of 
times, they are willing to look at the technology, but under 
contract agreements, so that the information wouldn't be made 
public. That information then goes to the vendor to address. It 
is, in many cases, shared with the utilities. But that progress 
has been limited by the scope of those programs. We do believe 
they provide a lot of value.
    We have been heavily participating----
    Mr. Lungren. Well, if you need any additional legislative 
umbrella for that, let us know.
    Dr. Graham, can you tell me, are there any other countries 
hardening their critical infrastructure to defend against EMP?
    Mr. Graham. Yes. In fact, we have helped some of our allies 
in that direction. We know that at least the Soviet Union, now 
Russia, has also worked on that. We know that China is 
extremely interested in EMP, has a large number of people 
there, engineers, scientists, working on it. There is enough 
traffic among these communities that deal with high-tech and 
nuclear subjects, outside the United States, that are among our 
adversaries that it is widely spread.
    Mr. Lungren. Just one real short question. That is, are any 
countries ahead of us in terms of our efforts to either 
recognize our problem or react to it by hardening our critical 
infrastructure?
    Mr. Graham. They are all ahead of us in one way, which is 
they are less dependent upon computer-controlled information, 
dominant systems, than we are, and therefore less vulnerable.
    In terms of number of people working on the subject, I 
think China is far ahead of us. In terms of the implementation 
in civilian systems, most of the European countries are ahead 
of us.
    Mr. Thompson. Thank you very much. The Chair now recognizes 
the gentlelady from California for 5 minutes. Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman, and thanks for this 
hearing. I think the fact that we are here today speaks of our 
bipartisan intention to pay attention to this. Our new 
Chairwoman, Ms. Clarke, is joined, of course, by the Chairman 
of the full committee. Mr. Lungren has had a full interest in 
this for some time.
    I notice Mr. Langevin, who chaired the subcommittee with 
jurisdiction over cyber was earlier here. A long time ago, I 
was the Ranking Member on the Cyber Security Subcommittee, when 
it was chaired by Mr. Thornberry. So it is many years of 
frustration over this situation that has brought us here today 
and I am happy to be an original co-sponsor of this bill.
    I think back to the last Congress, at a hearing that we 
had, and we all knew, because we had been briefed in a 
classified setting, about some things that needed to be done to 
make the Nation secure and it was not happening. When we turned 
to FERC, they were unable to make it happen. We asked them if 
they wanted the authority to require the steps to keep the 
Nation secure? They basically saw--so they couldn't do it, and 
they didn't want to do it, which I thought was a pretty weird 
answer, in all honesty.
    Because the comments made today about the need for 
collaboration, we agree with. The comments made about the role 
of the ISECs, we agree with. The need, and if there are 
suggestions, and that is my question, to add some additional 
steps so that the private sector has consultation, that will 
just enhance the matter.
    But when all is said and done, the infrastructure that is 
owned, primarily, by the private sector is relied on by the 
entire country. If a SCADA system has a vulnerability that we 
know about, and steps are not taken to secure it, and the whole 
grid goes down, the Government has the right to be interested 
in that matter and right to, really, to require that steps be 
taken to protect the Nation.
    So I am interested in specific comments that any of the 
witnesses may have about how you believe that collaboration 
might be enhanced in this bill. I don't think it precludes 
anything actually. I don't think there is a need to enhance it 
because it doesn't preclude the things that you have discussed. 
But if you have specific suggestions on how to involve the 
private sector, I would be interested in hearing them.
    Before I turn to you, I didn't want to neglect Mr. 
Bartlett, who of course has been known for some time on the 
log, focusing on cyber, that is the issue he has focused in on 
for some time; that also needs attention.
    So anybody who has a suggestion on private sector 
collaboration, I am all ears.
    Mr. Graham.
    Mr. Graham. I believe in the line of collaboration, one of 
the first things that needs to be done is the Department of 
Homeland Security needs to be informed and take an interest in 
the subject of EMP and I presume cyber attack.
    To give you an example, trying to--we have been, as a 
commission, unsuccessful in engaging Department of Homeland 
Security in this area. Today, I went to the Homeland Security 
website, I put in EMP, it took me to FEMA and there it told me 
that EMP was a form of radioactive fallout and it said ``only 
those who rely on electronically-driven life support systems 
are at risk.''
    Ms. Lofgren. Could I--very good. So you at DHS, pay more 
attention, our new Secretary, I think, will be paying 
attention. Mr. Fabro.
    Mr. Fabro. I think that the questions, the statement that 
you have made is exceptionally accurate. That we have all the 
pieces in place, from what I see, from what my experience 
indicates, is that the element of robustness, as it relates to 
what is coming upwards from independent research, what is 
actually being discovered and found within the operational 
environment of the private sector itself isn't coming upwards.
    There is no sharing mechanism for that information to come 
upwards to either, validate, substantiate, disprove, or have 
some other impact on what is being done by the Federal research 
community. Make no mistake, the work that is being done with 
DHS and DOE, absolutely valuable, absolutely valuable. The 
capabilities for FERC----
    Ms. Lofgren. So, the research world needs to be brought in.
    Mr. Fabro. It needs to be brought in. Has been spoken about 
earlier, the complexities involved with the fact that there is 
so much vendor-specific issues related to securing this, the 
vendors are often exceptionally reticent to accept the 
independent research, because it may impact a variety of 
different things from----
    Ms. Lofgren. Right.
    Mr. Fabro [continuing]. From a business perspective.
    Ms. Lofgren. I don't know if I have time, Mr. Chairman, to 
get a few quick comments from the other two witnesses, under a 
minute total?
    Mr. Thompson. You have a minute.
    Mr. Fabro. I do believe our interests are well aligned 
here, in terms of what to protect. One of the obligations that 
we have is that we enhance our security incident reporting.
    As incidents occur within the private sector, it is very 
important they quickly be shared. The incidents be absolutely 
analyzed. And information, lessons learned, be shared back, so 
others could protect themselves.
    It is something we feel very strongly about. I think we 
demonstrated that recently.
    We also believe in terms of research, that better cyber 
awareness tools, of what actually is occurring across the 
internet and large networks, is very important. This is an area 
that the Government can contribute greatly.
    Ms. Lofgren. Couldn't ES-ISAC be used to that effect?
    Mr. Fabro. We absolutely believe the ES-ISACs can affect, 
and they probably need some analytical support in the ability 
to----
    Ms. Lofgren. Mr. Naumann, you have 15 seconds.
    Mr. Naumann. That much. Thank you. Very briefly, just to 
add on. We think the most important thing is clear and concise 
communication. So that if there is a threat out there, that 
threat gets down to the users, owners and operators, who 
understand our system and equipment, so that we can take 
appropriate mitigation.
    If we don't know about the threat, it is very hard to 
mitigate against it.
    Ms. Lofgren. So, this bill will certainly let you know 
about that threat.
    Mr. Naumann. Yes, but if there is an emergency, to the 
extent there is time, it is very important that rather than 
issuing a directive, there be as much consultation as is 
possible under the circumstances, else our concern about 
unintended consequences of those directives.
    Ms. Lofgren. Thank you, Mr. Chairman, I appreciate the 
extra minute.
    Mr. Thompson. Thank you very much. The Chair recognizes the 
gentleman from Maryland, Mr. Bartlett, for 5 minutes.
    Mr. Bartlett. Thank you very much. I want to thank you 
again for inviting me to be here.
    EMP attack may be a low probability, it is certainly a 
high-impact event. But when you have such a potential like your 
house burning, you buy an insurance policy. You do something 
that will make you whole in the event that that happens.
    I would submit that in our country, we have done 
essentially, nothing, that would make us whole, if this were to 
happen.
    Dr. Graham, it is my understanding that electromagnetic 
pulse is an unavoidable accompaniment of any and every nuclear 
detonation. That if it occurs at ground level, that the area of 
the fireball and the EMP area, are not all that much different, 
that we have had little attention to EMP when it is a ground 
level attack.
    But if it is at altitude, and if it is extra atmospheric, 
it is line of sight. A detonation 300 miles high above 
Nebraska, Iowa, would cover our whole country? Is that 
essentially correct?
    Mr. Graham. Yes, with a footnote that even for a surface, 
or near-surface nuclear burst, if there are things like power 
lines or conductors going into the fireball, that fireball acts 
like a tremendous battery. And will drive electrical signals 
miles and miles beyond its perimeter, but along the line.
    Mr. Bartlett. It is my understanding that in your work on 
the commission that you interrogated two Russian generals, who 
told you that the Soviets had developed, and they have enhanced 
EMP weapons that would produce 200 kilovolts per meter. That is 
correct?
    Mr. Graham. Yes, that is correct.
    Mr. Bartlett. That would be 100 kilovolts per meter at the 
margins of our country?
    Mr. Graham. It depends--it is somewhat north, south 
dependent affect, but in some directions, yes.
    Mr. Bartlett. It is my understanding that the most we have 
ever built and tested to is sometimes 30 and sometimes 50 
kilovolts per meter. Is that correct?
    Mr. Graham. Yes, that is correct. The upper figure was used 
earlier, and now the lower.
    Mr. Bartlett. If in fact we could be exposed to 100 or 200 
kilovolts per meter, protecting to 50 kilovolts per meter is 
little better than doing nothing, is--or 30, it is now 30. Is 
that correct?
    Mr. Graham. Well, it is unknown as to how good the 
protection would be above that, because, it would be an 
untested regime. In general, the test, the protection could 
fail at the higher levels.
    Mr. Bartlett. What proportion, what part of our electronic 
world would you expect to be affected by 200 kilovolts per 
meter?
    Mr. Graham. Essentially, every thing that wasn't in a 
conductive package, everything from PCs on up through power 
grids.
    Mr. Bartlett. It would have to be in a Faraday cage and 
grounded if it were to survive. Is that correct?
    Mr. Graham. Yes, individual components that are wrapped up 
in protective packages might survive it. But anything that is 
functional, or connected to other systems, would not.
    Mr. Bartlett. In a former life, I was a scientist. I am 
always amazed at scientists and their ability to understate. I 
am now kind of a recovering scientist.
    But Dr. Graham is a scientist, and he says that ``EMP is 
one of a small number of threats that can hold our society at 
risk of catastrophic consequences.''
    In other words, ``that could end life as we know it.'' Is 
that correct?
    Mr. Graham. Certainly as we know it in the United States. I 
don't think North Korea would find it a shock if they had an 
EMP event, because, they have so little infrastructure to begin 
with.
    But, our country has many times the population it had say 
in 1900. Yet, our facilities could be driven back to the pre-
1900 level by an EMP attack. The country could just not support 
that population.
    Mr. Bartlett. This has been described as a high-level EMP, 
robust EMP lay down, as a giant time machine that would move us 
back a century in technology. That is roughly correct?
    Mr. Graham. Yes, maybe a little more than a century affect.
    Mr. Bartlett. So, this is such a horrendous consequence. 
Why are we not paying more attention to it?
    One of the great experts in this area, Lowell Wood, says 
``it is just too hard. They don't want to deal with it.'' Is 
that the problem?
    Mr. Graham. That is probably a better question for a social 
scientist to answer. But, I have heard it characterized as a 
low-probability, high-impact affect. The commission would not 
assign a probability to it.
    However, we do know that all of our adversaries across 
their whole reach have all the capability necessary to execute 
this kind of attack. They know our vulnerability to it.
    So, it seems to me that we cannot assign it a low 
probability of occurring. It won't happen every day. But, it 
would take us by surprise if it happened today.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Mr. Thompson. Thank you very much. For a recovering 
scientist, you do all right.
    Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. I want to thank the Chairwoman and the 
Ranking Member for holding this committee. Thank you, Chairman.
    Dr. Graham, I assume, and I am making the statement that 
you feel comfortable with your statement, and as chairperson of 
the commission to assess the threat to the United States from 
EMP. The research of that commission gives you comfort to make 
the statements you are making today. Is that correct?
    Mr. Graham. Yes, that is correct. Three other members of 
the commission are here as well.
    Ms. Jackson Lee. Let me thank them for their work. Let me 
just read the opening of your comments: ``EMP is one of a small 
number of threats that we can hold our society at risk from 
catastrophic consequences.''
    Then you make mention of the fact that several potential 
adversaries have, or can acquire, the capability to attack the 
United States with a high-altitude, nuclear weapon-generated 
electromagnetic pulse, EMP. A determined adversary can achieve 
an EMP attack capability without a high level of 
sophistication.
    Would you make these comments right at the front of your 
statement without substance and being able to substantiate it?
    Mr. Graham. Well, I would make those statements. We have 
substantiated them.
    Ms. Jackson Lee. Yes, and you would not make them without 
them being substantiated. Is that correct?
    Mr. Graham. Absolutely not.
    Ms. Jackson Lee. Why did you make those statements, Dr. 
Graham?
    Mr. Graham. We have issued several classified reports as 
well, that go into these in much more detail, which are 
available to the Congress. We have explored the subject with 
the intelligence community, and with the Department of Energy, 
and its nuclear weapon design laboratories, at great length. We 
base our conclusions on that.
    Ms. Jackson Lee. Let me ask the three gentlemen, I think to 
your right, if I am correct. A simple hurricane that most 
people don't know anything about called, ``Hurricane Ike,'' 
which obviously is a natural disaster, had a catastrophic 
impact, or an exponential impact. Because in fact, after the 
storm was over, the community that it impacted, was without 
electricity for some 6 weeks-plus.
    It is probably the most costliest hurricane in that Gulf 
region, short of Hurricane Katrina, and possibly Rita. But more 
importantly, the suffering was enormous.
    Can you explain to me the basis of the self-regulation of 
your industry, Mr. Naumann? Why you wouldn't want more intense 
regulation? Because a potential attack, or impact of EMP, as 
Dr. Graham has said, ``would be enormously catastrophic.'' In 
fact, whole communities could be wiped out.
    Mr. Naumann.
    Mr. Naumann. Thank you, I don't believe it is an issue of 
regulation. I believe it is an issue of getting together, 
setting the priorities, determining what the threat is and 
then----
    Ms. Jackson Lee. You don't think that you could do it 
better with a Government partnership? Having more stringent 
regulations as it relates to EMP?
    Mr. Naumann. I don't believe the regulation itself would 
make the difference. The partnership would.
    Ms. Jackson Lee. So, you agree with Dr. Graham that we have 
the potential of a catastrophic impact with the EMP?
    Mr. Naumann. I don't have access to the classified 
information Dr. Graham does.
    Ms. Jackson Lee. But I just asked Dr. Graham, whether he 
could substantiate it. So, based on his being able to 
substantiate, would you agree that it could have a catastrophic 
impact?
    Mr. Naumann. I absolutely agree.
    Ms. Jackson Lee. I thank you.
    Mr. Assante.
    I think you are NERC, N-E-R-C, and I think that is the 
group that self-regulates and allows electric companies to go 
out during a hurricane, and have no criteria for getting back 
on.
    What is your description of self-regulation? Do you feel 
there needs to be more regulation and partnership between the 
Government and its industry to protect it against EMP, as Dr. 
Graham has mentioned?
    Mr. Assante. Certainly, EMP as a threat is disturbing in 
that, different from Ike, it destroys components of the power 
system that will be difficult to restore from----
    Ms. Jackson Lee. Ike, is only an example, I mean it holds 
electricity.
    Mr. Assante. I absolutely understand. I do believe that, 
and we had the meeting with the commission, and we have met 
with experts that has provided testimony----
    Ms. Jackson Lee. So would you support more Government 
regulation and partnership?
    Mr. Assante. I would suggest partnership is really 
important to understand the problem----
    Ms. Jackson Lee. Regulation you would look at?
    Mr. Assante. I do believe Section 215, is an appropriate 
vehicle to----
    Ms. Jackson Lee. Is or is not?
    Mr. Assante. I think it could be and it is an appropriate--
--
    Ms. Jackson Lee. Let me go to--thank you very much.
    The few minutes that I have, Mr. Fabro.
    You heard my comments and Dr. Graham's comments. We have a 
real problem.
    Do you believe that we need to have a greater enhancement 
of Government partnership? I call it regulation to ensure 
against this disaster?
    Mr. Fabro. Absolutely, if the findings from Dr. Graham and 
his commission are accurate, as a scientist myself, I firmly 
agree that these issues are very important.
    I think that the partnership, with involvement from the 
Federal Government is critical, to fully understand the issues. 
I think that the findings from that must be incorporated into 
future State standards.
    From a regulation perspective, I don't know if it has to be 
a regulatory function, but I certainly do agree involvement 
from the Federal Government is required for a full picture.
    Ms. Jackson Lee. I thank you. I think without regulation, 
we don't get enforcement and implementation.
    I thank you, and I yield back to the Chairman.
    Mr. Thompson. Thank you very much.
    Now, your 5 minutes, the gentleman from New Jersey.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Chairman, this legislation did not come out of the 
blue. It didn't materialize itself.
    I want to associate myself with the comments of Mr. 
Bartlett. We should all be very seriously concerned. I guess 
that is why we are here.
    But I remember last May, when NERC's CEO, Rick Sergel, sat 
in that seat over there. He admitted to this committee that we, 
the committee, had been lied to by the electric industry. Maybe 
you will remember that.
    For those Members who were not here last year, NERC told us 
in October 2007, that three-quarters of the industry had 
mitigated a vulnerability known as Aurora. NERC claimed that 
they sent the survey out to industry, and they had received, 
obviously, responses back.
    We finally got the truth out, and found out that the survey 
hadn't been sent. NERC had no hard numbers. NERC just made them 
up to get us off their back. We found that out last year.
    So we learned then to be suspicious. After the hearing, and 
to his credit, Mr. Sergel, brought in Mr. Assante to restore 
the credibility of NERC. The committee--and I believe he has 
chosen a very, fine person for this position.
    I would like to ask Mr. Naumann a question.
    You are here representing the Edison Electric Institute and 
the Electric Power Supply Association, Mr. Naumann, is that 
correct?
    Mr. Naumann. Yes, Congressman.
    Mr. Pascrell. A question about September 11, your 2008 
meeting of the NERC Critical Infrastructure Protection 
Committee. At the committee meeting, the NERC Infrastructure 
Protection Committee received a briefing on the report of the 
commission to assess the threat to the United States from the 
EMP. This is the report. Have you seen that report, Mr. 
Naumann?
    Mr. Naumann. I have skimmed--scanned the report on-line, 
yes.
    Mr. Pascrell. Then you know, basically, what is in here 
then, right?
    Mr. Naumann. I do.
    Mr. Pascrell. This report was written by the congressional 
commission that Dr. Graham chairs. The commission has been 
reviewing our electric grid security against an intentional, or 
unintentional, event for years. The commission found, Mr. 
Chairman, and Mr. Ranking Member, ``a single EMP attack may 
seriously degrade or shut down a large part of the electric 
power grid in the geographic area of the EMP exposure, 
effectively instantaneously.''
    The commission came up with a number of steps that the 
private sector can take to help significantly reduce the threat 
of EMP. They were good recommendations. I do not believe they 
were prohibitively costly.
    Now, here are the minutes of the meeting. Have you seen 
this, Mr. Naumann?
    Mr. Naumann. No, sir.
    Mr. Pascrell. You never saw the minutes of the meeting?
    Mr. Naumann. I am not a member of that committee.
    Mr. Pascrell. I know you are not. But I asked you if you 
saw the meeting--the minutes. Did you see the minutes, Dr. 
Graham?
    Mr. Graham. No.
    Mr. Pascrell. Okay.
    I currently have in my hands, the minutes from the meeting. 
I ask for unanimous consent to introduce these minutes into the 
record, Mr. Chairman.
    Mr. Thompson. Without objection.*
---------------------------------------------------------------------------
    * The information referred to has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Pascrell. You would think that an issue as serious as 
an electromagnetic pulse, which has catastrophic consequences, 
is not terribly expensive to fix, would have spurred the 
electric industry into action. You would think that an at-risk 
industry would want to fix its vulnerabilities. You would think 
that after not fixing the Aurora vulnerability for years, the 
industry would want to show some proactive security efforts, 
send a message that at least they are moving in the right 
direction.
    But this is not what happened, Mr. Chairman, on September 
11 of last year. According to the minutes, ``there are no 
actions expected by the Critical Infrastructure Protection 
Committee or NERC to this rep.''
    No actions. Nothing. The industry, which is, as Chairwoman 
Clarke stated, ``responsible for operating security grid plans 
are doing nothing to secure its infrastructure or to mitigate 
this threat.''
    Now, Mr. Naumann, why aren't your colleagues doing more to 
secure your infrastructure against an intentional or 
unintentional EMP event or cyber attack? Mr. Naumann.
    Mr. Naumann. Congressman, as I said, we want to work with 
NERC and the industry in identifying what needs to be done, 
what the design threat is. I just heard from Congressman 
Bartlett, for example, whether the threat is 200 volts per 
meter or 50 volts per meter----
    Mr. Pascrell. Mr. Naumann, Mr. Naumann, excuse me. Why 
aren't you doing anything right now to secure the 
infrastructure?
    Mr. Naumann. In order to----
    Mr. Pascrell. You are telling me something, everybody knows 
in this room. We listen.
    Mr. Naumann. I----
    Mr. Pascrell. Well, then please answer my question?
    Mr. Naumann. In order to secure the infrastructure, we 
first have to determine what threat to protect against and then 
design mitigation. As I understand it, through NERC, Mr. 
Assante is taking this up as one of the action items. But it 
has to be done in a thoughtful manner.
    Mr. Pascrell. So the industry--these are the minutes. I 
mean, I didn't make it up.
    Mr. Naumann. I was testifying----
    Mr. Pascrell. I yield back.
    Mr. Thompson. Thank you very much. I appreciate your--we 
have Ms. Richardson and Mr. Lujan and we have four votes to 
take after that. Ms. Richardson.
    Ms. Richardson. Mr. Chairman, I will be very brief so I can 
give my colleague an opportunity to speak before our break.
    Is Mr. Sean McGurk present, from the Department? Okay. I 
would like to recommend during the break, Dr. Graham, since you 
have said ``you have had an unsuccessful engagement of speaking 
with the Department,'' he is right here, I think, in the third 
row. For the record, Mr. Chairman, I would like to recommend 
that maybe we submit the testimony to the new Secretary and 
urge her and her appropriate Department to review the 
information and give them an opportunity to come forward.
    Mr. Thompson. I would be happy to do it.
    Ms. Richardson. My last point, and I do want to be brief, 
as I said, for my colleague. Having reviewed the bill that we 
have on the table, I would just like to work with the Chairman, 
possibly in a Manager's Amendment, as I listen to the testimony 
today, one of the things that I think we could add is in Mr. 
Fabro's testimony, in the very back, he gives three points that 
we could focus on. One is ``research,'' which has been much 
discussed, much discussed today.
    Second, ``redefining standards,'' which there is the 
ability to do some of that in the bill. But what we don't talk 
about is he talked about ``procurement guidance.'' Specifically 
from his testimony, he says ``in the case moderate 
reengineering of existing procurement guidelines can have 
tremendous downstream influence, in both power systems, 
cybersecurity and it can be done immediately.''
    So I will work with my staff and in conjunction with some 
of the folks that have been here today to see if there is any 
way that we can help to strengthen it even further.
    With that, I yield back the balance of my time.
    Mr. Thompson. Thank you very much.
    The gentleman from New Mexico for 5 minutes.
    Mr. Lujan. Thank you very much, Mr. Chairman and thanks to 
my colleague, Ms. Richardson, for being so kind with her time.
    Mr. Assante, did I hear you correctly that when there was a 
reference to cybersecurity that prevents--did you say something 
along the lines ``prevention is not necessarily the answer?''
    Mr. Assante. I don't think we should put our full faith in 
preventing attacks. It is very important that we also address 
investments in being able to categorize, observe them, and 
respond to them, and minimize their consequences in the system. 
So we would like to take a comprehensive approach to cyber 
attacks, not just installing more cybersecurity solutions that 
have failed in the past. Some of the advanced threats are 
capable of getting around those solutions. We want to make sure 
that we have got the full capabilities to be able to handle 
this important challenge.
    Mr. Lujan. Do any of the bulk power systems have a 
responsibility to report to NERC, or the body, if there is a 
cyber attack?
    Mr. Assante. They do. Under the CIP standards today, they 
have to report security incidents affecting critical cyber 
assets to NERC. NERC will take that information, analyze it and 
pass it on for warnings for other organizations.
    Mr. Lujan. To date, have there been any reports to NERC?
    Mr. Assante. Yes. We have received reports of security 
incidents to the bulk power system.
    Mr. Lujan. So is the grid safe today?
    Mr. Assante. I would tell you that it is--I believe that 
the grid is not immune from attack. We have seen the attacks 
occur. What we can do is try to respond to those attacks, 
enhance our security and ability to respond to them. It is 
definitely a concern. It is why we are asking for, immense 
authorities from the Federal Government to very specific and 
imminent cyber threats.
    Mr. Lujan. So, Mr. Naumann, with that being said, I stand 
corrected, but I thought I heard you say earlier that you feel 
that the grid is safe today?
    Mr. Naumann. I believe I said ``it is relatively secure 
from the threats that we know of.''
    But it----
    Mr. Lujan. Okay.
    Mr. Naumann [continuing]. May not be secure from the 
threats we don't know of, which is why we support the emergency 
legislation.
    Mr. Lujan. Mr. Assante, with that being said, I think that 
we heard from Ms. Richardson and others the importance of 
making sure that we are able to provide the information 
necessary so that you can prepare for any cyber attacks that do 
exist. But there was a Wall Street Journal article in April of 
this year that highlighted threats that we do know, that 
occurred, that I don't know if they have been addressed or not, 
but in your testimony you state ``that there has been progress 
made through NERC with the bulk power systems.''
    Mr. Assante. Yes.
    Mr. Lujan. Can you just highlight those quickly?
    Mr. Assante. Sure. I absolutely can. Most importantly, our 
ability to communicate effectively with the 1,800-plus entities 
that comprise the bulk power system is an important capability 
that we work very hard to achieve.
    The second piece is that we have been working in great 
partnership with the Department of Homeland Security and the 
Department of Energy to be able to analyze advanced threats. So 
when we become aware of them, and I will give you a quick 
example, we have seen suspicious activity against power system 
networks. They have reported that to me at the ES-ISAC. I 
shared that information with our Government partners and then 
provided excellent analysis of what it looked like, what it 
was, and we went back and we were able to notify and warn other 
entities of the suspicious activity.
    So those are the types of progress that I think is very 
important. I think it--we are working full force in the 
collaborative side. But if a cyber threat was imminent and 
specific, we believe the necessity to have emergency 
authorities to deal with that and deal with it in a mandatory 
way are appropriate.
    Mr. Lujan. Yes. With that being said, Mr. Naumann, there 
was a reference made earlier that there is not a set of 
standards in place for utilities across the country today, that 
everyone has their own platforms that they operate on and it 
would be difficult to institute a fix that would reach 
everyone. With that being said, is there a need to go to 
standard platforms, as utilities are making investments into 
the future? Understanding that this is a threat that does exist 
today?
    Mr. Naumann. I think there is a need to go to standard 
protocols. For example, on the Smart Grid, dealing with Smart 
Grid, FERC has just issued a final rule that said ``any Smart 
Grid devices that are attached to the system should follow 
protocols that are being developed under the auspices of 
this.'' So it is the protocols as to how they communicate and 
how they interact with the system, that it is very important; 
that they be common; and that they be secure.
    Mr. Lujan. The last question I have, Mr. Chairman, is that 
as we go forward and we understand the direction where Smart 
Grid will take us and how broadband applications are going to 
be critical to achieving the efficiencies that we need with 
distribution and transmission.
    Understanding that NERC's sole responsibility is with bulk 
power systems and does not include distributed generation or 
settlement, industrial utilities or applications, even within 
some of our rural cooperatives: Who is overseeing that aspect 
and is there anybody--are there any, I guess, large umbrella 
support systems other than State regulatory bodies that are 
working directly with them? Are those actually reported?
    Mr. Lujan. Mr. Chairman, we can get back to that one later, 
if need be.
    Mr. Thompson. The gentleman can answer.
    Mr. Naumann. To answer very quickly, it is important that 
under U.S. legislation, that as it relates to Smart Grid in 
particular, that NIST, and the Department of Energy, in working 
with FERC, and NERC is then engaged in this activity, do 
address system standards, so that they can build security into 
this technology before it gets deployed in great numbers. But 
most of the jurisdiction and regulation of the system has been 
done at the local level and the State level. However, in a lot 
of cases, that can be very appropriate, based on local issues.
    But NERC is concerned about the bulk power system and in 
the future, as devices in aggregate might cause a material 
issue to reliability, we would actively engage in those 
efforts.
    Mr. Lujan. Mr. Chairman, just want to suggest quickly 
there, we may want to work with NARUC, the National Association 
of Regulatory Utility Commissions, to truly get an inventory of 
how many utilities, investor-run utilities across the country, 
have been working with their State partners. Having come to 
Congress as a former regulator, from the utility commission, in 
New Mexico, I can tell you that there is a concern that I have 
there and to make sure that we are working with our colleagues 
across the country that this information is truly being 
compiled.
    Mr. Thompson. Mr. Lujan, as you can see, once this 
legislation is brought up for mark-up, you will see some 
additions to it.
    Let me thank our first panel of witnesses for excellent 
testimony and answers to the questions. We have four votes, 
plus 111th Congress photograph that will probably take about 35 
or 40 minutes. But we release the first panel. Thank you for 
your testimony. The committee will recess and reconvene at the 
end of the votes.
    [Recess.]
    Ms. Clarke. [Presiding.] I welcome the second panel of 
witnesses. We are joined by Joe McClelland, the director of 
reliability at the Federal Energy Regulatory Commission, also 
known as FERC. Our second witness is Patricia Hoffman, acting 
assistant secretary at the Office of Electricity Delivery and 
Energy Reliability, Department of Energy.
    Our third witness is Sean McGurk, director of the Control 
Systems Security Program at the Department of Homeland 
Security. Welcome. Finally, Cita Furlani, is the director of 
the Information Technology Laboratory, National Institute of 
Standards and Technology at NIST.
    I want to welcome you all here. Without objection, the 
witnesses' full statements will be entered into the record. 
Hearing no objection, so ordered.
    I now ask each of the witnesses to introduce yourself and 
summarize your statement for 5 minutes, beginning with Mr. 
McClelland.

  STATEMENT OF JOSEPH H. MCCLELLAND, DIRECTOR OF RELIABILITY, 
              FEDERAL ENERGY REGULATORY COMMISSION

    Mr. McClelland. Chairwoman Clarke, thank you. Member 
Lungren, and distinguished guests. Thank you for the privilege 
to appear before you today to discuss the security of the 
electric grid.
    My name is Joe McClelland, and I am the director of Office 
of Electric Reliability at the Federal Energy Regulatory 
Commission. I am here today as a commission staff witness and 
my remarks do not necessarily represent the views of the 
commission or any individual commissioner.
    In the Energy Policy Act of 2005, Congress entrusted the 
commission with a major new responsibility, to oversee 
mandatory enforceable reliability standards for the Nation's 
full power system. This authority is in new Section 215 of the 
Federal Power Act.
    Under the new authority, FERC cannot author or modify 
reliability standards. It must select an electric reliability 
organization, or ERO, to perform this task. The ERO develops 
and proposes reliability standards or modifications for the 
commission's review, which it can either then remand or approve 
them.
    If the commission approves the proposed reliability 
standards, it applies to the users, owners, and operators of 
the bulk power system, and becomes mandatory in the United 
States. If the commission remands a proposed standard, it is 
sent back to the ERO for further consideration.
    The commission selected the North American Electric 
Reliability Corporation or NERC as its ERO. It is important to 
note that NERC's jurisdiction and reliability authority is 
limited to the, ``bulk power system,'' as defined in the 
Federal Power Act, which excludes Alaska and Hawaii, 
transmission facilities in certain large cities, such as New 
York, and distribution systems.
    In addition to the reliability authority, FERC is also 
charged with the oversight of cybersecurity of the bulk power 
system. As is the case with non-security issues, FERC's 
authority in Section 215 over cybersecurity is to exercise the 
reliability standards developed by the ERO and approved by 
FERC.
    Pursuant to this duty, FERC approved eight cybersecurity 
standards known as the Critical Infrastructure Protection, or 
CIP standards, proposed by NERC, while concurrently directing 
modifications to them in January 2008. Although the existing 
CIP standards are approved, full implementation of these 
standards by all entities will not be mandatory until 2010.
    The first of several batches of modification responding to 
the commission's directives was received from the ERO in May 
2009, and they are now under review.
    On a related note, as Smart Grid technology is added to the 
bulk power system greater cybersecurity protections will be 
required. Given that this technology provides more access 
points to attackers, and increases the grid's cyber 
vulnerability. The CIP standards will apply to some, but not 
all Smart Grid applications.
    Physical attacks against the power grid can cause equal or 
even greater destruction than cyber attacks. One example of a 
physical threat is an electromagnetic pulse or EMP event. In 
2001, Congress established a commission to assess the threat 
from EMP. In 2004, and again in 2008, the EMP Commission issues 
its reports.
    Among the findings in the reports were that a single EMP 
attack could seriously degrade or shut down a large part of the 
electric power grid. Depending upon the attack, significant 
parts of the electric infrastructure could be, ``out of service 
for periods measured in months to a year or more.''
    In addition to man-made attacks, EMP events are also 
naturally generated, caused by solar flares and storms 
disrupting the earth's magnetic field. Such events can be 
powerful and can also cause significant and prolonged 
disruptions to the power grid.
    The standards development system utilized under FTA215, 
involved mandatory reliability standards using an open and 
inclusive process based on consensus. Although it can be an 
effective mechanism when dealing with the routine requirements 
of the power grid, it is inadequate when addressing threats to 
the power grid that endanger national security.
    Despite its active role in approving reliability standards, 
FERC's current legal authority is insufficient to assure 
direct, timely, and mandatory action to protect the grid, 
particularly where certain information should not be publicly 
disclosed.
    Any new legislation should address several key concerns. 
First, FERC should be permitted to take direct action before a 
cyber- or physical national security incident has occurred.
    Second, FERC should be allowed to maintain appropriate 
confidentiality of security-sensitive information.
    Third, the limitations of the term ``bulk power system'' 
should be considered, as FERC cannot act to protect against 
attacks involving Alaska and Hawaii as well as some 
transmission, and all local distribution, facilities in 
population areas.
    Finally, entities should be permitted to recover costs they 
incur to mitigate vulnerabilities and threats. Thank you for 
your attention today and I am available to address any 
questions that you may have.
    [The statement of Mr. McClelland follows:]
               Prepared Statement of Joseph H. McClelland
                             July 21, 2009
    Mr. Chairman and Members of the subcommittee: Thank you for this 
opportunity to appear before you to discuss the security of the 
electric grid. My name is Joseph McClelland. I am the director of the 
Office of Electric Reliability (OER) of the Federal Energy Regulatory 
Commission (FERC or commission). The commission's role with respect to 
reliability is to help protect and improve the reliability of the 
Nation's bulk power system through effective regulatory oversight as 
established in the Energy Policy Act of 2005. I am here today as a 
commission staff witness and my remarks do not necessarily represent 
the views of the commission or any individual commissioner.
    My testimony summarizes the commission's oversight of the 
reliability of the electric grid under section 215 of the Federal Power 
Act, and some of the limitations in Federal authority to protect the 
grid against physical and cybersecurity threats. The commission 
currently does not have sufficient authority to require effective 
protection of the grid against cyber or physical attacks. If adequate 
protection is to be provided, legislation is needed and my testimony 
discusses the key elements that should be included in any new 
legislation in this area.
                               background
    In the Energy Policy Act of 2005 (EPAct 2005), Congress entrusted 
the commission with a major new responsibility to oversee mandatory, 
enforceable reliability standards for the Nation's bulk power system 
(excluding Alaska and Hawaii). This authority is in section 215 of the 
Federal Power Act. Section 215 requires the commission to select an 
Electric Reliability Organization (ERO) that is responsible for 
proposing, for commission review and approval, reliability standards or 
modifications to existing reliability standards to help protect and 
improve the reliability of the Nation's bulk power system. The 
commission has certified the North American Electric Reliability 
Corporation (NERC) as the ERO. The reliability standards apply to the 
users, owners, and operators of the bulk power system and become 
mandatory in the United States only after commission approval. The ERO 
also is authorized to impose, after notice and opportunity for a 
hearing, penalties for violations of the reliability standards, subject 
to commission review and approval. The ERO may delegate certain 
responsibilities to ``Regional Entities,'' subject to commission 
approval.
    The commission may approve proposed reliability standards or 
modifications to previously approved standards if it finds them ``just, 
reasonable, not unduly discriminatory or preferential, and in the 
public interest.'' The commission itself does not have authority to 
modify proposed standards. Rather, if the commission disapproves a 
proposed standard or modification, section 215 requires the commission 
to remand it to the ERO for further consideration. The commission, upon 
its own motion or upon complaint, may direct the ERO to submit a 
proposed standard or modification on a specific matter but it does not 
have the authority to modify or author a standard and must depend upon 
the ERO to do so.
Limitations of Section 215 and the Term ``Bulk Power System''
    Currently, the commission's jurisdiction and reliability authority 
is limited to the ``bulk power system,'' as defined in the FPA, and 
therefore excludes Alaska and Hawaii, including any Federal 
installations located therein. The current interpretation of ``bulk 
power system'' also excludes some transmission and all local 
distribution facilities, including virtually all of the grid facilities 
in certain large cities such as New York, thus precluding commission 
action to mitigate cyber- or other national security threats to 
reliability that involve such facilities and major population areas.
Critical Infrastructure Protection Reliability Standards
    An important part of the commission's current responsibility to 
oversee the development of reliability standards for the bulk power 
system involves cybersecurity. In August 2006, NERC submitted eight 
proposed cybersecurity standards, known as the Critical Infrastructure 
Protection (CIP) standards, to the commission for approval under 
section 215. Critical infrastructure, as defined by NERC for purposes 
of the CIP standards, includes facilities, systems, and equipment 
which, if destroyed, degraded, or otherwise rendered unavailable, would 
affect the reliability or operability of the ``Bulk Electric System.'' 
NERC proposed an implementation plan under which certain requirements 
would be ``auditably compliant'' beginning by mid-2009, and full 
compliance would be mandatory in 2010. Pursuant to NERC's 
implementation plan for the CIP standards, the term ``auditably 
compliant'' means ``the entity meets the full intent of the requirement 
and can demonstrate compliance to an auditor, including 12-calendar-
months of auditable `data,' `documents,' `documentation,' `logs,' and 
`records.' '' At the end of July 2009, responsible entities will 
provide responses to NERC's self-certification survey. Those responses 
will include information on their progress towards compliance with the 
CIP standards.
    On January 18, 2008, the commission issued a Final Rule approving 
the CIP reliability standards while concurrently directing NERC to 
develop significant modifications addressing specific concerns. The 
commission set a deadline of July 1, 2009 for NERC to resolve certain 
issues in the CIP reliability standards, including deletion of the 
``reasonable business judgment'' and ``acceptance of risk'' language in 
each of the standards. NERC concluded that this deadline would create a 
very compressed schedule for its stakeholder process. Therefore, it 
divided all of the changes directed by the commission into phases, 
based on their complexity. NERC opted to resolve the simplest changes 
in the first phase, while putting off more complex changes for later 
versions.
    NERC filed the first phase of the modifications to the CIP 
Reliability Standards (Version 2) on May 22, 2009 and the filing is 
currently under review by commission staff. The filing includes removal 
from the standards of the terms ``reasonable business judgment'' and 
``acceptance of risk,'' which the commission found problematic, the 
addition of a requirement for a ``single senior manager'' responsible 
for CIP compliance, and certain other administrative and clarifying 
changes. The remaining phases of the CIP reliability standard revisions 
to respond to the commission's directives are still under development 
by NERC. Currently, there are no set time frames for the remaining 
phases.
Identification of Critical Assets
    As currently written, the CIP reliability standards allow utilities 
significant discretion to determine which of their facilities are 
``critical assets and the associated critical cyber assets,'' and 
therefore are subject to the protection requirements of the standards. 
In the Final Rule, the commission directed NERC to revise the standards 
to require independent oversight of a utility's decisions by industry 
entities with a ``wide-area view,'' such as reliability coordinators or 
the Regional Entities, subject to the review of the commission. This 
revision to the standards, like all revisions, is subject to approval 
by the affected stakeholders in the standards development process and 
has not yet been developed or presented to the commission. We expect 
this revision to be part of the remaining phases of CIP reliability 
standard revisions, as discussed above.
    When the commission approved the CIP reliability standards in 
January 2008, it also required entities under those standards to self-
certify their compliance progress every 6 months. In December 2008, 
NERC conducted a self-certification study, asking each entity to report 
limited information on its critical assets and the associated critical 
cyber assets identified in compliance with reliability standard CIP-
002-1. As the commission stated in the Final Rule, the identification 
of critical assets is the cornerstone of the CIP standards. If that 
identification is not done well, the CIP standards will be ineffective 
at protecting the bulk power system. The results of NERC's self-
certification request showed that 31% of responsible entities 
responding to the survey, and only 29% of generation owners and 
operators, identified at least one critical asset, while about 63% of 
transmission owners identified at least one critical asset. NERC 
expressed its concern with these results in a letter to industry 
stakeholders dated April 7, 2009. In addition, NERC is working on a 
guidance document that will help industry to identify their critical 
assets. That document is still under development, and should be 
completed in approximately 6 months. Another self-certification by 
industry is due to NERC at the end of July, and includes additional 
questions designed to obtain a better understanding of the results from 
industry's critical asset identification process. Those results will 
help gauge how widely the CIP reliability standards have been applied.
    The results of the NERC survey demonstrate that it is not clear, 
even today, what percentage of critical assets and their associated 
critical cyber assets has been identified and therefore made subject to 
the protection requirements of the CIP standards. It is clear, however, 
that this issue is serious and represents a significant gap in 
cybersecurity protection.
                            the nerc process
    As an initial matter, it is important to recognize how mandatory 
reliability standards are established. Under section 215, reliability 
standards must be developed by the ERO through an open, inclusive, and 
public process. The commission can direct NERC to develop a reliability 
standard to address a particular reliability matter, including 
cybersecurity threats or vulnerabilities. However, the NERC process 
typically requires years to develop standards for the commission's 
review. In fact, the existing CIP standards took approximately 3 years 
to develop.
    NERC's procedures for developing standards allow extensive 
opportunity for industry comment, are open, and are generally based on 
the procedures of the American National Standards Institute. The NERC 
process is intended to develop consensus on both the need for, and the 
substance of, the proposed standard. Although inclusive, the process is 
relatively slow, open, and unpredictable in its responsiveness to the 
commission's directives.
    Key steps in the NERC process include: Nomination of a proposed 
standard using a Standard Authorization Request (SAR); public posting 
of the SAR for comment; review of the comments by industry volunteers; 
drafting or redrafting of the standard by a team of industry 
volunteers; public posting of the draft standard; field testing of the 
draft standard, if appropriate; formal balloting of the draft standard, 
with approval requiring a quorum of votes by 75 percent of the ballot 
pool and affirmative votes by two-thirds of the weighted industry 
sector votes; re-balloting, if negative votes are supported by specific 
comments; approval by NERC's board of trustees; and an appeals 
mechanism to resolve any complaints about the standards process. This 
process requires public disclosure regarding the reason for the 
proposed standard, the manner in which the standard will address the 
issues, and any subsequent comments and resulting modifications in the 
standards as the affected stakeholders review the material and provide 
comments. NERC-approved standards are then submitted to the commission 
for its review.
    Generally, the procedures used by NERC are appropriate for 
developing and approving reliability standards. The process allows 
extensive opportunities for industry and public comment. The public 
nature of the reliability standards development process can be a 
strength of the process. However, it can be an impediment when measures 
or actions need to be taken to address threats to national security 
quickly, effectively and in a manner that protects against the 
disclosure of security-sensitive information. The current procedures 
used under section 215 for the development and approval of reliability 
standards do not provide an effective and timely means of addressing 
urgent cyber- or other national security risks to the bulk power 
system, particularly in emergency situations. Certain circumstances, 
such as those involving national security, may require immediate 
action, while the reliability standard procedures take too long to 
implement efficient and timely corrective steps.
    FERC rules governing review and establishment of reliability 
standards allow the agency to direct the ERO to develop and propose 
reliability standards under an expedited schedule. For example, FERC 
could order the ERO to submit a reliability standard to address a 
reliability vulnerability within 60 days. Also, NERC's rules of 
procedure include a provision for approval of ``urgent action'' 
standards that can be completed within 60 days and which may be further 
expedited by a written finding by the NERC board of trustees that an 
extraordinary and immediate threat exists to bulk power system 
reliability or national security. However, it is not clear NERC could 
meet this schedule in practice. Moreover, faced with a national 
security threat to reliability, there may be a need to act decisively 
in hours or days, rather than weeks, months, or years. That would not 
be feasible even under the urgent action process. In the mean time, the 
bulk power system would be left vulnerable to a known national security 
threat. Moreover, existing procedures, including the urgent action 
procedure, would widely publicize both the vulnerability and the 
proposed solutions, thus increasing the risk of hostile actions before 
the appropriate solutions are implemented.
    In addition, a reliability standard submitted to the commission by 
NERC may not be sufficient to address the identified vulnerability or 
threat. Since FERC may not modify a proposed reliability standard under 
section 215 and must either approve or remand it, FERC would have the 
choice of approving an inadequate standard and directing changes, which 
reinitiates a process that can take years, or rejecting the standard 
altogether. Under either approach, the bulk power system would remain 
vulnerable for a prolonged period.
    Finally, the open and inclusive process required for standards 
development is not consistent with the need to protect security-
sensitive information. For instance, a Standard Authorization Request 
would normally detail the need for the standard as well as the proposed 
mitigation to address the issue, and the NERC-approved version of the 
standard would be filed with the commission for review. This public 
information could help potential adversaries in planning attacks.
NERC's ``Aurora'' Advisory
    Currently, the alternative to a mandatory reliability standard is 
for NERC to issue an advisory encouraging utilities and others to take 
voluntary action to guard against cyber or other vulnerabilities. That 
approach allows for quicker action, but compliance with an advisory is 
not mandatory, and may produce inconsistent and potentially ineffective 
responses. Also, an alert can be general in nature and lack 
specificity. For example, the issuance of an advisory in 2007 by NERC, 
regarding an identified cybersecurity vulnerability referred to as 
``Aurora,'' caused uncertainty about the specific strategies needed to 
mitigate the identified vulnerabilities and the assets to which they 
apply. Reliance on voluntary measures to assure national security is 
fundamentally inconsistent with the conclusion Congress reached during 
enactment of EPAct 2005, that voluntary standards cannot assure 
reliability of the bulk power system.
                               smart grid
    The need for vigilance may increase as new technologies are added 
to the bulk power system. For example, Smart Grid technology promises 
significant benefits in the use of electricity. These include the 
ability to better manage not only energy sources but also energy 
consumption. However, a smarter grid would permit two-way communication 
between the electric system and a large number of devices located 
outside of controlled utility environments, which will introduce many 
potential access points.
    Smart Grid applications will automate many decisions on the supply 
and use of electricity to increase efficiencies and ultimately to allow 
cost savings. Without adequate physical and cyber protections, however, 
this level of automation may allow adversaries to gain unauthorized 
access to the rest of the company's data and control systems and cause 
significant harm. Security features must be an integral consideration 
when developing Smart Grid technology. The challenge will be to focus 
not only on general approaches but, importantly, on the details of 
specific technologies and the risks they may present.
    Regarding data, there are multiple ways in which Smart Grid 
technologies may introduce new cyber vulnerabilities into the system. 
For example an attacker could gain access to a remote or intermediate 
Smart Grid device and change data values monitored or received from 
down-stream devices, and pass the incorrect data up-stream to cause 
operators or automatic programs to take incorrect actions. As was 
mentioned previously, the potential exists for off-grid equipment to 
adversely affect the bulk power system through corrupted 
communications.
    In regard to control systems, an attacker that gains access to the 
communication channels could order metering devices to disconnect 
customers, order previously shed load to come back on-line prematurely, 
or order dispersed generation sources to turn off during periods when 
load is approaching generation capacity, causing instability and 
outages on the bulk power system. One of the potential capabilities of 
the Smart Grid is the ability to remotely disconnect service using 
advanced metering infrastructure (AMI). If insufficient security 
measures are implemented in a company's AMI application, an adversary 
may be able to access the AMI system and could conceivably disconnect 
every customer with an AMI device. If such an attack is widespread 
enough, the resultant disconnection of load on the distribution system 
could result in impacts to the bulk power system. If an adversary 
follows this disconnection event with a subsequent and targeted cyber 
attack against remote meters, the restoration of service could be 
greatly delayed.
    The CIP standards will apply to some, but not all, Smart Grid 
applications. The standards require users, owners, and operators of the 
bulk power system to protect cyber assets, including hardware, 
software, and data, which would affect the reliability or operability 
of the bulk power system. These assets are identified using a risk-
based assessment methodology that identifies electric assets that are 
critical to the reliable operation of the bulk power system. If a Smart 
Grid device were to control a critical part of the bulk power system, 
it would be considered a critical cyber asset subject to the protection 
requirements of the CIP standards.
    Many of the Smart Grid applications will be deployed at the 
distribution and end-user level so they may incorrectly be viewed as 
not affecting the bulk power system. For example, some applications may 
be targeted at improving market efficiency in ways that may not have a 
reliability impact on the bulk power system, such that the protection 
requirements of the CIP standards, as they are currently written, may 
not apply. However, as discussed above, these applications either 
individually or in the aggregate could affect the bulk power system.
    The commission and its staff currently are coordinating with a 
number of Governmental and private sector organizations on 
cybersecurity issues surrounding Smart Grid technology, including the 
DOE Smart Grid Task Force, the NIST Domain Expert Working Groups, the 
Gridwise Architecture Council, and the FERC-NARUC Smart Grid 
Collaborative. The commission has issued a policy statement that would 
strongly encourage interoperability of Smart Grid technologies, 
recognizing that cybersecurity is essential to the operation of the 
Smart Grid. The Policy Statement stated that the commission will 
require a demonstration of sufficient cybersecurity protections in the 
proposed Smart Grid standards to be considered in rulemaking 
proceedings under the Energy Independence and Security Act of 2007 
(EISA), including, where appropriate, a proposed Smart Grid standard 
applicable to local distribution-related components of Smart Grid. The 
commission also encouraged NERC to work with NIST in the development of 
the standards.
    While the commission is doing what it can under its jurisdiction, 
EISA does not make any standards mandatory and does not give the 
commission authority to make or enforce any such standards. Under 
current law, the commission's authority, if any, to make Smart Grid 
standards mandatory must derive from the FPA.
           physical security and other threats to reliability
    The commission's current reliability authority does not extend to 
physical threats to the grid, but physical threats can cause equal or 
greater destruction than cyber attacks and the Federal Government 
should have no less ability to act to protect against such potential 
damage. One example of a physical threat is an electromagnetic pulse 
(EMP) event. In 2001, Congress established a commission to assess the 
threat from EMP, with particular attention to be paid to the nature and 
magnitude of high-altitude EMP threats to the United States; 
vulnerabilities of U.S. military and civilian infrastructure to such 
attack; capabilities to recover from an attack; and the feasibility and 
cost of protecting military and civilian infrastructure, including 
energy infrastructure. In 2004, the commission issued a report 
describing the nature of EMP attacks, vulnerabilities to EMP attacks, 
and strategies to respond to an attack.\1\ A second report was produced 
in 2008 that further investigated vulnerabilities of the Nation's 
infrastructure to EMP.
---------------------------------------------------------------------------
    \1\ Graham, Dr. William R. et al, Report of the Commission to 
Assess the Threat to the United States from Electromagnetic Pulse (EMP) 
Attack (2004).
---------------------------------------------------------------------------
    An EMP may also be a naturally-occurring event caused by solar 
flares and storms disrupting the Earth's magnetic field. In 1859, a 
major solar storm occurred, causing auroral displays and significant 
shifts of the Earth's magnetic fields. As a result, telegraphs were 
rendered useless and several telegraph stations burned down. The 
impacts of that storm were muted because very little electronic 
technology existed at the time. Were the storm to happen today, 
according to an article in Scientific American, it could ``severely 
damage satellites, disable radio communications, and cause continent-
wide electrical black-outs that would require weeks or longer to 
recover from.''\2\ Although storms of this magnitude occur rarely, 
storms and flares of lesser intensity occur more frequently. Storms of 
about half the intensity of the 1859 storm occur every 50 years or so 
according to the authors of the Scientific American article, and the 
last such storm occurred in November 1960, leading to world-wide 
geomagnetic disturbances and radio outages.
---------------------------------------------------------------------------
    \2\ Odenwald, Sten F. and Green, James L., Bracing the Satellite 
Infrastructure for a Solar Superstorm, Scientific American Magazine 
(Jul. 28, 2008).
---------------------------------------------------------------------------
    Further, the power grid is particularly vulnerable to solar storms, 
as transformers are electrically grounded to the Earth and susceptible 
to damage from geomagnetically induced power spikes. The collapse of 
numerous transformers across the country could result in reduced grid 
functionality or even prolonged power outages.
    FERC staff has no data on how well the bulk power system is 
protected against an EMP event, and the existing reliability standards 
do not address EMP vulnerabilities. Further, the commission currently 
does not have any specific authority to order owners and operators of 
the transmission grid, generation facilities and other electric 
facilities to protect their facilities from EMP-related events, other 
than the general authority to order NERC to develop a reliability 
standard addressing EMP. Protecting the electric generation, 
transmission, and distribution systems from severe damage due to an EMP 
would involve vulnerability assessments at every level of electric 
infrastructure. In addition, as the reports point out, the reliable 
operation of the electric grid requires other infrastructure systems, 
such as communications, natural gas pipelines and transportation, which 
would also be affected by such an attack or event.
                        the need for legislation
    In my view, section 215 of the Federal Power Act provides an 
adequate statutory foundation for the ERO to develop most reliability 
standards for the bulk power system. However, the nature of a national 
security threat by entities intent on attacking the United States 
through vulnerabilities in its electric grid stands in stark contrast 
to other major reliability vulnerabilities that have caused regional 
blackouts and reliability failures in the past, such as vegetation 
management and protective relay maintenance practices. Widespread 
disruption of electric service can quickly undermine the U.S. 
Government, its military, and the economy, as well as endanger the 
health and safety of millions of citizens. Given the national security 
dimension to this threat, there may be a need to act quickly to protect 
the grid, to act in a manner where action is mandatory rather than 
voluntary, and to protect certain information from public disclosure.
    The commission's current legal authority is inadequate for such 
action. This is true of both cyber and non-cyber physical threats to 
the bulk power system that pose national security concerns. This lack 
of authority results in the electric grid being vulnerable to attacks, 
both physical and cyber.
    Any new legislation should address several key concerns. First, to 
prevent a significant risk of disruption to the grid, legislation 
should allow the commission to take action before a cyber or physical 
national security incident has occurred. In order to protect the grid, 
it is vital that the commission be authorized to act before an attack 
to address vulnerabilities and threats. Second, any legislation should 
allow the commission to maintain appropriate confidentiality of 
sensitive information submitted, developed or issued under this 
authority. Third, it is important that Congress be aware that if 
additional reliability authority is limited to the bulk power system, 
as that term is currently defined in the FPA, it would exclude 
protection against attacks involving Alaska and Hawaii, including any 
Federal installations located therein. The current interpretation of 
the term bulk power system also excludes some transmission and all 
local distribution facilities, including virtually all of the 
facilities in certain large cities such as New York, thus precluding 
possible commission action to mitigate cyber or other national security 
threats to reliability that involve such facilities and major 
population areas. Finally, it is important that entities be permitted 
to recover costs they incur to mitigate vulnerabilities and threats. 
The commission currently has authority to allow recovery by entities 
that meet the FPA definition of ``public utility.'' If Congress 
believes it appropriate, it could include in legislation a directive 
that the commission establish a cost recovery mechanism for the costs 
associated with compliance with any FERC order issued pursuant to the 
emergency authority.
    Finally, any legislation on national security threats to 
reliability should address not only cybersecurity threats but also 
intentional physical malicious acts (targeting, for example, critical 
substations and generating stations) and threats from an 
electromagnetic pulse. FERC should be granted authority to address both 
cyber and physical threats and vulnerabilities, primarily because FERC 
is the one Federal agency with any statutory responsibility to oversee 
reliability of the grid. This additional authority would not displace 
other means of protecting the grid, such as action by Federal, State, 
and local law enforcement and the National Guard. If particular 
circumstances cause both FERC and other Governmental authorities to 
require action by utilities, FERC would coordinate with other 
authorities as appropriate. Additionally, any FERC authority to address 
threats to the grid would be based on a determination by the President 
or a national security agency that national security is endangered.
                               conclusion
    The commission's current authority is not adequate to address cyber 
or other national security threats to the reliability of our 
transmission and power system. These types of threats pose an 
increasing risk to our Nation's electric grid, which undergirds our 
Government and economy and helps ensure the health and welfare of our 
citizens. Congress should address this risk now. Thank you again for 
the opportunity to testify today. I would be happy to answer any 
questions you may have.

    Ms. Clarke. Thank you very much, Mr. McClelland. Ms. 
Hoffman.

 STATEMENT OF PATRICIA A. HOFFMAN, ACTING ASSISTANT SECRETARY, 
    OFFICE OF ELECTRICITY DELIVERY AND ENERGY RELIABILITY, 
                      DEPARTMENT OF ENERGY

    Ms. Hoffman. Thank you, Chairwoman Clarke, Members of the 
subcommittee, for this opportunity to testify before you on 
electric sector vulnerabilities and cybersecurity issues.
    For more than a decade, the Department of Energy has been 
engaged with the private sector to secure the electric grid. 
The Homeland Security Presidential Directive 7 designated the 
Department of Energy as the Energy Sector-specific agency and 
provided authorization to collaborate with all Federal 
agencies, State and local governments, and the private sector 
to conduct vulnerability assessments of the energy sector, and 
to encourage risk management strategies.
    Securing the critical infrastructure is a shared 
responsibility and requires public-private partnerships. Asset 
owners bear the main responsibility for ensuring that key 
resources are secure and for making the appropriate 
investments, for reporting emergency information to the 
Government, and for implementing protective practices and 
procedures.
    With an economy that is in the process of recovering, it is 
even more critical that all energy sector stakeholders 
understand the available options, their associated costs, and 
the roadmap or path to a more secure energy infrastructure.
    As we deploy Smart Grid technology, load management 
technology, plug in hybrid electric vehicles, distributed 
generation, micro grid, we may find that some measures may not 
be necessary, while new ones may emerge. The energy sectors 
threat analysis encompasses natural events, hurricanes, 
criminal acts, insider threats, and both foreign and domestic 
terrorism.
    Because of the diversity of assets in the systems in the 
energy sector, a multitude of methodologies have been used to 
assess risks, vulnerabilities, and consequences. No single 
methodology or tool has been used to assess risk in the energy 
sector assets, such as what the Nuclear Regulatory Commission 
does with design basis threats.
    Lessons learned from DBD analysis, in the nuclear industry 
could be applied to the electric industry, especially for large 
generating stations, large substations and major control 
centers.
    To address the advancing capabilities of the global cyber 
threat as well as implementation of Smart Grid, the Department 
of Energy has requested an increase in our 2010 research budget 
for cybersecurity and energy delivery systems, from $12 million 
in 2009, to $50 million in 2010.
    Activities proposed under this budget include, expanding 
our national SCADA test bed activities and cybersecurity 
assessments of control systems, utilizing existing control 
systems simulators as hosts for cyber training, develop trusted 
anchors to build trustworthy networks from untrusted 
components, and development of a cybersecurity Smart Grid test 
bed.
    Currently, a laboratory industry and research effort to 
enhance the cybersecurity of the energy infrastructure has 
produced results in four areas. We have identified 
vulnerabilities, cyber vulnerabilities in energy control 
systems, and have worked with vendors to develop hardened 
systems that mitigate the risk.
    Develop more secure communication methods between energy 
control systems in field devices. We have developed tools and 
methods to help utilities assess their security posture, and we 
have provided extensive cybersecurity training for energy 
owners and operators to help them prevent, detect, and mitigate 
cyber penetration.
    The Department is working collaboratively with the private 
sector on several activities to ensure that cybersecurity is 
baked into the Smart Grid. Over the past year, the Department 
has been working collaboratively with the utilities 
communication architecture user group to develop security 
requirements for advanced metering infrastructure, a key 
application to the Smart Grid.
    The Department is now working to leverage this effort in 
cooperation with the UCS user group to develop cybersecurity 
requirements for the full suite of Smart Grid technologies. 
Additionally, the Department is working on procurement 
standards as a part of this effort.
    The Office of Electricity Delivery and Energy Reliability 
received $4.5 billion in the American Recovery and Reinvestment 
Act, of which about $3.4 billion is for grants for Smart Grid 
development and $650 million is for Smart Grid demonstration.
    Cybersecurity should be addressed in every phase of the 
projects awarded under this funding, and includes design 
through on-going maintenance and support. The technical 
approach to cybersecurity should include in the proposals, a 
summary of cybersecurity risks and how they will be mitigated 
at each stage of the life cycle, a summary of the cybersecurity 
criteria utilized by vendor and device selection, a summary of 
the relevant cybersecurity standards or best practices that 
will be followed, a summary of how the projects support 
emerging cybersecurity standards.
    In conclusion, the United States needs a comprehensive 
framework to ensure a coordinated response. The Government, in 
partnership with key stakeholders, should design an effective 
mechanism that integrates information from the Government and 
the private sector, and serves as a basis for informed and 
prioritized vulnerability mitigation efforts and incident 
response decisions.
    This concludes my statement, Chairwoman Clarke. Thank you 
for the opportunity to speak. I look forward to answering any 
questions you or your colleagues may have.
    [The statement of Ms. Hoffman follows:]
               Prepared Statement of Patricia A. Hoffman
                             July 21, 2009
    Thank you Chairwoman Clark and Members of the subcommittee for this 
opportunity to testify before you on electric sector vulnerabilities 
and cybersecurity issues.
    All of us here today share a common concern that vulnerabilities 
exist within the electric system and that the Department of Energy, in 
partnership with the rest of the Federal Government and industry, 
should address the full spectrum of events, from high-impact, low-
probability (HILP) to high-impact, high-probability. This is 
particularly true for Smart Grid systems, which by their very nature 
involve the use of information and communication technologies in areas 
and applications on the electric system where they have not been used 
before.
    For more than a decade, the Department has been substantively 
engaged with the private sector to secure the electric grid. In 
December 2003, the Homeland Security Presidential Directive 7 (HSPD-7) 
designated the Department as the sector-specific agency (SSA) for the 
energy sector and provided authorization to collaborate with all 
Federal agencies, State and local governments, and the private sector, 
to conduct vulnerability assessments of the sector, and to encourage 
risk management strategies for critical energy infrastructure.
    Securing critical infrastructure is a shared responsibility. Asset 
owners bear the main responsibility for ensuring that key resources are 
secure, for making the appropriate investments, for reporting threat 
information to the Government, and for implementing protective 
practices and procedures. As the SSA, the Department works closely with 
the private sector and State/Federal regulators to provide secure 
sharing of threat information and collaborates with industry to 
identify and fund gaps in infrastructure research, development, and 
testing efforts.
    With an economy in the process of recovering, it is even more 
critical that all energy sector stakeholders understand the available 
options, their associated costs, and the roadmap or path to a more 
secure energy infrastructure. As we deploy Smart Grid technologies, 
load management technologies, plug-in hybrid electric vehicles and 
distributed generation/microgrids, we may find some measures may not 
become necessary, while new ones may emerge.
    critical infrastructure protection and risk management framework
    Since the energy sector is characterized by very diverse assets and 
systems, prioritization of sector assets and systems is highly 
dependent upon changing threats and consequences. The significance of 
many individual components in the network is highly variable, depending 
on location, time of day, day of the week, and season of the year.
    The energy sector's threat analysis encompasses natural events, 
criminal acts, and insider threats, as well as foreign and domestic 
terrorism. Because of the diversity of assets and systems in the energy 
sector, a multitude of methodologies have been used to assess risks, 
vulnerabilities, and consequences. No single methodology or tool has 
been used to assess risks to energy sector assets, such as the Nuclear 
Regulatory Commission's design-basis threat (DBT) which is used to 
design safeguards and systems to protect against acts of radiological 
sabotage and to prevent the theft of special nuclear material. Lessons 
learned from DBT analysis in the nuclear industry could be applied to 
the electric industry especially for large generating stations, large 
substations, and major control centers.
    The exploitation of unintentional vulnerabilities has become one of 
the greatest concerns for potential disruption and high-consequence 
events. Control systems networks provide great efficiency and are 
widely used. However, they also present a security risk, if not 
adequately protected. Many of these networks were initially designed to 
maximize functionality, with little attention paid to security. With 
connections to the internet, internal local area and wide area 
networks, wireless network devices, and modems, some networks are 
potentially vulnerable to disruption of service, process redirection, 
or manipulation of operational data that could cause disruptions to the 
Nation's critical infrastructure.
    The Department is planning to work with the Federal Energy 
Regulatory Commission and the North American Reliability Corporation 
(NERC) to examine the effects of HILP events on the bulk power system. 
The effort will focus on HILP events such as influenza pandemic, space 
weather, terrorist attacks, and electromagnetic pulses. The purpose of 
this effort will be to develop a framework to look at causes and 
consequences and provide a tool to summarize preparedness, response, 
recovery, and mitigation measures.
    DOE does not have a program that would allow for private or 
publicly-owned utilities to receive Federal grants for hardening their 
equipment against an intentional or unintentional electromagnetic 
pulse.
   cybersecurity--information sharing and early detection and warning
    The Roadmap to Secure Control Systems in the Energy Sector (2006) 
identified the need to improve information sharing between the 
Government and the private sector as a high priority. In their 2008 
Annual Report, the Energy Sector Control Systems Working Group (ESCWG), 
which has worked in partnership with the Department to implement the 
Roadmap, stated that most information protection and sharing issues 
between the U.S. Government and industry still have not been resolved.
    The Department of Homeland Security (DHS) receives the most 
complete intelligence related to critical infrastructure protection 
because of its cross-sector responsibilities. DHS's Homeland 
Infrastructure Threat and Risk Analysis Center (HITRAC) develops early 
intelligence warnings, which it shares with the Department. DHS alerts 
the US-Computer Emergency Readiness Team (US-CERT) and the North 
American Electric Reliability Corporation (NERC).
    DOE does not have a separate alert system. DOE does, however, have 
mandatory reporting requirements for electric emergency incidents and 
disturbances (including cyber incidents) in the United States. Form OE-
417, ``Electric Emergency Incident and Disturbance Report,'' is used to 
alert DOE to electrical emergency incidents and disruptions within a 1-
hour or 6-hour period depending on the type of emergency. This 
information allows the Department to quickly respond to energy 
emergencies that may impact the Nation's infrastructure. The 
information, collected from the electric power industry, helps DOE meet 
its overall national security and Federal Emergency Management Agency's 
National Response Framework responsibilities. DOE uses the data from 
this form to obtain situational awareness of energy emergencies of U.S. 
electric supply systems. DOE's Energy Information Administration (EIA) 
publishes the electric power emergency incidents and disturbances in 
its monthly EIA reports. The data may also be used to develop 
legislative recommendations, reports to Congress and as a basis for DOE 
investigations. When appropriate, information is shared with FERC.
    Early intelligence warnings provide the industry and Government 
some insight into a potential attack but may not allow for timely 
defense against many of them. Besides early intelligence warnings, the 
Department recommends that the industry develop its own capabilities 
for monitoring rogue, malicious behavior on their systems. The industry 
should monitor communications on their systems just as they monitor 
system performance. Diligence in upgrading security software and 
protocols are essential to minimizing the impact of these events.
    One of the challenges in creating an effective information sharing 
system is how to share classified intelligence information with State 
agencies and utility operators not cleared to receive this information. 
The DHS has been working to grant clearances to appropriate members of 
the community. An additional difficulty is the means by which the 
information can be communicated. For example, a security chief at a 
Regional Transmission Organization (RTO) may have a clearance, but not 
have any means of communication or storage to receive the classified 
information except through face-to-face communications.
                            cyber standards
    Improving the security of the electric sector will require 
coordination and cooperation between regulatory agencies and industry. 
Because the security of the electric grid does not rely solely on 
voluntary private-sector measures, much work is being done to develop 
necessary cybersecurity standards. The Federal Energy Regulatory 
Commission through the NERC Critical Infrastructure Protection (CIP) 
has mandated standards CIP-002 through CIP-009 to provide a security 
framework for the identification and protection of critical cyber 
assets that support reliable operation. In addition, the International 
Electrotechnical Commission (IEC) Working Group 15 of Technical 
Committee 57 is developing IEC 62351, focusing on power systems 
control, data communications, and security. The Power Engineering 
Society Substations workgroup is developing P1689, a trial use standard 
for retrofitting cybersecurity of serial Supervisory Control and Data 
Acquisition (SCADA) links in intelligent electronic devices for remote 
access. International Society of Automation security standard ISA99 
addresses cybersecurity for control systems. The National Institute of 
Standards and Technology (NIST) is also developing specific 
recommendations and guidance for securing Smart Grid and other 
industrial control systems. It is clear that standards development is a 
priority, and this activity should be monitored closely for progress, 
implementation, and gaps.
                         doe cyber r&d program
    Our efforts to enhance the cybersecurity of the energy 
infrastructure have produced results in four areas. We have:
    1. Identified cyber vulnerabilities in energy control systems and 
        worked with vendors to develop hardened systems that mitigate 
        the risks;
    2. Developed more secure communications methods between energy 
        control systems and field devices;
    3. Developed tools and methods to help utilities assess their 
        security posture; and
    4. Provided extensive cybersecurity training for energy owners and 
        operators to help them prevent, detect, and mitigate cyber 
        penetration.
    In 2003, the Department launched its National SCADA Test Bed 
(NSTB), a state-of-the-art national resource designed to aid Government 
and industry in securing their control systems against cyber attack 
through vulnerability assessments, mitigation research, security 
training, and focused R&D efforts. The Department has expanded the NSTB 
to include resources and capabilities from five national laboratories.
    To date, researchers have assessed 90% of the current market 
offering of SCADA/Energy Management Systems (SCADA/EMS) in the electric 
sector, and 80% of the current market offering in the oil and gas 
sector. Twenty NSTB and on-site field assessments of common control 
systems from vendors including ABB, Areva, GE, OSI, Siemens, Telvent, 
and others, have led vendors to develop 11 hardened control system 
designs. Vendors have released countless software patches to better 
secure legacy systems, which are now being used by 82 system 
applications in the sector. Findings from NSTB vulnerability 
assessments have also been generalized by Idaho National Laboratory 
into its Common Vulnerabilities Report, which includes mitigation 
strategies asset owners across the sector can use to better secure 
their systems.
    In 2005, the Department, in cooperation with the DHS and Natural 
Resources Canada, worked directly with experts in the oil, gas, and 
electricity industries to develop a detailed, prioritized plan for 
cybersecurity improvements over the next 10 years, including best 
practices, new technology, and risk assessment. The results of this 
work were published in the 2006 Roadmap to Secure Control Systems in 
the Energy Sector, which lays out a vision that in 10 years, controls 
systems for critical applications will be designed, installed, 
operated, and maintained to survive an intentional cyber assault with 
no loss of critical function. Industry members defined goals, 
milestones, and priorities to guide the industry toward this vision.
    Let me highlight two such projects that the Department is cost-
sharing with the private sector to support the Roadmap:
  <bullet> The Bandolier project, led by Digital Bond, is developing 
        automated checklists of security configuration baselines, 
        which, when deployed, can enable the audit of actual 
        configuration settings against these baselines. Downloadable 
        checklists have been developed and are now available for 
        Siemens, Telvent, ABB, and SNC systems, and Digital Bond has 
        worked to make its product available immediately and at a low 
        cost to utilities by offering it as subscriber content on its 
        website.
  <bullet> The Hallmark project, led by Schweitzer Engineering 
        Laboratories, is working to commercialize the Secure SCADA 
        Communications Protocol originally developed by Pacific 
        Northwest National Laboratory. The technology allows utilities 
        to secure data communications between remote devices and 
        control centers--a critical cyber access path. The technology 
        will be available in a hardware device by mid-year.
    The Department is also supporting research in academia through a 
multi-university R&D project entitled ``Trustworthy Critical 
Infrastructure for the Power Grid (TCIP).'' This project is led by the 
University of Illinois and includes Dartmouth College, Cornell 
University, Washington State University, and companies representing the 
spectrum of the electric power industry including utilities, vendors, 
regulatory bodies, control center operators, reliability coordinators, 
and market operators. TCIP is funded mainly by the National Science 
Foundation with supporting funds from the Department and the Department 
of Homeland Security, Science and Technology Directorate.
    In addition to R&D and NSTB assessments, the Department supports 
extensive cybersecurity training to help asset owners learn security 
methods they can implement immediately to better secure their 
utilities. So far, the Department has trained more than 1,800 
individuals in the energy sector and is also ramping up its new 
advanced Red Team/Blue Team training through Idaho National Laboratory. 
This week-long course invites asset owners to participate in a 
simulated attack scenario on an actual control systems environment, 
giving them hands-on attack and mitigation training.
    In collaboration with the North American Electric Reliability 
Corporation (NERC), Critical Infrastructure Protection Committee 
(CIPC), the Department leveraged its expertise and experience in 
cybersecurity assessments to develop foundational, intermediate, and 
advanced mitigations for the NERC ``Top 10'' vulnerabilities associated 
with control systems commonly used in the electric sector. The list was 
developed by NERC members including small, medium, and large entities 
across North America. The list is comprised of the most prevalent, most 
exploited, or highest-consequence vulnerabilities that a typical 
utility might find in their facilities. Utilities are encouraged to use 
this list to augment their risk management processes. Utilities also 
used the list as means to select vendors and purchase systems that had 
security ``built-in.''
    In addition to its R&D and partnership initiatives, the Department 
is working collaboratively with the private sector on several 
activities to ensure that cybersecurity is ``baked in'' to the Smart 
Grid. Over the past year, the Department has been working 
collaboratively with the Utilities Communications Architecture (UCA) 
Users Group (including utilities, vendors, et al) to develop 
cybersecurity requirements for advanced metering infrastructure (AMI)--
a key application for the Smart Grid. The group produced a document 
titled ``AMI System Security Specifications'' which will help utilities 
procure secure AMI systems. The Department is now working to leverage 
this effort in cooperation with the UCA User Group to develop 
cybersecurity requirements for the full suite of Smart Grid 
technologies.
    The Department is also working with the ESCSWG to update the 2006 
Roadmap. The update will incorporate new information and lessons 
learned, update end-states and milestones, and establish priorities 
that have come to the forefront since 2006, such as Smart Grid and 
wireless technologies. So far, the ESCSWG has identified gaps in the 
2006 Roadmap, reviewed the Roadmap vision and goal structure, assessed 
changes in the control systems landscape, and collected ideas for 
implementation. In September 2009, the ESCSWG will bring together a 
broad section of asset owners and operators, researchers, technology 
developers, security specialists, and equipment vendors to establish 
new goals and prioritize control systems security needs in the energy 
sector. The ESCSWG plans to release the new roadmap in January 2010.
 american recovery and reinvestment act (arra)--title xiii, smart grid
    A Smart Grid uses information and communications technologies to 
improve the reliability, availability, and efficiency of the electric 
system. With Smart Grid, these technologies are being applied to 
electric grid applications, including devices at the consumer level 
through the transmission level, to make our electric system more 
responsive and more flexible.
    Enhanced grid functionality enables multiple devices to interact 
with one another via a communications network. These interactions make 
it easier and more cost-effective, in principle, for a variety of clean 
energy alternatives to be integrated with electric system planning and 
operations, as well as for improvements in the speed and efficacy of 
grid operations to boost electric reliability and the overall security 
and resiliency of the grid. The communications network, and the 
potential for it to enhance grid operational efficiency and bring new 
clean energy into the system, are key distinguishing features of the 
Smart Grid compared to the existing system.
    The Office of Electricity Delivery and Energy Reliability received 
$4.5 billion in the ARRA, of which about $3.4 billion is for grants for 
Smart Grid development and $615 million is for Smart Grid 
demonstrations. In order to gain the greatest return on investment, 
this grant money will be disbursed in six areas: Equipment 
manufacturing, customer systems, advanced metering infrastructure, 
electric distribution systems, electric transmission systems, and 
integrated and/or crosscutting systems. The Federal funds for this 
program have been divided into two categories:
  <bullet> Smaller projects in which the Federal share would be in the 
        range of $300,000 to $20,000,000;
  <bullet> Larger projects in which the Federal cost share would be in 
        the range of $20,000,000 to $200,000,000.
    Approximately 40% of Smart Grid Investment Grant (SGIG) funding 
will be allocated for smaller projects, while approximately 60% will be 
allocated for larger projects. DOE reserves the right to revise these 
allocations depending on the quantity and quality of the applications 
received.
    DOE is working to reduce cybersecurity risks by including the 
following language in the grant announcement:

``Cybersecurity should be addressed in every phase of the engineering 
lifecycle of the project, including design and procurement, 
installation and commissioning, and the ability to provide on-going 
maintenance and support. Cybersecurity solutions should be 
comprehensive and capable of being extended or upgraded in response to 
changes to the threat or technological environment. The technical 
approach to cybersecurity should include:
  <bullet> ``A summary of the cybersecurity risks and how they will be 
mitigated at each stage of the lifecycle (focusing on vulnerabilities 
and impact).
  <bullet> ``A summary of the cybersecurity criteria utilized for 
vendor and device selection.
  <bullet> ``A summary of the relevant cybersecurity standards and/or 
best practices that will be followed.
  <bullet> ``A summary of how the project will support emerging Smart 
Grid cybersecurity standards.''

    DOE intends to work with those selected for award, but may not make 
an award to an otherwise meritorious application if that applicant 
cannot provide reasonable assurance that their cybersecurity efforts 
will provide protection against broad-based systemic failures in the 
electric grid in the event of a cybersecurity breach.
    The following technical merit review criteria will be used in the 
evaluation of applications and in the determination of the SGIG project 
awards. The relative importance of the four criteria is provided in 
percentages in parentheses:
    1. Adequacy of the Technical Approach for Enabling Smart Grid 
        Functions (40%);
    2. Adequacy of the Plan for Project Tasks, Schedule, Management, 
        Qualifications, and Risks (25%);
    3. Adequacy of the Technical Approach for Addressing 
        Interoperability and Cyber Security (20%); and
    4. Adequacy of the Plan for Data Collection and Analysis of Project 
        Costs and Benefits (15%).
    DOE's programs do not include grants to private or publicly-owned 
utilities for hardening their equipment against an intentional or 
unintentional electromagnetic pulse.
                               conclusion
    The United States needs a comprehensive framework to ensure a 
coordinated response by the Federal, State, local, and Tribal 
governments, the private sector, and international allies to 
significant incidents related to the Nation's electric power grid, 
particularly cyber. Implementation of this framework will require 
developing reporting thresholds, adaptable response and recovery plans, 
and the coordination, information sharing, and incident reporting 
mechanisms needed for those plans to succeed. The Government, working 
with key stakeholders, should design an effective mechanism to achieve 
a true common operating picture that integrates information from the 
Government and the private sector and serves as the basis for informed 
and prioritized vulnerability mitigation efforts and incident response 
decisions.
    The focus should be on addressing the full range of threats and 
vulnerabilities to critical infrastructure versus the bulk power system 
and requires public-private and international partnerships.
    Priority should be placed on deploying sensors for complete and 
greater depth in monitoring and diagnostics of physical and cyber 
events.
    The Federal Government and industry must develop a security 
baseline and benchmark milestones for securing critical infrastructure.
    As the capabilities of the threat continue to outpace our ability 
to develop and implement countermeasures, it is critical that control 
systems for critical applications be designed, installed, operated, and 
maintained to survive an intentional cyber assault with no loss of 
critical functions.
    This concludes my statement, Chairwoman Clarke. Thank you for the 
opportunity to speak. I look forward to answering any questions you and 
your colleagues may have.

    Ms. Clarke. Thank you very much, Ms. Hoffman.
    Mr. McGurk.

STATEMENT OF SEAN P. MCGURK, DIRECTOR, CONTROL SYSTEMS SECURITY 
      PROGRAM, NATIONAL CYBERSECURITY DIVISION, OFFICE OF 
   CYBERSECURITY AND COMMUNICATIONS, NATIONAL PROTECTION AND 
     PROGRAMS DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY

    Mr. McGurk. Thank you, Chairwoman Clarke, thank you, Member 
Lungren, distinguished Members of the subcommittee. I am Sean 
McGurk, the director of the Department of Homeland Security's 
Control Systems Security Program, and the director of the 
Industrial Control Systems Cyber Emergency Response Team, or 
the ICF CERT.
    I am pleased to appear before you here today, to discuss 
the importance of securing control systems that operate our 
critical infrastructure including the Smart Grid. Control 
system electric power to operate the physical processes which 
produce the goods and services that we rely upon on a daily 
basis. Therefore assessing risk and effectively securing 
industrial control systems, is vital to maintaining our 
Nation's strategic interests, public safety, and economic 
prosperity.
    In 2003, the Department of Homeland Security was designated 
as the lead agency for cybersecurity. Since then, several 
Homeland Security Presidential directives have established 
national policy and further outlined the Department's 
responsibility to collaborate with public and private sector 
entities to evaluate emerging technologies.
    In May 2004, DHS created the control system security 
program. To further this mission and lead a cohesive effort 
focused on reducing the risk to control systems that operate 
the critical infrastructure. The CSSP recognizes that leading 
in these activities, such as understanding threats, 
vulnerabilities, and subsequent mitigation strategies, is 
essential to securing these systems.
    To support our leadership role, CSSP funding for fiscal 
year 2009, is $22 million. This was an increase from a previous 
year's budget of $12 million that enabled us to expand and 
enhance our vulnerability discovery facility. This facility 
provides advanced capabilities that will aid in identifying the 
interdependencies of the critical infrastructures.
    Additionally, the Federal workforce was increased from one 
position to an authorization of nine Federal employees. For 
fiscal year 2010, the President's budget request included an 
increase of $5.56 million for CSSP. Even with these 
enhancements, the requirements to evaluate new technologies and 
the ability to assess risk across the 18 critical 
infrastructures presents a challenge.
    In order to understand the risk, it is important to 
understand the threats, including those actors and motivations, 
not only to control systems, but to digital computing in 
general. Common crackers or hackers comprise the most prevalent 
group of cyber attackers. They attempt to break in, in order to 
hack into computer systems to exploit flaws.
    Often, motivation is data exfiltration for financial gain. 
Of greater concern are the hackers who install back doors such 
as trojans or root kits that enable them to remotely access the 
systems or the devices. The knowledgeable insider is probably 
the most dangerous threat to systems operation and security 
because this is someone who is trusted and has access to the 
networks and other important company information.
    Cyber terrorists or, hacktivists, are those who seek to 
disrupt internet activity in the name of personal, political, 
or social cause or shared ideology. These individuals 
collaborate via cyberspace and work as an organized group 
against their target.
    These challenges to security offer several opportunities 
for malicious actors to attempt to penetrate our systems, using 
the vulnerabilities and the advanced technologies that control 
our critical infrastructure. The CSSP evaluates risk, conducts 
operational risk management, and develops mitigation plans to 
manage risk to an acceptable level.
    These activities include control system sector analysis, 
scenario development and the development of various tools and 
training products. In 2006, CSSP conducted the analysis based 
on the premise of using the electric grid to attack a facility. 
We demonstrated how a perpetrator could use the electric grid 
system to produce significant physical damage to the equipment 
and the systems.
    The Aurora analysis highlights the importance of assessing 
risk, interdependencies, and the need to secure industrial 
control systems in order to maintain our Nation's strategic 
interests. While these efforts result in cybersecurity 
strategies that help to increase the overall security of the 
grid, they do not protect the grid from attack.
    DHS works closely with responsible Federal agencies such as 
the Department of Energy and the Federal Energy Regulatory 
Commission, as well as the private sector, with the North 
American Electrical Liability Corporation, to provide 
mitigation measures that reduce the risk of cyber attack. The 
Secretary of Homeland Security takes these issues of securing 
our critical infrastructure very seriously.
    Since 2004, this Department has conducted 148 assessments 
of electric sector facilities through the office of 
infrastructure protection. To further our mission, we lead a 
cohesive effort between Government and industry and the program 
created the Industrial Control Systems CERT to analyze and 
respond to private sector reports of control systems incidents.
    We also engage with our Federal partners, such as the 
Department of Defense, the Department of Energy, and the 
intelligence community to address equities and mitigate the 
risks as we move forward. We also work closely with industry 
partners, such as NERC, to provide detailed analysis of cyber 
events in order to identify the risks and provide real-time, 
actionable information for asset owners.
    Chairwoman Clarke, Ranking Member Lungren, and 
distinguished Members, I have outlined the role of the 
Department's Control Systems Security Program, and the role it 
will play in addressing the risk to technologies, including the 
Smart Grid. With your assistance, we will help the Department 
to continue to protect America.
    Thank you again for this opportunity to testify, and I will 
be happy to answer your questions.
    [The statement of Mr. McGurk follows:]
                  Prepared Statement of Sean P. McGurk
                             July 21, 2009
    Chairwoman Clarke, Ranking Member Lungren, and distinguished 
Members, I am Sean McGurk, the Director of the Department of Homeland 
Security (DHS) Control Systems Security Program (CSSP) at the National 
Protection and Programs Directorate. I am pleased to appear before you 
today to discuss the importance of securing the control systems that 
operate our critical infrastructure.
    A control system is a general term that encompasses several types 
of systems, including Supervisory Control and Data Acquisition (SCADA), 
process control, and other automated systems that are found in the 
industrial sectors and critical infrastructure. These systems are used 
to operate physical processes that produce the goods and services that 
we rely upon such as electricity, drinking water, and manufacturing. 
Control systems security in our electric power grid is particularly 
important because of the significant interdependencies inherent with 
the use of energy in all other sectors. Additionally, we rely on the 
electric grid to operate the Federal, State, and local, Tribal 
governments; therefore, assessing risk and effectively securing 
industrial control systems are vital actions to maintaining our 
Nation's strategic interests, public safety, and economic prosperity.
    In 2003, the National Strategy to Secure Cyberspace designated DHS 
as the lead agency for cybersecurity. Since then, Homeland Security 
Presidential Directives (HSPD) 7 and 23 have established national 
policies and further outlined the Department's responsibility to 
collaborate with public and private sector entities to evaluate 
emerging technologies. Additionally, various Government Accountability 
Office (GAO) reports (e.g., GAO report: Critical Infrastructure 
Protection: Challenges and Efforts to Secure Control Systems) have 
further shaped Federal activities to improve the security of critical 
infrastructure and key resources (CIKR) by identifying the risks that 
could impact the networks that operate our critical infrastructure. In 
May 2004, DHS created the Control Systems Security Program (CSSP) to 
further this mission and lead a cohesive effort focused on reducing the 
cyber risks to the control systems that operate the CIKR.
    To establish a framework to secure the CIKR, DHS issued the 
National Infrastructure Protection Plan (NIPP). This plan identifies 
the CSSP as responsible for leading activities to reduce the likelihood 
of success and severity of impact of cyber attacks against our Nation's 
control systems. The CSSP recognizes that understanding the threats, 
vulnerabilities, and subsequent mitigation strategies is essential in 
securing industrial control systems.
    The CSSP funding for fiscal year 2009 is $22 million, an increase 
from the previous year's budget of $12 million that enabled us to 
expand and enhance the Advanced Vulnerability Discovery facility. This 
facility provides advanced modeling and simulation capabilities that 
will aid in identifying the interdependencies of the infrastructures. 
Additionally, the Federal workforce increased from one position to an 
authorization for nine Federal employees. For fiscal year 2010, the 
President's budget request included an increase of $5.56 million for 
the CSSP. With these enhancements, DHS will be able to evaluate new 
technologies and begin assessing risk across additional CIKR sectors. 
CSSP continues to build a culture of reliability and security by 
partnering with Government agencies, industry, and the international 
community to reduce the cyber risks to U.S.-based control systems and 
evaluate emerging technologies such as the Advanced Metering 
Infrastructure and the Smart Grid for the energy sector.
    In order to understand the risks, it is important to understand the 
threats, including actors and motivations, not only to control systems, 
but to digital computing in general.
  <bullet> Common hackers comprise the most prevalent group of cyber 
        attackers. They attempt to break-in or hack into computer 
        systems or exploit flaws in software to circumvent systems 
        security. Often the motivation is data exfiltration for 
        financial gain. Other hackers install backdoors such as Trojans 
        or other software such as rootkits that enable them to remotely 
        access the system or device at a later date to perform a 
        variety of nefarious actions.
  <bullet> The insider is a dangerous threat to control systems because 
        the individual has internal knowledge to processes and 
        components. Insiders can defeat security measures put in place 
        even when entities follow best practices and procedures.
  <bullet> Cyber-terrorists or hacktivists are those who seek to 
        disrupt internet activity in the name of a shared ideology or 
        personal, political, or social cause. These actors collaborate 
        via cyberspace and work as an organized group against their 
        targets to further their political or social agenda. Web 
        defacements, denial of service attacks, and redirects are the 
        most common acts carried out against a target or targets.
    These security challenges offer opportunities for malicious actors 
to attempt to penetrate our critical infrastructure using the 
vulnerabilities in advanced technologies such as the Smart Grid.
    The CSSP evaluates risk and serves as the focal point for 
coordinating numerous resources to assist all critical infrastructure 
entities, including the members of the electric power grid. The CSSP 
conducts operational cyber risk management activities and leads 
strategic initiatives to develop the mitigation plans to manage cyber 
risk to an acceptable level. These activities include: Control systems 
sector analysis of vulnerabilities and interdependencies; scenario 
development; vendor product assessments; incident response activities; 
and the development of assessment tools, information products, and 
training.
    In 2006, CSSP conducted an analysis based on the premise of using 
the electric grid to attack a nuclear facility (originally this was the 
``PANDORA'' analysis that later became ``AURORA''). This analysis was 
performed at the Control Systems Analysis Center (CSAC) operated by the 
Department of Energy's Idaho National Laboratory. The CSAC's analysis 
demonstrated how a perpetrator could use the electric utility system to 
produce significant nuclear plant apparatus and systems. It is 
important to note that this vulnerability was not related to a specific 
or imminent threat, and that the vulnerable control system and the 
equipment which could be damaged by an attack are often owned by two 
different entities. The analysis highlights the importance of assessing 
risk, interdependencies, and the need to secure industrial control 
systems in order to maintain our Nation's strategic interests, public 
safety, and economic prosperity.
    While these efforts result in cybersecurity strategies that help to 
increase the overall security of the electric grid, they do not protect 
the grid from attacks. DHS works closely with the Department of Energy 
in providing mitigation measures that reduce the risk of cyber attacks, 
such as those exploiting the AURORA vulnerability. DHS works directly 
with the sector specific agencies such as the Departments of Defense 
and Energy, The Federal Energy Regulatory Commission (FERC) and the 
Nuclear Regulatory Commission (NRC), as well as with our private sector 
partners such as the North American Electric Reliability Corporation 
(NERC) to help them secure their infrastructure assets through 
voluntary programs.
    The Secretary of Homeland Security takes the issue of securing our 
Nation's critical infrastructure very seriously and continues to 
emphasize an all-hazards approach to a safe and secure homeland. The 
CSSP focuses on a broad range of strategic cybersecurity initiatives 
related to securing the systems that operate the Nation's critical 
infrastructure, regardless of the cause.
    Since 2004 the Department has conducted 148 assessments of electric 
sector facilities through the Office of Infrastructure Protection. 
These include cybersecurity assessments conducted by CSSP, which 
utilize several tools that we developed, such as the Control Systems 
Cyber Security Self Assessment Tool (CS2SAT) and the Cyber Security 
Vulnerability Analysis (CSVA). DHS and the other sector-specific 
agencies perform these vulnerability assessments as directed in HSPD 7, 
which states that in accordance with guidance provided by the Secretary 
of Homeland Security, sector-specific agencies shall:
    (a) collaborate with all relevant Federal Departments and Agencies, 
        State and local governments, and the private sector, including 
        with key persons and entities in their infrastructure sector;
    (b) conduct or facilitate vulnerability assessments of the sector; 
        and
    (c) encourage risk management strategies to protect against and 
        mitigate the effects of attacks against critical infrastructure 
        and key resources.
    In addition to performing vulnerability analyses and assessments, 
the CSSP also created a series of recommended practices and 
informational products to assist owner-operators in improving the 
security of their control systems. These information resources are 
publicly available on-line at http://www.us-cert.gov/control_systems/ 
and also are promoted through the monthly meetings held by the Cross-
Sector Cyber Security Working Group, the Industrial Control Systems 
Joint Working Group's (ICSJWG) quarterly meetings, and other sector 
forums.
    While products and tools allow asset owners and operators to 
understand the cyber risk to their control systems, it is essential 
that all stakeholders have knowledge of the fundamental principles of 
control systems security. To that end, we developed an advanced 
training center at the Idaho National Laboratory which includes 
functional models of critical infrastructure equipment. This center 
provides award-winning, hands-on training that ranges from introductory 
web-based courses to advanced, hands-on ``Red Team/Blue Team'' 
exercises and instructor-led classes. This effort has trained more than 
14,000 professionals through both classroom and web-based instruction.
    To further our mission and lead a cohesive effort between 
Government and industry, the Program created two overarching 
initiatives: the Industrial Control Systems Cyber Emergency Response 
Team (ICS-CERT) and the ICSJWG.
    The ICS-CERT, in coordination with the Department's United States 
Computer Emergency Readiness Team (US-CERT), responds to and analyzes 
control systems-related incidents, conducts analyses of vulnerabilities 
and malicious software (malware), and disseminates cybersecurity 
guidance to all sectors through informational products and alerts. The 
ICS-CERT provides a more efficient coordination of control system-
related security incidents and information sharing with Federal, State, 
and local agencies and organizations, the intelligence community, and 
private sector constituents including vendors, owner-operators, and 
international and private sector computer emergency response teams 
(CERTs).
    Recently, the ICS-CERT responded to an incident at a public water 
utility, conducting on-site analysis of an event and providing 
recommendations to increase the security posture of the facility. 
Additionally, we conducted detailed digital media analysis of the 
system hard drive in order to determine the root cause of the incident. 
I am available to provide details of the incident in a classified brief 
at a later date. The CSSP and ICS-CERT regularly identify 
vulnerabilities and work with the vendors, owners, and operators of 
control systems to develop mitigation strategies tailored to their use 
and application in each of the critical sectors. We recognize there can 
be a gap between identification of a vulnerability and development of a 
vendor patch or full solution. To address this, the CSSP developed a 
Vulnerability Management Process operated by the ICS-CERT, in 
conjunction with trusted partners, to identify interim mitigation and 
consequence management approaches. We also engage with our Federal 
partners, such as the Departments of Defense and Energy as well as the 
intelligence community, to address equities and mitigate risks as we 
move from vulnerability identification, to risk assessment, to 
mitigation development and promulgation. These efforts help us evaluate 
new and emerging technologies such as Smart Grid, and the cyber risks 
that they introduce to control systems.
    The ICSJWG follows a structured approach in accordance with the 
NIPP partnership framework and the Critical Infrastructure Partnership 
Advisory Council to continue the successful efforts of the Process 
Control System Forum to accelerate the design, development, and 
deployment of more secure industrial control systems. The ICSJWG is 
comprised of industry representatives from both private sector and 
Government coordinating councils and provides a vehicle for 
communicating and partnering across all CIKR sectors among Federal, 
State, and local agencies, and private asset owner-operators of 
industrial control systems. The ICSJWG and ICS-CERT collaborate with 
one another to leverage partnerships for information sharing and 
awareness of current threats and vulnerabilities. CSSP is also 
collaborating with the DHS Science & Technology Directorate (S&T) to 
ensure that their planned research and development in this area is 
well-informed and complements CSSP's related work with industry and 
owners/operators.
    Implementation of the Smart Grid will include the deployment of 
many new technologies, such as advanced sensors to improve situational 
awareness, advanced metering, automatic meter reading, and integration 
of distributed generation resources. These new technologies will 
require the addition of multiple communication mechanisms and 
infrastructures that must be coordinated with the developing 
technologies and existing systems. Smart Grid deployment is likely to 
increase the complexity of the existing power grid system. Increased 
complexity and expanded communication paths could lead to an increase 
in vulnerability to cyber attack unless there is a coordinated effort 
to enforce security standards for design, implementation, and 
operation. As the lead agency for cybersecurity and preparedness, DHS 
is evaluating the risks and developing guidance to increase the 
security of control systems with the implementation of new 
technologies.
    Chairwoman Clarke, Ranking Member Lungren, and distinguished 
Members, I have outlined the role the Department's Control Systems 
Security Program will play in addressing the risks that Smart Grid 
technologies will introduce to control systems. With your assistance, 
we will help the Department continue to protect America. Thank you 
again for this opportunity to testify. I will be happy to answer your 
questions.

    Ms. Clarke. Thank you, Mr. McGurk.
    Our next testimony comes from Ms. Cita Furlani.

STATEMENT OF CITA M. FURLANI, DIRECTOR, INFORMATION TECHNOLOGY 
   LABORATORY, NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Ms. Furlani. Member Lungren, and Members of the 
subcommittee. I am Cita Furlani, the director of the 
Information Technology Laboratory, at the Department of 
Commerce's National Institute of Standards and Technology.
    Thank you for the opportunity to appear before you today, 
to discuss NIST's role in ensuring the cybersecurity and 
reliability of the information and communication aspect of the 
Smart Grid.
    As the Nation's measurement and standards institute, NIST 
has earned a reputation as an impartial, technically 
knowledgeable third-party, with a long history of working 
collaboratively with industry and with other Government 
agencies. These strengths allow NIST to make a unique 
contribution to the establishment of the Smart Grid.
    Recognizing the benefit of focusing this technical 
expertise in industry-oriented mission, on what is one of the 
Nation's most pressing issues, Congress, and the Energy 
Independence and Security Act of 2007, called on NIST to take a 
leadership role in ensuring an interoperable, secure, and open 
energy infrastructure, that will enable all electric resources, 
including demand-side resources, to contribute to an efficient, 
reliable electricity network.
    NISTs three-phase approach is to build on the relationship 
with DOE, FERC, DHS, and other Federal agencies to engage 
stakeholders to achieve consensus on Smart Grid standards.
    By early fall, the process will deliver the Smart Grid 
architecture framework, priorities for interoperability, and 
cybersecurity standards, and an initial set of standards to 
support implementation. In addition, plans to meet remaining 
standards needs.
    Second, to launch a formal public-private partnership to 
facilitate development of additional standards to address 
remaining gaps and integrate new technologies.
    Third, develop a plan for testing and certification to 
ensure that Smart Grid equipment and systems conform to 
standards for security and interoperability.
    NIST views its role as accelerating the process by which 
the standards development can occur. The actual standards 
development work is a process that takes place largely in the 
private sector, with standards development organizations 
utilities, and other stakeholders.
    NIST is reaching out to the private sector, and is using 
our expertise to identify where the barriers exist, where 
relevant standards currently exit, where standards exist but 
are not interoperable, and where gaps exist that require 
standards to be developed.
    I would like to caution, however, that the process of 
creating comprehensive and effective standards can be time-
consuming and difficult. To be effective, standards must be 
developed with broad representation and buy-in from all key 
stakeholders.
    It can take time to do this right. But, NIST is 
establishing an agile framework that will meet the urgent 
national need for specific Smart Grid standards. For the 
reliability of the electric power industry to be fully 
realized, cybersecurity concerns must be addressed, in addition 
to assuring interoperability.
    Congress recognizes, and is specifically calling out the 
issue of cybersecurity in the ESA legislation. This is a 
critical issue due to the increasing potential of cyber attacks 
and incidents against this critical sector, as it becomes more 
and more interconnected.
    The need to address potential vulnerabilities has been 
acknowledged across the Federal Government. This need has also 
been cited in the 60-day cyberspace policy review.
    With the adoption and implementation of the Smart Grid, the 
IT and telecommunications sectors will be more directly 
involved. These sectors have existing cybersecurity standards 
to address vulnerabilities, conformity assessment programs to 
evaluate cybersecurity products, and assessment programs to 
identify known vulnerabilities in systems.
    Another issue for the Smart Grid, and the implementation of 
cybersecurity standards, is the concern that legacy equipment 
might be difficult to modify to meet new standards. Smart Grid 
cybersecurity strategy must address the addition and continual 
upgrade of cybersecurity controls.
    The cybersecurity strategy will require the development of 
an overall cybersecurity architecture to address potential 
points of failure, conformity assessment procedures, and 
certification criteria for personnel and processes.
    To achieve secure interoperability, products and systems 
will require conformity assessment that can be developed by 
NIST. Conformity assessment verifies that products adhere to 
the specifications define in the standards.
    Once a standard has been published, conformity assessment 
can accelerate product development by giving vendors well-
defined criteria to meet. Such testing should ensure that 
cybersecurity standards are affected and do not adversely 
impact interoperability.
    NIST is proud to have been given such an important role in 
Smart Grid cybersecurity through the ESA legislation. We 
believe with the continued cooperation and collective expertise 
of the industry in this effort, we will be able to establish 
the cybersecurity standards to ensure the Smart Grid vision 
becomes a reality.
    Thank you for the opportunity to testify today. I would be 
happy to answer any questions you may have.
    [The statement of Ms. Furlani follows:]
                 Prepared Statement of Cita M. Furlani
                             July 21, 2009
                              introduction
    Madame Chairwoman Clarke, Ranking Member Lungren, and Members of 
the subcommittee, I am Cita Furlani, the Director of the Information 
Technology Laboratory at the Department of Commerce's National 
Institute of Standards and Technology (NIST). Thank you for the 
opportunity to appear before you today to discuss NIST's role in 
ensuring the cybersecurity and reliability of the information and 
communication aspects of the Smart Grid as well as its physical 
security.
    As the Nation's measurement and standards institute, NIST has 
earned a reputation as an impartial, technically knowledgeable third 
party with a long history of working collaboratively with industry and 
other Government agencies. These strengths allow NIST to make a unique 
contribution to the establishment of the Smart Grid.
    Recognizing the benefit of focusing NIST's technical expertise and 
industry-oriented mission on what is one of the Nation's most pressing 
issues, Congress, in the Energy Independence and Security Act of 2007 
(EISA) called on NIST to take a leadership role in ensuring an 
interoperable, secure, and open energy infrastructure that will enable 
all electric resources, including demand-side resources, to contribute 
to an efficient, reliable electricity network. Specifically, EISA gave 
NIST ``primary responsibility to coordinate development of a framework 
that includes protocols and model standards for information management 
to achieve interoperability of Smart Grid devices and systems . . . ''. 
Cybersecurity and associated standards are being addressed as part of 
this Smart Grid Interoperability Framework that is under development.
    NIST's three-phase approach is to:
  <bullet> Build on the relationship with the Department of Energy 
        (DOE), Federal Energy Regulatory Commission (FERC), the 
        Department of Homeland Security (DHS), and other Federal 
        stakeholders to further engage utilities, equipment suppliers, 
        consumers, standards developers and other stakeholders to 
        achieve consensus on Smart Grid standards. By early fall, the 
        process will deliver:
    <bullet> the Smart Grid architecture framework;
    <bullet> priorities for interoperability and cybersecurity 
            standards, and an initial set of standards to support 
            implementation; and
    <bullet> plans to meet remaining standards needs.
  <bullet> Launch a formal public-private partnership to facilitate 
        development of additional standards to address remaining gaps 
        and integrate new technologies.
  <bullet> Develop a plan for testing and certification to ensure that 
        Smart Grid equipment and systems conform to standards for 
        security and interoperability.
    After issuing the initial set of priorities, standards, and action 
plans in early fall, NIST will initiate the partnership and complete a 
testing-and-certification plan by the end of the year.
    NIST views its role as accelerating the process by which the 
standards development can occur. NIST plans to implement the above-
mentioned public-private partnership to serve as a mechanism to 
organize stakeholders and drive priority-setting of the standards. The 
actual standards development work is a process that takes place largely 
in the private sector, with standards development organizations, 
utilities, and other stakeholders. The duration of those processes will 
depend on the complexity of the specific problem. In some cases, it 
will occur very quickly--months--and in other cases, if it's 
technically very challenging, it may take considerably longer. But in 
the case of Smart Grid, NIST is moving as expeditiously as possible to 
get the framework set and move the standards development process along.
    NIST is reaching out to the private sector and is using our 
expertise to identify where the barriers exist, where relevant 
standards currently exist, where standards exist but are not 
interoperable, and where gaps exist that require standards to be 
developed. With appropriations from the American Recovery and 
Reinvestment Act (Pub. L. 111-05), NIST is significantly expanding the 
public-private coordination so we can move more rapidly to make needed 
progress in Smart Grid interoperability standards. We are working 
closely at the interagency level to develop the detailed actions to 
support this expanded effort. This will allow us to define the 
interoperability framework (system architecture); establish standards 
development priorities; support standards assessments; identify 
standards and conformity testing gaps; and accelerate standards 
development and harmonization efforts to provide the secure and 
reliable interchange of information that is necessary to accomplish the 
Smart Grid mission.
    NIST will use the EPRI report in drafting the NIST Smart Grid 
Interoperability Standards Framework. The NIST document will describe a 
high-level architecture, identify an initial set of key standards, and 
provide a roadmap for developing new or revised standards needed to 
realize the Smart Grid. The first release of the NIST-prepared 
framework is planned to be available in September. In a Federal 
Register notice published on June 9, NIST released for public comment 
an Initial List of Smart Grid Interoperability Standards. This 
preliminary set of standards and specifications is identified for 
inclusion in the Smart Grid Interoperability Standards Framework, 
Release 1.0, and additional standards and specifications are 
anticipated to be included based on analyses of workshop input and 
public comments.
    An initial step in this process is the release of a draft report, 
Report to NIST on the Smart Grid Interoperability Standards Roadmap, 
that identifies issues and priorities for developing interoperability 
standards for the Smart Grid. In a Federal Register notice published on 
June 30, 2009, NIST formally announced the availability for public 
comment of this nearly 300-page report, prepared under contract by the 
Electric Power Research Institute (EPRI).
    I would like to caution, however, that the process of creating 
comprehensive and effective standards can be time-consuming and 
difficult. To be effective, standards must be developed with broad 
representation and buy-in from all key stakeholders. It can take time 
to do this right, but NIST is establishing an agile framework that will 
meet the urgent national need for specific Smart Grid standards. The 
proposed approach will provide that type of expert input through a 
voluntary consensus standards development process, while maintaining 
the aggressive schedule needed to develop the Smart Grid.
                         understanding the risk
    For the reliability of the electric power industry to be fully 
realized, cybersecurity and physical security concerns must be 
addressed in addition to assuring interoperability. Congress recognized 
this in specifically calling out the issue of cybersecurity in the EISA 
legislation. This is a critical issue due to the increasing potential 
of cyber attacks and incidents against this critical sector as it 
becomes more and more interconnected. Existing vulnerabilities might 
allow an attacker to penetrate a network, gain access to control 
software, and alter load conditions to destabilize the grid in 
unpredictable ways.
    Additional risks to the grid include:
  <bullet> Increasing the complexity of the grid that could introduce 
        vulnerabilities and disruptions and increase exposure to 
        potential malicious attackers and unintentional errors;
  <bullet> Linked networks can introduce common vulnerabilities;
  <bullet> Increasing vulnerabilities to communication and software 
        disruptions that could result in denial of service or 
        compromise the integrity of software and systems;
  <bullet> Increased number of entry points and paths for potential 
        adversaries to exploit;
  <bullet> Potential for compromise of data confidentiality, including 
        the breach of customer privacy; and
  <bullet> Increasing vulnerabilities to potential physical attacks or 
        disruptions, such as those due to Electromagnetic Pulse (EMP), 
        Electromagnetic Interference (EMI), and Geomagnetically-Induced 
        Currents (GICs).
    The need to address potential vulnerabilities has been acknowledged 
across the Federal Government including by NIST, DHS, DOE, and FERC. 
This need has also been cited in the 60-Day Cyberspace Policy Review, 
which states that `` . . . as the United States deploys new Smart Grid 
technology, the Federal Government must ensure that security standards 
are developed and adopted to avoid creating unexpected opportunities 
for adversaries to penetrate these systems or conduct large-scale 
attacks.'' With the adoption and implementation of the Smart Grid, the 
IT and telecommunication sectors will be more directly involved. These 
sectors have existing cybersecurity standards to address 
vulnerabilities, conformity assessment programs to evaluate 
cybersecurity products, and assessment programs to identify known 
vulnerabilities in systems. These vulnerabilities need to be assessed 
in the context of the Smart Grid.
    Another issue for the Smart Grid and the implementation of 
cybersecurity standards is the concern that legacy equipment may be 
difficult to modify to meet the new standards developed. The issue of 
legacy equipment is not unique to the Smart Grid. There are many 
industrial control systems and IT systems that do not employ the most 
current suite of cybersecurity controls. In addition, the life cycle 
for information technology, particularly for software is very short--as 
short as 6 months for many applications--and the knowledge and skill 
level of adversaries to attack these systems continues to increase. To 
address this issue, the Smart Grid cybersecurity strategy must address 
the addition and continual upgrade of cybersecurity controls and 
countermeasures to meet increasing threats. These new controls and 
countermeasures may be allocated to stand-alone components within the 
overall Smart Grid architecture.
    The overall cybersecurity strategy for the Smart Grid must examine 
both domain-specific and common requirements when developing a 
mitigation strategy to ensure interoperability of solutions across 
different parts of the infrastructure. The following is a preliminary 
list of cybersecurity requirements applicable to the Smart Grid as a 
whole:
  <bullet> Identification and authentication to components of the grid 
        to system entities;
  <bullet> Physical and logical access control to protect critical 
        information;
  <bullet> Integrity to ensure that modification of data or commands is 
        detected;
  <bullet> Confidentiality to protect sensitive information, including 
        Personally Identifiable Information (PII) and proprietary 
        information;
  <bullet> Availability to ensure that intentional attacks, 
        unintentional events, and natural disasters do not disrupt the 
        entire Smart Grid or result in cascading effects;
  <bullet> Techniques and technologies for isolating and repairing 
        compromised components of the Smart Grid;
  <bullet> Auditing to monitor changes in the Smart Grid;
  <bullet> Supply chain security to ensure that products and services 
        are not compromised at any point in the life cycle, a defense-
        in-breadth strategy; and
  <bullet> Availability to ensure that intentional attacks, whether 
        physical or cyber, unintentional events, and natural disasters 
        do not disrupt the entire Smart Grid or result in cascading 
        effects.
    The cybersecurity strategy will require the development of an 
overall cybersecurity architecture to address potential single points 
of failure, conformity assessment procedures for Smart Grid devices and 
systems, and certification criteria for personnel and processes.
                 the cybersecurity standards landscape
    In addition to understanding and assessing the risks related to the 
Smart Grid's information and communications networks, it is important 
to gauge the applicability of existing and new cybersecurity standards 
to the Smart Grid. Several standards activities are on-going including:
  <bullet> The North American Electric Reliability Corporation (NERC) 
        Critical Infrastructure Protection (CIP) Cyber Security 
        Standards CIP-002 through CIP-009, which provide a 
        cybersecurity framework for the identification and protection 
        of Critical Cyber Assets to support reliable operation of the 
        Bulk Power System;
  <bullet> The International Society for Automation (ISA) 99/
        International Electrotechnical Commission (IEC) 62443 suite of 
        standards that address Security for Industrial Control Systems;
  <bullet> The Advanced Metering Infrastructure Security task force 
        (AMI-SEC), formed to define common requirements and produce 
        standardized specifications for securing AMI system elements. 
        These requirements are for electric utilities, vendors, and 
        stakeholders; and
  <bullet> NIST Special Publication (SP) 800-53, Recommended Security 
        Controls for Federal Information Systems. This SP provides 
        guidance for Federal agencies on cybersecurity controls with 
        one section of the SP specifically addressing industrial 
        control systems.
    Although these standards are being developed by different standards 
bodies, there is significant interaction among the working groups. For 
example, there are current efforts to harmonize the NERC CIP, ISA99/IEC 
62443, and NIST SP 800-53.
    Standards are being assessed for applicability and interoperability 
across the domains of the Smart Grid, rather than developing a single 
set of cybersecurity requirements applicable to all elements of the 
Smart Grid. That is, the cybersecurity requirements of different 
domains, such as home-to-grid and transmission and distribution, may 
not be the same. For example, there are significant cybersecurity 
requirements to ensure the confidentiality of Personally Identifiable 
Information (PII) in the home-to-grid domain that may not be required 
at the transmission and distribution domain.
    To achieve secure interoperability, products and systems will 
require conformity assessment that can be developed by NIST. Conformity 
assessment verifies that products adhere to the specifications defined 
in the standards. Once a standard has been published, conformity 
assessment can accelerate product development by giving vendors well-
defined criteria to meet. Such testing should ensure that cybersecurity 
standards are effective and do not adversely impact interoperability.
                         community partnership
    NIST is working with the International Society of Automation (ISA), 
the International Electrotechnical Commission (IEC), and the North 
American Electric Reliability Corporation (NERC) on current 
cybersecurity standards. NIST also works with other standards bodies, 
such as ISO, IEEE, and Internet Engineering Task Force (IETF) on 
cybersecurity standards. We will continue to coordinate with all these 
standards bodies in the development/revision of cybersecurity standards 
applicable to the Smart Grid.
    To help ensure that we are addressing the cybersecurity 
requirements of the Smart Grid as part of the NIST Smart Grid 
Interoperability Framework, NIST has established a Cyber Security 
Coordination Task Group (CSCTG), including members from the Domain 
Expert Working Groups (DEWG) as well as cybersecurity and control 
systems experts from academia and the IT and telecommunications 
communities. The DEWGs are groups of technical experts established by 
NIST and the GridWise Architecture Council (GWAC) for information 
sharing on Smart Grid standards and interoperability issues in 
identified Smart Grid domains: Transmission and distribution, home-to-
grid, business-to-grid, and industry-to-grid.
    The CSCTG will coordinate among the DEWGs so that cybersecurity is 
addressed consistently and comprehensively in the DEWG discussions and 
work products. The focus of the CSCTG is to leverage the expertise of 
the members to identify the overall threats, vulnerabilities and risks 
to the proposed Smart Grid. In addition to cybersecurity, some physical 
security issues, including threat assessments related to 
electromagnetic pulse (EMP), electromagnetic interference (EMI) and 
geomagnetically induced currents (GIC), related to threat assessments, 
are also being considered within the CSCTG. This information will be 
used to identify the appropriate cybersecurity controls that will be 
allocated to various domains of the Smart Grid. The CSCTG is also 
considering a layered approach to cybersecurity to ensure that if one 
level is compromised, the next layer remains secure--a defense-in-depth 
strategy. These cybersecurity controls will be assessed by CSCTG 
members for effectiveness, scalability, and impacts on cost and the 
reliability of the Smart Grid, and will be integrated into the Smart 
Grid architecture from initiation. Interest is significant, and over 
150 individuals have joined the CSCTG to date.
    NIST will also coordinate closely with DOE, DHS, and FERC in the 
development of all Smart Grid cybersecurity products, and is also 
working closely with DOE, FCC and others to examine potential Smart 
Grid electromagnetic interference issues.
                               conclusion
    NIST is proud to have been given such an important role in Smart 
Grid cybersecurity through the EISA legislation. We believe that with 
the continued cooperation and collective expertise of the industry in 
this effort, we will be able to establish the cybersecurity standards, 
within the interoperability and standards framework, to ensure that the 
Smart Grid vision becomes a reality.
    Thank you for the opportunity to testify today on NIST's work on 
Smart Grid cybersecurity. I would be happy to answer any questions you 
may have.

    Ms. Clarke. I would like to thank you, as well.
    Ranking Member Lungren, and Members of the subcommittee, 
let me take a moment to request unanimous consent to insert 
additional written reports in testimony from the Canadian 
Electricity Association, the Industrial Defender Incorporated, 
Mr. Brian M. Ahern, and the Southern California Edison into the 
record.
    Hearing no objections, so ordered.
    I thank the witnesses for their testimony, and I will 
remind each Member that he or she will have 5 minutes to 
question the panel.
    I will now recognize myself, for 5 minutes for questions.
    Do any of you on the panel believe that the current FERC/
NERC standard-setting process, where industry writes standards 
and self-selects what assets it wants to secure, makes sense in 
the context of our national security?
    We can start.
    Mr. McClelland. No, the commission, the prior chairman and 
this chairman, and certainly this staff member, has been on 
record to say that the standards development process is 
adequate for routine matters attached to this power grid, the 
reliability of the power grid.
    But for matters it would attack the bulk power systems, the 
power grid if you will, it is inadequate to protect against 
national security threats and vulnerabilities.
    Ms. Clarke. Anyone else's perspective on this?
    Ms. Hoffman.
    Ms. Hoffman. The standard-setting process is a process that 
does involve public and private partnerships in looking at 
baseline requirements for the system. The standard process can 
not be the only mechanism that is viewed as an opportunity to 
provide input into emergency and emergency requirements.
    Ms. Clarke. Mr. McGurk.
    Mr. McGurk. Madame Chairwoman, I concur with my colleagues. 
The challenge of coming up with operational or interoperability 
standards is usually followed through one process. But to 
respond to a threat, or respond to a vulnerability, requires 
emergency action, that may or may not be available given the 
current construct.
    So, some challenges present themselves. Getting that 
information into the hands of the operators, and the authority 
needs to be there for the Government to direct that activity.
    Ms. Clarke. Yes.
    Ms. Furlani.
    Ms. Furlani. I agree also, that when you start talking 
about interconnected systems, wherever the different types of 
systems touch is a vulnerable spot. There is not a--you really 
need an overarching understanding of the network and the 
architecture. You can't do it in isolated pieces.
    Ms. Clarke. Thank you, all. Let me direct my next question 
to Mr. McClelland and Mr. McGurk.
    Can you please explain what additional authority you feel 
are necessary for FERC? And whether you think the language in 
H.R. 2195 is in line with what you are asking for?
    Mr. McClelland. The commission requested, actually the 
chairman arrived at the position and again, staff concurred, 
that the commission needed additional authority in order to be 
able to direct action, measures to the industry to be able to 
communicate in a confidential manner.
    Because the communications now, the information would have 
to have some assurance that the information would be protected 
there, regards cybersecurity or physical threats of our power 
system.
    The commission would have a mechanism to engage industries, 
propose and direct to engage, industry and get a directive 
established to mitigate either a physical or a cyber threat.
    The process under 215, by law, is open. So, if a standard 
were to be developed, it would have to be developed in an open 
forum. So, not only the vulnerability or the threat would have 
to be disclosed, within the proposed mitigation.
    It is not necessarily timely, because it is a very 
inclusive process that gets everyone to participate. It is not 
necessarily responsive, because the commission can't author a 
standard. It can't direct a specific measure.
    It can make a directive to a specific mitigation. But it 
has no control over what might come back from industry.
    So in that context, it is totally insufficient to assure 
that a vulnerability or a threat, either physical or cyber, has 
been addressed.
    Mr. McGurk. Yes, ma'am, from the standpoint of Department, 
we look at all the pending legislation and we look at 
opportunities to identify the best method to move forward. Of 
key concern, from our standpoint is, I go back to some of my 
previous experience as an arms control inspector under the 
START Treaty and INF Treaty.
    We were directed to trust, but verify. There lies the key. 
I can issue a directive, but unless I have the ability to 
follow up and determine whether those actions were taken, I 
have no firm understanding whether or not the threat has been, 
or the risk has been mitigated.
    So subsequently, language that addresses that opportunity, 
for whatever appropriate agency, will take those necessary 
steps, feel is vital to continuing the mission.
    Ms. Clarke. I am going to yield back the balance of my time 
and now recognize the Ranking Member of the subcommittee, the 
gentleman from California, Mr. Lungren, for his questions.
    Mr. Lungren. Thank you very much, I would address this to 
all of you.
    We talk about the Smart Grid. In some ways, it reminds me 
of some of the issues we had when we went to on-line banking. 
It is only going to be utilized by people. People are only 
going to have confidence in it if they feel that it is secure.
    Are we doing what we need to do to make sure, as we develop 
the Smart Grid proposals at various levels, to build security 
into it?
    Ms. Hoffman. Within the funding opportunity announcement, 
the Department of Energy did put very strict requirements for 
proposers to document and look at their cybersecurity aspect. 
They will have to include that in the proposals. So, we feel 
very comfortable with the language put in there that any 
proposers are going to have to address some of the elements 
that I have mentioned in my testimony as part of their Smart 
Grid projects.
    Mr. Lungren. Let me put it another way. For other kind of 
enterprises, we have insurers who assess risk, and make 
insurance rates based on that risk. Obviously to mitigate those 
rates, you do certain things.
    There are sometimes tax incentives. There are a whole host 
of things.
    Is regulation the only and most effective way we can make 
sure that security is built into the Smart Grid? Or do we need 
to look at some of these other mechanisms as well?
    Ms. Hoffman. If I may start, security is a service. It is a 
process that has to be included within the utility or within 
the Smart Grid infrastructure.
    So, it is a service that must be maintained, just like we 
have service on our computers. So, it is a way to--it should be 
developed within the electric industry, so that there are 
companies, such as the ones you have heard of in the first 
panel, to provide the service to the industry as well as to the 
customers.
    Mr. Lungren. Is there something we need to do to make sure 
that the rate structure allows for this?
    Ms. Hoffman. Within the Smart Grid technologies, we are in 
within specific aspects of utility infrastructure. The rate 
structures can be used to support that.
    For national security events, which is a public good, there 
are probably maybe other mechanisms that could be investigated.
    Mr. Lungren. Well, let me ask you this, Mr. McClelland.
    This goes to the question of EMP. We have heard low-
probability, high-consequence. I would say the highest 
consequence.
    Mr. McClelland. Yes.
    Mr. Lungren. Almost. How do we ensure? Or, how do we 
provide incentives that the private sector and the--let's just 
concentrate on the private sector. The private sector will take 
seriously these sorts of things.
    What I mean by that is this: If you are going to go to your 
whatever authority it is you have to go to for your rates, rate 
approval, and they say, ``well, to justify your rates, you have 
to show us that there is a reasonableness to what you are 
doing, and what you want to charge for.''
    They go in and they say, ``Well, low-probability, high-
consequence.'' Does a rate-making organization authority in a 
State, or even a regional area, understand that? Do we need the 
focus of the Federal Government to actually have us take it 
seriously?
    The reason I say that is, I just don't think we are taking 
this seriously enough. When you hear the testimony of the 
consequences, I mean, it makes ``Katrina'' look like a day in 
the park.
    Mr. McClelland. Yes.
    Mr. Lungren. Yet, after Katrina, we said, ``Oh my god, we 
will never let that happen again. We have got to be more 
focused on it. We will put billions of dollars in to make sure 
that kind of thing doesn't occur.''
    Yet I don't sense that in terms of EMP. You seem to take 
EMP seriously.
    Mr. McClelland. Yes.
    Mr. Lungren. You seem to accept the argument that it could 
have devastating consequence.
    Mr. McClelland. Yes.
    Mr. Lungren. But yet it does not appear to me that we, 
either in the Congress or the Executive branch, have taken it 
seriously enough to make it the kind of priority that I would 
have. So I guess I would ask you, what do we need to do so that 
the range of costs that we have seen, the EMP Commission said 
that the range of costs to protect critical infrastructure 
components would range--could be from $150 million to $9 
billion. That is a lot of change.
    Do you believe Congress should provide cost recovery to 
utilities to cover these expenses through reimbursement by the 
rate payers? Is that reasonable? Is it something that Congress 
needs to do in terms of subsidies? Tax incentives? I mean, what 
do we need to do to make this happen?
    Mr. McClelland. I would like to begin by--I will jump back 
for a second to your prior question about Smart Grid. Last 
week, the commission issued a policy statement under EISA. The 
commission's responsibility after NIST develops the standards, 
to codify the standard, to put the standards into place, to set 
the standards and in order that interoperability is 
established.
    One of the key elements in the policy statement last week 
was that the commission would provide rate recovery and would 
even consider stranded costs for an entity that began to 
install Smart Grid equipment, but then the equipment was 
obsolete. It turned out to be obsolete, if the entity built in 
cybersecurity, that was one of the four elements.
    So there is a cost recovery mechanism. The same application 
can and should be applied to EMP. It is unrealistic to think 
that entities, that utilities, will move forward on EMP 
mitigation measures in the context of high-risk low-
probability.
    If I just might say something about that, on the last panel 
there were two different witnesses, and I won't say who they 
are, but it was very telling. One witness classified it as 
high-risk, low-probability. A second witness, however, said 
high-risk low-frequency. There is a very big difference.
    Mr. Lungren. Yes.
    Mr. McClelland. Probability is not an assessment and I 
think you heard that very clearly, that without intelligence, 
without information, it is not an assessment that an entity or 
a person is qualified to make. That should be left to the folks 
that deal with intelligence.
    So high-risk, low-frequency is a better way to classify it, 
coupled with a rate recovery mechanism. On the very end, I mean 
partnership is great, and we all hope that partnership works. 
But in the absence of a regulatory mechanism, to Mr. McGurk's 
point about trust and verify, in the absence of some regulatory 
mechanism to force an entity to take action, some entities just 
simply will not take action. Regulation is there for the 
entities that won't take action.
    So I really believe, a personal perspective on this, and I 
was in the electric utility industry for 20 years before I came 
to Government for the past 5, that we knew about EMP, we knew 
about EMP mitigation measures. I saw a declassified report that 
showed a very specific attack vector and we were asked to 
evaluate that. I was asked as a controls and relays engineer. 
We did our job.
    But the chance that industry would move forward, if it 
considers it to be a low probability of event, with everything 
else that is happening, is really not realistic.
    Mr. Lungren. Thank you.
    Ms. Clarke. I now recognize Ms. Richardson, of California, 
a Member of the subcommittee, for her questions at this time.
    Ms. Richardson. Thank you, Madame Chairwoman.
    Mr. McGurk, as you saw, I introduced you to one of the 
witnesses, who seemed to have made some attempts to reach out 
to the Department, but had not been successful. How long have 
you been in your position?
    Mr. McGurk. [Inaudible.]
    Ms. Richardson. Could you turn your microphone on?
    Mr. McGurk. Pardon me, Congresswoman.
    I joined the Department in January 2008. In September 2008, 
I participated in a brief, hosted by the Department of Defense, 
for the cross-sector cybersecurity working group on the EMP 
process.
    We also engaged with the doctors' group to evaluate the 
impacts on the critical infrastructure and produced a report in 
November, recognizing the importance of not only the impacts on 
the electric grid, but the other critical infrastructures 
across our country.
    So we have been engaging across the board. The doctor has 
met with individuals from our infrastructure protection branch, 
so the comment about FEMA may have been miscommunications. But 
we have been engaged and engaging with his organization, 
focusing on EMP.
    Ms. Richardson. How much of your time, would you say, is 
spent on the issue of what we are talking about today? 
Cybersecurity within your jurisdiction?
    Mr. McGurk. I have the luxury, if you will, to focus my 
entire time on control systems, cybersecurity. That is what my 
program was created to do. So in all of the Department of 
Homeland Security, my organization focused specifically on 
cybersecurity and physical security threats to industrial 
control systems.
    Ms. Richardson. Who do you report directly to?
    Mr. McGurk. I report to the director of the national 
cybersecurity division.
    Ms. Richardson. Which eventually, who reports to the 
Secretary?
    Mr. McGurk. The under secretary for national preparedness 
and protection.
    Ms. Richardson. Is how far away from you?
    Mr. McGurk. Two steps removed. It is the director of the 
national cybersecurity division reports to the assistant 
secretary for cybersecurity and communications, who reports to 
the under secretary for NPPD, who reports to the Secretary.
    Ms. Richardson. So how often do you have an opportunity to 
report to the under secretary or Secretary, if at all?
    Mr. McGurk. I have briefed both the previous under 
secretary and Secretary and I have had the opportunity to brief 
the current deputy under secretary. I have not had an 
opportunity to brief the current Under Secretary Beers.
    Ms. Richardson. Okay. Did you have an opportunity to read 
the testimony of Dr. Graham and Mr. Fabro?
    Mr. McGurk. No, I did not have an opportunity prior to this 
meeting.
    Ms. Richardson. Do you have a copy of their testimony?
    Mr. McGurk. I do not.
    Ms. Richardson. Okay. I will make sure that you personally 
get it. I would be curious for you to read both of their 
testimonies. Towards the end of Mr. Fabro, he gives several 
specific recommendations and Mr. Graham, on page 5, he gives 
very specific recommendations. Would you be willing to read 
those?
    Mr. McGurk. Oh, absolutely, Congresswoman.
    Ms. Richardson. Okay.
    Mr. McGurk. Thank you.
    Ms. Richardson. Based upon what you heard so far today, is 
there anything that you would be in opposition to of what folks 
shared, things that we could do better?
    Mr. McGurk. I do want to emphasize that the previous 
panel's comments on public-private partnership, I think that is 
the key element. As was previously mentioned, regulation is 
just part of the equation. It is not the final solution. So 
there has to be an understanding and a collaborative effort 
between the private sector and the Federal Government to ensure 
that we address these issues.
    We often focus on the critical asset owners. We miss the 
responsibility and the opportunity of dealing with the vendor 
community.
    We actually have a subgroup in the industrial control joint 
working group that focuses on the vendors and brings the 
vendors to the table so that we can incentivize the development 
of more secure products for the future. That was a key part in 
developing our procurement standards, which we published in 
August of last year, identifying those steps necessary to 
develop and distribute and integrate more secure devices.
    Ms. Richardson. So do you reach out to traditional 
partners, the same ones you have always had? Or what do you use 
to reach out to some others? Because unfortunately, the 
testimony today was not consistent with what you have said.
    Mr. McGurk. We are attempting to reach out. The industrial 
control systems working group is following on the efforts that 
were established by the process control systems forum. So we 
are maturing and growing that activity. Again, much of our 
focus in the past was on primarily the energy sector, 
specifically the electric sector. Unfortunately, we need to 
focus on all 18 critical infrastructures.
    So we have invested heavily in developing the partnerships 
with water, chemical, transportation, critical manufacturing, 
across the board, because when it really comes down to it, 
these industrial control systems are pretty much the same 
across all these industries.
    The components that we use have the same vulnerabilities, 
whether it is moving a robotic arm that builds the car or 
generating power.
    Ms. Richardson. Okay. My last question, I have got 13 
seconds, so if you could be brief in your reply.
    Mr. McGurk. Yes.
    Ms. Richardson. One of the things that stuck out to me was 
the procurement process that we have, many private enterprises 
that own many aspects of this whole area for us, and yet we are 
really not putting the things in place to ensure that they are 
doing the security aspect as well. Do you see improvements that 
could be made?
    Mr. McGurk. Absolutely. We can definitely improve that 
procurement process.
    Ms. Richardson. So could you provide those comments to this 
committee?
    Mr. McGurk. I--yes, I can.
    Ms. Richardson. Thank you very much. I yield back. Fifteen 
seconds.
    Ms. Clarke. I now recognize the gentleman from Maryland, 
Mr. Bartlett, for 5 minutes.
    Mr. Bartlett. Thank you very much, and thank you again for 
convening this hearing.
    Mr. McClelland, I would like you to help me clear up a 
definition problem. On page 2 of your testimony, written 
testimony, on page 2 of Mr. Assante's written testimony, there 
are definitions of bulk prices and they seem to be different. 
You have a fairly restrictive one that exempts all local 
distribution facilities, including virtually all of the grid 
facilities in certain large cities.
    The definition in Mr. Assante's written testimony says bulk 
power system is defined by, and he gives the section of the 
law, distributes and controls systems necessary for operating 
an interconnected electric energy transmission network or any 
portion thereof. Electric energy from generation facility 
needed to maintain transmission system facilities.
    So his would appear to include anything and everything and 
yours would appear to exclude large portions of the system. 
Which one is correct?
    Mr. McClelland. The NERC definition for bulk power system 
is defined as generally 100 kv and above. It is actually bulk 
electric system.
    When EPAct 2005 was passed, it used a new term. Bulk power 
system. The commission, as you are probably aware, the 
commission issues a notice of proposal making, collects 
comments, considers the comments and then issues a final rule.
    This was a section or a definition that was heavily 
commented on in the industry----
    Mr. Bartlett. Could you help us in getting, for your two 
agencies, a consistent definition, so we know what we are 
dealing with? I would appreciate that. Thank you very much.
    I want to make a brief comment about a comment that Dr. 
Graham made about a robust EMP attack bringing down the power 
grid, and it might be out for several months or a year or more, 
and some might wonder how could that be? That is because if the 
grid comes down, it is very likely to take out large 
transformers. We don't make them. There are no spares. They are 
made somewhere overseas. If you order one, they will deliver 
one in a year or 18 months or so. That is how long it takes to 
make them, which is why that observation--why that observation.
    Mr. McClelland, don't you think this might have been a good 
place to use the stimulus money, in hardening the grid? 
Wouldn't it make a lot of pretty good jobs?
    Mr. McClelland. It sounds like a good idea.
    Mr. Bartlett. Thank you, sir. I agree. I agree. Okay.
    Ms. Hoffman, you had mentioned that--does not have a 
program that would allow for private or publicly-owned 
facilities to receive Federal grants. What do we need to do to 
fix it? Could you fix it administratively? Or does that need 
legislation to fix that? Because we certainly ought to be 
helpful, don't you think? How much--do we have to do something 
or can you do it?
    Ms. Hoffman. Within the Department, we set our priorities 
and there is no priority at this--or there is no activity at 
this time for that effort.
    Mr. Bartlett. Well, I would hope after this hearing that 
there would be. I would hope.
    Mr. McGurk, this strikes me as a great idea, but the 
reality is that the more effective we are in producing a Smart 
Grid, the less secure we are from an EMP attack. Because that 
just increases our vulnerability. We really do need to do 
something about that.
    You mentioned the state of units that are out there that 
are controlling all of this. Many of those components, nobody 
is around who made them. I have no idea where we get new ones.
    Mr. McGurk. Yes.
    Mr. Bartlett. They are saying that those are really, really 
old.
    You mentioned national strategy to secure cyberspace. Sir, 
if there is, if Dr. Graham is correct, then there is a robust 
EMP lay down, there will be no cyberspace to secure. Do you 
think he is wrong?
    Mr. McGurk. Oh, absolutely not, sir.
    Mr. Bartlett. Good. Well, then, I hope we are doing 
something more than we are now doing because I see us doing--if 
it is zero to 100, I see us doing something about 0.05 in terms 
of hardening our system.
    Ms. Furlani, how is EMP incorporated among the factors for 
developing Smart Grid standards? Are you doing that? Is this 
new grid going to be hardened for EMP?
    Ms. Furlani. It is one of the areas that we have in our 
long list. We are certainly taking it under consideration with 
our partners in BOE and SBC to understand where the standards 
needs might be.
    Mr. Bartlett. Well, I hope that this gets higher priority 
than it has had because as the testimony today indicated, we 
are enormously vulnerable here. Vulnerability encourages 
attack. It doesn't have to be a state actor, it could be a non-
state actor.
    I had a guy from the Department of Defense tell me there 
were no platforms out there from which these guys could launch 
this. Any tramp steamer is an adequate platform. A scud 
launcher goes up 180 miles apogee, that is plenty high enough 
to take out all of New England or all of California and other 
territories. A crude nuclear weapon, if you miss the target by 
100 miles, it is just as good as a bull's eye. This is clearly, 
clearly, the most asymmetric weapon that any potential foe has.
    Thank you very much. I yield back.
    Ms. Clarke. Thank you, Mr. Bartlett. You certainly have 
raised some very key and critical points that we must be 
vigilant around. Ms. Hoffman, you may not--we are telling you 
that this is really a priority. We want to ask you to please, 
take this back to Secretary Chu.
    I now recognize, the gentleman from New Mexico, Mr. Lujan 
for 5 minutes.
    Mr. Lujan. Thank you very much, Madame Chairwoman. My 
questions go along the same questions that I asked the first 
panel. Around, my question is to if all G&T, generation and 
transmission companies, all distribution networks, and best-run 
utilities, rural cooperatives are included in this broad 
definition of bulk power system, knowing that they are not.
    With that being said, what are we doing to prepare to be 
able to address all those needs that fall outside of NERC's 
authority? I would pose that to the panel.
    Mr. McClelland. I guess I would like to start by asking a 
clarifying question.
    Is the premise that bulk power system includes all the G&T 
and distribution facilities?
    Mr. Lujan. Well, for the most part, most G&Ts do fall under 
bulk power systems, with the exception of, I would say, a few 
that do fall out. But, the specific question is, for those that 
are not included under the definition of a bulk power system, 
G&Ts, IOUs, rural cooperatives, wherever they may be, including 
their distribution networks, what is occurring for the 
coordination there?
    Because, according to some of the testimony from the last 
panel, that has already seems to have fallen, to some extent, 
under NERC. But, the remaining authority is presumed to fall 
upon Fed regulatory authorities or other entities, depending on 
the make-up of the utility.
    So, what are we doing to include them as we begin to deploy 
some of the Smart Grid technologies that will be invested in?
    Mr. McClelland. I guess, I would like to start with the 
bulk power system definition, is defined per region. So, the 
definition of bulk power system is very different in New 
England, for instance, than it is in the West that excludes 
many more facilities.
    Now having said that, even the CIP standard, the NERC CIP 
standards for cybersecurity, it is this staff members' position 
and our Chairman's position, that Section 215 of the Federal 
Power Act, which is the reliability standard, is inadequate to 
protect the grid from a national security threat.
    It is fine for everyday reliability matters. But, if there 
is an emergency action that is necessary to protect the grid 
from either a physical or a cyber attack, it is inadequate. 
That is why the commission has advocated, the Chairman has 
advocated, that the commission receive additional authority if 
the expectation is that the commission could protect it.
    On the facilities that could fall outside of the bulk power 
system, the commission did issue a policy statement last week. 
It did say that, one of the items necessary for rate recovery 
is its Smart Grid appliances and devices must demonstrate 
conformity to cybersecurity. They must be protected from a 
cybersecurity standpoint.
    So, the commission has used its authority that is 
advocating for additional authority to protect against national 
security threats.
    Mr. Lujan. With that, Ms. Hoffman, if you could address 
that question as well? And go on to--based on the position that 
has been put out by FERC, with the position that Smart Grid 
investments have to comply with cybersecurity technology. Can 
grants also be applied for those reasons?
    Or, can the funds be used in that way to make sure that 
they are investing in necessary cybersecurity preparation, or 
tools, platforms, software, whatever the application may be, or 
technology may be included in so many investments they will be 
making?
    Ms. Hoffman. Yes, Congressman, your first question, the 
Department of Energy's program does not distinguish between the 
bulk power system. So, we are indifferent. So, we look at 
projects that will get the cybersecurity for the energy sector, 
looks at the energy sector as a whole.
    As well as the Smart Grid activity does not distinguish 
projects between the bulk power system. We look at the bulk 
system as a whole, with respect to the Smart Grid. With respect 
to the Smart Grid, projects must look at cybersecurity aspects. 
So, it will be baked in, or as part of their proposal.
    Mr. Lujan. Mr. McGurk.
    Anything that you would like to add in regard there?
    Mr. McGurk. Congressman, I would just like to add that we 
are working with both the Department of Energy and also with 
the private industry to identify those requirements, doing the 
end-to-end.
    As Ms. Hoffman had identified, we also, in the Department, 
look from the end-user, home delivery system back up without 
having a regard to any defined division between bulk power or 
the distribution networks.
    So, we work across the board along with the Department of 
Energy to assist in identifying those cybersecurity 
vulnerabilities.
    Mr. Lujan. Just a clarifying question, Ms. Hoffman. Does 
EMP also fall under what can be included with some of the 
dollars associated with the Smart Grid implementation? Do those 
safety standards, can they be included in some of the 
investments that will be made?
    Ms. Hoffman. Right now, the Department does not have any 
activities for EMP hardening.
    Mr. Lujan. Okay, thank you very much.
    Then, Madame Chairwoman, just one question that I would 
like to pose to Ms. Furlani, and maybe she could submit it into 
the record in a written format?
    But, just the same question I posed to the panel earlier as 
far as the lack of standards that do exist for the platforms, 
from a cybersecurity perspective, or some of the data systems 
that exist for energy companies. Should some standards be 
included there?
    What is the Department looking at in order to be able to 
facilitate or respond to some of those questions? Or how do 
they evaluate them?
    Thank you very much, Madame Chairwoman.
    Ms. Clarke. Thank you, we will do that.
    I now recognize the gentleman from Ohio, Mr. Austria, for 
questions.
    Mr. Austria. Thank you, Madame Chairwoman. Let me--I will 
keep my remarks brief. I know we have votes going on right now.
    But, I think we all agree here today in this panel, that 
the electric grid remains highly vulnerable to the cyber and 
physical attack. That it could possibly disable a wide portion 
of the grid for weeks, months, and even possibly years.
    As we move into the 21st century, moving towards new 
technology, and we push towards making electric infrastructure, 
electronic and digital, on the one hand, we are saving money, 
billions of dollars possibly, and we are making it much more 
quicker, much more reliable, a much more reliable system.
    But on the other hand, we are also creating cyber and 
physical making vulnerable--the word just wouldn't come out, 
becoming more vulnerable.
    I am, concerned that we don't have a comprehensive plan in 
place with that protection in place right now. Today, most of 
the critical electric infrastructure is owned and operated by 
the private sector.
    Regulators of the electric grid currently have limited 
authority and require these electric utilities to secure their 
systems against cyber and physical attacks. This hearing has 
been very informative and eye-opening.
    Just to recap on a couple of things, I want to ask Mr. 
McClelland first, and recap on what the Ranking Member started 
to go down this route, as far as--first of all, what should 
utilities do to better identify those critical cyber assets 
that are out there?
    Then, the question has come up multiple times, as far as 
incentives. Should there be--are statutory requirements 
necessary to put those incentives in place to move to that 
direction?
    Mr. McClelland. I will start starting with the 
identification of critical assets, which subsequent comes the 
identification of critical cyber assets, which then puts the 
facilities under the CIP standards.
    NERC, itself, has begun the process to rectify this 
problem. The amount of critical assets that were identified was 
low. So, Mr. Assante, who is on the power panel, wrote a letter 
to industry saying, ``Hey, rather than assume that your one 
particular facility in isolation on the whole power grid is not 
critical, you need to start from the assumption that you have 
to justify that it isn't critical.''
    In other words, you have to opt it out of the mix.
    NERC is also preparing guidance documents to help entities 
review in aggregate, what everyone else is doing, a guidance 
document to identify critical assets.
    Finally, when the commission approves its CIP standards, 
the commission identified this as a deficient area. So, it is 
not going to work if the utilities that are under regulation 
get to identify what is a critical asset, a critical cyber 
asset and what isn't.
    Therefore, the commission directed BER to rewrite the 
standard, and bring the standards back to the commission. From 
that point on, from the time the standards would be revised, 
there will be a regional review process. Then those 
determinations will be subject to the commissions review.
    Unfortunately, it is going to use the standards development 
process which can take years for it to get through, ballot 
through, and then come back to the commission. It may not be 
entirely responsive to the commissions directive.
    That is the process under Federal Power Act----
    Mr. Austria. I appreciate that. From a time constraint, let 
me have, Ms. Hoffman, your perspective on, since acting 
assistant secretary for the electricity delivery and energy 
reliability, DOE, as a specific sector agency for the energy 
sector, are you getting industry member cooperation for 
developing risk management strategies? And implementing 
security measures to protect their critical infrastructures?
    Ms. Hoffman. My apologies. We are getting cooperation. We 
have focused on the vendor communities. We have taken several 
different approaches to looking at security improvements within 
the sector, working with the vendors, and working with the 
electric or energy companies directly, in assessing the 
technology for vulnerabilities, as well as improving the 
technology.
    Mr. Austria. Madame Chairwoman, I am going to yield back my 
time. Because I know we have votes going. We don't want to miss 
the votes.
    Ms. Clarke. I want to thank each of you for your valuable 
testimony here today. I want to thank the Members for their 
questions.
    Mr. Bartlett, thank you for your wisdom on this matter. 
Also, let the Members of the subcommittee know that if you have 
additional questions for the witnesses, we will ask for you to, 
you can submit them, and we will get it to you.
    We ask that you will respond to us expeditiously in writing 
to those questions.
    Hearing no further business, I want to thank you once again 
for your testimony here today. I know that there is a lot of 
inquiry coming from the membership with regard to this matter, 
a lot of interest and concern.
    So, this is probably what we would call Part 1 of what will 
be a number of other hearings around this matter during this 
session. So, I want to thank you and just alert you to that.
    This meeting is adjourned.
    [Whereupon, at 5:42 p.m., the subcommittee was adjourned.]


                           A P P E N D I X  I

                              ----------                              

Letter From Michael J. Assante, Chief Security Officer, North American 
                    Electric Reliability Corporation
                                                     April 7, 2009.
TO: Industry Stakeholders
RE: Critical Cyber Asset Identification

    Ladies and Gentlemen: In the interests of supporting NERC's mission 
to ensure the reliability of the bulk power system in North America, 
I'd like to take this opportunity to share my perspectives with you on 
the results of NERC's recently completed self-certification compliance 
survey for NERC Reliability Standard CIP-002-1--Critical Cyber Asset 
Identification for the period July 1-December 31, 2008 along with our 
plans for responding to the survey results. As you may already be 
aware, compliance audits on this standard will begin July 1, 2009.
    The survey results, on their surface, raise concern about the 
identification of Critical Assets (CA) and the associated Critical 
Cyber Assets (CCA) which could be used to manipulate them. In this 
second survey, only 31 percent of separate (i.e. non-affiliated) 
entities responding to the survey reported they had at least one CA and 
23 percent a CCA. These results are not altogether unexpected, because 
the majority of smaller entities registered with NERC do not own or 
operate assets that would be deemed to have the highest priority for 
cyber protection. In that sense, these figures are indicative of 
progress toward one of the goals of the existing CIP standards: To 
prioritize asset protection relative to each asset's importance to the 
reliability of the bulk electric system. On-going standards development 
work on the CIP standards seeks to broaden the net of assets that would 
be included under the mandatory standards framework in the future, but 
this prioritization is an important first step to ensuring reliability.
    Closer analysis of the data, however, suggests that certain 
qualifying assets may not have been identified as ``Critical.'' Of 
particular concern are qualifying assets owned and operated by 
Generation Owners and Generation Operators, only 29 percent of which 
reported identifying at least one CA, and Transmission Owners, fewer 
than 63 percent of which identified at least one CA.
    Standard CIP-002 ``requires the identification and documentation of 
the Critical Cyber Assets associated with the Critical Assets that 
support the reliable operation of the Bulk Electric System.'' The 
standard goes on to specify that these assets are to be ``identified 
through the application of a risk-based assessment.'' Although 
significant focus has been placed on the development of risk-based 
assessments, the ultimate outcome of those assessments must be a 
comprehensive list of all assets critical to the reliability of the 
bulk electric system.
    A quick reference to NERC's glossary of terms defines a CA as those 
``facilities, systems, and equipment which, if destroyed, degraded, or 
otherwise rendered unavailable, would affect the reliability or 
operability of the Bulk Electric System.''
    Most of us who have spent any amount of time in the industry 
understand that the bulk power system is designed and operated in such 
a way to withstand the most severe single contingency, and in some 
cases multiple contingencies, without incurring significant loss of 
customer load or risking system instability. This engineering construct 
works extremely well in the operation and planning of the system to 
deal with expected and random unexpected events. It also works, 
although to a lesser extent, in a physical security world. In this 
traditional paradigm, fewer assets may be considered ``critical'' to 
the reliability of the bulk electric system.
    But as we consider cybersecurity, a host of new considerations 
arise. Rather than considering the unexpected failure of a digital 
protection and control device within a substation, for example, system 
planners and operators will need to consider the potential for the 
simultaneous manipulation of all devices in the substation or, worse 
yet, across multiple substations. I have intentionally used the word 
``manipulate'' here, as it is very important to consider the misuse, 
not just loss or denial, of a cyber asset and the resulting 
consequences, to accurately identify CAs under this new 
``cybersecurity'' paradigm. A number of system disturbances, including 
those referenced in NERC's March 30 advisory on protection system 
single points of failure, have resulted from similar, non-cyber-related 
events in the past 5 years, clearly showing that this type of failure 
can significantly ``affect the reliability (and) operability of the 
bulk electric system,'' sometimes over wide geographic areas.
    Taking this one step further, we, as an industry, must also 
consider the effect that the loss of that substation, or an attack 
resulting in the concurrent loss of multiple facilities, or its 
malicious operation, could have on the generation connected to it.
    One of the more significant elements of a cyber threat, 
contributing to the uniqueness of cyber risk, is the cross-cutting and 
horizontal nature of networked technology that provides the means for 
an intelligent cyber attacker to impact multiple assets at once, and 
from a distance. The majority of reliability risks that challenge the 
bulk power system today result in probabilistic failures that can be 
studied and accounted for in planning and operating assumptions. For 
cybersecurity, we must recognize the potential for simultaneous loss of 
assets and common modal failure in scale in identifying what needs to 
be protected. This is why protection planning requires additional, new 
thinking on top of sound operating and planning analysis.
    ``Identification and documentation of the Critical Cyber Assets 
associated with the Critical Assets that support the reliable operation 
of the Bulk Electric System'' necessitates a comprehensive review of 
these considerations. The data submitted to us through the survey 
suggests entities may not have taken such a comprehensive approach in 
all cases, and instead relied on an ``add-in'' approach, starting with 
an assumption that no assets are critical. A ``rule-out'' approach 
(assuming every asset is a CA until demonstrated otherwise) may be 
better suited to this identification process.
    Accordingly, NERC is requesting that entities take a fresh, 
comprehensive look at their risk-based methodology and their resulting 
list of CAs with a broader perspective on the potential consequences to 
the entire interconnected system of not only the loss of assets that 
they own or control, but also the potential misuse of those assets by 
intelligent threat actors.
    Although it is the responsibility of the Registered Entities to 
identify and safeguard applicable CAs, NERC and the Regional Entities 
will jointly review the significant number of Table 3 and 4 entities 
\1\ that reported having no CAs to determine the root cause(s) and 
suggest appropriate corrective actions, if necessary. We will also 
carry out more detailed analyses to determine whether it is possible 
that 73 percent of Table 3 and 4 Registered Entities do not possess any 
assets that, ``if destroyed, degraded, or otherwise rendered 
unavailable, would affect the reliability or operability of the Bulk 
Electric System.''
---------------------------------------------------------------------------
    \1\ Table 3 and 4 entities refers to those entities identified in 
the Implementation Plan for Cyber Security Standards CIP-002-1 through 
CIP-009-1.
---------------------------------------------------------------------------
    Additionally, NERC plans to host a series of educational webinars 
in the coming weeks to help Registered Entities understand CIP 
standards requirements and what will be required of them to demonstrate 
compliance with the standards once audits begin in July. NERC also 
plans to incorporate a set of informational sessions into this series, 
designed to allow the industry to share practices and ask questions of 
each other in an open, but facilitated, dialogue.
    We expect to see a shift in the current self-certification survey 
results as entities respond to the next iteration of the survey 
covering the period of January 1-June 30, 2009 and when the Regional 
Entities begin to conduct audits in July.
    I look forward to an on-going dialogue with you on these important 
issues. As always, please do not hesitate to contact me, or any of my 
staff, with any questions or concerns.
            Sincerely,
                                           Michael Assante,
                                            Chief Security Officer.
                                 ______
                                 
      Statement of the National Association of Regulatory Utility 
                             Commissioners
                             July 17, 2005
    The National Association of Regulatory Utility Commissioners 
(NARUC) was requested to provide responses to a number of questions 
presented to NARUC staff by the subcommittee. The responses provided 
below are an attempt by the NARUC staff to provide factual responses to 
the questions posed by the subcommittee and do not necessarily reflect 
the official policy positions or views of NARUC and or its membership. 
We respectfully request that these responses be placed into the record 
of these proceedings.
What assets do State utility commissioners have jurisdiction over? How 
        does this differ from the jurisdiction of FERC? Is there any 
        cross-over?
    The Federal Power Act gives FERC authority over the sale of 
electricity in inter-State commerce (``bulk power'') and inter-State 
transmission. The States retain jurisdiction over unbundled 
transmission, generation, distribution, and retail rates.
    There is some jurisdictional overlap. For example, the States and 
FERC have concurrent jurisdiction over reliability. Section 215 of the 
Federal Power Act provides FERC and NERC authority over reliability, 
but simultaneously asserts that this section does not preempt State 
authority ``to take action to ensure the safety, adequacy, or 
reliability of electric service within the State, as long as such 
action is not inconsistent with any reliability standard.'' FPA  
215(i)(3). Similarly, transmission tariffs approved by FERC are folded 
into retail rates.
How does cost recovery work?
    Cost recovery is generally established through a rate proceeding 
whereby a regulatory authority evaluates the costs that the utility 
requests to recover through rates. These costs may be initiated by the 
utility, or the utility make seek recovery for investments made in 
response to a Government mandate for something like increased security. 
Through a rate hearing, the regulatory authority evaluates the 
requested cost recovery to ensure that the cost conforms to their 
standards for approving the costs. These standards vary, including 
evaluations of whether the incurred cost was ``used and useful,'' 
``just and reasonable,'' or prudently incurred. After evaluating the 
cost to see if it is recoverable, the regulatory authority generally 
specifies a mechanism by which the utility will recover the actual cost 
recovery. Cost recovery mechanisms include base rate changes to 
tariffs, adjustment clauses, deferral accounts, line item changes, or 
closed proceedings that allow for the confidential treatment of 
security costs.
What cost recovery mechanisms exist for utilities to recover costs for 
        physical and cybersecurity protections?
    State regulators are committed to allowing cost recovery of 
critical infrastructure costs that are prudently incurred. Generally 
this cost recovery goes through the standard rate case. Regulators have 
found that the existing inventory of cost recovery protocols and cost 
recovery mechanisms is sufficient. In some cases, State legislatures 
have stepped into reaffirm that required security costs are eligible 
for recovery, as long as the costs are reasonable and prudently 
incurred.
Does the current FERC/NERC standards-setting process for infrastructure 
        protection (i.e. NERC writes, FERC approves or remands) make 
        sense in a national security context? Does NARUC believe that 
        industry-written standards are appropriate to protect assets as 
        critical to national security as the electric system?
    The NERC standards approval process meets the majority of grid 
challenges. The NERC process engages industry in the development of 
standards that FERC approves. This process results in mandatory 
standards for the bulk power system that are clear, technically sound 
and enforceable, and that garner broad support within the industry. 
NERC is continually improving its standards; it is striving to draw 
from the state-of-the-art in cybersecurity, through consideration of 
the National Institute of Standards and Technology (NIST) framework for 
cybersecurity, and to integrate that framework into NERC's existing 
Critical Infrastructure Protection standards. NERC has also implemented 
policies that allow for the confidential and expedient development of 
standards, including those related to cyber- and physical security.
Have any States required utilities to meet physical or cybersecurity 
        standards that go beyond the NERC mandatory standards? If so, 
        please provide States and standards required.
    We are unaware of such State standards, but would be happy to 
contact our members and get back to you if we learn of any examples.
What are the key aspects of any piece of legislation that seeks to 
        secure the electric grid from cyber and physical attack?
    Cybersecurity legislation should not reinvent the wheel. It should 
continue to recognize and, if necessary, make more robust the FERC-NERC 
standards-setting process. It should also recognize and respect the 
power system's existing State and the Federal jurisdictional 
boundaries.
    The legislation should create a framework for improved information 
flow from the Federal Government to State regulators and industry of 
any known threat or vulnerability. This information flow would 
facilitate increased security for the grid infrastructure. It is 
critical that any information conveyed from the Federal Government to 
States or industry about a specific threat be timely and actionable to 
best enable a response. This information can enable a utility's expert 
operators and cybersecurity staff to make the needed adjustments to 
systems and networks to ensure the reliability and security of the bulk 
power system.
    In the case of actionable intelligence about an imminent threat to 
the bulk power system, it may be necessary for Government authorities 
to issue an order, which could require certain actions to be taken by 
the electric power industry. In these limited circumstances, when time 
does not allow for classified industry briefings and development of 
mitigation measures for a threat or vulnerability, FERC should be the 
Government agency that directs the electric power industry on the 
needed emergency actions.
Do the commissioners that comprise NARUC maintain any existing 
        authorities that would allow them to require owners and 
        operators of electric facilities to harden their equipment to 
        mitigate the effects of an electromagnetic pulse?
    Commission-authorized reliability investments generally require 
that the utilities protect against ``all hazards.'' Although 
commissions generally do not prescribe against specific threats, ``all 
hazards'' standard of review mandates that utilities protect against, 
or create mitigation measures to limit detrimental reliability effects, 
from any anticipated threat, including an electromagnetic pulse.
Do the commissioners that comprise NARUC maintain any existing 
        authorities that would allow them to require owners and 
        operators of electric facilities to harden their equipment to 
        mitigate the effects of a cyber attack?
    Again, State regulatory authorities generally require utilities to 
protect against all hazards. NERC sets the cybersecurity standards. The 
commissions, including FERC within its authority over transmission, 
approve costs based on investments the utilities make to conform to 
these standards.
How many Smart Grid projects have been funded by commissioners thus 
        far? In general terms, what are the security requirements for 
        these projects?
    California and Texas have approved the rollout of advanced metering 
infrastructure (AMI) with cost recovery. Texas requires that the 
electric utility have an independent security audit of the advanced 
meters and report the results of the security audit to the commission. 
(See Texas Substantive Rule  25.130, http://www.puc.state.tx.us/rules/
subrules/electric/25.130/25.130.pdf). I believe that California is 
still evaluating the rules for the AMI rollout.
    There may be additional Smart Grid projects that have qualified for 
cost recovery of which we are not aware.
    With the rollout of the Smart Grid investment grants and Smart Grid 
demonstration projects under the American Reinvestment and Recovery Act 
of 2009, there will be a larger number of Smart Grid projects 
developed. These funding opportunity announcements discuss and 
prioritize security, and will certainly be a factor for consideration 
in the selection of these projects. Smart Grid projects, like all 
projects, must meet NERC's cybersecurity requirements. Additional 
security requirements and standards are under development. For example, 
NIST is working to develop cybersecurity standards for the Smart Grid, 
with a domain expert working group dedicated to the task. State 
commission staffs participate in the NIST cybersecurity working group. 
State commissions may choose to adopt and mandate the standards NIST 
develops for Smart Grid deployment within its jurisdiction.
    Further, NARUC Critical Infrastructure Committee continues to 
monitor and educate its members on security threats and the evolution 
of the Smart Grid.
                                 ______
                                 
            Statement of William Radasky and John Kappenman
                              introduction
    We wish to thank the House Homeland Security Subcommittee on 
Emerging Threats, Cybersecurity, and Science and Technology for 
inviting us to submit this written statement with regard to the 
protection of the critical electric infrastructure of the United States 
against cyber and other physical threats.
    While this statement will draw upon the experience and capabilities 
of Metatech Corporation, headquartered in California with its largest 
operation in New Mexico, the opinions expressed in this statement are 
those of Dr. William Radasky, Ph.D., P.E., President of Metatech and 
Mr. John Kappenman, P.E., Metatech Consultant.
                    our capabilities and experience
    Metatech Corporation was founded in 1984, and in its early years 
focused its work completely on the understanding of the various forms 
of electromagnetic pulse (EMP) created by nuclear detonations (HEMP, 
SREMP, SGEMP, etc.). The purpose of understanding these intense 
electromagnetic fields was to determine the appropriate protection for 
military electronic systems so that these systems could still operate 
in the case of a nuclear burst. A burst at high-altitudes (defined as 
above 30 km) can create a high-altitude electromagnetic pulse (HEMP) 
that can illuminate the Earth within a line of sight. Two bursts at 
several hundred kilometers altitude could fully expose the entire 
United States. This type of EMP is considered one of the most severe 
due to its wide area of coverage and it near simultaneous illumination 
of electronic equipment and systems.
    With the end of the Cold War and the subsequent reduction of 
nuclear stockpiles in the world, the threat of a major nuclear war has 
been reduced. On the other hand, the possibility of one or two nuclear 
bursts at high-altitudes launched by a terrorist organization over the 
United States seems to have increased (as suggested by the EMP 
Commission). In the early 1990s, Dr. Radasky began his work with the 
International Electrotechnical Commission (IEC) to examine the threat 
of HEMP to civil society. He has chaired IEC SC 77C since 1991, and 
this subcommittee has produced 20 voluntary standards and publications 
covering both HEMP and more recently the threat of electromagnetic 
weapons to civil society (known as IEMI). This committee has drawn upon 
the standard types of protection that are available within the 
electromagnetic compatibility (EMC) community and extended them to 
these more severe threats.
    In the 1990s Dr. Radasky and Mr. Kappenman joined forces to examine 
the threat of geomagnetic (solar) storms on high voltage power grids. 
Mr. Kappenman had worked in this field for many years with the power 
industry, studying the impacts of storms on power grids, and Dr. 
Radasky and his colleagues had worked on advanced forms of 
electromagnetic numerical analysis stimulated by their earlier work on 
EMP. It was during this time that we discovered the very strong 
relationship between the impacts of geomagnetic storms and the late-
time portion of the HEMP (known as E3) on the electric power grid. 
While the generation mechanisms of these disturbances are completely 
different, the waveforms produced and their impacts on the power grid 
are very similar.
    At the present time Metatech Corporation is the leading company 
worldwide providing new developments and understandings relating to 
space weather (geomagnetic storms due to intense solar activity) and 
its impact on large power grids. Our company has in fact been involved 
in the vulnerability and risk assessment for the power grids in England 
and Wales, Norway, Sweden and portions of Japan. Metatech developed and 
provided continuous space weather forecasting services for the company 
that operates the electric power grid for England and Wales. Since May 
2002, Metatech has been providing similar vulnerability and risk 
assessments for the U.S. electric power grid to the Commission to 
Assess the Threat to the United States from Electromagnetic Pulse (EMP 
Commission). Metatech has carried out investigations for FEMA under 
Executive Order 13407 to examine the potential impacts on the U.S. 
electric power grid for severe geomagnetic storm events. In addition, 
Metatech work has been formative in the January 2009 Report by National 
Academy of Sciences ``Severe Space Weather Events--Understanding 
Societal and Economic Impacts Workshop Report''. The assessments 
performed by Metatech indicate that severe geomagnetic storms pose a 
serious risk for long-term outages to major portions of the North 
American grid. While a severe storm is a low frequency of occurrence 
event, it has the potential for long-duration catastrophic impacts to 
the power grid and the country. The impacts could persist for multiple 
years with the potential of significant societal impacts; in addition 
the economic costs could be measured in the several trillion dollars 
per year range and could pose the risk of the largest natural disaster 
that could affect the United States.
         what is hemp and how does it impact the power system?
    As indicated earlier, HEMP is produced by a nuclear detonation 
above 30 kilometers altitude. Intense electromagnetic fields are 
produced in space by the high-energy radiation leaving the detonation, 
and these fields propagate downward to the Earth's surface. Because of 
different types of interactions, there are actually three main pulses 
created, covering three time frames: Less than 1 microsecond, from one 
microsecond to 1 second, and beyond 1 second. These time regimes have 
been given the notations of E1, E2, and E3, respectively. As we will 
discuss in this statement, each of these ``pulses'' creates different 
types of problems in modern electric and electronic equipment and 
systems; this is due to the ``coupling'' of the electromagnetic fields 
to the electric power lines themselves and to the control wiring in 
substations and power generation facilities.
 what are other similar em threats that can be dealt with at the same 
                                 time?
    There are two other significant power system electromagnetic 
threats of concern to power systems. One is a geomagnetic storm, which 
begins with the ejection of charged particles from the Sun; these 
particles travel to the Earth and create large current flows in the 
ionosphere at levels of up to millions of amperes for a severe storm. 
The frequency of occurrence of geomagnetic storms follows the solar 
cycle (11 years), but it is expected that severe storms with the 
potential for catastrophic impacts to power grids in the United States 
occur once every 30 years, based on historical evidence. As in the 
case of the E3 HEMP, this electromagnetic disturbance couples well to 
long transmission lines and creates geomagnetically induced currents 
(GICs) that can create power blackouts and damage to large 
transformers.
    Another electromagnetic threat of concern is that produced by 
electromagnetic weapons used by criminals or terrorists producing 
intentional electromagnetic interference or IEMI. These weapons have 
become more powerful and easier to obtain in recent years due to 
advances in solid-state electronics. These electromagnetic fields are 
very similar to those produced by E1 HEMP and will impact the electric 
power system in a similar fashion. The main difference is that the area 
affected by IEMI is much less than for HEMP, although the attack is 
silent and would not be understood in the same way as a cyber attack. 
In addition an IEMI attack would not leave any trace to determine how 
the attack occurred, since the electromagnetic fields would arrive 
simultaneously at several locations in a system, creating multiple 
failures of hardware and software.
         what effects are expected on the power grid from hemp?
    For the operation of the electric power grid, the HEMP E1 and E3 
pulses are the most important. Research performed for the EMP 
Commission clearly indicates the following concerns:
    (1) Malfunctions and damage to solid-state relays in electric 
        substations (E1);
    (2) Malfunctions and damage to computer controls in power 
        generation facilities, substations, and control centers (E1);
    (3) Malfunctions and damage to power system communications (E1);
    (4) Flashover and damage to distribution class insulators (E1);
    (5) Voltage collapse of the power grid due to transformer 
        saturation (E3);
    (6) Damage to HV and EHV transformers due to internal heating (E3).
    It should be noted that these effects could result in widespread 
blackouts due to the large geographic footprint of these environments 
and the fact that they are simultaneous in nature. In particular a 
single high-altitude burst above the United States would create an E1 
pulse that would arrive at all locations within one power cycle. In 
addition, widespread damage, especially to HV and EHV transformers 
could require years to recover due to worldwide production limits.
                           costs of hardening
    Given the potentially enormous implications of power system threats 
due to space weather, it is important to develop effective means to 
prevent a catastrophic and crippling failure of the electric power 
grid. Recent detailed examinations also conclude that the United States 
and other world electric power grid infrastructures are becoming more 
vulnerable to disruption from geomagnetic storms and E3 HEMP 
environment interactions for a wide variety of reasons. This trend line 
suggests that even more severe impacts can occur in the future for 
reoccurrences of large geomagnetic storms. These trends of increasing 
vulnerability remain unchecked, as no design codes have been adopted to 
reduce geomagnetically induced current (GIC) flows in the power grid 
during such a storm. Present operational procedures utilized by U.S. 
power grid operators largely stem from experiences in recent storms, 
including the March 1989 storm, while storms as much as ten times 
larger than this storm are only recently understood to have occurred 
before with the certainty they will occur again. In retrospect, it is 
also now clear that present U.S. power grid operational procedures are 
based largely on this out-of-date storm experience, and these 
procedures will not reduce GIC flows sufficiently; therefore these 
current procedures are unlikely to be adequate to prevent widespread 
blackout or damage to key equipment for historically large disturbance 
events in the future. The same trend line and theme of increasing 
vulnerability is also true with respect to the fast transient effects 
of the HEMP E1 and IEMI threat conditions.
    Since both hardening and improved operational mitigation 
development is necessary, it may be helpful to define these terms more 
clearly. Hardening is a process of modifying the power grid in order to 
block or reduce GIC in key transformer assets. Operational mitigation 
is the action of taking various operational actions for the purpose of 
posturing the power grid (or key assets) to minimize GIC exposure 
(e.g., removing spare transformers from service based upon an alert/
forecast of a severe storm). This combination provides a layered and 
complimentary approach, in that both act to improve the security of the 
grid. It is also important that both actions are functionally 
independent, in that failure to enact a timely or proper operational 
procedure does not defeat the hardening measures, which reduce the GIC. 
Infrastructure hardening is clearly the more effective and reliable 
approach; operational mitigation is highly dependent on the quality of 
alert/forecast capability and the fact that the varying states of power 
system operation during a storm may limit the range of effectiveness 
and flexibility for taking meaningful actions.
E1 HEMP standards and network upgrades
    Presently in substations and other power grid facilities, relay and 
control devices span many generations of designs from 
electromechanically operated relays to multi-function microprocessor 
based relays and control devices. The widespread applications of multi-
function devices are being used to provide added capabilities to the 
operation of the power grid; however these devices introduce new 
vulnerabilities to the E1 HEMP environment. Existing standards have 
taken into consideration the unique and harsh electromagnetic 
environment common in a high-voltage substation. As a result there are 
a variety of standards for substation-based protective relays and relay 
support systems that have evolved over the years. While these 
evolutions provide protection against some of the threats posed by the 
E1 HEMP environment, some gaps and shortfalls in immunity test 
threshold levels continue to exist that if filled would make these 
devices more robust in their ability to withstand the E1 HEMP or IEMI 
threats. While the current electromagnetic transient test levels of 
concern are from sources not related to the E1 HEMP or IEMI 
environments, some of the similarities illustrate the significant 
opportunities that are possible for dual application.
    Many activities are currently underway within the IEEE and 
International Electrotechnical Commission (IEC) to update and improve 
the EMC immunity of electronic equipment used in factories, power 
substations and power-generating stations including nuclear power 
plants. The IEC has developed a set of electric fast transient (EFT) 
tests that are very similar to the waveforms coupled by E1 HEMP to 
cables. The EFT test pulse has a rise time of 5 ns and a pulse width of 
50 ns. The typical EMC test levels suggested are between 1 and 4 kV. As 
noted in Metatech's work, EI HEMP can under some circumstances produce 
more than 10 kV, with a similar waveform. Of particular interest is the 
fact that some companies in the European power industry have suggested 
that higher levels of immunity test standards be applied to power 
system control electronics. It is clear that if EM standards are 
developed that have a dual application (normal usage and HEMP), then 
the possibility of acceptance of these standards will be more positive. 
In addition, recent work led by Metatech with Cigre is examining the 
additional protection that would be required in substations to 
eliminate the threat of IEMI. Protection against IEMI would provide 
protection against E1 HEMP.
    Given the on-going work and the fact that the United States has 
several HEMP and power system experts involved in the work of the IEC, 
these new international standards could be analyzed for their 
application to power system equipment in the United States to improve 
the hardness of the overall power system to HEMP. In addition to the 
EMC work, there is also continuing work in the IEC to develop further 
HEMP standards for the civil infrastructure with heavy participation of 
several U.S. HEMP experts. This work should be directly supported 
through research funding to develop cost-effective ways to apply the 
new IEC standards to improve the hardness of important civil systems.
    As the EMP Commission Report has noted, there are several thousand 
major substations and other high-value components on the transmission 
grid. With the development of standardized and hardened equipment, a 
continual program of replacement and upgrade with HEMP-hardened 
components will substantially reduce the cost. The estimated cost for 
HEMP-hardened replacement units and HEMP protection schemes is in the 
range of $250 million to $500 million. Approximately 5,000 generating 
plants of significance will need some form of added protection against 
HEMP, particularly for their control systems. As the EMP Commission 
noted, these costs are in the range of $100 million to $250 million.
Power grid hardening and mitigation for E3 HEMP and geomagnetic storms
    Both the E3 portion of a HEMP environments and naturally occurring 
geomagnetic storms can cause the flow of geomagnetically induced 
currents (GIC) through transformers in an exposed power grid. The GIC, 
if large enough, can disrupt the AC performance of the grid causing 
initial blackouts and also creating the potential for permanent damage 
to large transformers, which can lead to restoration delays of the 
power grid. Hardening of the power system is optimally done through the 
application of passive devices or circuit modifications that block or 
reduce the flow of GIC in a power grid. Because GIC accesses power 
systems through the multiplicity of grounded neutral leads of wye-
connected transformers, the most effective point at which to place 
blocking or limiting devices is also in these neutral-to-ground leads. 
Neutral GIC blocking devices have been actively researched since the 
early 1990s, and several hardware versions have been successfully 
deployed for blocking stray DC or GIC flows into exposed transformers.
    The analysis performed to date for the EMP Commission by Metatech 
indicates that the conceptual design of installing neutral resistors on 
the transformer neutral-to-ground connections is the preferred option 
of protection. These resistors would be low resistance--on the order of 
5 ohms. Even though small, they would substantially increase the 
resistance in the power line network; since they are located in the 
neutral to ground connection, they would not substantially decrease the 
efficiency of operation of the power grid. These devices would allow a 
significant reduction of the GIC currents induced (around 60% reduction 
in overall GIC levels are estimated from the studies). The advantage of 
this design is that it will be relatively simple to develop with lower 
engineering trade-off risks and lower overall installed costs compared 
other more exotic devices. In order to evaluate this option more 
completely, it will be necessary to carefully study the economic 
aspects of this approach and to move forward with a funded R&D effort 
to fully engineer and test the prototypes.
    The EMP Commission in their report estimated costs for switchable 
ground resistors for high-value transformers are estimated to be in the 
range of $150 million. Further studies are needed to determine the 
number and location of high-value transformers, but preliminary 
estimates are for some 5,000 such transformers to be considered on the 
230 kV, 345 kV, 500 kV and 765 kV networks. These cost estimates are 
based upon simple devices that are still at a conceptual stage of 
development. Metatech has been briefing various interested Government 
agencies and organizations on a comprehensive R&D program that would 
finalize the design requirements for the protection system and would 
develop better estimates of costs; therefore total costs several times 
larger than the previous EMP Commission estimate might be foreseeable.
    With respect to the overall cost of hardening, it is also important 
to keep in mind the cost of outages, even when they are of short 
duration. A hardening program that expends even as much as $1 billion 
to protect the U.S. power grid against a severe geomagnetic storm, an 
event that has occurred before and is certain to occur again, is still 
far cheaper than the costs of a widespread blackout to the U.S. 
economy. For example the DOE estimated that the August 2003 blackout, 
(affecting 60 million people in Midwestern and NE United States) cost 
about $10 billion. If we instead only elect to black out or shut down 
the power grid based on forecast alerts of this sort of event, it would 
cost more than 10 times the hardening cost just in terms of the 
economic impact to the United States. When one factors in that 
forecasts will no doubt come with false alerts, then the costs of 
hardening are indeed quite prudent.
                    operational mitigation training
    The EMP Commission also recognized the importance of developing a 
capability to monitor and evaluate the unique set of adverse effects on 
critical systems and to speed their restoration. Operators and others 
in a position of authority must be trained to recognize that a HEMP 
attack, an IEMI attack or a severe geomagnetic storm is occurring or is 
about to take place. This should be done in order ``to understand the 
wide range of effects it can produce, to analyze the status of their 
infrastructure systems, to avoid further system degradation, to 
dispatch resources to begin effective system restoration, and to 
sustain the most critical functions while the system is being 
repaired''.
    The detailed power grid models that have been employed by Metatech 
for the EMP Commission and FEMA studies provide an excellent starting 
point to develop a comprehensive training program and operational 
avoidance procedures for the U.S. power industry to counter the harmful 
impacts from the E3 HEMP and severe geomagnetic storm environments.
    As the EMP Commission and others have suggested, efforts to promote 
training centers that would have the mission of simulating, training, 
exercising, and testing both operational avoidance and recovery plans 
are important for the country. These training centers would allow the 
comprehensive simulation of HEMP and other major system threats, such 
as geomagnetic storms or coordinated terrorist attacks, whether they 
are physical or electromagnetic in nature (IEMI). These training 
centers would aid in the development of procedures for addressing the 
impact of such attacks to identify weaknesses, to provide training for 
personnel and to develop HEMP response procedures and coordination of 
all activities across appropriate agencies and industry.
    Better and more appropriate procedures can be developed such as:
  <bullet> Making decisions to remove certain high-value assets (such 
        as EHV transformers) from operation in the network to reduce 
        their exposure to damaging GIC levels.
  <bullet> Making decisions to remove key generating plant transformers 
        from operation again to reduce their exposure to damaging GIC 
        levels.
  <bullet> Making decisions to reduce or shed load (or to create 
        limited blackouts) in portions of the grid to reduce exposure 
        of high-value assets to damaging E1, E3, or severe geomagnetic 
        storm environments.
  <bullet> Making decisions on additional staffing under alert 
        conditions to perform manual overrides, where possible, of 
        operational controls that could be compromised due to E1 
        impacts.
                           alert capabilities
    In 1998, the National Grid Company, which operates the power grid 
for all of England and Wales, awarded Metatech a contract to develop 
and operate the world's first geomagnetic storm forecasting service 
using solar wind electrojet models. These operational electrojet models 
are driven by solar wind data from the ACE L1 satellite. This detailed 
electrojet model provided a predictive forecast capability needed by 
the electric power industry. Large and sudden storm onsets can erupt on 
a planetary scale within a matter of minutes, meaning that power 
systems that are concerned about the impact of these disturbances will 
not have any meaningful lead-time available if they depend upon local 
real-time monitoring alone. In the famous geomagnetic storm of March 
13-14, 1989, the Hydro Quebec power grid went from completely normal 
operating conditions to complete province-wide blackout in an elapsed 
time of only 90 seconds. The electrojet predictive model will instead 
provide these power system operators a nominal lead-time of 
approximately 45 minutes for most storm events, and a somewhat smaller 
lead-time for major events.
    The advanced geomagnetic storm forecasting system was developed to 
provide forecasts for the entire Northern Hemisphere, and detailed 
impacts of these storm conditions were further assessed for the NGC 
power grid across England and Wales. This system updated the forecast 
on a continuous 1-minute cadence and became operational in May 1999. 
This system was deployed in the NGC System Control Room in Wokingham, 
England where it was continuously used as the primary space weather 
tool for the control of the entire national grid. In addition to these 
forecast capabilities, Metatech with NGC deployed 16 real-time remote 
monitoring locations throughout England and Wales to monitor the storm 
environment and impacts on the power grid. Nearly 2,000 channels of 
data are continuously collected in real-time from this sophisticated 
network and made available for nowcast and system status displays in 
the NGC System Control Room. This geomagnetic storm forecasting system, 
which is highly tailored to electric power grids, is the most-advanced 
in the world, even exceeding the capability of the NOAA-SEC.
    In addition, Metatech has successfully modeled and validated 
detailed power grid models throughout the world. A complete U.S. Power 
grid model has been fully developed for the United States. EHV Power 
Grid infrastructure and was employed in both the EMP Commission studies 
and also in FEMA investigations under Executive Order 13407.
    While it is possible to install a geomagnetic storm forecasting 
system in the United States using the approach applied in the case of 
England and Wales, it should be noted that this system provided the 
forecast to a single location, where action could be taken for the 
entire grid. In the United States the situation is different, and both 
for geomagnetic storms and a HEMP attack, it is necessary to develop a 
procedure to send the geomagnetic forecast or information concerning a 
missile launch at the United States to all power grid operators within 
minutes. In addition a coordinated response of the power grid operators 
needs to be determined ahead of time for different scenarios. It is 
important that action be taken to allow this information to be sent to 
those who require it.
                   concerns about smart grid security
    While the current situation with regard to the vulnerability of the 
power grid to HEMP and other high-level electromagnetic disturbances is 
serious, national discussions of future changes to the power grid could 
well make things worse. In particular the concept of the ``Smart Grid'' 
is under active consideration, and while the precise details of such a 
plan are not clear, it is clear that a major objective is to collect 
more data on the grid and to provide that data to the operators of the 
grid.
    The problem with many proposals for the Smart Grid is that there 
will be a proliferation of millions of computers (Smart Meters), which 
will be placed at homes and businesses to monitor the use of power in 
real time. These data will allow the system operators to operate their 
grids more efficiently and to eliminate the need for extra margins. 
These distributed computers will be vulnerable to the threat of 
radiated and conducted high frequency threats (such as E1 HEMP and 
IEMI) and will be impacted by severe harmonics created during E3 HEMP 
and geomagnetic storms. It is clear that very high levels of 
electromagnetic protection should be required for these meters, yet in 
discussions concerning Smart Meters today, security seems to be a 
second thought. We recommend that the physical and electromagnetic 
security of Smart Grid components be raised to the highest level of 
consideration.
    Another area of concern is the plan to build a new super-grid to 
connect wind power in the Midwest with the Eastern and Western grid 
with the construction of a new 765 kV grid. It is important to 
recognize that the higher voltage levels of this transmission network 
(relative to the 500 kV grid in most of the country) increase its 
vulnerability to E3 HEMP and geomagnetic storms, potentially increasing 
the vulnerability of the grid by a factor of 2 or more over what exists 
today. Plans to build such a grid should definitely consider the 
protection of the high voltage transformers.
                           role of standards
    As alluded to at several points in this statement, it is first 
important to make a decision that the power grid needs to be protected 
against HEMP and other similar electromagnetic threats such as 
geomagnetic storms and IEMI. Once this is done then the means to 
accomplish the goal should be through standards. While standards often 
take years to develop, in this case much of the HEMP and IEMI work has 
already been done in the IEC for generic systems (e.g., computers). 
Standards can therefore be developed rapidly to improve the hardening 
of hardware currently in service and also for the development of new 
products. This approach will allow the fastest time to reach a hardened 
state, while keeping the costs at a reasonable level.
            conclusions regarding ferc regulatory authority
    Given that the United States has a very diverse, mostly private 
ownership of the power grid, it is difficult for industry to deal with 
the threats of HEMP, geomagnetic storms and/or IEMI on their own and 
certainly not in a piecemeal fashion. There is an argument that if a 
power company makes improvements to their portions of the grid and 
others do not, then wide area geographic threats can still have a 
catastrophic impact.
    During the beginning of the power system work in the EMP 
Commission, NERC was invited to provide its recommendations regarding 
which power system electronics were the most important to the operation 
of the grid. A prioritized equipment list was provided and used by the 
EMP Commission to perform susceptibility tests. While this part of the 
collaboration was successful, follow-up discussions with NERC were not 
as successful. It seemed that the working level people within NERC were 
not willing to recommend protection standards against HEMP in spite of 
overwhelming evidence that this threat falls into the low-probability, 
high-consequence area. Indeed the potential consequences are so serious 
that it should be viewed as a Systemic Risk, one that could threaten 
the lives of many and alter the course of the history of this country, 
if ever allowed to unfold.
    For this reason, we would recommend that FERC, which has already 
shown a strong interest in the protection of the power grid from HEMP, 
be given the regulatory authority to deal with the threat of HEMP and 
other related electromagnetic threats.
                                 ______
                                 
                       Statement of Emprimus LLC
                             July 21, 2009
    Chairwoman Clarke, Ranking Member Lungren, Chairman Thompson, 
Ranking Member King, and Members of the subcommittee: Thank you for the 
opportunity to share with you our thoughts about the present 
vulnerability of the U.S. electric grid and other critical civilian 
infrastructure to growing electromagnetic threats, and our 
recommendations for steps towards remediation of these threats. 
Emprimus is deeply concerned about our national infrastructure 
electrical, electronic, and cyber vulnerabilities in a number of areas, 
and has already been involved in several discussions with Congressional 
members and their staffs, and other agency personnel about these 
issues, as well as providing briefings to relevant industry and 
technical associations in recent months. Emprimus has a multi-
disciplined background which includes a private testing program to 
evaluate and understand the vulnerability of many types of civilian 
electronic equipment to these growing threats, as well as new ways to 
remediate them.
    We strongly support legislation to amend the Federal Power Act to 
provide additional authorities to adequately protect the critical 
electric infrastructure against cyber attack and the related 
intentional electromagnetic interference (IEMI) attacks, as well as 
hardening the electric grid against high altitude electromagnetic pulse 
(EMP) and severe geomagnetic storms. For conciseness in this record, we 
will generically refer to all electromagnetic threats as ``EMP.'' As we 
will show, all three of these threats are related in that they have 
similar effects and share common remediation solutions. It is important 
to note at the outset that EMP is also a cyber threat just as surely as 
internet hackers are, since data states can be destructively altered.
1. What are the severe electromagnetic threats to our electric system 
        and other critical infrastructure?
    Every year, the modern infrastructure of the United States becomes 
increasingly dependent on integrated circuit-based electronic control 
systems, computers, servers and burgeoning masses of electronically 
stored data. The emerging threat and growing use of non-nuclear EMP/
IEMI (Intentional Electromagnetic Interference, including Radio 
Frequency [RF] weapons) poses grave dangers to all of our civilian 
infrastructure, including our national electric grid, civilian 
facilities' data and data assets, and can damage computer systems, 
their electronic equipment and the data they contain, control and 
monitoring systems, and support systems which would impede operations 
of most critical civilian infrastructure installations. Support systems 
at risk range from security systems to communication links to fire 
protection to all HVAC systems.
    For instance, recent research and testing shows how power 
distribution can be shut down for a multi-State area by mobile non-
nuclear EMP attacks. Major metropolitan areas in the United States have 
a number of critical choke points. For example, some electrical 
substations in each area of the country connect a large amount of 
electric generation to the bulk electric transmission system, and 
similar electrical substations are used to connect the transmission 
system to the metropolitan distribution system. A mobile non-nuclear 
attack perpetrated by terrorists or other parties in an innocent-
looking truck at the typically unguarded perimeter of a single 
substation would cause connection faults and trips, resulting in 
dropping generators off-line similar to recent blackouts in New York 
and Florida. A coordinated attack at several of these substations could 
lead to a cascading collapse condition, leading to prolonged large 
multi-State power outage conditions. A multi-city coordinated attack 
could have an even more serious national effect. With proper attention 
to shielding and filtering of substation electronics controls, 
communications equipment, and data centers as part of a mandated 
improvement program, the impacts of these intentional EMP events can be 
minimized.
    The military has shielded their facilities for decades against EMP. 
Now, high levels of EMP can be delivered locally by either hand-held 
devices, or via more powerful vehicle-borne weapons, and create 
disruption and damage similar to that caused by high-altitude EMP, but 
on a local scale. The threat of a severe geomagnetic storm is always 
with us, and will occur at some time in the future with near certainty. 
(A solar event similar to the 1859 storm would cause catastrophic 
damage to our modern electricity-based infrastructure.) The recent 
Quebec grid collapse as a result of a serious solar storm has resulted 
in Canadian action to improve its grid.
    The following chart shows how all three types of electromagnetic 
threats to our infrastructure are related with regard to their damage 
and disruption effects.

----------------------------------------------------------------------------------------------------------------
                                                                     Damage to Grid          Damage to Other
                                         Damage to  Electric      Electronic  Controls        Infrastructure
                                          Grid Transformers             and Data           Electronics and Data
----------------------------------------------------------------------------------------------------------------
High-altitude Electromagnetic Pulse    Yes, National Scale....  Yes, Serious...........  Yes, Serious.
 (EMP).
Intentional Electromagnetic            Local or Regional        Yes, Serious Local.....  Yes, Serious Local.
 Interference, or Non-nuclear EMP.      Effects.
Severe Geo-magnetic Storms...........  Yes, Regional or         Sporadic...............  Sporadic.
                                        National Scale.
----------------------------------------------------------------------------------------------------------------

    This chart shows how the impacts of these threats are related. 
Fortunately, appropriately mandated national action can significantly 
reduce the impacts of all three threat classes.
    The International Electrotechnical Commission (IEC) has defined 
non-nuclear EMP/IEMI as the ``intentional malicious generation of 
electromagnetic energy introducing noise or signals into electric and 
electronic systems thus disrupting, confusing, or damaging these 
systems for terrorist or criminal purposes.'' The insidious aspect of 
this class of EMP for the energy sector and other key sectors of our 
national infrastructure is that it attacks both cyber- and physical 
security aspects of our electronics-based systems in manners that can 
completely circumvent firewalls, tier structures, layered networks, 
passwords, physical barriers, security procedures, etc. Unlike 
traditional cyber threats to data security, non-nuclear EMP may be 
extremely covert and difficult to detect and trace with forensics, and 
with the ability to impede digital forensics by corrupting the data. 
There are remediation approaches to help diminish this threat class if 
appropriate steps are taken.
2. What are the effects of an EMP event on the electric system?
    Non-nuclear EMP attack.--As demonstrated in the example above of a 
relatively modest attack by a small number of individuals on several 
critical electric power substations, substantial damage and disruption 
can be inflicted by the use of these uncontrolled and easy-to-deploy 
electromagnetic weapons. The U.S. Navy has shown how plans for many of 
these devices are available on the internet, has tested and 
demonstrated the vulnerability of computer and SCADA systems, and has 
demonstrated the fabrication and use of such a device built with a 
total parts cost of $500.00. These man-portable or vehicle-borne 
weapons are becoming a modern tool of those wishing to conduct highly 
asymmetrical warfare, including disgruntled employees, criminals, 
extremists, and terrorists. These devices can be deployed against 
electric power substations and other electronics, and in fact against 
all 18 segments of the DHS sectors of critical civilian infrastructure 
with similar results.
    High-altitude EMP attack.--A high-altitude EMP event detonated 
several hundred miles above the center of the contiguous United States 
would cause catastrophic damage to the present national electrical 
grid, as was detailed by the recent Congressional EMP Commission: 
``Report of the Commission to Assess the Threat to the United States 
from Electromagnetic Pulse (EMP) Attack,'' April 2008. An EMP event of 
this type has an initial fast burst lasting nanoseconds that will 
damage or destroy most modern electronics within line of sight that are 
based on integrated circuitry, and a slower burst lasting up to several 
minutes that will create very large voltages over hundreds and 
thousands of miles that will result in disastrous damage to the high-
voltage transformers and electronics that power our national electric 
distribution system. As the EMP Commission states, ``The 
electromagnetic pulse generated by a high altitude nuclear explosion is 
one of a small number of threats that can hold our society at risk of 
catastrophic consequences. The increasingly pervasive use of 
electronics of all forms represents the greatest source of 
vulnerability to attack by EMP. Electronics are used to control, 
communicate, compute, store, manage, and implement nearly every aspect 
of United States (U.S.) civilian systems. When a nuclear explosion 
occurs at high altitude, the EMP signal it produces will cover the wide 
geographic region within the line of sight of the detonation. This 
broad-band, high-amplitude EMP, when coupled into sensitive 
electronics, has the capability to produce widespread and long lasting 
disruption and damage to the critical infrastructures that underpin the 
fabric of U.S. society.'' This is not a short duration problem: The 
high voltage grid transformers that will be destroyed have few spares, 
little commonality, and most are now manufactured offshore. Lead times 
for small quantities of these transformers are years, but hundreds or 
thousands would be destroyed.
    Severe geomagnetic storms.--The impact on electric power 
transformers deployed at the ends of our long high-voltage transmission 
lines would be essentially the same as that from a high-altitude EMP 
event described above. The geomagnetic induced currents (GIC) from 
these events will also generate high, damaging voltage surges over any 
long conductive paths (communications, telecom, data lines, etc.) 
leading to computer systems, data storage, and any other electronic 
equipment. An expert in GIC has indicated that uninterruptable power 
supplies are especially vulnerable. An 1859-class event would shut down 
most of our grid for years, if our critical transformers remain 
unprotected.
3. What technological fixes are required to secure infrastructure from 
        an EMP event?
    Electronic and data dependent infrastructure.--The 18 Department of 
Homeland Security sectors of Critical non-military Infrastructure all 
have a vital dependence on digital data, electronic sensing, computing, 
controls, and data storage that can be corrupted and/or damaged by both 
high-altitude EMP and non-nuclear EMP. It is important to point out 
that these threats are CYBER threats, since they can corrupt and 
destroy data just as surely as the more publicized internet hacker 
attacks we are so familiar with these days. In fact, EMP is probably 
more insidious, since these attacks leave no network footprints and 
destroy evidence amenable to digital forensics, and they can cause 
physical damage to the electronic equipment attacked. It is conceivable 
that EMP could be used to cover up traditional cyber attacks. Critical 
equipment in the DHS Critical Infrastructure segments such as data 
centers, supervisory control and data acquisition (SCADA) systems, 
process control equipment, etc. can be protected by appropriate 
electromagnetic shielding, filtering, and security procedures, along 
with enhanced threat detection. It is especially important that 
facilities responsible for meeting regulatory data retention 
requirements rapidly acquire this protection, especially trading 
institutions and banking data centers. The 2008 EMP Commission Final 
Report has much more detail on the effects of EMP on 
telecommunications, banking, refineries and pipelines, and other 
infrastructure, recommending that mandated fixes proceed promptly.
    High-voltage transformers.--The national power grid high-voltage 
transformers must be remediated to withstand the huge direct current 
voltages they would be exposed to in a high altitude EMP event or 
severe geomagnetic storm. The 2008 EMP Commission Final Report has a 
number of specific recommendations regarding transformer protection, 
improving grid communications and control, safer islanding of grid 
segments (permitting a damaged portion of the grid to be safely 
isolated), and other key remediations. Some of these critical fixes can 
be started immediately and at relatively low cost, especially with 
regard to high-voltage transformer protection. These protections are 
needed to protect against severe geomagnetic storms, as well as EMP, 
since at least a severe storm will occur sooner or later.
4. Why does the modernization of the American electric grid create new 
        vulnerabilities that may not have existed before?
    There are several factors that are working to increase the 
vulnerability of our critical electric grid.
            Interconnectivity
    Heavy reliance on interconnectivity to meet peak load demands has 
increased the probability of cascading failures in the event of an EMP 
event. This is related to the existence of choke points or critical 
substations which present attractive asymmetrical targets.
            Longer transmission lines
    Increasing distances encourage use of very high voltage 
transmission of power from generation source to point of use, and both 
the high voltage and distance make the system more susceptible to the 
high-altitude EMP and geomagnetic storm threats.
            Renewable power sources
    As more long distance lines are added to deliver power from 
renewable sources of wind and solar located in sparsely populated areas 
to distant high-population-density areas, the exposure of the grid to 
high-altitude EMP and geomagnetic storm damage will be significantly 
increased. Intelligent planning now can mitigate this danger.
            Smart Grid
    The addition of ``Smart Grid'' electronic processing and 
communications between users and generation sources adds many 
additional points of failure to the operation of the grid if it is 
attacked by an EMP event.
            Electric utility operation
    Electric utility data centers and control centers for grid 
operation, customer account management, and business management 
including regulatory data retention requirements are highly dependent 
on the operation of electronic equipment, which is at serious risk of 
data corruption and equipment damage from the fast EMP transients and 
from more localized EMP/IEMI attacks.
            Critical substations
    These substations transmit huge blocks of power from large 
generating plants which, if the controls are damaged, could disrupt 
large multi-State areas.

    As reported by the EMP Commission, each of these vulnerabilities 
can be greatly diminished by timely action, but the solutions need to 
be initiated now.
5. Why is the U.S. electric grid different from other nations?
    The size and technology of the U.S. electric grid differentiates it 
from most other third-world nation grids. For example, differentiating 
features include:
  <bullet> Longer transmission lines due to lower population density 
        and large area;
  <bullet> More critical substations;
  <bullet> More prevalent conversion from coal to natural gas, in more 
        vulnerable automated and unmanned facilities;
  <bullet> Many more high-voltage transformers susceptible to EMP 
        damage.
    As described previously, each of these factors contributes to 
increased EMP risk.
    In contrast to most other developed countries that have one or two 
electrical power entities, the United States has over 400 transmission-
owning entities, greatly complicating coordinated remediation efforts. 
Also, the R&D and electrical infrastructure capital improvement 
expenditures have been in serious decline in recent years. These 
factors complicate implementing a coordinated remediation of our 
Nation's electrical power system against the three EMP threats. It will 
require additional Federal authority to mandate swift and coordinated 
action, along with appropriate Federal funding to initiate these 
appropriate steps.
6. What is the cost of securing our electric and other critical 
        infrastructure from an electromagnetic event such as EMP, 
        severe geomagnetic storms, or non-nuclear EMP/IEMI?
    On June 10, 2009, Emprimus gave a briefing on the subject at a 
meeting sponsored by the National Defense University and the National 
Defense Industrial Association on Capitol Hill. The following estimates 
for infrastructure protection were presented:

 REQUESTED CONGRESSIONAL ACTION AND FUNDING FOR CRITICAL INFRASTRUCTURE
                               REMEDIATION
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Protect High-Voltage Transformers and Critical            $1,000,000,000
 Substations.........................................
Pipelines, Water, and Waste Water....................      1,000,000,000
Utilities' Data Centers and Control..................      2,000,000,000
Smart Grid Remediation for Electromagnetic Threats...        500,000,000
911 & State Emergency Ops (EOC) State Fed and County       2,000,000,000
 Data Centers........................................
Key Financial Data Centers...........................      2,000,000,000
Infrastructure Research..............................        500,000,000
EMP Threat Detectors and Other External Threat               750,000,000
 Security............................................
------------------------------------------------------------------------


     MINIMAL CONGRESSIONAL ACTION AND FUNDING FOR THE MOST CRITICAL
                    FACILITIES IN EACH INFRASTRUCTURE
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
Most Critical HV Transformers........................       $150,000,000
Pipelines, Water, and Wastewater.....................        100,000,000
Utility Data Centers and Controls....................        150,000,000
Key Smart Grid Remediation...........................        100,000,000
911 & State Emergency Ops (EOC) State Fed and County         200,000,000
 Data Centers........................................
Critical Financial Data Centers......................        150,000,000
Key Infrastructure Research..........................         75,000,000
EMP Threat Detectors and Other External Threat                75,000,000
 Security............................................
------------------------------------------------------------------------

    The first column shows the levels required to reduce our 
infrastructure risks to acceptable levels from the physical and cyber 
threats imposed by the subject electromagnetic threats, and the second 
column shows a minimal initial program to start actions on the most 
critical infrastructure reinforcement needs. Although it partitions the 
problem slightly differently, the Congressional EMP Commission Final 
Report of April, 2008, has similar numbers for the electric supply 
portion of the infrastructure hardening. The highest priority objective 
is to protect a subset of the most critical national infrastructure so 
that minimal services can be restored after a severe event to allow 
recovery to begin. The initial costs are obviously a function of the 
level of critically definition, numbers of protected facilities, and 
levels of protection.
    The Final Report of the Congressional Commission on the Strategic 
Posture of the United States, May 2009, states that:

Findings: ``The United Stated is highly vulnerable to attack with 
weapons designed to produce electromagnetic pulse effects.''

Recommendations: ``EMP vulnerabilities should be reduced as the United 
States modernizes its electric power grid.''

    Mme. Chairwoman, it is our hope that this has been useful 
information for the subcommittee on the serious national issue of EMP. 
Again, we strongly support legislation to amend the Federal Power Act 
to provide additional authorities to adequately protect the critical 
electric infrastructure against cyber attack and the related non-
nuclear EMP/IEMI attacks, as well as hardening the electric grid 
against high-altitude EMP and severe geomagnetic storms. We would look 
forward to answering any questions you may have, and we thank you, 
Ranking Member Lungren, and the Members of the subcommittee for your 
support in addressing this electric power vulnerability and the broader 
issue of the vulnerability of our critical national infrastructure 
sectors to these electromagnetic Achilles heels.
                                 ______
                                 
                    Statement of the EMP Commission
                             July 21, 2009
    My name is Mike Frankel and I served as the executive director of 
the EMP Commission for the entire span of its activities, commencing 
with its authorization in the Floyd Spence National Defense 
Authorization Act of 2001 and culminating with the delivery of our 
final, classified, report to the Congressional oversight committees in 
February of this year. Presently, I am chief science officer for L-3 
Communications/Applied Technologies Group. I am a physicist by training 
and avocation, and have spent many years developing technical expertise 
in nuclear weapon effects and managing WMD related programs for the 
Department of Defense in a career that spanned research work for the 
Navy, the Defense Nuclear Agency, the Defense Threat Reduction Agency, 
and the Office of the Secretary of Defense. The perspective of the EMP 
Commission is being more than adequately represented to this committee 
today by our very distinguished chairman, Dr. William Graham. I should 
like to submit instead complementary background information that 
addresses in part a topic that was not emphasized in our final report, 
and that is the nexus between cyber threats and EMP.
    This committee is to be commended for holding this hearing which 
specifically includes the full spectrum of electronic threats to the 
power grid. While ``ordinary'' cyber and EMP are not usually thought of 
as coupled, this has been a mistake. The cyber threat is much in 
everyone's consciousness with an immediacy as current as yesterday's 
headlines, in this case the alleged North Korean source of cyber 
attacks on networks in South Korea and the United States. This 
committee has previously rendered valuable service by highlighting the 
dangerous cyber vulnerabilities of the power grid exposed in the 
``Aurora'' test series conducted at the NNSA's Idaho National 
Laboratory. The EMP threat has been much less in the public 
consciousness to date, although the range of potential damage from such 
an event may, as described in the public portion of the EMP 
Commission's report, exceed that realizable from most cyber attack 
scenarios. I should like to advance the somewhat new perspective that 
electromagnetic pulse threats to our critical infrastructures, 
specifically including the power grid, need to be thought of as but a--
hitherto neglected--component of the cybersecurity threat. More broadly 
speaking, there is a spectrum of electronics threats to the power grid, 
that range from conventional notions of cyber to different forms of 
EMP--both nuclear and non-nuclear, and even natural disasters--an 
electronic Katrina if you will.
    The nature of a cyber threat is to reach out and touch something, 
electronically, through its connected network. This may be thought to 
occur through delivery of intelligent messages which encode information 
and/or instructions that direct a system to some unwanted activity that 
may prove very harmful to its owners' interests. A SCADA may be reached 
and instructed to open or close a valve controlling pressures in a 
natural gas pipeline, with a disastrous pipeline explosion as a result. 
Indeed, this has already happened through SCADA malfunction, albeit not 
deliberately intentioned. The Aurora test series exposed by this 
committee which destroyed an electrical generating system, at its base 
demonstrated the disastrous effects of the mischievous at-a-distance 
control of an electronic control system. EMP--both nuclear and non-
nuclear--will also reach out and impress unwanted signals through the 
connected network. But in the case of EMP, the signals do not contain 
specific information or instructions. They are simply shot-gunned 
electronic pulses, without encoded information, which nevertheless, at 
low power levels, upon encountering vulnerable systems such as SCADAs, 
change their bit settings in unpredictable ways guaranteeing they will 
not operate as planned. Of course at higher power levels, as documented 
by the EMP Commission, they may cause actual physical damage to any 
encountered electronic system, up to the point of burning out and 
melting critical circuit elements. Thus, at low levels of intensity, 
EMP may rightly be thought of as a ``stupid cyber'' threat.
    These hearings are also particularly timely in light of the current 
intellectual energy being invested in the pursuit of energy 
independence, in particular the development of ``Smart Grid'' 
technology as well as alternative energy sources such as wind and 
solar. While Smart Grid is an evolving concept and its architecture 
still a moving target, some outlines of its ultimate shape are emerging 
and it is clear that it will depend, to a much a greater degree than 
present, on the ability to fine tune the delivery of energy to where 
and when it will be needed. And this will necessitate the proliferation 
of more, and smarter, sensors and control systems than their already 
ubiquitous presence, to exercise the real-time capabilities of the 
newer and more agile grid architecture. With such a proliferation comes 
enhanced vulnerabilities, to both cyber and EMP threats. Similarly, 
commercial introduction of new technologies, such as ultra-high-
voltage-->1,000 KV--transmission line systems as has been discussed in 
the context of exploitation of wind power and its delivery from the 
point of generation to where it's needed, entails critical new 
vulnerabilities as well. It is appropriate, that precisely now, at the 
cusp of such significant technological transformation, that proper 
attention be paid as well to new vulnerabilities which may be 
introduced in the rush to innovate. The historical economic lesson from 
the military systems development world is that designing protection 
into a system from scratch is more effective and much cheaper than 
attempting retrofit solutions when problems are discovered later on.
    Finally, I'd like to return to the theme of a spectrum of 
electronic threats to the power grid which merit attention, of which 
``ordinary'' cyber is but one component. We've discussed another 
component as well, electromagnetic pulses due to either nuclear or non-
nuclear (RF) sources. But there are also electromagnetic pulses 
stemming from natural events which pose a grave danger and to which the 
present power grid remains highly vulnerable--the ``electronic 
Katrina'' attending a very massive geomagnetic solar storm. Solar 
storms--fluctuations induced in the earth's magnetic field due to 
eruptions of charged solar matter from the surface of the sun 
(``coronal mass ejections'' in the astronomer's language) which are 
flung out in the direction of the earth, are rather common events. Most 
are of an intensity that present no danger to anything. Some however 
are significantly larger and, again on a fairly regular basis, may 
couple electromagnetic pulse energy to long transmission lines. These 
induced currents are thus a natural EMP and may overwhelm and 
physically damage (melt) huge and hard to replace components of the 
electrical grid. Just such a scenario played out in the huge solar 
storm of 1989 which took down the Hydro Quebec company system, rendered 
its many millions of Canadian customers powerless, and irreparably 
damaged one of their multi-million dollar extremely high-voltage 
transformers (house-sized units no longer manufactured domestically and 
which may take up to a year to deliver following a purchase).
    But those are ``ordinary'' events. The EMP Commission also examined 
the results of a ``100-year storm'', a Katrina analog in the world of 
``space weather''. Such an extreme event is guaranteed to come, it is 
only a question of when. Indeed such storms have already visited us 
during the last 100 years but they occurred at a time previous to the 
deployment of our modern electric power grid with its long transmission 
lines capable of absorbing the unwanted solar EMP energy. Since the 
``receiving antenna'' did not yet exist, except for the spectacularly 
unusual auroral displays--the aurora borealis was reportedly sighted 
near the equator--no harm was done. Absent some preparations which have 
not yet been taken, the next time will be very different with 
extraordinary permanent damage to hard to replace components and untold 
suffering lasting for extended periods in its wake. So taking steps to 
protect the system from cyber and EMP should proceed hand-in-hand with 
protection against the full spectrum of such electronic threats. And 
steps which are taken to protect against a singular threat should be 
considered from a perspective which seeks, as far as possible, 
solutions that confer dual or multi-benefits against a spectrum of 
threats. Understanding the need to approach EMP as one of a spectrum of 
electronically related insults and as a component of the more 
generalized cybersecurity problem, and a serious consideration of the 
prospects for remedies that confer multiple protective benefits, is the 
proper path forward to protect our uniquely valuable power grid from 
all electronic threats. And the time for such planning is now.
    Unfortunately, it is hard to detect signs of concern, or even 
interest just yet on the part of those charged with reducing the 
vulnerability of the electric grid. Unlike the Department of Defense 
which considered the (classified) recommendations of the EMP Commission 
report seriously and initiated certain (classified) remedial 
activities, it hard to detect any similar resonance to date on the part 
of our civilian agencies.
    I wish to thank the committee for this opportunity to present my 
views of this most important issue.
                                 ______
                                 
              Statement of Applied Control Solutions, LLC
    I appreciate the opportunity to provide the following statement for 
the record. I have spent more than 35 years working in the commercial 
power industry designing, developing, implementing, and analyzing 
industrial instrumentation and control systems. I hold two patents on 
industrial control systems, and am a Fellow of the International 
Society of Automation. I have performed cybersecurity vulnerability 
assessments of power plants, substations, electric utility control 
centers, and water systems.\1\ I am a member of many groups working to 
improve the reliability and availability of critical infrastructures 
and their control systems.
---------------------------------------------------------------------------
    \1\ Because much of my information is not in the public domain, I 
am not at liberty to identify specific utilities on the record.
---------------------------------------------------------------------------
    On October 17, 2007, I testified to this subcommittee on ``Control 
Systems Cyber Security--The Need for Appropriate Regulations to Assure 
the Cyber Security of the Electric Grid''.\2\
---------------------------------------------------------------------------
    \2\ http://homeland.house.gov/SiteDocuments/20071017164638-
60716.pdf.
---------------------------------------------------------------------------
    On March 19, 2009, I testified to the Senate Committee on Commerce, 
Science, and Transportation on ``Control Systems Cyber Security--The 
Current Status of Cyber Security of Critical Infrastructures''.\3\
---------------------------------------------------------------------------
    \3\ http://commerce.senate.gov/public/_files/WeissTestimony.pdf.
---------------------------------------------------------------------------
    I will provide an update on cybersecurity of the electric system 
including adequacy of the NERC CIPs and my views on Smart Grid 
cybersecurity. I will also provide my recommendations for DOE, DHS, and 
Congressional action to help secure the electric grid from cyber 
incidents.
                               background
    First of all, I believe it is any utility's obligation to maintain 
a high level of electric service reliability. For the most part, the 
utility industry takes this responsibility very seriously and focuses 
very strongly on electric system reliability. The grid has been 
designed to be resilient and accommodate failures (the N-1 criteria). 
The equipment in place (older legacy and new equipment) has 
demonstrated a high level of reliability. However, as the older 
equipment is replaced with new equipment such as for Smart Grid 
applications an interesting paradox occurs--as reliability increases 
from the installation of new equipment, the cyber vulnerability also 
increases.
    First, I believe a major point of discontinuity has been the 
unsuccessful equating of the terms Critical Infrastructure Protection 
(CIP) and cybersecurity.
    CIP (or ``functional security'') is focused on the function of the 
electric grid being maintained regardless of the status of the 
computers. Cybersecurity, on the other hand, focuses on protecting the 
computers independent of whether electric reliability is being 
maintained. For the sake of semantics, I will use the term 
``cybersecurity'' but my intention is that the operation of the 
computers is focused on ``keeping the lights on,'' or what is becoming 
increasingly referred to as ``functional security.''
    Secondly, cyber events can be either intentional attacks or 
unintentional incidents.
    NIST defines a cyber incident as ``An occurrence that actually or 
potentially jeopardizes the Confidentiality, Integrity, or Availability 
(CIA) of an information system or the information the system processes, 
stores, or transmits or that constitutes a violation or imminent threat 
of violation of security policies, security procedures, or acceptable 
use policies. Incidents may be intentional or unintentional.''\4\
---------------------------------------------------------------------------
    \4\ FIPS PUB 200, Minimum Security Requirements for Federal 
Information and Information System, March 2006.
---------------------------------------------------------------------------
    Cyber incidents are also more than just malware or botnet attacks. 
Cyber incidents include all forms of impacts on electronic 
communications.
    Man-made Electromagnetic Interference (EMI) has already impacted 
North American and European electric and water Supervisory Control and 
Data Acquisition (SCADA) systems and ruptured a natural gas pipeline.
    In industry control systems, the most probable cyber incident is 
unintentional. Moreover, in a stellar application of the ``law of 
unintended consequences,'' I believe that ``blindly'' following the 
NERC CIPs \5\ will result in more unintentional cyber incidents.
---------------------------------------------------------------------------
    \5\ http://www.nerc.com/page.php?cid=2|20.
---------------------------------------------------------------------------
    Unintentional cyber incidents have already killed people, caused 
significant outages, and large economic impacts. Additionally, if the 
incident can be caused unintentionally, the same type of incident, if 
intentional, could have even more damaging effect.
                             recent history
    What has been happening since I testified to this subcommittee in 
October 2007? It is not a pretty picture and the power industry clearly 
needs Congress's help.
    Knowledge Base.--Figure 1 characterizes the relationship of the 
different types of special technical skills needed for control system 
cybersecurity expertise, and the relative quantities of each at work in 
the industry today.
    Most people now becoming involved with control system cybersecurity 
typically come from a mainstream business Information Technology (IT) 
security background and not a control system background. This trend is 
certainly being accelerated by the Smart Grid initiatives, where the 
apparent lines between IT and control systems are blurring. Many of the 
entities responsible for control system cybersecurity, industry, 
equipment suppliers, and Government personnel (e.g., DHS NCSD and S&T, 
DOE, EPA, etc.) do not entirely appreciate the difficulties created by 
this trend.
    This lack of appreciation has resulted in the repackaging of IT 
business security techniques for control systems rather than addressing 
the needs of field control system devices that often have no security 
or lack the capability to implement modern security mitigation 
technologies. This, in some cases, has resulted in making control 
systems less reliable without providing increased security. An example 
of the uninformed use of mainstream IT technologies is utilizing port 
scanners on Programmable Logic Controller (PLC) networks. This has the 
unintended consequence of shutting them down. This specific type of 
cyber incident has occurred more than once in both the nuclear power 
and conventional power portions of the industry, with negative 
consequences.
    As can be seen in Figure 1, IT encompasses a large realm, but does 
not include control system processes. Arguably, there are less than 
several hundred people world-wide that fit into the tiny dot called 
control system cybersecurity. Of that very small number, an even 
smaller fraction exists within the electric power community. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Control System Cyber Incidents.--Since I testified to this 
subcommittee in October 2007, I have documented more than 30 control 
system cyber incidents, more than 20 of which were in the North 
American electric power industry! These incidents affected nuclear and 
fossil plants, substations, and control centers. Impacts ranged from 
loss of displays, controller slowdowns and shutdowns, plant shutdowns, 
and a major regional power outage. Geographically, these incidents 
occurred in more than ten States and a Canadian province. None of the 
incidents were actually identified as ``cyber''.
    Meeting the NERC CIPs would not have prevented many of these 
incidents. In fact, some could have actually been caused or exacerbated 
by following the NERC CIPs.
    Equipment Suppliers.--It is important to understand that suppliers 
provide equipment with the features their customers' request. Given 
that fact, the report card on our control system suppliers is a mixed 
bag. Responding to industry requests, the major Distributed Control 
System (DCS) and SCADA suppliers have been addressing security at the 
master station level. However, suppliers of field control and equipment 
monitoring systems have not had those industry requests and thus are 
continuing to include dial-up or wireless modems, Blue Tooth and Zigbee 
connections, and/or direct Internet connections as part of their 
product offerings. This also applies to equipment used in the Smart 
Grid and nuclear plants.
    Business IT-focused suppliers continue to supply equipment and 
testing tools designed for IT applications not for legacy control 
systems applications. This has resulted in control system equipment 
impacts including shutdown or even hardware failures.
    Consultants and System Integrators.--Most of the consultants and 
system integrators that are focusing on ``cybersecurity'' are really 
focusing on compliance for NERC CIPs. Most are focusing on the SCADA or 
DCS master stations as they are IT-like systems that non-control system 
personnel can understand. That leaves the legacy field equipment that 
has essentially no security hardly even addressed as part of the NERC 
CIP process. The consultants and system integrators that are focused on 
equipment upgrades or new equipment installation generally do not 
address security.
    Utilities.--The original intention of the NERC CIPs (even before 
they were called the CIPs) were to make the bulk electric grid secure. 
Unfortunately, the ``letter of the law'' of the NERC CIPs is not 
security, but compliance. It is a critically important distinction to 
make, and to understand. I know of only one utility that is trying to 
assure their systems are secure independent of compliance 
considerations. Almost all utilities are playing the game of compliance 
rather than securing their systems. This has resulted in industry's 
lukewarm attempt to meet NERC Advisories such as Aurora.\6\ This lack 
of will has directly led to the significant number of actual electric 
industry cyber incidents many of which were not even addressed by the 
NERC CIPs!
---------------------------------------------------------------------------
    \6\ http://homeland.house.gov/SiteDocuments/20080521142118-
53954.pdf.
---------------------------------------------------------------------------
    NERC.--The North American Electric Reliability Corporation (NERC) 
was established in 1968 to ensure the reliability of the bulk power 
system in North America. NERC is a self-regulatory organization, 
subject to oversight by FERC and governmental authorities in Canada. As 
of June 18, 2007, FERC granted NERC the legal authority to enforce 
reliability standards with all U.S. users, owners, and operators of the 
bulk power system, and made compliance with those standards mandatory 
and enforceable making NERC the Electric Reliability Organization 
(ERO). NERC's status as a self-regulatory organization means that it is 
a non-Government organization which has statutory responsibility to 
regulate bulk power system users, owners, and operators through the 
adoption and enforcement of standards for fair, ethical, and efficient 
practices.\7\ Prior to becoming the ERO, NERC was an American National 
Standards Institute (ANSI)-accredited organization meaning it was a 
consensus standards organization and was subject to the direction of 
its member utility organizations. The ANSI accreditation requires 
standards need to go through a formal ballot process. This is a time-
consuming effort and tends to favor setting a ``very low bar.'' This 
consensus process has resulted in cybersecurity standards that are very 
weak and ambiguous assets and even exclude some of the most important 
recommendations from the Final Report of the Northeast Outage.\8\ In 
the past, NERC has been a clear obstructionist to adequately securing 
the electric grid. NERC has used the ANSI process to reject more 
comprehensive requirements. That obstructionism included public 
responses denigrating Project Aurora.\9\ The consensus approach is 
adequate for subjects like tree-trimming but is not appropriate for 
critical infrastructure protection.
---------------------------------------------------------------------------
    \7\ http://www.nerc.com/page.php?cid=1.
    \8\ https://reports.energy.gov/BlackoutFinal-Web.pdf.
    \9\ http://www.cnn.com/2007/US/09/27/power.at.risk/index.html.
---------------------------------------------------------------------------
    I was part of the NIST/MITRE team that performed a line-by-line 
comparison of the NERC CIPs to NIST Special Publication (SP) 800-53 
\10\ which is mandatory for all Federal agencies including Federal 
power agencies.\11\ The report demonstrates that NIST SP800-53 is more 
comprehensive than the NERC CIPs. However, NERC and many utilities are 
fighting the implementation of NIST SP800-53. Are the utilities trying 
to say that the computers at the Department of Housing and Urban 
Development need a more comprehensive set of cybersecurity rules than 
every non-Federal power plant, substation, and control center in the 
United States? Unless an asset is classified as ``critical'' in CIP-
002, no further cybersecurity evaluation is necessary. A large segment 
of the utility industry is using the amorphous requirements in CIP-002 
to exclude most of their control system assets from even being 
assessed. Michael Assante, Vice President and Chief Security Officer of 
NERC wrote a public open letter on April 7 \12\ in which he makes it 
very clear that the industry is not doing an adequate job of even 
meeting the weakened intent of the NERC CIPs. Specifically, Assante's 
letter states that only 29 percent of Generation Owners and Operators 
identified at least one Critical Asset and fewer than 63 percent of the 
transmission owners identified at least one Critical Asset. This means 
that 71% of generation owners did not identify a single critical asset 
and 37% of transmission owners did not identify a single critical 
asset. I am personally aware of utilities that have identified ZERO 
Critical Assets even though they have automated their plants and 
substations and have control centers.
---------------------------------------------------------------------------
    \10\ http://csrc.nist.gov/publications/PubsDrafts.html#SP-800-53-
Rev.%203.
    \11\ Marshall Abrams, MITRE Technical Report, MTR70050, Addressing 
Industrial Control Systems in NIST Special Publication 800-53, March 
2007.
    \12\ Letter from Mike Assante to NERC Industry Stakeholders, 
``Critical Cyber Asset Identification'', April 7, 2009.
---------------------------------------------------------------------------
    Despite Assante's attempts to change NERC's approach on 
cybersecurity, NERC has continued its focus as a utility-directed 
organization. NERC's Board of Trustees approved revisions to the NERC 
CIPs on May 6, 2009 after passage by the electric industry with an 88 
percent approval rating. However, the revisions did not address any of 
the technical limitations such as exclusions of telecom, distribution, 
non-routable protocols or strengthening CIP-002 to address Assante's 
April 7 letter. A second example would be the June 30, 2009 Alert on 
the Conficker Worm.\13\ The Alert states the ES-ISAC estimates the risk 
to bulk power system reliability from Conficker is LOW due to the 
limited exploitation of this vulnerability and generally widespread 
awareness of the issue even though NERC acknowledges the potential 
consequence is high and the awareness among control system users is 
very low.
---------------------------------------------------------------------------
    \13\ http://www.nerc.com/page.php?cid=5%7C63.
---------------------------------------------------------------------------
    Smart Grid.--The intent of the Smart Grid is to embed intelligence 
into the electric grid to allow two-way communications between devices 
and control centers for monitoring and control. The Smart Grid's use of 
the Internet and Internet Protocols (IP) is blurring the line between 
business IT and control systems resulting in more people without 
knowledge of the electric system being involved in securing these 
systems.
    This is a recipe for disaster--there has already been at least one 
case of a denial of service attack (DDOS) to a distribution automation 
system.
    From a Regulatory standpoint, the situation is convoluted because 
the NERC CIPs explicitly exclude electric distribution which is the 
heart of the Smart Grid and yet the NIST Smart Grid security efforts 
point to the NERC CIPs.
    Unless Congress passes legislation to allow FERC to include 
distribution or the individual public utility commissions mandate that 
the NERC CIPs must be followed for their distribution systems, there 
are no regulations for securing the Smart Grid.
    Education.--To the best of my knowledge, there are no technical, 
interdisciplinary university curricula for control systems 
cybersecurity. There are universities starting to address this subject 
in an ad hoc manner such as the University of Illinois and Mississippi 
State University. Congress might well seek ways to encourage and fund 
more such curricula as a significant way to improve cybersecurity in 
all control systems.
    Certifications.--There are no personnel certifications for control 
system cybersecurity.
    IT certifications such as the Certified Information Systems 
Security Professional (CISSP) and the Certified Information Security 
Manager (CISM) do not address control systems. Professional engineering 
examinations do not include security.
    There needs to be a certification demonstrating knowledge of 
control systems as well as security by organizations competent to 
oversee this requirement. One organization could be the CSFE \14\ which 
certifies Functional Safety experts. There are on-going efforts by 
individual companies and organizations such as ISA to certify 
industrial control systems for cybersecurity.
---------------------------------------------------------------------------
    \14\ www.csfe.org.
---------------------------------------------------------------------------
    Government R&D.--R&D has been focused on effectively ``repackaging 
IT''. Very little work has been devoted to legacy and even new field 
equipment, even though these devices have limited or no security, and 
can cause the biggest impacts.
    There has also been no attempt to analyze actual cyber incidents to 
learn what policies and technologies should be developed to protect 
them.
    NIST.--NIST has effectively two disjointed programs on 
cybersecurity that impact the electric grid. The NIST Information 
Technology (IT) Laboratory has been responsible for updating NIST 
SP800-53 and the daughter standard NIST SP800-82.\15\ There has been a 
significant amount of effort addressing industrial control systems and 
applicability to the electric industry. NIST is also acting as the 
standards coordinator for the Smart Grid.
---------------------------------------------------------------------------
    \15\ http://csrc.nist.gov/publications/drafts/800-82/draft_sp800-
82-fpd.pdf.
---------------------------------------------------------------------------
    As a member of the Smart Grid Cyber Security Working Group and the 
Industry-to-Grid Working Group, I see a dichotomy that troubles me. 
Instead of mandating NIST SP800-53 for the Smart Grid, it appears as if 
NIST doesn't want to be seen as pushing their own standards. Not only 
is NIST SP800-53 the best cybersecurity standard currently available, 
it is mandatory for all Federal power agencies. Why shouldn't NIST 
SP800-53 be mandated for all power utilities, not just Federal ones?
                            recommendations
    Traditional reliability threats such as tree trimming to prevent 
power line damage could be handled by private industry. However cyber 
is a new threat that requires a joint effort by the Government and 
private industry. I believe there are a number of roles for the Federal 
Government to play in defending against cyber incidents and/or physical 
attacks against electric facilities.
    Articles such as the recent Wall Street Journal article on Chinese 
and Russian hackers imply that the electric industry is unaware of 
computer intrusions.\16\ This is probably true on several accounts. As 
mentioned, the electric industry is not doing an adequate job of even 
looking. Additionally, there is a lack of adequate cyber forensics for 
control systems. This leads to the fact that is it difficult to have an 
early detection and warning capability for cyber threats for the 
electric industry today. However, that same difficulty is also an 
opportunity for the Government and private industry to develop 
appropriate forensics. A non-technical challenge is the industry's 
continuing reticence to provide control system cyber incident data to 
the Government and for law enforcement to share relevant information on 
actual attacks to the industry so they can protect themselves.
---------------------------------------------------------------------------
    \16\ http://online.wsj.com/article/SB123914805204099085.html.
---------------------------------------------------------------------------
            What can DHS and DOE do?
    I cannot speak for the division in responsibilities between DHS and 
DOE, but I can point out what needs to be done:
  <bullet> Provide intelligence on threats to those needing to know--
        that does not mean only security-cleared individuals, but all 
        individuals working in the area;
  <bullet> Make use of available technical talent--there is very 
        little, and the safety and security of our country depend on 
        these efforts;
  <bullet> Analyze actual control system cyber incidents to develop 
        appropriate cyber technologies and policies--there are few 
        places to get the information as most of it has not been 
        provided to the Government--and what has is often classified 
        and unavailable;
  <bullet> Establish benchmarks for how much security is enough, what 
        is an acceptable vulnerability assessment, what is an 
        acceptable risk assessment, audit metrics, trade-offs between 
        security and functionality, etc.;
  <bullet> Support first-of-kind technology development, particularly 
        for legacy field devices;
  <bullet> Support development of college technical as well as policy 
        curricula;
  <bullet> Support the establishment of a CERT (Computer Emergency 
        Response Team) for control systems that is not under the 
        purview of the Government, because industry is still 
        uncomfortable about providing what they consider to be 
        confidential data to Government agencies like the FBI.
            What can Congress do?
    Currently FERC is constrained by the Energy Policy Act of 2005.\17\ 
It cannot write standards and its scope is restricted to the bulk 
electric system. There are several steps that Congress can take to help 
maintain the reliability of the electric system from cyber threats:
---------------------------------------------------------------------------
    \17\ http://en.wikipedia.org/wiki/Energy_Policy_Act_of_2005.
---------------------------------------------------------------------------
    1. Provide cybersecurity legislation that gives FERC the scope to 
        write standards including mandating NIST SP800-53 for the bulk 
        electric grid and the Smart Grid.
    2. For cybersecurity, increase FERC's scope to include electric 
        distribution. There are technical as well as administrative 
        reasons. Low voltage transmission and high voltage distribution 
        systems electronically communicate with each other; utilities 
        electronically communicate with each other; and the utilities 
        use common systems. We cannot afford to have a ``Tower of 
        Babel'' set of rules for each State and for the same equipment.
    3. NERC is in a conflict-of-interest position because its 
        fundamental purpose has changed. If NERC can not do the job of 
        assuring cybersecurity of the electric grid, find an 
        organization with the will power and authority to do so.
    4. HR 2195 \18\ would go a long way toward providing effective 
        legislation. I would add the following: Mandate the NIST FISMA 
        guidance documents, such as SP800-53 and require the 
        establishment of a program to develop expertise in electric 
        grid cybersecurity. The expertise gained from this program 
        should be shared with every electric grid owner and operator.
---------------------------------------------------------------------------
    \18\ http://www.opencongress.org/bill/111-h2195/text.
---------------------------------------------------------------------------
                                summary
    It has been almost 10 years since I helped start the control system 
cybersecurity program at the Electric Power Research Institute (EPRI). 
Ten years should have been sufficient time for the industry to make 
significant progress. Unfortunately, it has not happened. Actual 
control system cyber incidents continue to occur--in fact, they appear 
to be getting more numerous. An unsecured electric grid is dangerous to 
the safety and economic well-being of this country. Congress needs to 
step in and provide regulation to give FERC the additional powers 
necessary and mandate NIST SP800-53.
                                 ______
                                 
               Statement of Advanced Fusion Systems, LLC
                             July 19, 2009
    My name is Curtis Birnbach and I am the president of Advanced 
Fusion Systems. While the main thrust of my company is fusion energy 
research, one of our subsidiaries has developed technology to protect 
the electric power grid from EMP attack. I wish to address the threat 
to our Nation posed by both electromagnetic pulse (EMP) and solar 
storms. At the risk of sounding glib, I bring you good news and bad 
news.
    The bad news is that this threat is all too real. I have been 
working on EMP-related technologies for many years. I have built 
electrically-driven EMP generators and have extensively studied the 
phenomenology of intense ultra-short pulses. I would like to summarize 
this work to help bring focus to the critical aspects of this problem. 
EMP from a nuclear detonation or solar storms poses a unique threat in 
that it can instantly destroy our civilization. I do not make this 
statement lightly. Our society is totally dependent on the continuous 
supply of electricity. Should our electricity be suddenly withheld, our 
society would immediately collapse.
    While I am sure that you have already been briefed on the general 
aspects of this problem, I wish to focus on the two most critical 
components we use to deliver: Transformers and generators. If they 
don't function, we can't deliver electricity and life as we know it 
stops. The generators and transformers have two very important things 
in common: They are very expensive and they take years to replace. The 
worst-case victims of either an EMP attack or a solar storm are our 
generators and large substation transformers.
    This brings me to the first of two points in my testimony: The 
United States does not have a domestic transformer manufacturing 
capability for large substation-class transformers. These devices are 
made exclusively on the Pacific Rim and in Europe. Large transformers 
typically take 3 to 5 years to obtain and put into operation. The 
production capacity of existing overseas manufacturers is quite 
limited. Should the sudden need for rapid delivery of a couple of 
hundred transformers occur, these manufacturers would be unable to 
supply our requirement. Further, as they are not U.S. corporations, 
they have no incentive to delay other existing customers to supply our 
needs in the event of an emergency. Also, a solar-sourced EMP event may 
well affect electric power equipment in many other countries 
exacerbating the supply situation.
    The situation with generators has common elements. While we do have 
some manufacturing capacity for large generators in the United States, 
it is limited and should a large number be suddenly needed, it would 
take years to meet that need. If equipment manufacturers are also 
unable to function because of a lack of electricity we end up with a 
chicken-and-egg situation; we can't have one without the other.
    There is no way that this country can exist for a couple of months, 
no less many years without electricity. To compound this situation, our 
utilities may not be insured against this type of loss. Even if they 
were insured, the insurance companies would suffer potentially 
crippling losses if utilities were destroyed over a wide area. Our 
financial system, our medical system, our communication systems, our 
public safety systems--none could function without electricity. Most 
companies including utilities would simply cease to exist. There is a 
real likelihood of civil unrest.
    Stockpiling transformers will not work. According to Platts Energy 
Reporting, there are over a quarter of a million large transformers, 
and close to 20,000 generators. The transformers are not standardized 
so the number that would have to be stockpiled is prohibitively large. 
For every large transformer there are about a thousand smaller 
transformers, of which only a small fraction are produced domestically. 
DARPA tried to run a program to build ``universal transformers'' that 
could be stockpiled. This effort proved impractical as there is too 
much variation among transformers.
    I did promise some good news. My company has developed a grid-level 
protection system. This system can protect our country from these 
threats. We have developed an EMP Protective System (EPS). Each EPS 
unit will protect a single phase which is one of three wires (phases) 
that are typically used in high-power electrical devices. Generators 
have three wires while transformers have 6 wires. Once an EPS is 
installed, it will detect the pulse of an EMP, safely conduct it to 
ground, and immediately be ready for the next pulse. These switches 
were originally designed to operate under conditions similar to those 
encountered in an EMP attack or solar storm. They are totally 
autonomous and react in a small fraction of a billionth of a second. 
They contain a built-in detection system which is the only way you can 
get a protective device to work quickly enough to be of use.
    We have looked at some representative sites for installation of 
these protective devices. As an example, I would like to discuss 
protection of the Niagara Hydroelectric Plant. This is one of the most 
important power stations in this country. While I will not go into 
specific details for security reasons, based on what limited 
information is available to me, I have estimated that the entire 
complex could be protected for somewhere between $75 million and $100 
million. The cost of this protection would also be expected to be 
included in the rate base for the utility so that ultimately the small 
cost of the protection is borne by consumers who will be receiving a 
more secure supply of electricity. Compared to the $10 billion that 
this station might be expected to cost to replace, this one-time cost 
of 1% is a small cost to protect the plant. This one-time cost of the 
equipment to protect the plant is all or partially offset by the 
reduced insurance premiums for a plant that has this protection in 
place. Obviously, a detailed engineering study would be necessary to 
refine this number, but it provides an order of magnitude of the cost 
of this protection.
    I have also done estimates on transmission substations. Large 
transformers cost around $1.5 million to protect. All incoming and 
outgoing lines in a substation must be protected, but in most cases, 
this protection is also the same devices that are protecting the 
transformers. A typical large substation, has at least ten lines of 115 
KV or more, and dozens of transformers. When balanced against the cost 
of a large substation, which can cost a half billion dollars, the cost 
of protection is typically 10% of the total cost. In either case, the 
cost is a fraction of the replacement cost of substations or 
generators, or the lost revenues that the utilities would suffer over a 
period of several years as a result of the attack. The loss of revenue 
far exceeds the replacement cost of the equipment. The economic and 
societal costs of being without electricity are of course far greater 
than the losses of the utility.
    While these numbers may seem large, remember that this is not a 
single-year expenditure. It will take several years to fully implement 
this type of protection. Implementation of EPS protection is cheap 
insurance in the face of such losses. These estimates do not include 
the deaths, injuries, civil unrest and such that would be likely 
consequences of these events, particularly once it became clear that 
the disruption would last for extended periods of time.
    My company is committed to help resolve this problem. By making 
these protective devices available, we are offering a viable option to 
the unthinkable scenarios I have described. We are funded through the 
private sector. We are only looking to have the Government support the 
purchase of these devices. There has been significant interest in this 
technology overseas.
    In order to make grid protection available and affordable in a 
reasonable period of time, State and Federal legislation encouraging 
the purchase of EPS technology for critical elements of the electric 
grid is needed. Three legislative measures should be considered:
    1. Tax credits for private utilities purchasing EPS equipment for 
        the purpose of grid protection;
    2. Grants to utilities for installation of critical EPS equipment 
        at vital locations;
    3. Providing Government-backed bonding authority to raise money to 
        provide EPS funding to rural electric systems and others who 
        need it;
    4. FERC agreement to include these devices in the rate base.
                                 ______
                                 
           Statement of the Canadian Electricity Association
                             July 21, 2009
    The Canadian Electricity Association (``CEA''), the national forum 
and voice of the evolving electricity business in Canada, is pleased to 
provide the following statement regarding the appropriate actions that 
the U.S. Congress should take to protect the electric grid from 
cybersecurity threats and vulnerabilities. CEA's members account for 
the majority of Canada's installed generating capacity and high voltage 
transmission. In this statement, CEA explains the importance of taking 
cybersecurity actions in the United States that are mindful of the 
interconnected nature of the North American transmission grid and the 
importance of avoiding actions that could undermine the reliability of 
the transmission grid and impact cross-border trade. CEA further 
provides suggestions for this subcommittee to consider before 
developing legislation to address physical and cybersecurity in the 
electricity sector. Specifically, CEA suggests that: (1) The North 
American Electric Reliability Corporation remain the primary body for 
addressing cybersecurity matters on the North American transmission 
grid; (2) any authority given to U.S. Governmental authorities to 
address emergency situations be of a limited duration and be 
coordinated with Canadian governmental authorities; (3) consultation 
and information sharing between the U.S. and Canadian governmental 
authorities should be provided for in any legislation; and, (4) U.S. 
legislation should be respectful of Canadian sovereignty and 
jurisdiction.
                               background
    The electric transmission systems of U.S. and Canadian utilities 
are interconnected with one another at numerous points, forming a 
highly integrated North American transmission grid, as can be seen in 
the following map:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of the 211,152 circuit miles of transmission lines greater than 200 
kilovolts in North America, 46,499 circuit miles, or 22 percent, are 
located in Canada. This integration allows for cross-border trading, 
which facilitates a higher level of reliability for consumers, 
efficiencies in fuel and resource management, and efficiencies in 
system operation. These benefits, and the activities of companies 
investing and participating in markets on both sides of the border, 
serve citizens of the United States and Canada extremely well.
    To provide perspective on the importance of the U.S./Canadian 
trading relationship, the chart below shows both exports from Canada to 
the United States and imports into Canada from the United States 
between 1999 and 2008:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Canada is a net exporter of electricity to the United States. The 
quantity of electricity exported from Canada to the United States has 
typically been 6 to 10 percent of Canadian production. At the same 
time, as the chart above demonstrates, electricity imports to Canada 
from the United States have also increased over time. The North 
American market is borderless, and supply meets demand north to south 
or south to north as the market requires, to the advantage of consumers 
across the continent. Such electricity trade enhances the reliability 
of each country's electricity supply and mitigates risk by providing 
power during times of emergency outages or periods of high electricity 
demand. Canadian utilities are part of and therefore critical to the 
energy security of the United States, and the reliability of the North 
American transmission grid.
any actions taken in the united states to address cybersecurity on the 
   bulk-power system must be coordinated with canadian governmental 
                              authorities
    CEA recognizes the serious risks that cybersecurity threats and 
vulnerabilities present to the international grid. Nevertheless, CEA 
believes that any actions to address cybersecurity threats and 
vulnerabilities must be accomplished in a manner that recognizes the 
mutual inter-dependency of the interconnected Canada-U.S. transmission 
systems, and must not unintentionally imperil or downgrade reliability 
and erect barriers to cross-border trade.
    The President of the United States recently directed a 60-day, 
comprehensive review to assess U.S. policies and structures for 
cybersecurity, and the result was the release of ``Cyberspace Policy 
Review'' on May 29, 2009. In the report, the White House concluded that 
``the United States needs a comprehensive framework to ensure 
coordinated response and recovery by the government, the private 
sector, and our allies to a significant incident or threat.'' 
Understanding that the United States cannot act in a unilateral 
fashion, the report concluded:

``The United States cannot succeed by acting in isolation, because 
cyberspace crosses geographic and jurisdictional boundaries. The United 
States must work actively with countries around the world to make the 
digital infrastructure a trusted, safe, and secure place that enables 
prosperity for all nations.''

    CEA supports the concept of cross-border cooperation between Canada 
and the United States to prevent cybersecurity attacks.
 nerc is the appropriate standard-setting body for the north american 
                           transmission grid
    CEA believes that the best venue to address cybersecurity matters 
on the North American transmission grid is the North American Electric 
Reliability Corporation (``NERC''). Through the reliability standard-
setting model included in section 215 of the Federal Power Act, the 
NERC reliability standard-setting process allows for a balance of 
interests ensuring access to expertise from industry across the 
continent for the development of standards with continental application 
that can be approved by authorities on both sides of the border--be it 
FERC in the United States, or any of the jurisdictional authorities in 
the Canadian provinces. This model recognizes jurisdictional 
sovereignty through the existence of the remand provision in the U.S. 
legislation, which is also incorporated into the processes for 
standards approval in a number of Canadian provinces and which is 
incorporated into the existing NERC standard-setting procedures. This 
component assures that no governmental authority has the ability to 
unilaterally modify standards which would apply to the whole system, 
and that any variances are accommodated through the collective process. 
At the same time, it gives public authorities the confidence that the 
system has a Government backstop, providing Governmental authorities on 
both sides of the border with the confidence that standards developed 
through that process reflect their concerns.
    NERC also has the ability to effectively incorporate the 
experiences and knowledge of the private sector in both the United 
States and Canada, which is especially important in this very technical 
industry. Any legislative directive must avoid placing the regulator in 
an operational role in terms of issuing detailed emergency procedures 
to address a present or imminent threat or vulnerability to electric 
system reliability. Such an approach would be consistent with the 
conclusions reached in ``Cyberspace Policy Review'' about the 
importance of a public-private partnership to address network security 
issues. As the President explained when the report was issued, ``My 
administration will not dictate security standards for private 
companies. On the contrary, we will collaborate with industry to find 
technology solutions that ensure our security and promote prosperity.''
    Recognizing the need to better respond to cybersecurity challenges, 
NERC has recently established processes to allow for the expedited 
development of cybersecurity standards. NERC is developing approaches 
that allow cybersecurity standards to be developed in a less public 
manner and in a way that allows for quick action to respond to ever-
changing threats. Importantly, this process follows the NERC standard-
setting model, thereby allowing for the development of cybersecurity 
standards that are respectful of Canadian jurisdictional sovereignty 
and allowing for the development of standards that can be approved by 
Canadian governmental authorities. In addition, CEA is encouraged that 
NERC has elevated the profile of its Critical Infrastructure Protection 
Program, to increase its cybersecurity expertise and to better 
coordinate with Governmental authorities. We believe such steps allow 
NERC to better respond to cybersecurity issues.
                  considerations for u.s. legislation
    CEA believes much of what needs to be done to address cybersecurity 
issues on the North American transmission grid can be accomplished 
through the NERC standards development process. Nevertheless, CEA 
recognizes that U.S. legislation may be necessary to address certain 
gaps in NERC authority. CEA has attached to this statement as an 
appendix a paper prepared by the major electric utility trade 
associations in Canada and the United States on the appropriate 
approach to take on cybersecurity. CEA also provides the following 
comments should this subcommittee pursue a legislative strategy.
Authority to Take Action on an Emergency Basis
    CEA recognizes situations can arise requiring emergency actions to 
be taken immediately to protect the reliability of the bulk power 
system. To the extent that NERC does not have the information or 
authority to respond to such an emergency situation, CEA agrees that 
Governmental bodies should be able to respond expeditiously to ensure 
industry acts to protect the grid. In terms of U.S. Governmental 
authority to respond to imminent cybersecurity threats, CEA understands 
the need for authority to address emergency situations, although we 
believe that such authority must be limited only to specific, credible, 
and imminent cybersecurity emergencies, be of a limited duration, and 
be coordinated with Canadian governmental authorities.
Consultation and Sharing of Information
    In any cybersecurity legislation, CEA strongly supports the 
inclusion of a requirement that the appropriate U.S. Governmental 
agency consult with appropriate Canadian authorities before taking 
measures to address cybersecurity threats. Unlike the U.S. system, 
transmission is regulated in Canada primarily by provincial 
governmental authorities. Moreover, reliability standards are 
authorized and enforced by provincial governmental authorities. 
Consulting with the appropriate governmental authorities in the 
relevant provinces will help to ensure that actions taken are 
respectful of Canadian jurisdictional sovereignty and avoid unintended 
impacts on reliability and cross-border trade. The absence of 
consultation between and among governmental authorities could further 
result in the elimination of, or reduction in, the sharing of critical 
cybersecurity information--not a good result at a time when the sharing 
of information is becoming more and more important.\1\
---------------------------------------------------------------------------
    \1\ CEA also believes strongly that orders or measures to address 
known or imminent cybersecurity threats must be accompanied by 
sufficient information sharing regarding the threat such that those 
implementing the order or measure can do so effectively.
---------------------------------------------------------------------------
    Consultation and information sharing is absent, for example, in 
H.R. 2195, a bill introduced by Homeland Security Chairman Bennie 
Thompson. The absence of a process for coordination between Canadian 
and U.S. Governmental officials prior to any actions taken by FERC to 
address a cyber vulnerability or threat could undermine both 
reliability and security on the North American transmission grid. As 
noted in ``Cyberspace Policy Review,'' such coordination among 
Governmental officials is critical to effectively addressing 
cybersecurity issues.
Any U.S. Legislation Should be Respectful of Canadian Sovereignty and 
        Jurisdiction
    In addition to the need for coordination between Canadian and U.S. 
Governmental officials, this subcommittee should also be mindful that 
U.S. legislation should avoid interfering with Canadian sovereignty and 
jurisdiction, which could undermine both cybersecurity and reliability. 
For example, in H.R. 2195, ``critical electric infrastructure'' is 
defined so broadly as to include Canadian systems and assets, since 
those systems and assets, if incapacitated or destroyed, could cause 
significant harm to the U.S. grid. Such a broad definition would, under 
this language, bring Canadian utilities within the scope of FERC 
authority under Section 224(e). Moreover, the Interim Measures 
authority under Section 224B would allow FERC to supplement, replace, 
or modify existing cybersecurity reliability standards approved by 
NERC. Since existing cybersecurity standards are in effect in the 
majority of Canadian provinces, the replacement of such standards in 
the United States by FERC could result in inconsistent reliability 
standards on the North American grid, thereby potentially undermining 
reliability and potentially making the system more vulnerable to a 
cyber attack. CEA therefore requests this subcommittee to consider the 
impact that provisions in any proposed legislation could have on 
Canadian sovereignty and jurisdiction.
              need for coordination among industry sectors
    As a final matter, CEA is concerned with any legislative actions 
taken by Congress that fail to take into account the scope of the 
cybersecurity problem. As noted in ``Cyberspace Policy Review,'' 
cybersecurity affects all sectors and must be addressed in a 
comprehensive manner. CEA believes any cybersecurity bill would be 
greatly improved by requiring that the necessary information sharing 
and collaboration take place between governmental agencies and all the 
critical infrastructure sectors, not just electricity. A focus on just 
the electricity sector addresses only one piece of a much larger 
puzzle, and could, in fact, miss important elements to effectively 
addressing cybersecurity in the bulk power sector. The President's 
report recognizes that the cybersecurity issue ``transcends the 
jurisdictional purview of individual departments and agencies because, 
although each agency has a unique contribution to make, no single 
agency has a broad enough perspective or authority to match the sweep 
of the problem.'' Given the complexity of the cybersecurity problem, 
and the need for coordination on an international basis, CEA asks this 
subcommittee to exercise caution before developing legislation to 
address cybersecurity in the electricity sector.
    CEA appreciates this opportunity to provide this statement and 
would be happy to answer any questions that may arise during the 
hearing.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The North American Electric Power Industry's Top Priority is a Reliable 
                      and Secure Bulk Power System
    The stakeholders of the electric power industry continue to work 
closely and in partnership with governmental authorities at the 
Federal, State/provincial and local levels in both the United States 
and Canada in order to maintain and improve upon the high level of 
reliability consumers expect. Cybersecurity is an important element of 
bulk power system reliability that the electric power industry takes 
very seriously.
     electric power industry in strong partnership with government
    The electric power industry works closely with various government 
agencies on bulk power system security. On an on-going basis, we 
communicate and collaborate in the United States with the Department of 
Homeland Security, the Department of Energy, and the Federal Energy 
Regulatory Commission (FERC), and in Canada with the various Federal 
and provincial authorities to gain needed information about potential 
threats and vulnerabilities related to the bulk power system. The 
electric power industry also works very closely with the North American 
Electric Reliability Corporation (NERC) to develop mandatory 
reliability standards, including cybersecurity standards. In addition, 
NERC has an ``alert and advisory'' procedure that provides the electric 
power industry with timely and actionable information to assure the 
continued reliability and security of the bulk power system.
 the electric power industry continuously monitors and acts quickly to 
           ensure bulk power system reliability and security
    Every day, the electric power industry continuously monitors the 
bulk power system and mitigates the effects of transmission grid 
incidents--large and small. Consumers and government are rarely aware 
of these incidents because of the sector's advance planning and 
coordination activities which reflect the quick and often seamless 
response the sector takes to address reliability and security events. 
This response includes prevention and response/recovery strategies--
both are equally important. The industry's strong track record on 
reliability and security continues as we work diligently to adhere to 
mandatory NERC reliability standards, which are approved by FERC, 
including standards that address cybersecurity.
   nerc flexible standards approval processes meet majority of grid 
                               challenges
    NERC's industry-based and FERC-approved standards development 
process yields mandatory standards for the bulk power system that are 
clear, technically sound, and enforceable, yet garner broad support 
within the industry. NERC is striving to draw from the state-of-the-art 
in cybersecurity, through consideration of the National Institute of 
Standards and Technology (NIST) framework for cybersecurity, and to 
integrate that framework into NERC's existing Critical Infrastructure 
Protection standards. NERC has also made important revisions to its 
standards development process by putting in place policies that allow, 
when necessary, for the confidential and expedient development of 
standards, including those related to cyber- and physical security.
    emergency cyber situations require an expeditious and efficient 
                                approach
    If the Federal Government has actionable intelligence about an 
imminent threat to the bulk power system, the electric power industry 
is ready, willing, and able to respond. We understand it may be 
necessary for Government authorities to issue an order, which could 
require certain actions to be taken by the electric power industry. In 
these limited circumstances, when time does not allow for classified 
industry briefings and development of mitigation measures for a threat 
or vulnerability, FERC in the United States and the appropriate 
corresponding authorities in Canada should be the Government agencies 
that direct the electric power industry on the needed emergency 
actions. These actions should only remain in effect until the threat 
subsides or upon FERC approval of related NERC reliability standards. 
In the United States, Section 215 of the Federal Power Act (Energy 
Policy Act of 2005) invested FERC with a significant role in bulk power 
system reliability, and it would be duplicative and inefficient to 
recreate that responsibility at another agency. As FERC, NERC and the 
electric power industry relationships move forward and mature in the 
area of reliability and security, any disruption of this would be 
counterproductive.
  improved electric power industry-government partnership with better 
                            information flow
    In nearly all situations the electric power industry can protect 
the reliability and security of the bulk power system without 
Government intelligence information. However, in the limited 
circumstances when the industry does need Government intelligence 
information on a particular threat or vulnerability, it is critical 
that such information is timely and actionable. After receiving this 
information, the electric power industry can then direct its expert 
operators and cybersecurity staff to make the needed adjustments to 
systems and networks to ensure the reliability and security of the bulk 
power system. The electric power industry is fully committed to taking 
the needed steps to maintain and improve bulk power system reliability 
and security, and stands ready to work with Congress, FERC, other 
Government agencies and NERC on these critical issues.
    Supporting Associations and Contacts.--American Public Power 
Association, Joy Ditto; Canadian Electricity Association, Bonnie 
Suchman; Edison Electric Institute, Scott Aaronson; Electric Power 
Supply Association, Con Lass; Electricity Consumers Resource Council, 
John Anderson; Large Public Power Council, Jessica Matlock; National 
Association of Regulatory Utility Commissioners, Charles Gray; National 
Rural Electric Cooperative Association, Laura M. Schepis; Transmission 
Access Policy Study Group, Deborah Sliz.
                                 ______
                                 
                 Statement of Industrial Defender, Inc.
    Thank you for the opportunity to submit written testimony regarding 
efforts to secure the modern electric grid from physical and cyber 
attacks. I appreciate the subcommittee examining these important issues 
and am grateful for your willingness to consider my views.
    I am the president and CEO of Industrial Defender, Inc., a provider 
of cyber risk protection with over 18 years of industrial control 
system and SCADA industry experience and more than 7 years of 
industrial cybersecurity experience. Industrial Defender has completed 
more than 100 process control/SCADA cybersecurity assessments, more 
than 10,000 global technology deployments in securing critical 
infrastructure systems, more than 3,000 mission-critical SCADA 
deployments and provides managed security services for 170 process 
control plants in 21 countries. My comments on the subcommittee's 
hearing topic follow.
  protecting the u.s. electric power infrastructure from physical and 
                             cyber attacks
    The Federal Government has a responsibility to protect our Nation's 
electric power infrastructure from physical or cyber attacks to ensure 
the social, economic, health, and safety of our citizens. There has 
been a significant increase in malicious cyber attack attempts on 
critical infrastructure electric power entities from suspected 
terrorists and even adversarial nations and more action is needed to 
fortify our Nation's electric power cyber defenses in order to combat 
the potentially dangerous threats. A recent coordinated cyber attack on 
the United States and South Korea, which may have originated in North 
Korea, involved the malicious use of more than 100,000 computers. 
Though this particular attack was not targeted at U.S. electric power 
interests, it does suggest that more needs to be done in order to 
improve our Nation's cyber defenses.
    The majority of electric power assets in the United States are 
owned and operated by private sector entities. Based upon private 
sector contracts executed by Industrial Defender over the past 7 years 
to assess and mitigate cyber risk specific to critical infrastructure 
industries, including electric power, oil and gas, water, 
transportation, and chemical sectors, we have found that industries 
with cybersecurity regulatory mandates in place, including the Chemical 
and Electric Power sectors, are industries taking a leadership role in 
protecting their digital infrastructure assets. Having regulations in 
place, however, does not guarantee 100 percent compliance or 
protection. There have been significant challenges within industries 
for which mandatory compliance standards have been implemented. A 
recent letter to electricity industry stakeholders from Michael 
Assante, the Chief Security Officer for the North American Electric 
Reliability Corporation (NERC) dated April 7, 2009, raised concern over 
the identification of Critical Assets and Critical Cyber Assets (NERC 
CIP-002), which are defined as those ``facilities, systems and 
equipment which, if destroyed, degraded, or otherwise rendered 
unavailable, would affect the reliability or operability of the Bulk 
Electric System.'' Results from a survey published for the July 1-
December 31, 2008 period suggest that certain qualifying assets may not 
have been identified as ``Critical''. Of particular concern were 
qualifying assets owned and operated by electric power generation 
owners and operators, of which only 29 percent reported identifying at 
least one critical asset, and transmission owners, fewer than 63 
percent of which identified at least one critical asset. This inaction 
by electricity asset owners and operators regarding mandatory 
compliance requirements gives rise to great concern over the ability of 
any voluntary private sector compliance program to be effective. There 
is a risk that industries that do not have compliance mandates may be 
willing to play the percentages that a critical infrastructure incident 
will not happen at their company, rather than spend thousands or even 
millions of dollars to mitigate any known risks and vulnerabilities.
    Ensuring the reliability and security of the bulk electric system 
must be a cooperative and shared responsibility between private sector 
organizations and the Federal Government. This should include the 
Federal Government overseeing a coordinated effort between public 
sector and private sector entities to enhance and enforce the NERC CIP 
standards; drive cybersecurity awareness and education within the 
public and private sector; require vendor commercial information 
security credentials; provide crucial sharing of information regarding 
cyber incidents, vulnerabilities, and best practices; provide a 
cybersecurity implementation funding incentive; and, offer ``Safe 
Harbor Protection'' for private sector companies, ensuring the 
elevation of threat and vulnerability information to the Federal 
Government while at the same time increasing public awareness and 
protection.
                industry compliance with nerc standards
    In addition to the North American Electric Reliability (NERC) 
survey, which raises concerns over the inaction of bulk electricity 
asset owners and operators, some bulk electricity providers may be 
taking a ``defensible audit position'' in lieu of a well-designed cyber 
risk mitigation strategy. It is our opinion that this behavior is the 
result of non-descriptive and prescriptive requirements in the current 
NERC CIP standards that leave determination of a risk-mitigation 
strategy solely to the discretion of industry. Additionally, it is 
important to note that up to the latest revision of the NERC CIP 
standards, asset owners and operators were permitted to apply 
``reasonable business judgment'' in determining risk-mitigation 
strategy for critical assets.
    The current industry spread relative to interpretation and action 
around the current NERC CIP standards is extremely broad. Based upon 
experience, significant action was taken by industry in assessing cyber 
risk through contracting third parties to provide independent NERC CIP 
gap analysis, network design reviews, vulnerability assessments, 
penetration testing, and NERC CIP compliance training. Much of this 
work was done in advance of the December 31, 2008 deadline; however, 
many utilities remain very active in performing this work relative to 
their operational assets. What is more concerning, regarding NERC CIP 
compliance, is the slow pace at which industry is adopting technology 
required to meet NERC CIP-005 and NERC CIP-007 compliance, 
specifically, establishing Electronic Security Perimeter and System 
Security management for all Critical Cyber-Assets. It is evident, as 
represented in Mr. Assante's April 7, 2009 letter to Industry 
Stakeholders, that the definition of a ``Critical Asset'', and 
associated ``Critical Cyber-Asset'', has been viewed differently 
between the private sector and NERC. The private sector's 
interpretation, and hence subsequent identification of critical assets, 
has resulted in actions that seem contrary to the defined objectives of 
securing the Nation's critical infrastructure.
    In one example, a major U.S. electric power provider considered 
implementing intrusion detection monitoring technology to mitigate 
cybersecurity risks and vulnerabilities in order to secure its 
substations and meet the required NERC CIP compliance standards. 
Currently, the NERC CIP compliance standards focus on ``routable 
communication protocols'' and exclude ``non-routable communication 
protocols'' and ``communication links''. The electric power entity 
eventually made a cost-conscious decision to convert all of its 
substations to a non-routable communication protocol SCADA network. As 
a result, it did not move forward with the substation equipment 
upgrade, resulting in a move backwards instead of using technology to 
enhance cybersecurity, workplace efficiency, and productivity.
    With over 150 investor-owned utilities, Government-owned and -
operated utilities and a number of smaller municipal electric entities 
falling under the jurisdiction of the NERC CIP standards, there should 
be significant demand for monitoring technology to support NERC CIP 
requirements. Unfortunately, the purchasing behavior of bulk 
electricity providers does not match the number of monitoring sensors 
needed to support the NERC CIP standards.
government efforts to secure control systems and the electric industry 
                    from physical and cyber attacks
    Escalation of threats and exposure of incidences are essential 
components of successfully thwarting cyber attacks against the Nation's 
critical infrastructure. With 85 percent of the Nation's critical 
infrastructure owned and operated by the private sector, the public and 
private sectors must work collaboratively, with trusted and open lines 
of communication, to ensure the timeliest communication of critical 
cybersecurity information. Relying solely on Federal Government 
intelligence agencies to identify the threat is a shortsighted 
strategy. The private sector represents the most valuable source of 
operational intelligence, which must be harnessed in order to 
effectively communicate and drive action to reduce the consequences of 
pending attacks.
    Operational systems (SCADA/Process Control Systems) used to safely 
and reliably operate critical infrastructure in electric power, water, 
energy, chemicals and transportation sectors lack the necessary 
security technology to escalate cyber threats and expose cyber 
incidences in real-time so that appropriate action (communication, 
emergency orders/actions, etc) can be taken to minimize the impact on 
national security, public safety, and economic interests.
    Greater investments in ``Defense in Depth Sensor Technology,'' 
including electronic security perimeter, remote access and 
authentication, network intrusion detection, host intrusion detection, 
and patch monitoring and management, will enable real-time aggregation 
of threats and incidences for real-time reporting. FERC Order 706 also 
calls for ``defense-in-depth'' subject to technical feasibility 
considerations with NERC oversight.
    Through the deployment of Defense in Depth Sensor Technology, the 
U.S. Department of Homeland Security (DHS) should assume the role of 
``Critical Infrastructure Threat Clearing House.'' The goal of the 
Critical Infrastructure Threat Clearing House is to establish lines of 
communication between asset owners and operators and DHS to warn the 
public of potentially dangerous, malicious, and non-malicious 
cybersecurity incidents. It is recommended that DHS establish a ``cyber 
heat map,'' populated with intelligence by Defense in Depth Sensor 
Technology, which would provide transparency into the current 
cybersecurity threats facing the Nation, as well as supply access to 
detailed information on each specific threat occurrence. However, for 
this to be effective, safe harbor protection should be afforded to the 
private sector reporting party (see below).
        pending legislation and coverage of the electric sector
    Cooperation between private sector organizations and the Federal 
Government will need to be achieved to enable increased cybersecurity 
protection as well as flexibility to expand these infrastructure 
platforms to support future needs. To this end, legislation pending 
before Congress could be strengthened to better achieve the separate 
goals of the private and public sectors as well as increased public 
safety. Important issues that are not currently part of the legislative 
proposals are outlined below.
  <bullet> A distinct lack of threat visibility due to the slow 
        adoption of technology designed to both detect and protect 
        against cybersecurity threats.
  <bullet> Inclusion of safe harbor protection for private sector 
        companies, ensuring the elevation of threats and 
        vulnerabilities to the Federal Government, resulting in 
        increased public awareness and protection.
  <bullet> An absence of specific descriptive and prescription 
        recommendations for critical infrastructure systems and 
        requirements.
  <bullet> Mechanisms to enable a more efficient and timely means of 
        issuing standards through granting FERC ``authorship'' 
        responsibility. Presently the NERC Standards processes are 
        largely created and approved by industry and hence are somewhat 
        self-policing.
  <bullet> Require any full- or part-time contractor with privileged 
        access to critical infrastructure control related information 
        system to obtain commercial cybersecurity credentials.
  <bullet> Provision to increase availability of funds for 
        cybersecurity related equipment and staffing.
    Any final legislation promoting public and private sector 
collaboration should include the following recommendations.
  <bullet> More Descriptive Definition of Critical Cyber-Assets.--It is 
        essential that any final legislation specifically identify 
        which critical cyber assets need to be secured. As it relates 
        to SCADA/Process Control System security requirements, all 
        computer or microprocessor-based operational devices used to 
        monitor, control, or analyze the critical infrastructure where 
        accurate timing has been deemed necessary must be included to 
        ensure the integrity of the critical infrastructure. These 
        devices include, but are not limited to: Power Plant Automation 
        Systems; Substation Automation Systems; Programmable Logic 
        Controllers (PLC); Intelligent Electronic Devices (IED); 
        sequence of event recorders; digital fault recorders; 
        intelligent protective relay devices; Energy Management Systems 
        (EMS); Supervisory Control and Data Acquisition (SCADA) 
        Systems; Plant Control Systems; routers; firewalls; Intrusion 
        Detection Systems (IDS); remote access systems; physical 
        security access control systems; telephone and voice recording 
        systems; video surveillance systems; and, log collection and 
        analysis systems.
  <bullet> Remove the Exclusion of ``Non-routable Protocols'' and 
        ``Communication Links''.--This exclusion is being used as a 
        work-around to avoid implementation costs. FERC Order 706 
        includes comments from the ISA99 Industrial Automation and 
        Control Systems Security Team objecting to the exclusion of 
        communication links from CIP-002-1 and non-routable protocols 
        from critical cyber assets. The comments argue that both are 
        key elements of associated control systems, essential to proper 
        operation of the critical cyber assets, and have been shown to 
        be vulnerable--through testing and experience.
  <bullet> Bolster Public/Private Clearing House.--It is increasingly 
        essential that private sector asset owners and operators work 
        collaboratively with the Government to warn the public of 
        potentially dangerous malicious and non-malicious cybersecurity 
        incidents. Through the deployment of Defense-in-Depth Sensor 
        Technology, the U.S. Department of Homeland Security (DHS) 
        should assume the role of ``Critical Infrastructure Threat 
        Clearing House.'' The goal of the Critical Infrastructure 
        Threat Clearing House is to establish lines of communication 
        between asset owners and operators and DHS to warn the public 
        of potentially dangerous, malicious, and non-malicious 
        cybersecurity incidents. It is recommended that DHS establish a 
        ``cyber heat map'' populated with intelligence by Defense in 
        Depth Sensor Technology, which would provide transparency into 
        the current cybersecurity threats the Nation faces, as well as 
        supply access to detailed information on each specific threat 
        occurrence. In order for this to be effective, safe harbor 
        protection should be afforded to the private sector reporting 
        party (see below).
  <bullet> Include Recommendation of Descriptive and Prescriptive 
        Solutions.--Any final legislation should require the deployment 
        of Defense-in-Depth Sensor Technology throughout the entire 
        SCADA/Process Control System network environment. Defense-in-
        Depth Sensor Technology includes electronic security perimeter, 
        remote access and authentication, network intrusion detection, 
        host intrusion detection, and patch monitoring and management. 
        Equipping critical infrastructure systems with the appropriate 
        security sensor technology enables real-time aggregation of 
        threats and incidences for real-time reporting to the 
        appropriate authorities.
  <bullet> Provide ``Safe Harbor Protection''.--Presently there is no 
        ``Safe Harbor Protection'' afforded to the private sector for 
        open ``escalation of threats, exposure of incidences'' with the 
        Federal Government. Without these protections in place, private 
        sector companies will be less inclined to share the information 
        and risk potential negative public exposure. Legislation 
        pending before Congress attempts to address this issue by 
        providing protection to disclosed cybersecurity data; however, 
        the proposals do not provide a similar protection to the 
        disclosing entity. In order to ensure open communication from 
        the private sector, it is essential to provide privacy 
        protection for both the disclosing entity and the disclosed 
        cybersecurity data. As a means of bridging the communication 
        gap between public sector and private sector, safe harbor 
        protection should be provided to private sector companies 
        escalating threats and/or exposing incidences with the Federal 
        Government. This protection is not intended to provide a safe 
        harbor from accountability, but instead to provide protection 
        to share information with the appropriate authorities. The U.S. 
        Department of Defense's (DOD) Defense Industrial Base Cyber 
        Security and Information Assurance (CS/IA) pilot program 
        initiative, launched in early 2008, offers a potential model on 
        this issue. The DIB/CSIA has five major components: (1) A 
        binding bilateral DOD-DIB company framework agreement to 
        facilitate CS/IA cooperation; (2) threat and vulnerability 
        information sharing; (3) DIB network incident reporting; (4) 
        damage assessments; and (5) DOD acquisition and contract 
        changes. Some of these components might be relevant to 
        establishing a similar relationship between the Federal 
        Government and private sector critical infrastructure 
        companies.
  <bullet> Grant FERC Authorship Responsibility.--Presently, the NERC 
        Critical Infrastructure Protection (CIP) standards [CIP-002--
        CIP-009] provide electric utility private sector guidance on 
        the subject of cybersecurity. Pending legislation would provide 
        FERC with emergency authorities to issue actions/orders in the 
        event of a known cybersecurity threat to the electric utility 
        infrastructure. These actions/orders would remain in effect 
        over a defined period of time until they are incorporated into 
        a standard, and/or the threat is mitigated, or the order/action 
        expires.
      The NERC CIP standards are self-policing in that they are created 
        and approved by industry. According to FERC Chairman Jon 
        Wellinghoff in his April 28, 2009 letter to U.S. Representative 
        Edward J. Markey, ``The commission is committed to exercising 
        all of the authority that Congress has given it to help protect 
        the power grid. However, Congress needs to be aware that the 
        commission's current authority is not sufficient to ensure the 
        cybersecurity of the grid. The existing process is based on 
        industry consensus and is, therefore, too slow, subject to 
        disclosure to potential attackers, and not responsive enough to 
        adequately address matters that affect national security.''
      Granting FERC emergency authorities to act in the event of a 
        threat or incident is the reactive element of protecting our 
        Nation's critical infrastructure. Who is responsible for the 
        proactive element of mitigating our risks, escalating the 
        threats and exposing our incidences?
      In addition to having emergency authorities, FERC should be 
        granted authorship responsibilities for future cybersecurity 
        standards to ensure the protection and integrity of the 
        Nation's electric utility infrastructure. FERC can continue to 
        leverage NERC for the creation of the standards; however, in 
        the interest of ensuring timely, descriptive, and prescriptive 
        cybersecurity standards, FERC must have the authority to author 
        and issue such standards. Industry input is important to drive 
        public sector-private sector collaboration; however, the 
        present self-policing standards leave the Nation's ability to 
        secure the electric utility infrastructure in a timely manner 
        vulnerable.
  <bullet> Require a Commercial Cybersecurity Credential.--Any full- or 
        part-time contractor with privileged access to a critical 
        infrastructure control information system, regardless of job or 
        occupational series, would need to obtain a commercial 
        cybersecurity credential accredited by ANSI or an equivalent 
        authorized body. The credential would also require maintaining 
        certified status with a certain number of hours of continuing 
        professional education each year. This program would be phased 
        in and have a similar framework as DOD Directive 8570.1 
        Information Assurance Training, Certification, and Workforce 
        Program.
  <bullet> Cybersecurity Implementation Monetary Incentives.--This 
        could be similar in concept and scope to the renewable energy 
        incentives passed in the Emergency Economic Stabilization Act 
        of 2008 and/or the Smart Grid incentives of the American 
        Recovery and Reinvestment Act of 2009 (ARRA).
   intrusion detection technology and identification of cyber attacks
    Industrial networks, while sharing many of the same technologies as 
business networks, differ enough from business networks to make many 
conventional threat management approaches ineffective. Industrial 
networks tend to be more static and predictable than business networks. 
Safety and effectiveness testing costs for industrial networks are very 
high, and the effects of technologies like anti-virus scanning and even 
security patch management on these computers is unpredictable enough 
that no such technologies can be used safely without incurring very 
high costs. Industrial networks tend to be tightly controlled--
generally conventional office tools such as word processors, 
presentation tools, and email clients are not found on legacy 
industrial networks. However, modern industrial leverage base internet 
protocols like TCP and HTTP layer on top of these base protocols a 
large variety of control-system-custom protocols like Modbus, DNP3, 
ICCP and IEC 61850, which are never seen on business networks.
    The present lack of investment in equipping industrial network 
systems with real-time security sensors to provide visibility into the 
current cybersecurity threats, vulnerabilities and incidences plaguing 
them has emerged as both a necessary and dangerous initiative in terms 
of cybersecurity protection. Based on historical risk and vulnerability 
assessment data captured from Industrial Defender professional services 
field teams, most SCADA environments contain latent vulnerabilities, 
likely with compiled exploits, and are not discovered, on average, 
until almost a year later (331 days).
    As a result, it is necessary to carefully evaluate security 
technologies and techniques before deploying them on industrial 
networks and computers. Through the evaluation of many technologies 
over the last 5 years, Industrial Defender has found results that span 
the entire spectrum from security technologies and procedures that 
actively impair the effectiveness of industrial networks and control 
systems, through technologies that do not impair networks, but add no 
value either, to technologies and approaches that are, in fact, 
effective and worthwhile at securing industrial networks.
    Network intrusion detection systems (NIDS) are an essential 
component of a defense-in-depth strategy, and there are real benefits 
in the form of specialized expertise when an outsourced managed service 
provider manages NIDS sensors. NIDS sensors developed for industrial 
control systems need to be customized with knowledge of industrial 
network protocols and systems. The sensors are routinely deployed 
inside the security perimeter of the industrial network, monitoring 
traffic exchanged between the industrial computers and between those 
computers and the business network.
    Conventional NIDS technologies are ``signature-based.'' That is, 
much like the well-known anti-virus (AV) products used on PC 
workstations, signature-based NIDS use a large set of rules called 
``signatures'' to scan network traffic. Any traffic that matches the 
signature triggers an alert and may trigger corrective action, as well. 
A key limitation of conventional signature-based NIDS is that like 
signature-based AV, signature-based NIDS can only detect attacks that 
it has a signature for. As new vulnerabilities are found in common 
computer and network components, new signatures are written to identify 
communications patterns of attackers trying to take advantage of those 
vulnerabilities. If an attacker discovers a vulnerability or somehow 
manages to create an attack vector for a vulnerability before a patch/
fix or signature for the vulnerability is available, that attack is 
called a ``zero day'' attack. Signature-based NIDS are by definition 
unable to detect zero-day attacks, because those attacks occur before 
signatures are available to detect the attacks.
    Host intrusion detection systems (HIDS) monitor the operation of 
computer systems and alert when suspicious activity is detected. The 
archetypical example of HIDS is an anti-virus system. With NIDS, it is 
generally possible to monitor networks in a completely passive way, 
receiving a copy of every message exchanged on a switch, for example, 
without impairing the communications on the switch in any way. This is 
important because of the prohibitive cost of re-testing an industrial 
solution for safety and effectiveness if an after-the-fact security 
monitoring solution changes the behavior of the network significantly.
    Control system HIDS have the same imperative--first do no harm. 
After-market HIDS must not interfere with the operation of the control 
system and must not reduce confidence in the correctness of a control 
system to the point where a prohibitively expensive re-test is 
required. An industrial HIDS solution must be designed with exactly 
this criterion in mind. Most enterprise class HIDS interfere with the 
operation of the host, either by accident or by design, or they insert 
themselves so deeply into the operating system and kernel of the host 
computer, that they destroy all confidence in the continued correct and 
safe operation of the control system.
              government investment in control systems r&d
    One area of focus should be a centralized clearing house for the 
correlation of alerts and traffic statistics. Such central oversight 
would provide intelligence regarding widespread information gathering 
and other attacks. For the central correlation to work, cooperation of 
large, managed service providers and large, self-managed networks is 
needed, in order to send the necessary standardized alerts, and traffic 
statistics to the U.S. Government. If a central agency was the real-
time clearing house for conclusions about traffic patterns and the 
correlation of such conclusions, that agency would be able to correlate 
suspicious activities across many industrial networks. Such 
correlation, especially correlation of traffic profiling results, might 
allow the central monitoring agency to identify widespread information-
gathering activities targeted at critical infrastructure networks. Such 
activity is a logical precursor to a widespread attack on 
infrastructure. It would also allow a central clearing house to draw 
conclusions about widespread infections calling out to the internet for 
instructions from time to time, which might be a sign of a coordinated 
attack on many sites.
    Industrial Defender recommends that the Federal Government 
investigate establishing a program, correlation infrastructures and 
technologies, and the necessary data exchange standards to permit real-
time alerts and traffic statistics to be aggregated centrally. 
Individually managed security service providers and large industrial 
security/network control centers would be encouraged--or required--to 
participate in the program and provide the central authority with the 
statistics and other information that the agency requires to calculate 
high level correlations. Such a program could provide government and 
intelligence agencies with important insights into the health of 
industrial networks overall, and with insight into sudden changes or 
widespread patterns indicative of preparations for a large-scale 
attack.
    A second area of focus is to strongly encourage control system 
vendor partnerships with the U.S. Department of Energy's National 
Supervisory Control and Data Acquisition (SCADA) Test Bed programs at 
Idaho National Laboratory and Sandia National Laboratory. There needs 
to be a continued and raised emphasis on control system security 
product and technology assessments to identify vulnerabilities and 
corresponding mitigation approaches when systems are being designed and 
built.
                                 ______
                                 
                Statement of Southern California Edison
a lifecycle framework for self-sustaining implementation of smart grid 
             interoperability and cyber security standards
                              introduction
    Advancing Smart Grid interoperability and security through 
standards adoption fosters innovation and accelerates robust, secure, 
and reliable Smart Grid deployments. This is achieved by lowering the 
barriers to entry for vendors; accelerating secure and interoperable 
product time to market; and ultimately lowering costs for consumers. 
With all the potential benefits associated with broad standards 
adoption it seems reasonable to institute a standards lifecycle 
framework to ensure the deployment of a robust and interoperable Smart 
Grid. Unfortunately, realizing the benefits of standardization requires 
more than just selection of a standard.
    Several papers in circulation including papers developed by EnerNex 
\1\ and EPRI \2\ show that there are plenty of standards available. 
With so many available standards, why has the pace of adoption been 
slow? The answer is that the selection of a standard is but one aspect 
of a greater product lifecycle. Full realization of the benefits will 
require a shared Government and industry focus on a common set of Smart 
Grid functions, and a standards lifecycle framework supporting those 
functions. The goal of this standards lifecycle framework is to align 
policy, standards development, product development, and procurement 
actions to create a self-sustaining Smart Grid market. A successfully 
operating, self-sustaining Smart Grid product market is defined by 
public policy supported by standards that are rapidly adopted by 
product vendors seeking certification, and driven by utility 
procurement agents only buying products certified to those standards. 
The effect in the marketplace is that product vendors are incented to 
compete against each other to create products that are increasingly 
interoperable and secure. Within this context, it is clear that any 
approach needs to be comprehensive and cohesive.
---------------------------------------------------------------------------
    \1\ Smart Grid Standards Assessment and Recommendations for 
Adoption and Development, draft v0.82, Enernex for California Energy 
Commission, February, 2009.
    \2\ EPRI Technical Report: Integration of Advanced Automation and 
Enterprise Information Infrastructures: Harmonization of IEC 61850 and 
IEC 61970/61968 Models, EPRI, Palo Alto, CA 2006. Product ID 1013802.
---------------------------------------------------------------------------
    Beyond the creation of a standards lifecycle framework, it should 
also be noted that the associated effects of validation, enforcement, 
certification, and accreditation are missing or in need of additional 
support. Certification and enforcement are critical elements of the 
lifecycle. Certification defines test cases that clarify standards 
interpretation in products by vendors. In this manner, any ambiguity in 
standards interpretation is quickly identified and remedied in such a 
closed-loop process. Without such a process, vendors will interpret 
standards differently and interoperability will not be achieved.
    This holistic approach to standards adoption allows for a more 
inclusive stakeholder representation. Achieving increasing levels of 
interoperability and robustness will require a concerted effort by all 
stakeholders including regulators, Government agencies, utilities, 
vendors, commercial organizations, and standards development 
organizations. These interests can be represented through a look at the 
applicable development and adoption lifecycles and how these lifecycles 
intersect. Two of the most relevant lifecycles are the procurement 
lifecycle and the standards development lifecycle. These two lifecycles 
are significant in that they cover both the development of the products 
and standards and the adoption and enforcement of the standards.
                    standards development lifecycle
    The standards development lifecycle is the realization of an 
operational need through the articulation of the need, followed by the 
development of standards, certification processes, and implementation 
validation. The standards process is better served when the 
organizations needing to procure the products are involved in this 
needs development. In the case of Smart Grid, these organizations are 
mostly utilities. Needs are typically represented through business 
objectives, use cases, and requirements. These needs should be the 
basis for both platform agnostic and platform specific standards 
development. The process for establishing and representing the needs 
through standards is well-established and actively practiced in the 
utility industry. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As shown above in Figure 1, the standards development lifecycle 
does not end with the development of the standard; this is simply the 
starting point. The standard needs to be implemented, validated and 
adopted. In most cases where standards are available but not widely 
used, the fault is not with the development of the standard but rather 
with the enforcement of the standard. Fortunately, normal competitive 
market drivers can be used to enable this piece. Commercial 
organizations chartered to validate vendor implementations claiming to 
be compliant with a given standard are needed. These organizations play 
a critical role in the overall adoption of a standard. There are 
several commercial organizations currently providing certification 
services including ZigBee, HomePlug, Wi-Fi, and WiMAX. While the 
communications space is well-served by these organizations, other 
domains have no commercial equivalent. As an example for the electric 
grid, there are no commercial security certification organizations. 
Utilities and other organization have developed security-related needs 
statements and there are many security standards. Again, because there 
is no certifying organization the lifecycle is broken and the standards 
adoption becomes ad-hoc. Closing the loop with a certification process 
is a key to accelerating mature standards. In doing so, 
interoperability issues are discovered and regressed into the standards 
and the technologies. Without this closed-loop process, 
interoperability is almost impossible to achieve on a broad system 
spanning multiple vendors.
    Ultimately, adoption is achieved through the procuring 
organization. The utilities procure devices which extend and enhance 
the capabilities of the electric grid. Using security as an example, 
devices which are certified as more robust or more secure will be 
procured over competing devices offering less robustness or security. 
In this way, both the utilities and the vendors have the necessary 
incentives to foster a sustainable Smart Grid ecosystem.
            procurement-driven standards lifecycle framework
    The standards development process relies on the utility procurement 
lifecycle for enforcement. This lifecycle also provides other key touch 
points with the standards development lifecycle beyond the final 
enforcement of a given standard. These touch points give visibility and 
provide context for participation of various stakeholders. The utility 
procurement lifecycle, at its core, is concerned with procuring 
products which meet a given set of criteria. These criteria include 
regulatory policy, operational needs, and business functionality as 
well as any standards compliance requirements. Regulators and standards 
organizations support the utility procurement process at several points 
in the lifecycle.
    Regulators at both the State and Federal level can provide four key 
roles in the lifecycle.
    1. Define performance criteria in the context of meeting public 
        policy objectives. California's ``six criteria'' for advanced 
        metering is one example;
    2. Provide oversight on utility expenditures and can enforce 
        interoperability and cybersecurity standards adoption;
    3. Ensure utility participation in a centralized incident response 
        effort; and,
    4. Refine performance criteria based on continuous improvement.
    Continuing with the security example, the procurement lifecycle 
merged with the standards development lifecycle to create a 
procurement-driven, cybersecurity standards lifecycle framework, as 
shown in figure 2 below, provides for a more consistent and more secure 
electric grid. In fact, enabling the entire lifecycle is the only way 
to increase security capability across the entire grid.
    As part of this standards lifecycle framework, various industry 
stakeholders are able to define operational needs within the context of 
regulatory objectives. These needs are carried into standards 
development by utilities and vendors, evaluated for risk and used to 
seed various technology-agnostic and technology-specific standards 
development by standards development organizations (SDOs). The 
resulting standards can be recognized by Federal and State regulators 
as meeting policy objectives. While standards development is often 
described as a long arduous process, today Smart Grid development can 
benefit from the many existing standards available. The current 
potential to accelerate standards adoption is described in the ``Smart 
Grid Standards Adoption--Utility Industry Perspective'' \3\ white 
paper.
---------------------------------------------------------------------------
    \3\ Smart Grid Standards Adoption--Utility Industry Perspective 
v5.0, by Utility Smart Grid Executive Working Group and Open SmartGrid, 
March 23, 2009.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As this lifecycle framework continues, products are developed by 
manufacturers and software developers and evaluated for standards 
compliance certification by independent commercial labs, which have 
been accredited by a Governmental agency such as NIST.
    Devices/software are then procured by the utility for 
implementation. During the course of utility operations, performance 
information is gathered, new threats are identified, and knowledge is 
shared. Any security risk that is realized is responded to by a central 
incident response team which coordinates the response to the security 
event. Again, using the touch points across the standards lifecycle 
framework, the industry is able to transfer this security knowledge to 
the appropriate organizations.
                               conclusion
    Lower product costs, operational costs, and improved resiliency are 
significant benefits associated with standards adoption. In order to 
truly realize these benefits, the entire product lifecycle needs to be 
considered. There are two complementary views of this lifecycle, the 
first view is the standard lifecycle, and the second is the procurement 
lifecycle. Certification is a key component of the lifecycle and 
without certification the cycle is broken and the ability to achieve 
broad interoperability is negated. These lifecycles should be unified 
by a comprehensive standards lifecycle framework described above. This 
more holistic view also clearly identifies the roles for key 
stakeholders' participation. For the energy sector, enabling and 
enhancing, this standards lifecycle framework should be the primary 
goal.
 SCE Response to Questions for the DHS Subcommittee for Cybersecurity, 
        Emerging Threats, and Science and Technology on July 21
How much of the total cost of its metering infrastructure does SCE 
        expect to recoup from rate cases?
    SCE's Smart Meter program is authorized for full rate recovery by 
the California Public Utilities Commission.
Are SCE's assets hardened against an intentional or unintentional 
        electromagnetic pulse? If so, how did SCE go about mitigating 
        this threat? How much did implementing protective measures 
        cost? Was SCE able to recoup these costs in a rate case?
    SCE understands the disruption potential of electromagnetic pulse 
(EMP) and other threats that pose risks to system availability. These 
threats are taken into account as part of our system design. The risk 
of the SCE assets being affected by EMP is a function of the 
probability, size, and nature of an EMP threat. As such, SCE's risk-
adaptive process accounts for this and other threats through our system 
availability, disaster recovery, and business continuity designs.
Please describe how SCE implemented mitigations to the Aurora 
        vulnerability.
    In response to the Aurora Vulnerability, SCE first performed a 
detailed assessment of the system to identify and mitigate the 
associated vulnerabilities across our service territory in alignment 
with NERC recommendations. Additionally, SCE refined planning, 
engineering, procurement, security, and compliance policies to support 
NERC CIP standards.
What would industry like to see from Government in terms of an alert 
        and warning system about an impending cyber attack? Does this 
        early warning system exist today?
    We believe the Government has an important role to play in the case 
of impending security events. This role should be played in the broader 
context of a well-defined structure as articulated in SCE's white paper 
``A Lifecycle Framework for Self-sustaining Implementation of Smart 
Grid Interoperability and Cyber Security Standards'' which is attached 
to this response. Early warning processes in use today include US-CERT, 
the Electric Sector--ISAC (ES-ISAC) managed through NERC, as well as 
the DHS Daily Open Source Infrastructure Report. All existing early 
warning processes would benefit from participating in a broader self-
sustaining, framework that includes the mechanisms for all stakeholders 
including policymakers, vendors, utilities and incident response teams 
to take actions so the overall electric infrastructure becomes 
increasingly secure.
What is the current role of the Federal Government be in defending 
        against nation-state-level cyber or physical attacks against 
        electric facilities? What should the role of the Federal 
        Government be?
    We believe the role of the Federal Government should be to work 
with industry to align collaborative efforts on policy, standards 
development, product development and procurement actions to create the 
self-sustaining Smart Grid market as outlined in the attached white 
paper ``A Lifecycle Framework for Self-sustaining Implementation of 
Smart Grid Interoperability and Cyber Security Standards''. A 
successfully operating, self-sustaining market is defined by public 
policy supported by standards that are rapidly adopted by product 
vendors seeking certification, and driven by utility procurements 
buying products certified to those standards. The effect in the 
marketplace is that product vendors are incented to compete against 
each other to create Smart Grid solutions that are increasingly 
interoperable and secure.
Does SCE use the Energy ISAC today? Does SCE believe that the Energy 
        ISAC is effective in producing timely and relevant analysis and 
        warnings for the industry? If not, what measures can be 
        undertaken to improve this capability?
    Yes, SCE utilizes the Electric Sector--ISAC (ES-ISAC), managed 
through NERC, for warnings applicable to the electric sector. The ES-
ISAC, notifications are supplemented by US-CERT, as a source for our 
Anti-vulnerability Emergency Response Team, a 24x7 group of SCE subject 
matter experts tasked with vulnerability and incident response.
    We do believe the ES-ISAC represents an effective mechanism for 
timely and relevant analysis and warnings for the industry. ES-ISAC 
participation in the broader industry lifecycle framework, as stated in 
the attached white paper, would improve communication on security 
events and known vulnerabilities across a broad set of industry 
stakeholders.
What are the key aspects of any piece of legislation that seeks to 
        secure the electric grid from cyber and physical attack?
    Legislation seeking to secure the electric grid should consider the 
ability to facilitate the standards-driven process which motivates the 
market to produce and adopt increasingly secure and interoperable 
products.
Are industry-written security standards appropriate to protect assets 
        as critical to national security as the electric system? If so, 
        why? If not, should a Federal entity write the standards?
    Yes, SCE believes a public/private partnership is the most 
effective way to develop cybersecurity specifications and standards. An 
example is the current effort between the industry, NIST and the 
Department of Energy, known as ASAP-SG, the goal of which is to 
organize and articulate Smart Grid cybersecurity standards by 
leveraging an existing set of standards will help provide the guidance 
necessary for vendors to develop secure product; certification labs to 
certify secure product; and utility companies the ability to 
confidently procure and implement secure products.
    SCE has published three papers on the topic of security and 
standards please see: http://www.sce.com/PowerandEnvironment/
smartgrid/.


                          A P P E N D I X  I I

                              ----------                              

Questions From Chairwoman Yvette D. Clarke of New York for Dr. William 
  R. Graham, Chairman, Commission to Assess the Threat to the United 
                   States From Electromagnetic Pulse
    Question 1. The EMP commission report looked at several 
infrastructure sectors, the first of which was electric power. Please 
tell us about the vulnerabilities you found there, and if you could 
prioritize their criticality. To the best of your knowledge, has the 
electric industry attempted to address these vulnerabilities? Where are 
we right now in protecting the electric grid and what more must be 
done?
    Answer. The vulnerabilities found in the electric power 
infrastructure include:
    a. High-voltage transformer damage due to low frequency (E3) High 
        Altitude EMP. These transformers are only produced outside the 
        United States, and at a very low rate. Lead time for delivery 
        under normal circumstances is months to years.
    b. Damage to relays and other control electronics in high-voltage 
        substations due to high frequency (E1) EMP.
    c. Distribution transmission line insulator damage due to E1 EMP.
    d. Damage to power control center electronics due to E1 EMP.
    e. Widespread blackout of power grids due to simultaneous failures 
        of controls, transformers, and the loss of load (due to 
        insulator damage).
    As far as I have been able to determine, the electric industry has 
not attempted to address these vulnerabilities. The Federal Energy 
Regulatory Commission (FERC) has been active in trying to understand 
EMP and other electromagnetic threats to the power grid, and they are 
encouraging the North American Electric Reliability Corporation (NERC) 
to take action with mandatory standards. FERC has asked the Department 
of Energy (DoE) to begin the development and demonstration of 
protection technologies against EMP, geomagnetic storms, and 
Intentional Electromagnetic Interference (IEMI). NERC has also recently 
been briefed about EMP and geomagnetic storms by representatives of the 
EMP Commission.
    While the level of discussion concerning the threat of EMP to the 
power grid is increasing, until NERC and the power industry take action 
in developing standards and implementing a schedule for protection, 
nothing will move forward. It is clear that a national leadership from 
the National Security Council, the Department of Homeland Security, and 
the DoE is required to move this protection issue forward. Such 
leadership has not been forthcoming.
    Question 2. Would installing the protections necessary to protect 
the electric grid from EMP be costly?
    Answer. Protection for the vulnerabilities indicated above would 
not be expensive in terms of the initial costs of the equipment, the 
replacement costs, or certainly when compared with the cost to the 
economy of the United States of an extended electrical blackout.
    a. It is recommended that the work of the EMP Commission be studied 
by those in charge of ensuring the reliability of the U.S. power 
system, with an emphasis on relative vulnerabilities (e.g. 765 kV 
network) and in terms of applying protection first to new construction, 
where the cost will be at the low end for such protection. The U.S. 
experience with military systems indicates that the cost of protecting 
new systems from EMP is in the 1-2% range when carried out by 
knowledgeable and experienced engineers. Unfortunately, the number of 
such engineers has been declining since the end of the Cold War.
    b. It is urgent that work begins on adapting international 
standards on EMP protection to the U.S. power grid as soon as possible. 
It appears that FERC is in the best position to ensure that NERC 
develops the proper protection standards and sets a schedule to 
accomplish the protection.
    Question 3. The ``Smart Grid'' concept means putting more 
computerized systems, similar to Systems Control and Data Acquisition 
(``SCADA'') systems throughout the grid, down to the level of 
individual users such as homes and buildings. Aren't these systems even 
more sensitive and susceptible to damage by EMP than the other 
components of the electrical grid? In your opinion, would the ``Smart 
Grid'' be even more likely to be taken down by EMP than our current 
grid if the computer controls were not protected from EMP?
    Answer. It is very clear that one of the primary objectives of the 
``Smart Grid'' is to reduce the peak power needs by controlling the 
power usage by the customer (primarily through time of day pricing or 
mandatory reductions in use of electricity at times of high usage of 
electricity in various regions). While this approach may be beneficial 
in the short run, the information from electronic meters at homes and 
buildings will essentially be used to operate the grid, without proper 
leadership and systems engineering, will lead to much less margin for 
electric power reliability.
    Based on experiments performed by the EMP Commission, substation 
safety relays have been found to be vulnerable to EMP, but at much 
higher levels of threat than standard PC equipment (PCs are extremely 
vulnerable to EMP). The point is that Smart Meters (essentially PC 
technology) will require a strong, comprehensive effort for both 
Electromagnetic Interference (EMI) and EMP protection.
    If these meters are not well-protected against EMP, as well as 
normal EMI, geomagnetic storms, and IEMI (EM weapons), then EMP will 
likely cause a more rapid failure of the new ``Smart'' Grid. The IEEE 
Electromagnetic Compatibility (EMC) Society met recently in Austin, 
Texas and registered alarm at the lack of basic EMC and EMP protection 
standards being referenced by the National Institute of Standards and 
Technology (NIST) and the Electric Power Research Institute (EPRI) in 
their review of existing important protection standards for the ``Smart 
Grid''. A letter from the Society is being prepared to indicate this 
concern.
    Question 4. New ``Green Generation'' such as wind power will also 
require the addition of thousands of miles of new high-voltage 
transmission, because most of the wind farms will be located far from 
population centers. Aren't these very long high-voltage lines the most 
vulnerable to Geomagnetically Induced Currents (GIC), and if that is 
the case, shouldn't we be building these transmission lines with EMP 
protective technologies?
    Answer. Some of the planning performed by industry has indicated, a 
preference for 765 kV lines leading from the Midwest, where wind power 
can easily be obtained, to Chicago. Studies performed for the EMP 
Commission clearly indicated that long high-voltage power transmission 
systems (including their connected transformers) are highly vulnerable 
to geomagnetic storms. For example, 765 kV systems are more vulnerable 
to geomagnetic storms than the lower voltage systems found in most of 
the United States. The reason for the use of higher voltages is to 
minimize power loss, but protection is needed for the transformers. 
Clearly the protection of transformer neutrals, as discussed during the 
EMP Commission research, should be applied to all such new transmission 
systems as they are built, thereby reducing the cost of installation 
compared to the cost of retrofitting. Such geomagnetic storm protection 
will also provide protection against E3 EMP.
Questions From Chairwoman Yvette D. Clarke of New York for Mr. Michael 
 J. Assante, Vice President and Chief Security Officer, North American 
                    Electric Reliability Corporation
    Question 1. Why did the Critical Infrastructure Protection 
Committee decide against taking action on the EMP Commission findings 
during the September 11, 2008 meeting?
    Answer. The Critical Infrastructure Protection Committee (``CIPC'') 
is a NERC-sponsored, self-governed committee of volunteers representing 
users, owners, and operators of the bulk power system and other 
interested entities with a mission to advance the physical and 
cybersecurity of the critical electricity infrastructure of North 
America. The CIPC does not constitute all of the activities related to 
Critical Infrastructure Protection undertaken by NERC, nor does it 
definitively represent NERC's full position on any matter. The CIPC 
advises NERC's Board of Trustees and Electric Sector Steering Group, 
along with NERC staff, on matters relating to Critical Infrastructure 
Protection.
    NERC is not in a position to explain the conclusion stated in the 
minutes of CIPC's September 11, 2008 meeting regarding the EMP 
Commission report. The CIPC has worked with the EMP Commission in the 
past. A subgroup of CIPC, the High Altitude Electromagnetic Pulse Task 
Force, was formed during 2002 and 2003 specifically for the purpose of 
working with the EMP Commission and providing industry insight and 
support for its efforts. That industry participation is referenced 
repeatedly throughout the EMP Commission's April 2008 report. At CIPC's 
invitation, Dr. Michael Frankel, Executive Director of the EMP 
Commission, made a presentation to the committee at its March 2009 
meeting about the work of the EMP Commission and the EMP Commission 
report.
    Question 2. It is our understanding from the April 2009 letter sent 
by Mike Assante that a large portion of the electrical industry has not 
identified ``critical cyber assets,'' which is a requirement under the 
NERC standards. Please explain why this letter was sent and what the 
response to the letter has been.
    Answer. The prioritization of critical assets for protection is the 
foundation upon which NERC's Critical Infrastructure Protection 
(``CIP'') standards are built. In developing the standards, the 
industry standards drafting team recognized that the protection of 
assets must occur in a staged approach, with appropriate focus being 
given to those elements of the system deemed ``critical'' to 
reliability. This approach was approved by the Federal Energy 
Regulatory Commission (``FERC'') in its conditional approval of NERC's 
Reliability Standards CIP-002--CIP-009 in Order No. 706 on January 18, 
2008.
    ``Critical assets'' are defined in NERC's glossary of terms as 
those ``facilities, systems, and equipment which, if destroyed, 
degraded, or otherwise rendered unavailable, would affect the 
reliability or operability of the Bulk Electric System.''\1\
---------------------------------------------------------------------------
    \1\ NERC Glossary of Terms. Version dated April 20, 2009. http://
www.nerc.com/files/Glossary_2009April20.pdf.
---------------------------------------------------------------------------
    Reliability Standard CIP-002 ``requires the identification and 
documentation of the Critical Cyber Assets associated with the Critical 
Assets that support the reliable operation of the Bulk Electric 
System.''\2\
---------------------------------------------------------------------------
    \2\ NERC Reliability Standard CIP-002-1. http://www.nerc.com/files/
CIP-002-1.pdf.
---------------------------------------------------------------------------
    Due to the nature of the system, not all Registered Entities own or 
operate critical assets. Many Registered Entities, for example, own or 
operate a single small generating station, which would not necessarily 
be deemed ``critical'' under the definition above.
    As part of the implementation plan for the CIP standards, NERC 
requires Registered Entities to self-certify their progress in coming 
into compliance with certain Reliability Standards. Responses received 
from the industry for the period of July-December 2008 raised a concern 
that all respondents may not have applied a suitable approach in 
identifying critical assets and their associated critical cyber assets. 
The April 7, 2009 letter sent by NERC's Chief Security Officer Michael 
Assante sought to bring clarity to the discussion of appropriate 
approaches to critical asset identification. The letter encouraged 
Registered Entities to take a fresh look at current risk-based 
assessment models to ensure they appropriately account for new 
considerations specific to cybersecurity, such as the need to consider 
misuse of a cyber asset, not simply the loss of such an asset. Final 
decisions regarding appropriate identification of critical assets and 
their associated critical cyber assets will be made through NERC's 
compliance and enforcement efforts. Compliance audits on the CIP 
standards have already begun.
    The April 7 letter is part of the iterative process between NERC 
and industry stakeholders as we work together to improve reliability. 
In this case, NERC gathered information about the status of 
implementation of the Critical Infrastructure Protection standards and 
fed that information and its own insights back to the industry as part 
of a cycle of continuous improvement. NERC is working to address a 
critical element of the cybersecurity challenge: The educational 
learning curve and resulting compliance-related challenges that must be 
addressed to improve the cybersecurity of the bulk power system.
    Question 3. Describe the expense and technical challenges in 
installing or implementing cyber and EMP protections for the grid?
    Answer. The expense and technical challenges associated with 
implementing cyber and EMP protections for the grid depend upon the 
types of protections required and the grid systems being addressed. 
Thus, NERC cannot respond specifically, but we are able to provide a 
general response.
    The nature of the Bulk Power System creates unique complexity in 
addressing security risk. The interconnected system includes 
approximately 5,000 generating plants, 165,000 miles of transmission 
lines, 20,000 substations, and millions of digital controls. These 
assets are widely dispersed, primarily located outside, and are owned 
and operated by approximately 1,800 different entities. The variance in 
size and organizational structure of these 1,800 entities present 
additional challenges. Entities range in size from thousands of 
employees to 20 or fewer employees. The organizations range from large 
investor-owned utilities like Exelon and Pacific Gas & Electric to non-
profit electricity market operators like ISO New England; from small 
municipally owned utilities like the City of Orrville, OH to large 
Government agencies like the Tennessee Valley Authority and the U.S. 
Army Corps of Engineers; and from independent owners of individual 
generating plants like JP Morgan Ventures to cooperatives of all sizes, 
from Great River Energy to Bluebonnet Electric Cooperative.
    Systems are highly customized for specific environments, and, while 
common components are often used, unique configurations present 
challenges in providing uniform, specific guidance on protections. 
Actions that result in improved security on some systems could 
potentially result in degraded security on others. More effective 
approaches often involve a range of acceptable mitigation options.
    The real-time operating environment also presents an important 
technical challenge, such that security controls that may be 
appropriate in other settings could present significant risks to the 
reliable operation of the system were they to be similarly applied to 
the bulk power system.
    NERC believes that the asset owners would be in the best position 
to provide specific information on the costs and technical challenges 
of various protections.
    Question 4. Do plans or procedures exist for the electric industry 
in the case of a known cyber attack or an imminent EMP? If so, can you 
outline them for us?
    Answer. NERC's Critical Infrastructure Protection standards require 
an annual exercise for response to cybersecurity events. Standard CIP-
009 requires that recovery plans be put in place for Critical Cyber 
Assets and that these plans follow established business continuity and 
disaster recovery techniques and practices.\3\
---------------------------------------------------------------------------
    \3\ NERC Reliability Standard CIP-009. http://www.nerc.com/files/
CIP-009-1.pdf.
---------------------------------------------------------------------------
    To my knowledge, no electric industry plans or procedures have been 
developed specifically for an imminent EMP.
    Initial planning for response to an imminent geomagnetic event was 
completed by many entities in response to the 1989 geomagnetic storm 
that triggered a widespread blackout in Quebec. Response to an imminent 
EMP threat would require similar measures for certain components of an 
EMP, but those measures would not deal with all aspects of an EMP.
    Over the past year, NERC has been working to improve industry-wide 
responses to known or imminent threats of all kinds. NERC's alerts 
system allows it to reach nearly 5,000 industry professionals at 
operations centers, power plants, and other power system facilities 
across North America. A next-generation alerts tool is currently 
nearing completion, which will enable recipients to view and submit 
secure information to NERC. Contacts will be able to receive alert 
information via text message and e-mail.
    Question 5. Does NERC have requirements for cyber and physical 
protections for new ``Smart Grid'' assets?
    Answer. NERC Reliability Standards apply to the Bulk Power System 
as defined in Section 215 of the Federal Power Act:
    (A) facilities and control systems necessary for operating an 
interconnected electric energy transmission network (or any portion 
thereof); and
    (B) electric energy from generation facilities needed to maintain 
transmission system reliability. The term does not include facilities 
used in the local distribution of electric energy.
    Thus, ``Smart Grid'' assets that are necessary to the operation of 
the Bulk Power System can be covered under NERC Reliability Standards, 
but those located on facilities used in the local distribution of 
electric energy are not, unless such assets materially impact the bulk 
power system.
    NERC is coordinating with NIST as it develops interoperability and 
system security standards for ``Smart Grid'' systems at the 
distribution level, as directed in FERC's July 2009 ``Smart Grid Policy 
Statement''.
    Question 6. What efforts has NERC made to adopt NIST security 
standards? How do the current NERC standards differ from NIST 800-53 
standards?
    Answer. NERC currently has efforts underway to adapt the NIST 
framework for use in power system applications. The Cyber Security 
Order 706 Drafting Team recently posted a concept paper entitled 
Categorizing Cyber Systems: An Approach Based on BES Reliability 
Functions for industry comment, which outlines a proposed framework for 
revising the existing Critical Infrastructure Protection Standards. 
Comments on the concept paper are due from industry on September 4, 
2009.
    Existing NERC standards primarily differ from the NIST framework in 
several ways:
    (1) NERC standards do not presently assign a ``level of risk'' 
        (Low-Medium-High) to an asset being protected;
    (2) NERC standards do not include a graduated approach to controls 
        to align with such a ``level of risk'' framework; and
    (3) NERC standards apply to individual assets and do not 
        comprehensively consider the systems or networks of which they 
        are a part or the function for which they are employed.
    Question 7. Is NERC required by law to follow an ANSI standards 
development process in writing CIP standards?
    Answer. No, NERC is not required by law to have an ANSI-accredited 
standards process. Section 215 of the Federal Power Act does require 
that NERC's standards development process ``provide for reasonable 
notice and opportunity for public comment, due process, openness, and 
balance of interests in developing reliability standards . . . ''. 
(Sec. 215(c)(2)(D)). These factors are very similar to the central 
characteristics of an ANSI-accredited process, and in certifying NERC 
as the ERO, FERC found that NERC's ANSI-accredited standards 
development process meets the statutory requirements. NERC's standards 
development process is set forth in NERC's Rules of Procedure, which 
FERC has approved.
    Question 8. Is it possible that foreign adversaries have penetrated 
the electric grid and are in position to cause significant damage at a 
time of their choosing? Are utilities capable of knowing this?
    Answer. I am unable to discuss that question in an open forum. I 
would be prepared to work with the appropriate Government agencies to 
arrange a secure briefing for the subcommittee at its request.
    As raised in my written testimony, the electric grid is placed at 
significant risk as a result of limited information-sharing between the 
Federal Government intelligence community and asset owners. In order to 
adequately protect their systems, asset owners need to know what to 
look for. The origin and signature of potentially dangerous code 
continually change and are identified by the Federal Government 
intelligence community. This information often remains classified, 
leaving asset owners without access to this classified information 
unable to protect and respond to potential threats.
    Question 9. What are the largest risks to the electric grid, and 
what is NERC doing to mitigate those risks? In assessing the risk to 
these systems, how do you assess threat?
    Answer. Some of the largest risks to the electric grid include 
frequent, uncontrollable events such as severe weather and other 
natural disasters. Other large risks are controllable events, such as 
the causal factors of the August 14, 2003 blackout: Untrimmed trees, 
untrained system operators, and malfunctioning equipment.
    NERC's over 100 Reliability Standards focus on mitigating 
controllable risks, requiring that transmission owners maintain 
appropriate vegetation clearance around transmission lines, that all 
system operators are trained and certified, and that communications 
protocols are in place to ensure system operators are able to respond 
to events effectively.
    Cybersecurity is another significant risk to the system. One of the 
most concerning aspects of this challenge is the cross-cutting and 
horizontal nature of networked technology that provides the means for 
an intelligent cyber attacker to impact multiple assets at once, and 
from a distance. The majority of reliability risks that challenge the 
bulk power system today result in probabilistic failures that can be 
studied and accounted for in planning and operating assumptions. 
Cybersecurity is unique; system planners and operators must recognize 
the potential for simultaneous loss of assets and common modal failure 
in scale in identifying what needs to be protected. This is why 
protection planning requires additional, new thinking on top of sound 
operating and planning analysis. NERC believes asset owners and system 
operators are critical to the protection planning process and to 
determining the appropriate and necessary protections for their 
operating environments.
    High Impact, Low Frequency (``HILF'') events, such as EMP events 
and pandemic illness, also present significant risk to the electric 
system. These events are the subject of an upcoming workshop to be 
conducted by NERC and the Department of Energy, presently targeted to 
be held in mid-November 2009. (Please refer to NERC's response to 
Question 15 for further information on this effort.)
    Relative threat can be defined as a function of the probability and 
severity of a given event. HILF events are typically characterized by 
probability that is uncertain relative to other threats. Though, to 
NERC's knowledge, the North American Bulk Power System has never 
experienced a coordinated cyber attack that has affected reliability or 
a high-altitude detonation of a nuclear weapon, past experience is not 
a reliable indicator of future occurrence. NERC and the industry have 
no illusions of immunity to these threats.
    Question 10. Has NERC done any analysis on the security of the 
electric grid from cyber or physical (EMP) attack? If so, how secure 
and resilient does NERC believe the grid is today?
    Answer. NERC has several efforts underway to assess security and 
preparedness, including its Cyber Risk Preparedness Assessment, Bulk 
Power System threat assessment program, and the HILF initiative. NERC 
also supported and participated in the development of the EMP 
Commission report.
    NERC believes that as Registered Entities are coming into 
compliance with NERC's CIP standards, the system as a whole is becoming 
more prepared to deal with the effects of a cyber attack to the bulk 
power system. Due to the ever-changing nature of this threat, however, 
the Bulk Power System may never be fully secure from all potential 
coordinated cybersecurity threats.
    Certain of the measures and practices utilities put in place in 
response to the 1989 geomagnetic event in Quebec could provide some 
measure of protection against some, but clearly not all, manifestations 
of an EMP attack.
    Question 11. What limitations does the term and definition of 
``bulk power system'' have on the security of the electric grid at 
large? Assuming we can protect the ``bulk power system'' from attack, 
will that be adequate to protect the U.S. electric system?
    Answer. The ``Bulk Power System'' is defined in Section 215(a)(1) 
of the Federal Power Act as:
    (A) facilities and control systems necessary for operating an 
        interconnected electric energy transmission network (or any 
        portion thereof); and
    (B) electric energy from generation facilities needed to maintain 
        transmission system reliability.
    The term does not include facilities used in the local distribution 
of electric energy.
    The authority granted by Section 215 to the Federal Energy 
Regulatory Commission and NERC as the ``Electric Reliability 
Organization'' places appropriate focus on the reliability of the 
``Bulk Power System,'' as outages and disturbances on that system have 
the potential for far greater impact than those on distribution 
systems. However, the terms ``Bulk Power System'' and ``U.S. electric 
system'' are not synonymous. Protecting the former does not guarantee 
that the latter will be entirely protected. Local distribution 
facilities are generally outside NERC's jurisdiction, except (as noted 
above) where local distribution facilities materially impact the Bulk 
Power System. The States of Alaska and Hawaii are also outside NERC's 
jurisdiction.
    Question 12. Can the electric grid be significantly disrupted 
through attacks on assets that are not addressed by NERC CIP standards?
    Answer. Yes. Beyond the electric sector, debilitating attacks on 
other critical infrastructures, such as natural gas pipelines, 
railways, and telecommunications, could significantly affect the Bulk 
Power System.
    Question 13. What efforts have been initiated by NERC to require 
asset owners to secure this infrastructure from electromagnetic pulse 
events? Please provide specific details.
    Answer. NERC has recently partnered with the Department of Energy 
on the ``High Impact, Low Frequency'' event workshop currently targeted 
to be held in mid-November. One of the goals of this workshop is to 
provide guidance for the development of future requirements of this 
nature. Please refer to NERC's response to Question 15 for further 
information on this effort.
    Question 14. Does an early detection and warning capability for 
cyber and physical threats exist for the electric industry today? If 
not, why not?
    Answer. Elements of an early detection capability exist, but 
mechanisms are needed to promote more information sharing between the 
Federal Government intelligence community and asset owners. When 
physical or cybersecurity events affecting critical cyber assets occur 
on the system, asset owners are required by NERC Reliability Standards 
to report this information to NERC. Asset owners are also encouraged, 
and many do, to report additional security events to NERC in its role 
as the ES-ISAC and submit an OE Form 417 to the Department of Energy 
regarding the event.
    Mechanisms like NERC's alerts system and notifications from the 
United States Computer Emergency Response Team serve as effective 
warning capabilities for distributing critical information to the 
electric sector. Both mechanisms are capable of reaching wide audiences 
within the industry. Through its alerts system, NERC is able to require 
entities in receipt of the alert to acknowledge receipt and report to 
NERC on actions taken on recommendations included in the alert. NERC's 
last recommendation (December 2008) was met with a 96% response rate.
    Question 15. What is the High Impact/Low Probability Working Group? 
When and why was it started? How will findings from this group affect 
the NERC CIP standards?
    Answer. In partnership with the Department of Energy, NERC has 
recently begun an effort to assess ``high impact, low frequency'' 
risks--or, more accurately, those risks whose likelihood of occurrence 
is uncertain relative to other threats, but that could significantly 
impact the system were they to occur. Officially launched on July 2, 
the effort is a culmination of high-level discussions between 
leadership at NERC and the Department of Energy. NERC and DOE are 
currently recruiting members for the joint industry/Government working 
group, which will examine the potential impacts of these events on the 
bulk power system. The group will focus on influenza pandemic, space 
weather, terrorist attacks, and electromagnetic pulse events and host 
an invitation-only workshop in the coming months to discuss their 
assessment and develop conclusions and recommendations to industry 
based on their work. These recommendations will be used to drive needed 
technology research, development, and investment and also to evaluate 
NERC's current standards and initiatives, potentially driving the 
creation of new standards to address these issues.
    The workshop is currently slotted for mid-November 2009.
    Question 16. What responsibility and involvement does NERC have in 
Smart Grid development and deployment?
    Answer. NERC has supported the development of certain ``Smart 
Grid'' resources on the transmission system through its support of the 
North American Synchro-Phasor Initiative (``NASPI''). Coordinated with 
industry and the Department of Energy, this initiative is designed to 
improve power system reliability and visibility through wide area 
measurement and control using ``phasor measurement units'' or ``PMUs''. 
The NASPI community is working to advance the deployment and use of 
networked phasor measurement devices, phasor data-sharing, applications 
development and use, and research and analysis.
    NERC also referenced the development of the ``Smart Grid'' and its 
potential effects on the reliability of the bulk power system in its 
2008 Long-Term Reliability Assessment, briefly mentioning cybersecurity 
as a primary concern when deploying ``Smart Grid'' infrastructure. 
NERC's technical committees are currently forming a ``Smart Grid Task 
Force'' to further review this issue.
    As mentioned above, NERC is also coordinating with NIST through its 
development of Smart Grid interoperability and system security 
standards.
 Questions From Chairwoman Yvette D. Clarke of New York for Mr. Steven 
  T. Naumann, on Behalf of Edison Electric Institute, Electric Power 
                           Supply Association
    Question 1. Does the industry believe that physical or cyber events 
are serious issues to the functioning of the electric grid?
    Answer. Yes. The industry takes all threats to the reliability of 
the bulk power system seriously.
    Question 2. Is it possible that foreign adversaries have penetrated 
the electric grid and are in position to cause significant damage at a 
time of their choosing? Are utilities capable of knowing this?
    Answer. I do not know. Utilities continually monitor their systems 
for intrusions. I do not know whether all utilities are capable of 
detecting all intrusions.
    Question 3. What are the largest risks to the electric grid, and 
what is EEI doing to mitigate those risks? In assessing the risk to 
these systems, how do you assess threat?
    Answer. Historically, the largest risks to the grid have been 
created by acts of nature including hurricanes, ice storms, wildfires, 
and flooding. The interconnected nature of the electric grid has led to 
traditional coordination by the North American electric power companies 
in responding to those risks.
    EEI member companies continually assess operational risks be they 
natural or manmade and work to put appropriate risk mitigation measures 
in place.
    Most organizations perform risk assessments that include the 
following elements:
  <bullet> Identifying threats that could harm and, thus, adversely 
        affect critical operations and assets. Threats include such 
        things as intruders, criminals, disgruntled employees, 
        terrorists, and natural disasters.
  <bullet> Estimating the likelihood that such threats will materialize 
        based on historical information and judgment of knowledgeable 
        individuals.
  <bullet> Identifying and ranking the value, sensitivity, and 
        criticality of the operations and assets that could be affected 
        should a threat materialize in order to determine which 
        operations and assets are the most important.
  <bullet> Estimating, for the most critical and sensitive assets and 
        operations, the potential losses or damage that could occur if 
        a threat materializes, including recovery costs.
  <bullet> Identifying cost-effective actions to mitigate or reduce the 
        risk. These actions can include implementing new organizational 
        policies and procedures as well as technical or physical 
        controls.
    Companies throughout North America maintain strong programs to 
anticipate events such as hurricanes and winter storms, and to 
efficiently mitigate damage and restore service when such events 
happen. Coordination with Federal, State, and local governments, 
including law enforcement and emergency management, is a critically 
important part of these planning processes. Through decades of 
experience with these extremely challenging events, electric companies 
understand systemic risks, including especially the nature of the 
reliance of the electric industry on other key infrastructure 
industries such as natural gas pipelines and telecommunications. In 
recent years, the electric utility industry has added a strong emphasis 
on physical and cybersecurity in response to potential terrorist 
attacks on critical infrastructure.
    Question 4. What would industry like to see from Government in 
terms of an alert and warning system about an impending cyber attack? 
Does this early warning system exist today?
    Answer. The industry is strongly interested in receiving timely, 
actionable and specific threat information, and having the opportunity 
to engage in consultation with Federal agencies as to appropriate 
response/attack mitigation strategies. Some elements of warning systems 
exist today. However, timely delivery of specific threat/threat actor 
information has been a challenge, due to barriers posed by sharing of 
classified information, as well as the time required by Government 
agency staff to obtain approval to release information to private 
industry participants. The approval and communications challenges are 
magnified when multiple Government agencies are involved. If the 
Congress wishes the electric sector to be in a position to respond to 
an impending cyber attack it simply must take steps to provide specific 
threat/threat actor information to the sector--with appropriate 
mechanisms to protect against inappropriate distribution and release of 
classified or other security-sensitive information.
    Question 5. What is the current role of the Federal Government in 
defending against nation-state-level cyber or physical attacks against 
electric facilities? What should the role of the Federal Government be?
    Answer. There are multiple Federal agencies involved in defending 
against cyber or physical attacks perpetrated by nation-states and 
other adversaries against electric facilities, including: The 
Department of Defense, the Department of Energy, the Department of 
Homeland Security, the Federal Bureau of Investigation, and the Office 
of the Director of National Intelligence, among others. While it would 
be difficult to describe their mission profiles with precision, the 
industry is very interested in receiving timely, actionable, and 
specific threat information from these various entities.
    Question 6. What are EEI and its industry representatives doing to 
address the April 8, 2009 Wall Street Journal article discussing the 
existence of ``cyberspies'' in the electric grid?
    Answer. NERC has been charged by Congress with overseeing the 
reliability of the bulk power system and addressing issues 
substantively. In light of this, I suggest that NERC is the appropriate 
entity within our sector to address and answer this question in detail.
    Question 7. Have each of the EEI member companies fully implemented 
the mitigation measures for the Aurora vulnerability? How much did the 
security upgrades cost and how long did it take to mitigate these 
vulnerabilities?
    Answer. I do not have first-hand knowledge of the actions of other 
companies in response to Aurora, nor the costs to mitigate any 
vulnerabilities. I believe that Exelon has fully implemented the 
mitigation measures for the Aurora vulnerability. The costs incurred by 
the Exelon Companies, Commonwealth Edison Company, Exelon Generation 
LLC and PECO Energy, in complying with the Aurora Advisory were 
approximately $1.2 million.
    EEI does not have specific knowledge of how many companies have 
mitigated the Aurora vulnerability, or the costs incurred.
    Question 8. EEI has a program called the Spare Transformer 
Equipment Program, or ``STEP'' program, which is supposed to increase 
the electric industry's inventory of spare transformers in the event of 
a transmission outage caused by a terrorist attack. How many extra 
transformers have been acquired as a result of that program?
    Answer. The purpose of the STEP program is to facilitate a 
contract-based business program to support more efficient management of 
existing inventories of transformers for dealing with a triggering 
event, specifically a deliberate destruction of electrical transformers 
in connection with a terrorist event. The program is not intended to 
increase stockpiles per se, but to set terms and conditions for the 
sharing of inventories among the owners of these kinds of equipment. 
Thus, when a company orders a new transformer, it is difficult to 
specifically determine whether that order has been triggered by 
ordinary business needs, or, by the terms of the STEP contract. In 
addition, confidentiality provisions of the STEP agreement prohibit 
disclosure of various kinds of information.
    Question 9. What are EEI's concerns about granting FERC authority 
to set standards for security?
    Answer. The legislative discussion to date has focused on how best 
to ensure that electric companies will take actions in response to 
immediate cyber-related emergency threats. Whether conducted by FERC or 
NERC, EEI believes that a standards process is ill-suited for 
addressing this need. The present focus of the discussions is on the 
need for FERC to address cybersecurity issues for the bulk power 
system, over which it has reliability jurisdiction. EEI believes that 
this is the appropriate FERC role.
    Legislation should define a single agency for issuing national 
emergency actions to the electric sector. For the kinds of broad cyber-
related threats and vulnerabilities that might relate to needs for 
national emergency actions, EEI believes that the primary authorities 
located within both DOE and DHS are the appropriate locations for 
dealing with these matters. For DOE, its role as lead agency for the 
Electricity Sector Coordinating Council (``ESCC'') under the National 
Infrastructure Protection Plan (``NIPP'') suggests a broad coordination 
and communication role. For DHS, its broad agency role and activities 
with the electric industry to date suggests such a role.
    For other threats and vulnerabilities that are not of an imminent 
national emergency nature, the Self Regulatory Organization (``SRO'') 
model for setting standards throughout North America is strong and 
should be sustained. The electric industry recognizes that the NERC 
Critical Infrastructure Protection Standards need improvement. 
Development of the next version of Critical Infrastructure Protection 
Standards has just begun. In addition to addressing security-related 
concerns at NERC through the standards development process, various 
NERC communications processes and technical committee reviews can be 
used to discuss and communicate security-related reliability issues.
 Questions From Chairwoman Yvette D. Clarke of New York for Mr. Joseph 
   H. McClelland, Director of Reliability, Federal Energy Regulatory 
                               Commission
    Question 1. What is the current role of the Federal Government in 
defending against nation-state or terrorist cyber or physical attacks 
against electric facilities? Should the security of the electric grid 
rely on voluntary private sector measures? What should the role of the 
Federal Government be?
    Answer. The commission currently has a limited role in defending 
against nation-state or terrorist cyber or physical attacks against 
electric facilities. Section 215 of the Federal Power Act (FPA) 
authorizes the commission to approve and enforce mandatory reliability 
standards for the bulk-power system, including cybersecurity standards. 
The commission does not, however, have authority to author or modify 
cyber- or physical security standards, and it has no authority to order 
immediate steps to mitigate a threat or vulnerability that is not 
addressed by current standards. The commission can only approve or 
remand reliability standards submitted to it by the North American 
Electric Reliability Corporation (NERC), the commission-certified 
Electric Reliability Organization (ERO). The commission can direct NERC 
to submit a reliability standard or a modification to a reliability 
standard that addresses a specific matter, but it cannot control the 
content of the draft standard to ensure that it sufficiently addresses 
the commission's directive. In the event that an inadequate standard is 
submitted, the commission can either approve the inadequate standard 
and direct modifications, or reject the standard and thereby have no 
standard in-place until a replacement standard is drafted by NERC and 
filed with the commission.
    Cyber or physical attacks on the bulk-power system may constitute 
threats to national security, military readiness, public safety, and 
our Nation's economic well-being. Because of the wide-spread effects 
and serious consequences that a successful cyber attack may bring, it 
is important that swift, consistent, and effective action is taken by 
entities to prevent such attacks. Such action cannot be assured through 
a voluntary or decentralized process. The Federal Government should 
have the ability to protect against such attacks by having emergency 
authority to order mitigation measures when necessary.
    Question 2. Does an early detection and warning capability for 
cyber and physical threats exist for the electric industry today? Is 
this an appropriate role for the Federal Government? What are the 
technical and political challenges in creating such a system?
    Answer. Currently, there is no true early detection and warning 
capability for cyber and physical threats. Although the electric 
industry voluntarily created the Electric Sector--Information Sharing 
and Analysis Center (ES-ISAC) to share information on certain physical 
and cybersecurity events (such as surveillance issues, break-ins, 
thefts, viruses, computer worms, etc), the scope and amount of shared 
information is limited.
    An early detection and warning system by itself, however, is not 
sufficient. Considering the potential impact that a successful cyber or 
physical attack on the power grid could have on the safety, economy, 
and military readiness of the United States, the Federal Government 
should have the ability to order specific measures to protect against 
such attacks, in addition to warning entities of imminent threats.
    In addition to challenges related to the secure and coordinated 
communication of sensitive information, including protecting such 
information from public disclosure, the challenges to implementing any 
new Federal authority would include: The ability to protect critical 
information about physical and cybersecurity threats and 
vulnerabilities and the mitigation measures employed to address them, 
the ability to provide cost recovery for utilities that comply with a 
directive to perform mitigations, and determining which power grid 
facilities in the United States should be subject to the commission's 
jurisdiction. Turning to technical challenges, it will be important to 
work with other agencies that can quickly identify critical system 
vulnerabilities and threats in order to rapidly develop effective 
solutions, thereby equipping the affected members of the electric 
industry to implement timely and effective mitigation measures.
    Question 3. Who within FERC is charged with protection of the 
electric grid from electromagnetic pulse? Who within FERC is charged 
with protection of the electric grid from cyber attack?
    Answer. As previously mentioned, section 215 of the FPA creates a 
limited role for the commission with respect to overseeing the cyber- 
and physical security of the bulk power system. The commission can only 
approve or reject reliability standards as they are developed and 
proposed by the ERO. Although the commission can direct the ERO to 
develop or modify a reliability standard to address a specific matter, 
it cannot author or modify the standards.
    My office, the Office of Electric Reliability, has primary 
responsibility for monitoring the ERO's development of reliability 
standards and modifications to reliability standards. The Office of 
Enforcement has primary responsibility for overseeing the enforcement 
of existing standards, including the eight cybersecurity standards 
approved by the commission in Order No. 706. Currently, there are no 
standards to protect against electromagnetic pulse, and therefore there 
is no group or person at the commission charged with protecting the 
electric grid from electromagnetic pulse.
    Question 4. What are the current shortcomings in FERC authority to 
regulate physical and cybersecurity practices throughout the electric 
grid?
    The commission's primary authority in this area is section 215 of 
the FPA. Under the current statutory framework, however, the commission 
cannot author or modify reliability standards, and it has no authority 
to order emergency mitigation measures. The commission can direct NERC, 
as the ERO, to develop reliability standards or modifications to 
reliability standards that address specific matters, but this requires 
action through NERC's standard development process.
    The commission's current authority is not sufficient to protect the 
electric grid from cyber- or physical security vulnerabilities and 
threats that endanger national security. The NERC standard development 
process is an open and inclusive stakeholder ballot process that 
typically takes time and can produce results that inadequately respond 
to the commission's directives. Although NERC has an expedited process, 
that expedited process has never been used, and even the expedited 
process is not likely to allow a timely, adequate response to an 
imminent threat. If the commission has to rely on the NERC process, and 
that process results in a standard that does not adequately address the 
threat, the commission has no authority to modify the standard and 
would be limited to remanding it back for additional ``expedited'' 
processes, leaving the grid vulnerable in the meantime.
    Question 5. What limitations does the term and definition of ``bulk 
power system'' have on the security of the electric grid at large? 
Assuming we can protect the ``bulk power system'' from attack, will 
that be adequate to protect the U.S. electric system? Are all cities 
protected? Are facilities in Alaska and Hawaii protected? Are all 
generation, transmission, and distribution systems protected?
    Answer. Currently, the commission defines the term ``bulk power 
system,'' based on an industry-developed definition, as ``the 
electrical generation resources, transmission lines, interconnections 
with neighboring systems, and associated equipment, generally operated 
at voltages of 100 kV or higher.'' However, the definition is subject 
to the interpretation of the regions and therefore can vary 
considerably from place to place. This results in inconsistent 
designations of what constitutes the ``bulk power system'' and 
therefore what facilities are regulated by the reliability standards. 
For instance, this definition excludes some major metropolitan areas 
such as New York City.
    Additionally, section 215 of the FPA precludes the application of 
reliability standards to Alaska and Hawaii and to ``facilities used in 
the local distribution of energy.'' Consequently, the commission cannot 
use its limited authority to protect Alaska, Hawaii, and distribution 
systems from physical and cyber threats.
    Question 6. Can the electric grid be significantly disrupted 
through attacks on assets that are not regulated by FERC (i.e. assets 
that do not belong to ``bulk power system'')?
    Answer. Yes. For example, a city or region with a large number of 
Smart Meters without appropriate cybersecurity protections that allow 
for remote disconnect is vulnerable to an attack that could cause 
significant disruption. If an attacker commanded all the meters to 
disconnect, the entire load would be dropped rapidly, which could cause 
large amounts of generation to be dropped, thereby potentially creating 
cascading outages through the transmission system. In addition, attacks 
could cause more permanent damage to the meters, to the point that they 
would need to be manually replaced and reprogrammed before they could 
be used again. Such repair could take several weeks, delaying power 
restoration to affected areas.
    Question 7. Why should FERC be given authority to protect systems 
and assets from physical attack? What kinds of dangers are posed by 
physical threats like over-voltages and/or overcurrents?
    Answer. The commission should be granted authority to protect 
systems from physical attacks because it is the agency charged with 
overseeing the reliability of the grid, and physical attacks can cause 
equal or greater destruction than cyber attacks. Direct physical 
attacks on electric facilities, either through malicious physical 
assault or natural occurrences can have devastating consequences. A set 
of well-coordinated direct physical attacks on the grid could 
jeopardize national security and military readiness and threaten the 
Nation's social and economic stability. Any crisis created by a 
physical attack could be compounded by an inability to immediately 
replace damaged equipment. Lead time for purchase and delivery of the 
most critical equipment (such as large power transformers) can be up to 
2 years because of limited production and the fact that no domestic 
manufacturer currently provides these devices. The bulk power system is 
designed to withstand the loss of some critical equipment, but not at 
the magnitude that could fail because of a physical attack. The 
commission does not need, however, to displace local or other Federal 
authorities that have oversight of physical security.
    One example of a physical threat is an electromagnetic pulse (EMP) 
event. In 2001, Congress established a commission to assess the threat 
from EMP, with particular focus on the nature and magnitude of high-
altitude EMP threats to the United States, the vulnerability of U.S. 
military and civilian infrastructure to an attack, the capability to 
recover from an attack, and the feasibility and cost of protecting 
military and civilian infrastructure, including energy infrastructure, 
from an attack. In 2004, the commission issued a report describing the 
nature of EMP attacks, vulnerabilities to EMP attacks, and strategies 
to respond to an attack. The commission issued a second report in 2008.
    An EMP may also be a naturally occurring event caused by solar 
flares and storms disrupting the Earth's magnetic field. In 1859, a 
major solar storm occurred, causing auroral displays and significant 
shifts of the Earth's magnetic fields. As a result, telegraphs were 
rendered useless and several telegraph stations burned down. The 
impacts of that storm were muted because very little electronic 
technology existed at the time. Were the storm to happen today, 
according to an article in Scientific American, it could ``severely 
damage satellites, disable radio communications, and cause continent-
wide electrical black-outs that would require weeks or longer to 
recover from.''
    Commission staff has no data on how well the bulk power system is 
protected against an EMP event, and the existing reliability standards 
do not address EMP vulnerabilities. Protecting the electric generation, 
transmission, and distribution systems from severe damage due to an EMP 
would involve vulnerability assessments at every level of electric 
infrastructure. In addition, as the 2004 and 2008 commission reports 
point out, the reliable operation of the electric grid requires other 
infrastructure systems, such as communications, natural gas pipelines, 
and transportation, which would also be affected by an EMP attack or 
event.
    Question 8. Does FERC maintain any existing authorities that would 
allow it to require owners and operators of electric facilities to 
harden their equipment to mitigate the effects of an electromagnetic 
pulse?
    Answer. Section 215 explicitly addresses reliability and 
cybersecurity but is not explicit about its applicability to EMP. 
Moreover, the process under section 215 typically takes years to return 
a standard and there is no assurance that the standard will be 
responsive to the commission's directive or adequately address the 
threat. As has been described earlier, the commission does not have any 
direct authority to require owners and operators of electric facilities 
to harden their equipment to mitigate the effects of an EMP attack.
    Question 9. Does FERC maintain any existing authorities that would 
allow it to require owners and operators of electric facilities to 
harden their equipment to mitigate the effects of a cyber attack?
    Answer. Although the commission could direct NERC to develop 
additional reliability standards to address the threat of a cyber 
attack, the process typically takes years to return a standard and 
there is no assurance that the standard will be responsive to the 
commission's directive or adequately address the threat. As has been 
described earlier, the commission does not have any direct authority to 
require owners and operators of electric facilities to harden their 
equipment to mitigate the effects of a cyber attack.
    In January 2008, the commission exercised its authority to approve 
cybersecurity standards and approved eight cybersecurity standards in 
Order No. 706. However, upon approval, the commission found that the 
standards required significant modifications in order to effectively 
protect the bulk power system and therefore directed NERC, as the ERO, 
to make changes to the approved standards. Although the drafting of 
some of those modifications is currently under way through NERC's 
standards development process, it is expected to take years before all 
of the modifications are filed with the commission for review. 
Currently, the eight cybersecurity standards are in various stages of 
implementation and are not yet in full effect. For instance, the 
standards do not require that many utilities be ``auditably compliant'' 
until mid-2010.
    There is reason for concern about the thoroughness and consistency 
with which the electric industry is applying the cybersecurity 
standards. In April 2009, NERC's Chief Information Officer sent a 
letter to industry (attached) discussing the results of an industry-
wide survey of critical assets. According to NERC's findings, only 31 
percent of entities identified at least one critical asset, and only 23 
percent identified at least one Critical Cyber Asset. The letter also 
stated that only 29 percent of generation owners or operators reported 
at least one Critical Asset. The Chief Information Officer questioned 
these results and stated that NERC ``will also carry out more detailed 
analyses to determine whether it is possible that 73 [percent] of Table 
3 and 4 Registered Entities do not possess any assets that, `if 
destroyed, degraded, or otherwise rendered unavailable, would affect 
the reliability or operability of the Bulk Electric System.' '' The 
currently approved reliability standards allow the regulated entities 
to self-determine the equipment that is subject to the cybersecurity 
standards. If the equipment is not identified, no cyber protection is 
required under the standard.
    Question 10. What are the key aspects of any piece of legislation 
that seeks to secure the electric grid from cyber and physical attack? 
Which of the four bills currently being considered in Congress best 
addresses these requirements?
    Answer. Any legislation that seeks to secure the electric grid from 
cyber and physical attack should grant the commission authority, 
following a determination by the President or a national security 
agency of a vulnerability or threat that endangers national security, 
to order such emergency mitigation measures or actions necessary to 
protect the Nation's critical electric infrastructure. This authority 
should encompass both physical and cybersecurity, as vulnerabilities 
and threats to the grid exist in both areas.
    Additionally, the commission must have the ability to protect 
security-sensitive information from public disclosure. The potential 
for publication of sensitive information regarding cyber and physical 
threats to the security of the Nation's critical electric 
infrastructure weakens the commission's ability to respond to cyber 
threats and endangers compliance by private entities concerned about 
the sensitivity of information they provide to the commission.
    Finally, Congress should consider applying any new legislation to 
electric infrastructure that is critical to the safety and security of 
the United States, regardless of whether the electric facilities are 
excluded from section 215 or included by that section. Currently under 
section 215, the commission has no jurisdiction over any electric 
infrastructure in Alaska and Hawaii, and lacks jurisdiction over some 
transmission, generation, and all distribution facilities in the rest 
of the United States.
    Currently, H.R. 2195 and S. 946 address many, but not all, of these 
issues adequately.
    Question 11. H.R. 2195 would provide FERC with authority to rewrite 
existing NERC standards if deemed inadequate. How do you envision 
exercising this authority?
    Answer. H.R. 2195 proposes, inter alia, to direct the commission to 
establish, in consultation with the Secretary of Homeland Security, 
interim measures that would supplement, replace, or modify 
cybersecurity standards that the commission, in consultation with the 
Secretary of Homeland Security and other national security agencies, 
determines are inadequate to address known cyber vulnerabilities or 
threats.
    I envision that the commission would use this authority only when 
the President or an outside intelligence agency has found that the 
security of the Nation is endangered by either a cyber or physical 
threat or vulnerability to the Nation's power supply. In these limited 
cases, the commission would be able to quickly develop cybersecurity 
interim measure that adequately address known vulnerabilities and 
threats, enact modifications that the commission previously directed 
the ERO to make, and address security issues that the ERO has not yet 
reached. The ERO would have the opportunity to develop and propose 
standards through its standards development process to replace the 
interim measures.
    Question 12. Does the current FERC/NERC standards-setting process 
(i.e. NERC writes, FERC approves or remands) make sense in a national 
security context? Does FERC believe that industry-written standards are 
appropriate to protect assets as critical to national security as the 
electric system?
    Answer. No. The FPA section 215 process is not adequate to protect 
against cyber- or physical security vulnerabilities and threats that 
endanger national security. The current standards process is too slow, 
open, and unpredictable to effectively address threats and 
vulnerabilities that endanger national security. In addition, the 
jurisdiction conveyed by section 215 to the commission omits major 
sections of the Nation's critical electric infrastructure including all 
facilities in Alaska and Hawaii, all distribution facilities, and some 
transmission and generation including facilities that serve 
metropolitan areas such as New York City.
    Question 13. How much does compliance with current NERC mandatory 
standards cost the average utility? How much do you anticipate the 
costs would rise if FERC were given authority to write ``stronger'' 
standards? How does industry recoup the costs of mandatory standards 
today? Would they be able to recoup costs in the future, and if so, 
how?
    Answer. I do not have specific information regarding the cost to 
individual utilities of compliance with NERC standards, and in the 
absence of this information, I am unable to predict the additional cost 
of compliance, if any, with ``stronger'' standards.
    Typically, the costs of compliance with mandatory standards by 
entities that qualify as ``public utilities'' under the FPA are 
recovered either through filings submitted to the commission pursuant 
to section 205 of the FPA or filings made to State utility commissions. 
In a Statement of Policy issued September 14, 2001, the commission 
provided assurances to regulated entities that the commission ``will 
approve applications to recover prudently incurred costs necessary to 
further safeguard the reliability and security of our energy supply 
infrastructure in response to the heightened state of alert.'' The 
commission further stated that ``[c]ompanies may propose a separate 
rate recovery mechanism, such as a surcharge to currently existing 
rates or some other cost recovery method.'' The commission reiterated 
this policy in an April 19, 2004 Statement of Policy on matters related 
to bulk power system reliability.
    If Congress believes it appropriate, it could include in 
legislation a directive to the commission to establish a cost recovery 
mechanism for the costs associated with compliance with any commission 
order issued pursuant to emergency authority.
    Question 14. Should a regulator like FERC provide resources 
(funding) to utilities to implement physical and cyber protections?
    Answer. Any Federal Government funding of such efforts would be 
more appropriately assigned to the Department of Homeland Security or 
the Department of Energy. However, a simpler approach could be to allow 
the commission to grant cost recovery to the affected entities for any 
mitigation measures that it orders.
    Question 15. Are procedures in place today that would allow FERC to 
issue immediate orders upon receipt of information that a physical or 
cyber attack is imminent? What are those procedures, and are they 
regularly exercised? (For instance, what could be done to protect the 
grid from an imminent geomagnetic event given 15 minutes of warning?) 
Could the effects of such an incident actually be mitigated in time?
    Answer. No, there are currently no procedures or authorities in 
place that would allow the commission to issue orders that address 
imminent cyber or physical attacks. The commission does not have 
authority to immediately and directly order actions to thwart imminent 
physical or cyber attacks. As I have mentioned, under the framework 
established by section 215 of the FPA, the commission approves and 
enforces mandatory standards that are developed and proposed by a self-
regulatory organization and submitted to the commission. This process 
is too slow, open, and unpredictable to address imminent threats to the 
power grid that imperil national security.
    If such authority did exist, however, it is possible that the 
commission could issue an effective order with only 15 minutes warning 
if an emergency plan that has already been prepared and practiced is in 
place. For example, according to the EMP Commission, an effective 
measure to protect large transformers from an EMP event is a resistor 
connected in the neutral of the transformer. If such a resistor had 
been installed ahead of time, it is conceivable that it could be 
switched on within 15 minutes if the utility had enabled remote 
operation and provided adequate training and practice drills. For a 
cyber threat, an effective order might be to direct the immediate 
disconnect of the remote capabilities of targeted facilities if an 
adequate plan had been developed along with training and practice 
drills.
    Question 16. What involvement does FERC have in Smart Grid 
development and deployment?
    Answer. On July 16, 2009, the commission issued a final Smart Grid 
Policy Statement. This policy statement sets priorities to guide the 
electric industry in the development of Smart Grid standards for 
achieving interoperability and functionality of Smart Grid systems and 
devices. It also sets out commission policy for the recovery of costs 
by utilities that act early to adopt Smart Grid technologies. The new 
policy adopts as a commission priority the early development by 
industry of Smart Grid standards that: (1) Ensure the cybersecurity of 
the grid; (2) provide two-way communications among regional market 
operators, utilities, service providers and consumers; (3) ensure that 
power system operators have equipment that allows them to operate 
reliably by monitoring their own systems as well as neighboring systems 
that affect them; and (4) coordinate the integration into the power 
system of emerging technologies such as demand response resources, 
electricity storage facilities, and electric transportation systems. 
Additionally, commission staff routinely participates in various 
National Institute of Standards and Technology efforts concerning Smart 
Grid standards, as well as coordinates with the Department of Energy on 
its Smart Grid efforts.
    Question 17. Does FERC believe that the Energy ISAC is effective in 
producing timely and relevant analysis and warnings for the industry? 
If not, what measures can be undertaken to improve this capability?
    Answer. The ES-ISAC is effective when transmitting system status 
information and information regarding operational issues that can 
affect other areas or utilities. While this provides some threat 
information on technical issues (such as viruses and computer worms) 
and certain physical threats (such as surveillance issues and copper 
theft threats), it is very limited. However, this system was not 
designed and is not operated in order to address vulnerabilities and 
threats that endanger national security. As an example, although ES-
ISAC acts as a forum to share information regarding security-related 
events that are occurring across the bulk-power system, this forum 
cannot preemptively identify the vulnerabilities and threats and does 
not develop effective mitigations to address the issues it reports.
    Question 18. Do you believe that the Spare Transformer Program has 
been successful, and that there are enough spare transformers that 
could be put in place to ensure operation of the gird in the event of a 
large-scale cyber or EMP event?
    Answer. As the commission stated when it issued a declaratory order 
about the program, the Spare Transformer Program initiated by the 
Edison Electric Institute is a good first step. The program is limited, 
however, because it does not cover all voltage classes or step-up 
transformers from generating stations, and many utilities do not 
participate. For these and other reasons, the program does not have 
adequate spares to ensure continued operation of the power grid after a 
targeted cyber or large-scale EMP event.
Questions From Chairwoman Yvette D. Clarke of New York for Ms. Patricia 
A. Hoffman, Acting Assistant Secretary, Office of Electricity Delivery 
              and Energy Reliability, Department of Energy
    Question 1. What is the current role of the Federal Government in 
defending against nation-state or terrorist cyber or physical attacks 
against electric facilities? Should the security of the electric grid 
rely on voluntary private sector measures? What should the role of the 
Federal Government be?
    Answer. Response was not received at the time of publication.
    Question 2. Does an early detection and warning capability for 
cyber and physical threats exist for the electric industry today? Is 
this an appropriate role for the Federal Government? What are the 
technical and political challenges in creating such a system?
    Answer. Response was not received at the time of publication.
    Question 3. Who within DOE is charged with protection of the 
electric grid from electromagnetic pulse? Who within DOE is charged 
with protection of the electric grid from cyber attack?
    Answer. Response was not received at the time of publication.
    Question 4. What limitations does the term and definition of ``bulk 
power system'' have on the security of the electric grid at large? 
Assuming we can protect the ``bulk power system'' from attack, will 
that be adequate to protect the U.S. electric system? Are all cities 
protected? Are facilities in Alaska and Hawaii protected? Are all 
generation, transmission, and distribution systems protected?
    Answer. Response was not received at the time of publication.
    Question 5. Can the electric grid be significantly disrupted 
through attacks on assets that are not regulated by FERC (i.e. assets 
that do not belong to ``bulk power system'')?
    Answer. Response was not received at the time of publication.
    Question 6. Does DOE maintain any existing authorities that would 
allow it to require owners and operators of electric facilities to 
harden their equipment to mitigate the effects of an electromagnetic 
pulse?
    Answer. Response was not received at the time of publication.
    Question 7. Does DOE maintain any existing authorities that would 
allow it to require owners and operators of electric facilities to 
harden their equipment to mitigate the effects of a cyber attack?
    Answer. Response was not received at the time of publication.
    Question 8. Does the current FERC/NERC standards-setting process 
(i.e. NERC writes, FERC approves or remands) make sense in a national 
security context? Does DOE believe that industry-written standards are 
appropriate to protect assets as critical to national security as the 
electric system?
    Answer. Response was not received at the time of publication.
    Question 9. The Office of Electricity Delivery and Energy 
Reliability received $4.5 billion in the American Recovery and 
Reinvestment Act, of which $3.5 billion is for grants for Smart Grid 
development. How do you intend on disbursing this grant money? In 
reviewing applications for monies, how will DOE determine if 
appropriate physical and cyber protections are in place? Will you award 
grants to applicants for the purpose of protecting their systems 
against physical and cyber attacks?
    Answer. Response was not received at the time of publication.
    Question 10. Does DOE have a program that would allow for private 
or publicly-owned utilities to receive Federal grant monies for 
hardening their equipment against an intentional or unintentional 
electromagnetic pulse? If not, why not? Should such a program be 
created, and, if so, what would appropriate parameters look like?
    Answer. Response was not received at the time of publication.
    Question 11. Does DOE have a program that would allow for private 
or publicly-owned utilities to receive Federal grant monies for 
hardening their equipment against an intentional cyber attack? If not, 
why not? Should such a program be created, and, if so, what would 
appropriate parameters look like?
    Answer. Response was not received at the time of publication.
    Question 12. When will DOE update its control systems roadmap?
    Answer. Response was not received at the time of publication.
    Question 13. Has DOE done any analysis on the security of the 
electric grid from cyber or physical attack? If so, how secure and 
resilient does DOE believe the grid is today?
    Answer. Response was not received at the time of publication.
    Question 14. Does DOE currently have any authority to perform cyber 
or physical vulnerability assessments on private or publicly-owned 
electric grid assets?
    Answer. Response was not received at the time of publication.
    Question 15. Are procedures in place today that would allow DOE to 
issue immediate orders upon receipt of information that a physical or 
cyber attack is imminent? What are those procedures, and are they 
regularly exercised? (For instance, what could be done to protect the 
grid from an imminent geomagnetic event given 15 minutes of warning?) 
Could the effects of such an incident actually be mitigated in time?
    Answer. Response was not received at the time of publication.
    Question 16. Does DOE believe that the Energy ISAC is effective in 
producing timely and relevant analysis and warnings for the industry? 
If not, what measures can be undertaken to improve this capability?
    Answer. Response was not received at the time of publication.
  Questions From Chairwoman Yvette D. Clarke of New York for Sean P. 
     McGurk, Director, Control Systems Security Program, National 
  Cybersecurity Division, Office of Cybersecurity and Communications, 
 National Protection and Programs Directorate, Department of Homeland 
                                Security
    Question 1. What is the role of DHS in securing the electric grid, 
and how do you carry out that mission? What programs and policies 
exist? How are you resourced?
    Answer. Response was not received at the time of publication.
    Question 2. What are the largest threats to the electric grid, and 
what is DHS doing to mitigate those threats?
    Answer. Response was not received at the time of publication.
    Question 3. What authorities does DHS have to address cyber and 
physical threats to the electric grid?
    Answer. Response was not received at the time of publication.
    Question 4. Who within DHS is charged with protection of the 
electric grid from electromagnetic pulse? Who within DHS is charged 
with protection of the electric grid from cyber attack?
    Answer. Response was not received at the time of publication.
    Question 5. Out of the critical infrastructure and key resource 
sectors, what is the criticality of the electric grid?
    Answer. Response was not received at the time of publication.
    Question 6. Has DHS done any analysis on the security of the 
electric grid from cyber or physical attack? If so, how secure and 
resilient does DHS believe the grid is today?
    Answer. Response was not received at the time of publication.
    Question 7. Does DHS currently have any authority to perform cyber 
or physical vulnerability assessments on private or publicly-owned 
electric grid assets?
    Answer. Response was not received at the time of publication.
    Question 8. What is the current role of the Federal Government in 
defending against nation-state or terrorist cyber or physical attacks 
against electric facilities? Should the security of the electric grid 
rely on voluntary private sector measures? What should the role of the 
Federal Government be?
    Answer. Response was not received at the time of publication.
    Question 9. Does an early detection and warning capability for 
cyber and physical threats exist for the electric industry today? Is 
this an appropriate role for the Federal Government? What are the 
technical and political challenges in creating such a system?
    Answer. Response was not received at the time of publication.
    Question 10. Does DHS believe there are shortcomings in FERC 
authority to regulate physical and cybersecurity practices throughout 
the electric grid?
    Answer. Response was not received at the time of publication.
    Question 11. What recommendations has DHS ever made to DOE or FERC 
regarding electric grid protections, and have those recommendations 
been followed?
    Answer. Response was not received at the time of publication.
    Question 12. Does DHS have a program that would allow for private 
or publicly-owned utilities to receive Federal grant monies for 
hardening their equipment against an intentional or unintentional 
electromagnetic pulse? If not, why not? Should such a program be 
created, and, if so, what would appropriate parameters look like?
    Answer. Response was not received at the time of publication.
    Question 13. Does DHS have a program that would allow for private 
or publicly-owned utilities to receive Federal grant monies for 
hardening their equipment against an intentional cyber attack? If not, 
why not? Should such a program be created, and, if so, what would 
appropriate parameters look like?
    Answer. Response was not received at the time of publication.
    Question 14. Does the current FERC/NERC standards-setting process 
(i.e. NERC writes, FERC approves or remands) make sense in a national 
security context? Does DHS believe that industry-written security 
standards are appropriate to protect assets as critical to national 
security as the electric system?
    Answer. Response was not received at the time of publication.
    Question 15. Does DHS support the grant of authority under HR 2195, 
which would provide DHS with authority to assess cyber vulnerabilities 
or threats to critical infrastructure, including critical electric 
infrastructure and advanced metering infrastructure, on an on-going 
basis and produce reports, including recommendations, on a periodic 
basis?
    Answer. Response was not received at the time of publication.
    Question 16. Are procedures in place today that would allow DHS to 
issue immediate orders or advisories upon receipt of information that a 
physical or cyber attack is imminent? What are those procedures, and 
are they regularly exercised? (For instance, what could be done to 
protect the grid from an imminent geomagnetic event given 15 minutes of 
warning?) Could the effects of such an incident actually be mitigated 
in time?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
